<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011 

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                  NORMAN D. DICKS, Washington, Chairman

 PETER J. VISCLOSKY, Indiana              C. W. BILL YOUNG, Florida
 JAMES P. MORAN, Virginia                 RODNEY P. FRELINGHUYSEN, 
 MARCY KAPTUR, Ohio                         New Jersey
 ALLEN BOYD, Florida                      TODD TIAHRT, Kansas
 STEVEN R. ROTHMAN, New Jersey            JACK KINGSTON, Georgia
 SANFORD D. BISHOP, Jr., Georgia          KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York             HAROLD ROGERS, Kentucky
 CAROLYN C. KILPATRICK, Michigan
 TIM RYAN, Ohio    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Adam 
                                Harris,
      Ann Reese, Brooke Boyer, Tim Prince, B G Wright, Chris White,
           Celes Hughes, and Adrienne Ramsay, Staff Assistants
       Sherry L. Young, and Tracey LaTurner, Administrative Aides
                                ________
                                 PART 2
                                                                   Page
 Navy and Marine Corps Posture....................................    1
 Contingency Contracting..........................................  113
 Air Mobility Programs............................................  215
 Army Posture.....................................................  293
                                ________

         Printed for the use of the Committee on Appropriations

















         PART 2--DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011
                                                                      
















             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                  NORMAN D. DICKS, Washington, Chairman

 PETER J. VISCLOSKY, Indiana             C. W. BILL YOUNG, Florida
 JAMES P. MORAN, Virginia                RODNEY P. FRELINGHUYSEN, 
 MARCY KAPTUR, Ohio                        New Jersey
 ALLEN BOYD, Florida                     TODD TIAHRT, Kansas
 STEVEN R. ROTHMAN, New Jersey           JACK KINGSTON, Georgia
 SANFORD D. BISHOP, Jr., Georgia         KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York            HAROLD ROGERS, Kentucky
 CAROLYN C. KILPATRICK, Michigan
 TIM RYAN, Ohio     

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Adam 
                                Harris,
      Ann Reese, Brooke Boyer, Tim Prince, B G Wright, Chris White,
           Celes Hughes, and Adrienne Ramsay, Staff Assistants
       Sherry L. Young, and Tracey LaTurner, Administrative Aides
                                ________
                                 PART 2
                                                                   Page
 Navy and Marine Corps Posture....................................    1
 Contingency Contracting..........................................  113
 Air Mobility Programs............................................  215
 Army Posture.....................................................  293
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 65-008                     WASHINGTON : 2011



















                         COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington               JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia           C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York                 RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut                Jersey
 JAMES P. MORAN, Virginia                  TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts              ZACH WAMP, Tennessee
 ED PASTOR, Arizona                        TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina            ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                       JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island          KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York              MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California         JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                      MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois           ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan           DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                       JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania                RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey             KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia           JO BONNER, Alabama
 MARION BERRY, Arkansas                    STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California                   TOM COLE, Oklahoma
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011

                              ----------                              

                                            Friday, March 11, 2010.

                     NAVY AND MARINE CORPS POSTURE

                               WITNESSES

SECRETARY RAY MABUS, U.S. NAVY
ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL OPERATIONS, U.S. NAVY
GENERAL JAMES T. CONWAY, COMMANDANT, U.S. MARINE CORPS

                     Opening Statement of Mr. Dicks

    Mr. Dicks. The committee will come to order. This 
afternoon, the committee will hold an open hearing on the 
posture of the Department of the Navy. We will focus on Navy 
and Marine Corps personnel, training, equipment readiness, and 
we will also touch on equipment acquisition issues to gain 
insights into the Department's priorities and decision making. 
It will be extremely valuable to the committee to hear from 
Navy leadership about the fiscal year 2011 budget, as well as 
their plans for the future years. Our discussions also may 
address Navy and Marine Corps supplemental budget requirements 
for the remainder of fiscal year 2010.
    We are pleased to welcome the Secretary of the Navy, 
Raymond Mabus, former governor, Chief of Naval Operations; 
Admiral Gary Roughead and the Commandant of the Marine Corps, 
General James Conway. These distinguished gentlemen comprise 
the Department of The Navy's senior leadership team and they 
are well equipped to speak for the Department of the Navy 
regarding the Department's current posture and the budget 
request for fiscal year 2011.
    Secretary Mabus, Admiral Roughead, General Conway, thank 
you all for being here today. Our sailors and Marines are 
performing magnificently in Iraq, Afghanistan, across the 
world's oceans and in many hot spots around the globe, and also 
in places where we have had some major earthquakes. In typical 
Navy and Marine Corps fashion, despite the difficult conditions 
in which they operate, we hear not a single complaint from 
these exceptional young men and women. We salute them. The 
members of this committee are dedicated to providing the 
resources and equipment that these sailors and Marines require 
to continue to defend our Nation on the high seas and on 
foreign shores. The committee is eager to hear what you 
consider to be the key issues facing the Department of the Navy 
and your strategy for addressing these issues.
    For instance, the Department is facing a large strike 
fighter shortfall in the very near term, which will ultimately 
mean there will not be enough tactical aircraft to fill the 
decks of our carriers. That is worrisome to the committee since 
the carriers are the Nation's most visible form of power 
projection. Even more concerning is that this is not a new 
issue. It has been creeping up on the Navy for several years. 
The Navy intends to manage this issue by doing such things as 
reducing the number of aircraft assigned to non-deployed 
squadrons and changing the order of transition of legacy 
aircraft squadrons into new aircraft.
    However, at the end of the day, none of the things that the 
Department is doing result in the procurement of additional 
strike fighter aircraft. In fact, the recent submission pushed 
out the final year of procurement of the Super Hornet F-18 
aircraft to procure additional electronic attack aircraft, 
which only exacerbates the problem. The committee is also 
concerned with the nation's shipbuilding program. To reach and 
sustain a force level of 300 ships, approximately 10 ships per 
year are required to be constructed, assuming a 30-year service 
life of those ships. However, the Navy has not constructed 10 
or more ships in a single year since 1992. Over the last 
decade, you have averaged approximately seven new construction 
ships each year. This year's submission shows the Navy plans to 
contruct 50 ships over the next 5 years which is encouraging; 
however the committee is somewhat skeptical as we have seen 
these promises of higher shipbuilding rates in the out years 
for the past several years, but they never seem to result in 
more ships.
    Gentlemen, we look forward to your testimony and to an 
informative question-and-answer session. Now, before we hear 
your testimony, I would like to ask Congressman Frelinghuysen 
if he has any comments and/or Mr. Lewis if he has any comments.

                      Remarks of Mr. Frelinghuysen

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I would also 
like to welcome our distinguished guests. Gentlemen, the Navy 
and the Marine Corps are the best equipped and best trained 
forces in the world, yet that does not mean that you are not 
facing significant challenges, as the fiscal year 2011 budget 
before us today highlights. The Navy has long been striving as 
the chairman said for a fleet size of 313 ships. Your budget 
funds only nine new ships. Although better than previous years 
it is still short of the minimum 10 to 11 ships needed to 
ultimately reach a 313-ship fleet. There is also a long-term 
risk being taken in our fast attack submarine fleet and the 
Marine Corps's amphibious assault fleet that may be too much to 
bear.
    And still other challenges remain. While both services 
await the joint strike fighter which has only been further 
delayed, the budget does not address the significant fighter 
shortfall looming in the near future. While these are all 
significant challenges, I trust the Navy and Marine Corps will 
meet them head on and I look forward, as I am sure Mr. Lewis 
and all members do, to your testimony. Thank you very much, Mr. 
Chairman.
    Mr. Dicks. Mr. Secretary.

                  Summary Statement of Secretary Mabus

    Mr. Mabus. Thank you, Mr. Chairman. To you, Mr. Chairman, 
to the distinguished members of this committee, it is a 
pleasure to be here today to testify with the House 
Appropriation Subcommittee on Defense. I would like to 
congratulate our new chairman today, and at the same time, 
remember the previous chairman who had such an impact on this 
committee and on the Navy and the Marines.
    Mr. Dicks. We thank you for that.
    Mr. Mabus. The CNO, the Commandant and I are very grateful 
for the commitment of the members of this committee, that they 
have shown to our men and women in uniform in the Navy and the 
Marine Corps. We are exceptionally proud to be here 
representing Sailors, Marines, civilians and their families who 
work in the Department. The Navy and Marine Corps remain the 
most formidable, expeditionary fighting force in the world, 
capable of global operations across the entire spectrum of 
warfare. Today, more than 40 percent of our forces are deployed 
and over half of our fleet is at sea.
    In Helmand Province, Afghanistan, more than 16,000 Marines 
are engaged in major combat, counterinsurgency and engagement 
operations, including finishing up a successful effort to clear 
the Taliban's stronghold of Marja. They are supported there by 
naval aircraft flying close air support from Eisenhower and our 
forward deployed expeditionary aviation assets. A total of 
12,000 of our Sailors are on the ground in Iraq, Afghanistan 
and across the broader Middle East and another 9,000 Sailors 
and Marines are embarked on our ships at sea in Central 
Command.
    Off the coast of Africa, our ships are protecting 
international commerce over Somalia. Our ships are operating as 
partnership stations with our regional allies around Africa. 
Off the coast of South America, other ships are stemming the 
flow of illegal narcotics into the United States. Our ballistic 
missile defense forces are ready to defend against any threat, 
to international peace in Europe, the Middle East and the 
Pacific Rim. The Pacific Rim, where our forward deployed forces 
continue their role as a strategic buffer and a deterrent 
against rogue regimes and potential competitors alike. And in 
Haiti, today six ships and 1,200 Marines from the 22nd Marine 
Expeditionary Unit continue to provide humanitarian aid, 
medical assistance and disaster relief. The hospital ship 
COMFORT departed there after performing almost a thousand 
surgeries earlier this week. The Navy and Marine Corps are 
flexible, responsive and they are everywhere that our Nation's 
interests are at stake. Our global presence reduces 
instability, deters aggression and allows us to rapidly respond 
to any crisis that borders the sea.
    I believe the President's FY 2011 budget for the Department 
of the Navy is a carefully considered request that gives us the 
resources we need to conduct effective operations and meet all 
the missions we have been assigned. Our shipbuilding and 
aviation requests concur with the findings of the Quadrennial 
Defense Review (QDR) and its objectives of prevailing in 
today's war, preventing conflict, preparing for future wars and 
preserving the force.
    With this budget, the Navy and Marine Corps will continue 
to maintain the maritime superiority of our forces, sustain a 
strong American shipbuilding industrial base and ensure our 
capacity for rapid global response. Across the future year's 
defense plan, we have requested the funds to build an average 
of 10 ships a year, including one carrier, one big deck amphib, 
10 Virginia class submarines and 17 littoral combat ships. We 
will leverage the technologies captured from the cancelled 
CG(X) program and the truncated DDG 1000 program into what will 
become our flight 3 Burke class DDGs. These technologies 
include the SPY-3 and air and missile defense radar.
    Through the submitted shipbuilding plan we will increase 
the size of our fleet to approximately 320 ships in the early 
2020s. In our shipbuilding program, I think we have made the 
most cost effective decisions to achieve the most capable 
force, one that achieves equal flexibility to confront missions 
across a spectrum of conflict, from the technically complex 
light ballistic missile defense and integrated air defense to 
low intensity humanitarian response and regional engagement.
    In aircraft procurement, we have requested just over 1,000 
aircraft across the FYDP, including both fixed and rotary wing. 
Over the next year, the Navy and Marine Corps will continue to 
move ahead with changes to our acquisitions process. In 
compliance with the weapons systems acquisition reform, we are 
aggressively developing our acquisition strategies to ensure 
that on time and on budget become the standard for the Navy and 
Marine Corps.
    I am grateful for the support of this committee for the 
decision to recompete the LCS program when it failed to meet 
program standards. I assure you that we will not hesitate to 
recompete or cancel other programs when other substandard 
performance demands change. Change is also required to address 
the way in which the Navy and Marine Corps use and produce 
energy. Energy reform is an issue of national security and it 
is essential to maintaining our strategic advantage, 
warfighting effectiveness and tactical edge. By 2020, I have 
committed the Navy to generate half of all the energy we use 
from alternative sources. This is an ambitious goal, but a 
doable one.
    Forty years ago, I stood watch on the deck of the USS 
LITTLE ROCK as a very young junior officer. Today I have the 
solemn privilege of standing watch on behalf of our Navy and 
Marine Corps in a time of war. I am honored by the trust the 
President and the Congress have placed in me and fully 
recognize the solemn obligation I have to those that defend us. 
I, along with the CNO and the Commandant look forward to 
hearing your thoughts and answering your questions concerning 
our budget request, our programs and our policies. I also look 
forward to working closely with Congress as we move forward to 
sustain the Navy and Marine Corps as the most formidable 
expeditionary fighting force in the world. Thank you.
    [The statement of Secretary Mabus follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    Mr. Dicks. Admiral Roughead.

                 Summary Statement of Admiral Roughead

    Admiral Roughead. Chairman Dicks, Congressman Frelinghuysen 
and distinguished Members of the Committee, it is an honor to 
appear before you again today, and I echo the Secretary's 
congratulations to you, Mr. Chairman, and as we recall the 
service and leadership of Chairman Murtha over his many years 
in service to our country. It is, indeed, my honor to be here 
representing more than 600,000 Sailors and Navy civilians and 
their families. 65,000 of them are deployed, 12,000 on land and 
the Central Command area of operations and 55 percent of our 
Fleet is underway carrying out our maritime strategy, a 
prescient precursor to the 2010 Quadrennial Defense Review.
    They are projecting power into Afghanistan, building 
partnerships in Africa, delivering relief in Haiti and 
providing ballistic missile defense in the Arabian Gulf, 
western Pacific and eastern Mediterranean with pride and 
determination. They are even deployed on the first Littoral 
Combat Ship 2 years ahead of schedule. And in the first weeks 
of that ship's deployment, they have already seized nearly half 
a ton of cocaine. It is our Sailors and Navy civilians who make 
all things possible.
    And thanks to your support, we made important progress in 
building tomorrow's Navy, remaining ready to fight today and 
supporting our Sailors, Navy civilians and families last year. 
This year's budget submission will take us even further. As the 
high demand for our Navy continues apace, we have stabilized 
end strength and the tone of the force remains positive. We 
will continue to aggressively improve wellness programs and 
medical and social services for our Wounded Warriors, indeed 
for all who serve.
    Our Fleet, unlike other services, is a continuous deployed 
force that we reset in stride. Conducting routine, indeed 
regular maintenance and training is how our ships and aircraft 
reach their expected service lives. We increased our base 
budget and overseas contingency operation funding requests for 
operations and maintenance (O&M) in FY 2011 over last year. Our 
O&M requests are focused tightly on meeting increased OPTEMPO 
requirements, sustaining ships and aircraft to reach expected 
service lives, sustaining flying hour readiness requirements 
and funding price increases, notably in fuel.
    I strongly request your support for full O&M funding 
request. While we reset, we must also procure ships and 
aircraft to reach our requirement of more than 313 ships. Last 
year, we commissioned nine ships and over the next decade our 
plan procures an average of 10 ships per year, significant 
growth for the near term. For aviation, I remain committed to 
bringing new capabilities on line, the Joint Strike Fighter and 
unmanned aircraft. And to maintaining the readiness of our 
current Naval Air Force, all of which give our Nation 
flexibility and response unencumbered by overseas basing.
    Affordability for all of our plans will remain fundamental 
to our decisions. The effectiveness of our unmanned systems, 
ships and aircraft is a feature of the systems which connect 
them. Last year, I brought information capabilities and 
resources under a single Information Dominance Directorate 
within the Navy staff and commissioned Fleet Cyber Command 10th 
Fleet. I see the benefits of this already. I am proud of our 
Navy's accomplishments last year, and I am confident we can 
achieve more with this year's budget submission.
    Our risk continues to trend towards significant and 
achieving the right balance within and across my priorities 
remains critical to mitigating it. But I remain optimistic 
because of our outstanding Sailors and Navy civilians and the 
spirit of our Nation. We have seen more challenging times and 
emerged prosperous, secure and free. I ask you to support our 
FY 2011 budget request and thank you for all you do to make the 
United States Navy a global force for good today and into the 
future.
    [The statement of Gary Roughead follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. General Conway. And before you start, I just 
want to thank you for your remarks at Mr. Murtha's funeral. 
They were well received.

                  Summary Statement of General Conway

    General Conway. Thank you, sir. And with your indulgence, I 
would also observe that it is a bit unusual to be in this room 
and not see John Murtha somewhere near the center of that desk. 
But as I am sure he told his Marines many times, we the living 
have to collect our casualties, honor the fallen, reorganize 
and move out to accomplish the mission. And it is in that 
sense, I think, we convene the hearing today.
    Mr. Dicks. Thank you.
    General Conway. Sir, and distinguished members of the 
committee, thank you for the opportunity to report to you on 
the posture of your Marine Corps. My pledge, as it has been 
over the years, is to provide you today a candid and honest 
assessment. Having recently returned from a trip to theater, I 
am pleased to report to you on the magnificent performance of 
Marines and Sailors in combat. If you count the 4-year 
enlistment as a generation of Marines, we are now experiencing 
our third generation of great young patriots since our Nation 
was provoked on 9/11. The first generation broke trail, leading 
strikes into Afghanistan and Iraq.
    The second generation quelled the once volatile province of 
Anbar. Today there are less Marines in Iraq, but our third 
generation has more than 16,000 serving in Afghanistan. Your 
Marines are fighting a skilled and determined enemy, but with 
the Afghan security forces, they are once again proving that 
they are the strongest tribe in the Taliban stronghold of 
Helmand. Let me assure you from what the Sergeant Major and I 
witnessed firsthand, the highest morale in the Corps resides in 
those units that are posted in Afghanistan.
    My written statement to the committee provides a snapshot 
of the Corps and describes our near-term focus, long-term 
priorities and our vision of the future. That vision matches 
closely the results of the QDR. The Secretary of Defense seeks 
to create a U.S. military more closely focused on hybrid 
threats, yet capable of responding to a major level 
contingency. That combination essentially describes the Marine 
Corps that we have built today, a Corps that we call a two 
fisted fighter, able to perform equally well in a 
counterinsurgency or in a high intensity combined arms fight.
    Our resource expenditures, moreover, reflect our dual or 
swing capacity, that is to say that 100 percent of Marine Corps 
equipment can be used in a hybrid conflict or in a major fight. 
Equipment procurement is indeed our primary concern as we look 
at the FY 2011 budget and beyond. Our requirements for 
equipment density in Afghanistan and our resolve to reestablish 
our maritime preposition squadrons have driven equipment stocks 
to an all-time low in our operating forces at home station. The 
ability to properly train for deployment and certainly the 
ability to respond to an unexpected contingency is at 
significant risk based on this increasing shortfall.
    Congress has promised us resources for reset and 
reconstitution, but increasingly we cannot wait for the guns to 
fall silent in Afghanistan for such an effort to begin. We ask 
for your help in this critical area. Our military construction 
accounts in the FY 2011 budget and the FYDP are sufficient to 
help maintain a promise we have made to our Marines, that they 
will have quality living spaces while home between deployments.
    One need only visit some of our major bases and stations to 
realize that we waited too long to begin the effort. Similarly, 
we believe that even in wartime we must continue a heavy 
emphasis on education of our officers and staff Non-
Commissioned Officers (NCOs). A strong reservoir of strategic 
and operational thinkers is a must on sophisticated joint and 
combined battlefields. Therefore a quality Marine Corps 
University with facilities to match our already world class 
student body, faculty and curriculum is a major priority. We 
trust that you will receive--that we will receive your full 
support for our MILCON investments that will repay huge 
dividends in the years to come. Ladies and gentlemen of the 
committee, I must admit my own surprise that our Corps of 
Marines and their families have remained so resilient over 
these 9 years of conflict.
    They have been incredibly determined, loyal and courageous 
in an effort to see these two wars to a successful close. Much 
of the credit goes to you in the Congress for providing them 
with the finest in terms of equipment, warrior care, quality of 
life for families and compensation. The number one question in 
the minds of our troops is always is the country behind us? The 
Members of Congress have answered that question in spades, both 
by your apportionment of the nation's precious resources and 
also through your personal efforts to visit the troops in 
theater and see our wounded at Bethesda and Walter Reed. As a 
result of the above and the natural tendency for Marines to 
stick around for a fight, our recruitment and retention are at 
all-time highs.
    I predict that for the second year in a row, we will close 
out re-enlistment opportunities for the first term and the 
career force halfway through the fiscal year. Clearly, such a 
phenomenon would not be possible if Marines and their families 
were not happy in the service of their country. One day this 
long war with terrorists and Islamic extremists will be over. 
Your Marine Corps will cease being a second land army and will 
gladly rejoin our Navy brothers aboard amphibious ships in 
order to project America's global presence, demonstrate 
American goodwill and if need be, protect America's vital 
interests.
    Until that day comes however, for your Corps as we say ``to 
do windows;'' that is, we will continue to take aboard the 
indomitable youth of America and make them Marines with the 
absolute conviction that as a result they will one day be 
better citizens. We will be trained and equally as prepared to 
route Taliban fighters in Marja as we are to feed beleaguered 
Haitians outside Port-au-Prince.
    With your continued support and that of our loyal 
countrymen, we will do whatever the Nation asks us to do and do 
it exceedingly well. Thank you, sir. And I look forward to your 
questions.
    [The statement of General Conway follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         MARINE CORPS SUICIDES

    Mr. Dicks. I just had a chance with four members of this 
subcommittee and two members of the Appropriations Committee to 
be in Afghanistan and Pakistan. And I was very impressed by the 
operation in Marja and we will have to see how the governance 
phase of this takes over and how well the Karzai government can 
do in reestablishing itself in the area. But I think the 
Marines did an outstanding job and I know we have all of the 
services involved in an operation like this. And you have 
another operation coming up in Kandahar which is a much bigger 
operation. But I want to compliment you on the work of the 
Marines and I can remember with Mr. Lewis being over there--
right before we started in Iraq and--in--I guess it was 2003--
when you were leading the Marines into Baghdad.
    So we appreciate your leadership and the great work that 
you have done and we think the Marine Corps is in outstanding 
shape. Let me ask you this: This is one sensitive issue, 
General Conway. In recent years, the number of suicides in the 
Marine Corps has continued to increase, which reflects a very 
disturbing trend. I know this is an issue that you take very 
seriously, can you tell us what you are trying to do? I know 
the Army takes this seriously. I am sure the Navy does too, but 
maybe doesn't have the same level of problem. Mainly it is 
people that have been in combat where this issue is focused. So 
could you tell us what your thoughts are on this?
    General Conway. Thank you, sir, for your comments regarding 
the Marines in Marja. I will certainly make sure that that gets 
passed along. With regard to suicide, sir, it is an incredibly 
perplexing issue because our trend lines are all in the wrong 
direction. You are exactly right. For 2008, we had 42 suicides, 
which was a high watermark for us, and last year we had 52. So 
we are turned on to it as a very serious problem and we are 
actually attacking it, I think, through a number of ways. There 
are studies, but our view is that studies take too long. We 
have turned immediately to a program that uses our NCOs to 
teach other NCOs and Marines on what the indicators are. We 
have gone back to try to analyze those suicides that we have 
had. The factor that we see, I think, most as a corollary, is 
failed relationships.
    Of the 42 that we had in 2008, 35, we believe, came as a 
result of a failed relationship, a loss of a wife or 
potentially a girlfriend. I say that because they are almost 
exclusively male. And we believe that that 24-hour leadership, 
the young NCOs are the first that would see a behavior that 
would indicate that there is a problem and can start to do 
something about it.
    So we have trained those people. We have created videos. 
They have created scenarios, if you will, in some pretty raw 
language to get the point across. But it is well received by 
the troops when they are instructed. And that is I think 
probably our cornerstone effort. Again, there are many other 
approaches that we are trying to institute that we think will 
also help. Every Marine remembers the names of his three drill 
instructors. He will take it to the grave. So we are using 
those people from the very beginning to be talking about this 
suicide tendency that we see and that it is, in fact, not very 
Marine like not to use your fire team, not to use your buddies 
to help you with a problem that you face. Seek others' 
perspective and advice and help them to help you is another 
approach. We certainly have increased the staff and the 
counseling that is available at local bases and stations, but, 
sir, I would say we are hinging a lot on the success of our NCO 
effort.

                      IMPROVISED EXPLOSIVE DEVICES

    Mr. Dicks. I hope it works. Let me ask you--Admiral Mullen, 
I think about a week ago, as Chairman of the Joint Chiefs, said 
that if somebody is involved in an Improvised Explosive Device 
(IED) explosion, that they would be taken out of combat for a 
period of time, like 24 hours to observe them so that you 
wouldn't get in a situation where somebody might be in an IED 
explosion on one day and the then the next day another one 
because apparently at least he feels that that is a problem. 
What do you think of his--I know it only affects a very small 
number of people, but what do you think of that?
    General Conway. Sir, Admiral Mullen is giving voice to a 
program we have had in effect for probably 2\1/2\ years now. We 
categorize people who are in an explosion, Cat 1, Cat 2, Cat 3. 
And then depending upon what category they are in, they either 
don't go out at all, they may be able to go out within 48 
hours. The level of treatment varies. But we are very conscious 
of that. In fact, the Commanders in Afghanistan have a program 
called three strikes, and you are in. If you endure three IED 
strikes, then you don't go outside the wire after that because 
we know as a result of our studies and what the Naval doctors 
have given us that the brain simply needs rest in the wake of 
even a mild concussion.

                        TRAUMATIC BRAIN INJURIES

    Mr. Dicks. Mr. Secretary, do you want to comment on this, 
or Admiral Roughead?
    Mr. Mabus. The other thing we are trying to do on these 
traumatic brain injuries is do a baseline before people are 
deployed so that we will know how far they have moved off of 
that baseline to determine what category of injury they have 
suffered and what level of treatment that they need. We also do 
these checks when they come back to see if there are hidden 
traumatic brain injuries that simply haven't been picked up. 
But I think that it is very safe to say that for the Marine 
Corps and for the Navy, that we are absolutely focused on this, 
on Post-Traumatic Stress Disorder (PTSD) for people in theater. 
And, in fact, I spent a good part of yesterday evening and last 
night at Bethesda. And a couple of the Marines I saw were there 
as a result of TBI and they are getting incredibly good care. 
And the earlier you can diagnose a traumatic brain injury in 
the field if possible, the better care and the better results 
you are going to get.
    Admiral Roughead. And I agree with the Commandant. All of 
us have been following the protocols that the Commandant 
described. But on the topic of suicide, no service is immune. I 
am not getting out in front of my headlights on this, but for 
the first time since we have been keeping records as a result 
of some of the efforts that we have been put into this in 
January we had zero suicides. We have never had that before. In 
February, two less than last year. And so far this month, no 
suicides. It is a question of leadership, it is a question of 
awareness, it is a question of destigmatizing.
    So I am encouraged by what we are seeing right now and we 
really in the last 3 months, have seen a downturn which is a 
first over many, many months. So we are very encouraged with 
the programs that we put into place.
    Mr. Dicks. Do we try to work with the families? Because 
this is part--as you suggested, it is a relationship issue, 
then trying to work with the families--I know you all do that 
very, very well. But is that part of your strategy?
    Admiral Roughead. Yes, sir, it is the families, as the 
Commandant said, a common theme is relationships. You mix that 
with alcohol and you put a gun in the mix and 75 percent of the 
time that is the common trio that will produce such an 
unfortunate outcome. But it is the families, it is shipmates, 
it is an awareness of what is going on around you and your 
shipmates and that is where we are bringing all of our programs 
to bear. And as I said, I am encouraged by what I am seeing.
    Mr. Dicks. Mr. Frelinghuysen.

                          F-35 OPERATING COSTS

    Mr. Frelinghuysen. Thank you Mr. Chairman. I echo the 
chairman's comments. The Marine family really looks after its 
Marines. It is a wonderful model. I got myself in hot water in 
another caucus. I did serve in the Army by saying that the 
Marines really look after those families. It is a wonderful 
model for all of our services, to follow. Part of our posture 
review, and both the chairman and I have mentioned it. We need 
more ships, we need more subs. Combat aircraft could do--focus 
for a minute--the Marine--you have--you are part of the joint 
strike--you are going to have your version of the Joint Strike 
Fighter, the Navy is going to have it.
    We had a hearing a couple of weeks ago, we had Admiral 
Philman, I believe, and General Scott from the Air Force. And I 
asked a question and I must say the response was a little 
unclear, the whole issue of what we call fully burdened costs 
associated with that program. There have been delays in the 
program, but there is also quite a lot of speculation and I 
apparently--quite a lot of evidence that the cost of operation 
into the future is considerably significant and has to be 
figured in to all of what you do. And I suppose this is sort of 
addressed to you, Admiral Roughead.
    Admiral Roughead. Yes, sir. There is no question that I 
have been spending a lot of time on total ownership costs not 
just on airplanes, but on ships. I think it is important that 
that be a factor in our procurement decisions, but I will also 
tell you that we are kind of in the fledgling state of how do 
we get our arms around of how to project these out, do we have 
the right costing experts and that is not something where we as 
a service have been in the past. But we clearly have to look at 
that. I would say that in the case of the Joint Strike Fighter, 
we are still in the early, early development stages of that 
aircraft and we are trying to work through what the likely 
total ownership costs are going to be on that airplane. And to 
date, I have not been able to completely have a good confident 
assessment of what that is. But again, we are early in that 
process and we will continue to work on that as we introduce 
the airplane.

                        STRIKE FIGHTER SHORTFALL

    Mr. Frelinghuysen. The expression that comes to mind, we 
are flying the wings off our aircraft. They are always up 
there, always under pressure. All of our assets are under 
pressure. There is talk obviously of a gap here. How do we meet 
that gap given what we see to be the delays with the Joint 
Strike Fighter?
    Admiral Roughead. Sir, we, in the past years, as we have 
been looking at what the strike fighter requirements are for 
the Navy have been managing that inventory very carefully by 
doing a lot of individual management of airframes and how those 
airframes are used, depending on the health of a particular 
airframe. We have also made adjustments in our squadrons. We 
have transitioned some squadrons early. We have used some of 
the attrition aircraft that were in the procurement because we 
have seen that--particularly in the case of the Es and Fs, we 
are not seeing the attrition rates that were assumed at the 
front end of that program.
    We will continue to manage the Fleet and as we get into 
next year's budget, look at life extension programs for some of 
the earlier Hornets that we purchased, the As through Ds. And 
that will be part of our way of managing the inventory until we 
get to the Joint Strike Fighter, which is clearly an airplane 
that the United States Navy needs to have on its flight decks 
for the types of operations and environments that we are going 
to operate in in the future.
    General Conway. Sir, as I think you are aware, we haven't 
bought a fighter bomber aircraft now in about 11 years and so 
we are very excited about the arrival of the Joint Strike 
Fighter. And I guess I have got to say in a period of some 
relatively somber news on the aircraft, we are hearing some 
encouraging things I think that will involve total life cycle 
costs and potentially some of the peripheral costs associated 
with the aircraft. Our informal studies show that heat and 
noise and blast are all in the general range of the legacy 
aircraft.
    So we are encouraged by that and we will further those 
tests certainly. We have got three aircraft at Pax River right 
now under developmental flight. And it is my belief and I 
advised the Secretary yesterday that we are within one or two 
test flights of vertical launch, which is a big deal for the 
Joint Strike Fighter STOVL (Short Takeoff or vertical landing) 
variant. So we are hanging on to that 2012 IOC for our aircraft 
again because we desperately need it.
    We will have a shortfall. It was 87 aircraft yesterday. It 
may be 88 today because we lost one last night. The pilots got 
out fine. Anyway, we see through the mitigation procedures that 
CNO talked about and some other things that we can do that we 
can manage our way through it successfully notwithstanding the 
potential for a major contingency.
    Mr. Dicks. Mr. Visclosky.

                         F-35 ALTERNATE ENGINE

    Mr. Visclosky. Thank you, Mr. Chairman. Admiral, we had the 
Air Force Chief of Staff in yesterday. In one of the 
discussions following up on the discussion about the Joint 
Strike Fighter is the issue of the alternate engine. The Air 
Force indicated that they would be the only purchaser and that 
there would not be purchasers overseas or the Navy was included 
as far as the alternate engine. You are sitting here now and I 
would like to ask you, is that the Navy's position?
    Admiral Roughead. Yes, sir, we do not desire an alternate 
engine. And our rationale is that we deploy in some very 
confined containers, if you will, our aircraft carriers and our 
large deck amphibious ships. So we want to be as compact as we 
can and a single engine is the best interest of the Navy. It is 
also consistent with every aircraft that we have in our 
inventory. They are all single engine or single manufacturer 
engines with our entire Naval Air Force. So this is consistent 
with how we have deployed in the past and it is really a 
function of being as efficient as we can in our deployment 
model, which is how we use the Navy.
    Mr. Visclosky. In the not too distant past, did you have a 
mix of aircraft and a mix of engines on carriers?
    Admiral Roughead. Not to my knowledge, no, sir.

                              SHIPBUILDING

    Mr. Visclosky. I would like to ask you about shipbuilding. 
I have the program for fiscal year 2008 and I have got the 
chart for the outyears for 2009, and I have got the chart for 
2011. In 2008--and it is my understanding that in September, 
you indicated that 313 ships is a floor, implying that it is a 
minimum. We were going to be at a 313 ship Navy in 2016. That 
was as of fiscal year 2008. In 2009, we were going to be at a 
313 ship Navy in 2019. This year we are going to be there in 
2020. This is the first year since 1992 we will have 9 ships on 
order. And the chart continues to go to the right. Why should I 
have any belief that the chart that was submitted to the 
committee this year isn't going to move off the chart in 2012?
    Admiral Roughead. Sir, I believe that the shipbuilding plan 
that we have in place in this budget submission puts us on the 
trajectory to that 313 floor. I would submit that this plan 
also is somewhat different in that if you look at the product 
lines that we have, we are now down to the two submarines per 
year which we set out do to bring those within cost. We have 
restarted the DDG 51 line, which is a ship that we know how to 
build that we have many in our inventory.
    So we can be sure of what that production is. We know how 
to build that ship. We have built tens of those ships. We 
already have 62 in the inventory. We are in the process of down 
selecting 2 Littoral Combat Ships both of which are at sea, and 
both of which we see as operationally satisfactory and now it 
is to drive to one variant so that we can begin to build those 
in numbers at an affordable price.
    We are in the process of building the Joint High Speed 
Vessel which we are holding the cost on that because we are 
absolutely ruthless in containing the requirements on that 
ship. We are building the amphibious ships that are in the 
plan. So I would submit that this plan is a much more stable 
from a design perspective than perhaps we have had in the past.
    Mr. Visclosky. Indicating that you might see an increase of 
units in the same ship and you would have a lower cost, would 
you then imply that you would get to the 313 ship Navy without 
an appreciable increase in your budget request in the next out 
years?
    Admiral Roughead. Sir, we believe that we have properly 
costed the ships. I think that as we have worked on the plan 
with the acquisition executive, that we have some realistic 
costs and I have confidence in this plan.
    Mr. Visclosky. If I recall, and I stand to be corrected, to 
be there in 2010 dollars, you would have to average about 20 
billion a year. Am I correct in that assumption? In current 
dollars, it is about 14.7 billion. That is where you are today?
    Mr. Mabus. Yes, to do that.
    Mr. Visclosky. In those constant dollars, does that get you 
there in 2020 or in those constant dollars are we talking 
closer to 20 billion a year?
    Mr. Mabus. In constant dollars. If you will look at the 30-
year plan for the first 10 years, we are at a little under 15 
billion. It goes up in the second 10 years because of the SSBN 
recapitalization.

                           COMMON HULL FORMS

    Mr. Visclosky. As far as cost containment in your 
discussion about the common hull form, why is it not a 
requirement to consider a common hull form and alternative 
analysis if you are talking about the hospital ship and combat 
ship program? That is something the Navy is looking at, but it 
is not a requirement to judge the alternative cost by looking 
at that common hull to keep your costs under control?
    Admiral Roughead. That is one of the things that I believe 
is in this plan that we put together, sir. It is a very common 
hull with a large combatant, the DDG, when we downselect to the 
LCS common hull. There is nothing in the plan to currently 
recapitalize the hospital ships. Our auxiliary ships, the T-
AKEs, that is a constant plan. So our approach has been to 
drive toward commonality in hulls wherever we can, because I do 
believe that is the best way that we can minimize costs.
    Mr. Visclosky. Do you think on the issue of common hull, 
that will be a common requirement as far as the alternative 
analysis?
    Admiral Roughead. I may be misunderstanding the question, 
sir. My objective is to, whenever possible, to look at and 
certain applications be done with hulls that we are already 
building and then deviate from that because I think we can save 
money by doing that. But we also have mission requirements to 
consider. And in some cases, that might not be possible. Since 
I have been CNO, my focus has been on driving to a common hull 
whenever we can.
    Mr. Visclosky. I am reasonably certain that next year that 
chart is not going to slide to the right.
    Admiral Roughead. I have confidence in the plan that we put 
forward this time because of the consistency and the stability 
in the designs that we have and in the way that we have 
properly costed the ships. So I have confidence in this plan, 
sir.
    Mr. Visclosky. Thank you, Mr. Chairman. Thank you, Admiral.

                       DDG-51 MAIN REDUCTION GEAR

    Mr. Dicks. Thank you. Let me just ask one quick little 
question at this point. Mr. Secretary, the committee 
understands there is currently no provider for the DDG-51 Main 
Reduction Gear, which is a central component in the 
construction of the ship. What are we going to do about it? Is 
there a plan to do something about this?
    Mr. Mabus. Yes, sir. There was a gap in the DDG 51 
procurement as you know, and we have recently restarted that 
line. That is going to require a recapitalization not only of 
the main supplier, but also some of the subsupplier base to 
reach out and make sure that happens, but we have been working 
with the manufacturers, the two shipyards that make the DDG 51s 
to make sure that the supplier base that they rely on are there 
and it is one of the things that we looked at in this plan to 
make sure that we had the industrial base requirements in there 
to have those very specific skills that you need for things 
like you mentioned for the DDG 51.
    Mr. Dicks. Are you comfortable with the fact we are going 
to be able to get a main reduction gear?
    Mr. Mabus. Yes, sir, I am.
    Mr. Dicks. Mr. Lewis.

                              MINE ROLLERS

    Mr. Lewis. Thank you, Mr. Chairman, Mr. Secretary, Admiral, 
General, welcome. It is a pleasure to be with you. I believe 
this is for you, General. In your unfunded mandates lists, 
there is a $38 million item that relates to the mine roller 
system. As I understand it, it really is designed as an asset 
that helps deal with IEDs. Could you update the committee 
relative to the significance of that system and what happens if 
we don't fund the unfunded?
    General Conway. Sir, if we don't fund it, we will be okay. 
But we have done some discovery learning about that system in 
Afghanistan since we developed the budget. We have lost 38 of 
the mine rollers over that period of time. They are very 
effective at what they do and they blow up sufficiently in 
front of the Marines that we receive very few casualties. We 
have a stockage on hand and we will certainly have them in our 
baseline budget next year. But with the loss and with the value 
and with the desire to create a robust kind of backup 
capability, we have put it on the unfunded list.

                     EXPEDITIONARY FIGHTING VEHICLE

    Mr. Lewis. Thank you for that. The Expeditionary Fighting 
Vehicle is the replacement for the Amphibious Assault Vehicle 
as I understand it. It has had a troubled past with 
developmental and reliability problems. Can you update the 
committee relative to where we are?
    General Conway. Yes, sir, I can. You are right, sir, we did 
reliability tests strangely enough on vehicles that were past 
their service life expectancy a few years ago. I never 
understood why or how we did that, but that is where we are. We 
now have procured seven new vehicles that have the mods, the 
product improvements on them that we discovered from our 
reliability testing. They are being produced by the plant out 
in Ohio for delivery spring through summer of this year. It is 
our belief, based on some computer testing and some 
encouragements, that it is going to fare pretty well. The 
agreement that we have with the Secretary of Defense and with 
this committee is that we will do the necessary field testing, 
put them against the KPs that are well established. And if 
successful, we will ask for a full level of procurement. If 
not, the Marine Corps will kill the program and look for 
alternatives.

                        STRIKE FIGHTER SHORTFALL

    Mr. Lewis. Mr. Secretary, sometime ago I had a very 
interesting series of discussions with a number of leaders in 
the military about where we were going with tactical aircraft 
and at the time we were on three avenues leading down three 
different pathways. I don't want to mention who the Commandant 
was who talked to me about the fact that we might look at those 
systems and see where our priorities are. But I am curious 
about what you all see as the challenges ahead of us. Do we 
have time to wait for the development of the JSF and indeed 
presume that between now and then we may well be equipped 
enough to not have to--or not believe that we are going to be 
challenged air to air or air to ground until JSF comes along. 
Help the committee understand just exactly where you think we 
are currently in the----
    Mr. Mabus. I think to echo what the CNO said earlier, that 
up until this point, Navy and Marine Corps have been managing 
the tactical air assets that we have very well, doing stuff 
like bringing aircraft out of our attrition squadrons, speeding 
up the introduction of the Es and the Fs into the force. We 
also in this budget--and if you count FY 2010--are buying an 
additional 124 F-18s, E, Fs and Gs to go into our Fleet. There 
are ways to manage the aircraft that we have and the aircraft 
that we are going to get between now and 2013.
    As the CNO said, in preparing next year's budget, one of 
the things we are going to have to look at is service life 
extension programs for some of our legacy aircraft. How many 
that will be and what the business case is for doing that will 
require the rest of this year to answer those questions in 
terms of the ramp for the JSF, and as we receive it and also 
the success of the service life assessment programs that are 
currently going on now. But at this point, we understand what 
the situation is. We are using the tools that we have and we 
feel that we can successfully manage this as the JSF comes on 
line.
    Mr. Lewis. Well, thank you with that, Admiral. I am very 
concerned that this entire panel have the sense there is going 
to be huge pressure developing out there in terms of your 
budget futures. There is not any doubt that the call for money 
all across the board is increasing at levels that are 
disconcerting to those who care about our national strength and 
national security. I would hope that you would help us. You 
can't very well do it with what is available before you at this 
point in time. But I would hope that there is a level of 
communication that has you understand that this committee 
stands very strongly behind making sure those dollars flow in 
an effective way. But don't kid yourself, there is going to be 
lots of pressure to put your money somewhere else. But thanks 
for being here. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Moran.

                     EXPEDITIONARY FIGHTING VEHICLE

    Mr. Moran. Thanks very much, Mr. Chairman. Let me ask 
General Conway about the Expeditionary Fighting Vehicle (EFV) 
because some of the numbers are troubling. The GAO has informed 
us the total estimated research and development costs jumped 
from $1.5 billion to $3.6 billion and the average unit cost 
rose from $8 million to $23 million. It is one of the only 
programs that Secretary Gates hasn't gone after because he has 
gone after other programs that he felt while they were superb 
programs they just weren't coming in on time and on budget and 
we had limited money.
    This budget submission shows that the Marine Corps made the 
decision in coordination with the Navy to slide procurement of 
the EFVs for one year. And since its inception, the major 
program review cut the number of EFVs to be purchased from over 
a thousand to just over 500, 573. And now we understand it may 
go to below 500. And, of course, that has a profound impact on 
the unit cost. The total original cost estimate for the program 
was $7 billion it is now $16 billion, more than twice as much. 
The program spent $3 billion, not including the current request 
for an additional 250. It is a breach of the Nunn-McCurdy 
limits. Now, I am sure you are aware of those facts. Do you 
want to address them for the record? And particularly as the 
significance or the importance of the EFV in the combat 
situation we are in now?
    General Conway. Yes, sir. Sir, the only figure I think that 
you cited there that is new to me is the $23 million unit cost. 
We are projecting down in a range about 16. I hope it doesn't 
get to 23. But in any event, that is the only new fact that I 
think you referenced. Sir, we see the program as being 
absolutely essential to our ability to do what the Nation asks 
us to do and that is ensure access in an anti-access 
environment. There is a lot of blue on that map of the arc of 
instability and our Nation has been fortunate the last couple 
of fights we have been in there has been a nation next door 
that allowed us to build the iron mountain, amass the forces 
across the border.
    We don't think that is always going to be the case. In an 
anti-access environment, the Navy doctrine--and I certainly 
support it--is that they won't go closer than about 25 miles to 
another nation's shoreline for the risk that is involved to 
ship, Sailors and Marines. So we have to bridge that distance 
and that gap. And our current vehicle, which is a good vehicle, 
a good armored personnel carrier as well as good amphib, only 
goes 5 to 6 miles in the water. So that makes it, I think, not 
viable really in that kind of environment. When we breached 
Nunn-McCurdy, Secretary Mabus' predecessor, and I looked at 
options within industry to see if there was someplace else we 
could go for a different type of vehicle or something that 
could better define the requirement.
    And because it is on the leading edge of technology, an 
armored personnel carrier that goes 25 miles an hour, there was 
just nobody else that could do it. So we continue, sir, with 
what we have got. We hope and work hard and pray that the 
problems have been fixed and that we can keep the costs tamped 
down. We will buy the minimum number of vehicles necessary to 
get the job done based upon the mission that the nation gives 
us and see what falls out of it all.
    Mr. Moran. I understand, General. And I don't want to be 
argumentative here, but I do think we ought to get this on the 
record. Secretary Gates was at least implicitly critical of the 
program and suggested in a recent news conference--well, it 
must have been last year--that the EFV had not learned that 
combat lessons such that need to be learned such as the need 
for a V shaped bottom. Do you want to address that?
    General Conway. Yes, sir, briefly. Sir, the Secretary made 
similar comments about the entirety of the amphibious fleet, 
but case studies during the QDR showed that in fact amphibious 
ships and what they offer are of tremendous value to the 
Department. And so I think that is at least in part in his 
decision to continue with where we are on the EFV and amphibs 
at large. So we go from there. We have had a blast test, I 
might add, very recently compared against a midgrade MRAP that 
showed the vehicle much more sustainable even with a flat 
bottom than I think we anticipated. So there is a bit of good 
news already with the development of these additional seven 
vehicles.
    Mr. Moran. I understand further developmental work is 
being----
    Mr. Dicks. Would you yield just for a second?
    Mr. Moran. Yes.
    Mr. Dicks. Mr. Secretary, we would like to hear from you on 
this, too. What is your perspective here?
    Mr. Mabus. As the Commandant said, we have had some 
encouraging news in terms of the blast survivability, even 
before you put the applique armor on there. But as I said in my 
opening statement, if programs don't perform the way they 
should and if they--the budget ramp is too steep and the 
performance is not up to par, we, the Department of the Navy, 
the Department of the Marine Corps, will not hesitate to kill 
it and seek an alternative.
    Mr. Dicks. You are just getting seven new vehicles, right?
    Mr. Mabus. We have----
    Mr. Dicks. This is going to be kind of a key moment, right, 
to test these out, to see if improvements are made and then you 
are going to have a moment of truth where you decide whether 
you go forward or not? Is that----
    General Conway. Absolutely, correct, Mr. Chairman. There 
are five KPs that will determine that for us that will be I 
think engaged over the next 18 months or so. And if it does not 
pass those KPs successfully, then we don't have the vehicle 
that we need. If it does, if they do, then we would again argue 
for full procurement.
    Mr. Moran. One knowledge point you are going to have to get 
through is the staff's estimate is $23 million per unit, but we 
need to work that out because normally we defer to staff.
    Mr. Dicks. In my notes here, it is $7.1 to $16 billion, 
cost of the total program.
    Mr. Moran. Yeah, the total program. But it is $23 million 
per.
    Mr. Dicks. Okay. I got you.

                          V-22 MEDEVAC VARIANT

    Mr. Moran. And the General was saying that is not accurate. 
So we will get after it, the numbers. You have got the same 
numbers I do, yeah. General, a question about the Osprey. Given 
that the Marines typically operate at long distance from 
medical facilities, do you think that a MedEvac variant of the 
V-22 would be a worthwhile effort?
    General Conway. Sir, I do. I think that what we are 
discovering with the capability of that airplane to really 
consolidate the battlefield, make great distances much closer, 
I would encourage consideration on part of those that have that 
mission for the long haul. We are certainly using it today to 
ferry patients from Helmand to Bagram with regard to the 
medical regulation procedures within theater and it is very 
effective for that.
    Mr. Moran. Okay. Good. I will let the chairman move onto 
the next series of questions. I do want to say it is nice to 
see Secretary Mabus in that position. I didn't have the heart 
to throw you any hardballs, so I didn't. But nice to have all 
three of you here. Thank you.
    Mr. Mabus. I thank you on several levels, sir.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Tiahrt.

                     PERSONNEL TRANSPORT IN THEATER

    Mr. Tiahrt. Thank you, Mr. Chairman. Thank you all for your 
service to the country. It means a lot to us and we don't say 
it enough. I want to bring to the committee's attention, 2 of 
the 11 unfunded projects in the Marine Corps budget and ask you 
about them, General. The first one is the UC-12W extended range 
Hawker Beechcraft King Air 350ER. And the second one is the UC-
35 extended range Cessna sovereign. Could you please tell the 
committee the military value and the requirements for the two 
programs?
    General Conway. Sir, those are what we call OSA aircraft. 
And frankly, if I were to categorize all of our listings on the 
UPL, they would be at the bottom of the list. That said, what 
we find is that our commanders, our staffs, our Marines who 
need transportation around theater, especially in the Pacific, 
find that the aircraft that we are using today just do not have 
the legs to get the numbers of people that we need to the 
locations where they need to go.
    So it is not something that I would suggest to this 
committee that you provide in lieu of those budget items that 
we have in the fiscal year 2011 budget. We will look after it 
next year in the baseline and it will compete and we will see 
if they come to pass. And as we asked our commanders for things 
that they thought ought to be included on that UPL, this was 
one that came forward from our Pacific Command.
    Mr. Tiahrt. I appreciate it. Mr. Chairman, that is all I 
have.
    Mr. Dicks. Ms. Kaptur.

                          THREAT NAVAL FORCES

    Ms. Kaptur. Thank you, Mr. Chairman. Thank you for your 
service to our country. And my first question has to do, 
Secretary Mabus or Admiral Roughead, that as you look at the 
other navies in the world, and you think about how we compare, 
I know we are the best, but could you talk a little bit about 
comparative advantage and how you really see our Navy position 
versus other countries' navies and how you would rank them?
    Mr. Mabus. Well, to answer the last part of that question 
first, I would rank us number one with a bullet and I think we 
are unsurpassed in----
    Ms. Kaptur. Who is number 2?
    Mr. Mabus. I am not sure who number 2 is frankly. The CNO 
may have a better--there is a number of countries that have 
embarked on naval building capacity, Russia, China, India, 
Japan. I may be missing someone here, Korea, who all have 
varying capabilities. But the one thing that most of them have 
in common is they are building regional fleets, fleets for 
their home waters or waters within their geographical vicinity. 
We have a Global Fleet which I think we have to maintain with 
the capabilities that that Global Fleet gives us. Some of the 
new missions that we have been given include ballistic missile 
defense, which we believe the AEGIS system that we have today 
is the best ballistic missile defense system that America has 
or that the world has and that this is a capability that we 
believe we can shoulder as a fleet and still do the other jobs 
that we have.
    Ms. Kaptur. Well, Mr. Secretary and Admiral Roughead, if 
you could send me an article or review of how you look at the 
world from your perspective as Navy, I would really appreciate 
it. And if you want to count the number of ships, the type of 
vessel, the type of capabilities, I am very interested in 
Russia, very interested in east Asia and just relative 
comparison. You must have a grid in your own minds that only 
you have based on your years of experience, but I am interested 
in understanding some of that myself. So I appreciate it very 
much. I have to say I am very impressed with your testimony and 
the fact that all of you gentlemen have referenced the 
importance of energy and U.S. security and you are making real 
efforts inside Navy, inside Marine Corps to help pull our 
country forward.

                     FUEL EFFICIENCIES AND SAVINGS

    In addition to what you submitted for the record, I would 
be very interested in how what you say generally is reflected 
in either savings in your budgets or projections for savings 
both on base as well as procurement of various fuels. Are you 
at a point where you can definitively say that based on what 
you have done today, you are actually saving dollars that you 
can move to other operations now or are you not that far along? 
I am looking for some measure of what your goals are.
    Mr. Mabus. I can. We are there in some programs. I will 
give you two quick examples. We have a noncombat fleet of 
vehicles of about 50,000. Those vehicles turn over about every 
5 years. The fleet does. We have changed the type of vehicles 
we are buying. We are buying more hybrid vehicles, more 
electric vehicles, more vehicles that use alternative fuels. 
The return on investment is very short on those. Most of that 
we will begin saving within a year or two for that program. A 
second thing that we can show savings on today is we launched 
our first hybrid amphibious ship as two different drives, a 
diesel drive for higher speeds and an electric drive for speeds 
under 10 knots or so. It was built in Mississippi and went 
around South America on its maiden voyage to its home port in 
San Diego. We saved about $2 million in fuel costs doing that. 
Over the lifetime of that ship, we expect that today's fuel 
prices will save about $250 million in fuel for that one ship. 
We are prototyping an electric engine to go in our DDGs and we 
have asked for money for that prototype in this budget so that 
we can retrofit the DDGs with the same system.
    Ms. Kaptur. All right. Any additional detail you can 
provide how you are thinking about the construct of all of 
that, how much you have saved to date, how much you expect to 
save. I read the overall goals, but as the appropriations 
committee, we are interested in dollars. So any way that would 
be better presented would be most appreciated.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Kaptur. I am wondering if for the record you could 
provide an answer to this, the Obama administration has 
proposed overturning the don't-ask, don't-tell policy at the 
Department of Defense. I am wondering if you could comment on 
the advantages and disadvantages was that in those under your 
command if that has not been provided in other forms. I would 
just be interested.
    [The information follows:]

    The Department of the Navy is participating in the Department of 
Defense Comprehensive Review Group to assess the implications of a 
repeal of 10 U.S.C. Sec. 654, should that occur, and develop an 
implementation plan for any new statutory mandate.
    The Comprehensive Review Working Group will identify the impacts to 
the force of a repeal of 10 U.S.C. Sec. 54 in areas that include 
military readiness, military effectiveness, unit cohesion, recruiting/
retention, and family readiness, and recommend actions that should be 
taken in light of such impacts in a report of its findings by December 
1, 2010.

                     LEASING OF FOREIGN-BUILT SHIPS

    Ms. Kaptur. And finally, could I ask you in terms of the 
leasing of foreign-built ships, what is the Navy's plan--first 
of all, how many foreign-built ships are you leasing? Is the 
trend going down and do you envision a time when maybe we will 
be able to wean itself away from leasing any foreign-built 
ships?
    Admiral Roughead. Yes, ma'am. Last year you asked about 
this. We had 14 ships on lease. Where this year we have 12 
ships on lease and we are moving toward 10 and we are coming 
down. The challenge does however remain that when we need a 
particular capability and we go to lease on occasion that is 
the only thing that is out there. But we are coming down on the 
path that we projected last year when we testified.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman.
    Mr. Dicks. Ms. Granger.

                       JOINT STRIKEFIGHTER UPDATE

    Ms. Granger. Yes, Mr. Secretary. Sorry. In January, 
Secretary Gates announced a restructuring of the Joint Strike 
Fighter program. They say there are no insurmountable problems, 
not technical or otherwise. I would like your assessment of the 
measures that have been taken. I know that we met the last time 
at Lockheed Martin looking at the Joint Strike Fighter. I want 
to know if you think that those measures that have been taken 
are sufficient for success and I would like the comments also, 
General Conway, you said that was some encouraging news if you 
have any comments or Admiral Roughead either.
    Mr. Mabus. Yes, ma'am. The measures that have been taken at 
the Department of Defense-wide level, evening out the ramp of 
production, moving back for 13 months the developmental 
testing, putting more aircraft in the test program and reducing 
the number of aircraft early in the ramp, I believe will have 
the effect of getting this program on the way that it should be 
to get us the aircraft that we need. Also by withholding some 
award fees from the contractor and giving them an incentive to 
beat these deadlines, giving an incentive to beat the price 
that is out there I think will also be very helpful. As General 
Conway said, we already have three test aircraft at Pax River 
of the STOVL version. They are performing very well. They are 
close to vertical takeoff flight.
    And the Marine Corps is still on its way to an IOC of late 
fiscal year 2012. And in terms of receiving aircraft, we are 
still looking to begin receiving aircraft for the Marine Corps 
in 2012 and for the Navy in 2014. Given all of that, we think 
that the program and given the need for the JSF on the decks of 
our carriers, our amphibs and with the Marines in theater, we 
think that the program will be--is now on track to be 
successful in the terms that have been set forth.
    General Conway. Ma'am, to your question, based on the 
restructuring we did see the loss of 28 aircraft over the 5 
years of the defense plan. But I think the good news in that is 
that we don't think that is a definite loss. We think we will 
get those airplanes back later on when we are into the full 
procurement cycles. The CNO answered the question on alternate 
engines. Our perspective is that we do not want to see the 
alternate engine because it could cost us tails. It is a 
competition there between the aircraft we think we need or an 
alternate engine to put in the aircraft that we would have and 
we would rather have a larger number of tails than a second 
engine.
    Admiral Roughead. Ma'am, I would say the focus on getting 
more airplanes into the test program is going to be 
extraordinarily helpful, and of course, in the case of the Navy 
is we are the third service in line. We are going to benefit 
from all of the testing that has been going on. Our focus is 
still on making our first deployment in 2016 with our first JSF 
squadron. So I think the adjustments that have been made will 
enhance the probability of success of that outcome.

                            STEALTH AIRCRAFT

    Ms. Granger. Thank you. This is for Admiral Roughead and 
General Conway. I know this is an open hearing, but could you 
discuss the recent developments in 5th generation fighter 
aircraft and advanced air defense systems in countries like 
Russia and China and how do these developments in these 
countries, including their sales in advance equipment shape the 
fighter force we need in 2020 and beyond and how does the F-35 
measure up to what they have?
    General Conway. We certainly can't talk about the last 
aspect of that question in an open hearing, ma'am. But I will 
say that those developments I think put an emphasis point on 
the value of the 5th generation fighter, certainly to the 
Marine Corps.
    Admiral Roughead. And clearly, ma'am, the trend in fighters 
is towards stealth and towards the types of capabilities that 
are not unlike what we are putting into the Joint Strike 
Fighter. I am a little biased. I would say that the Joint 
Strike Fighter still keeps us in the dominant position.
    Ms. Granger. It is an okay bias to have.
    Admiral Roughead. I couldn't agree more.

                          LITTORAL COMBAT SHIP

    Ms. Granger. Mr. Secretary, just one more question. You 
know that Fort Worth is extremely excited about the USS FORT 
WORTH. And I would like to know if you could tell us something 
about what the timeline be to decide who will host the 
commissioning for the USS. FORT WORTH?
    Mr. Mabus. We have a little bit of time as you know. I 
think sometime in the middle of 2012 is when that commissioning 
would occur and we will work with the commissioning committee 
and with its most excellent sponsor.
    Ms. Granger. Thank you very much.
    Mr. Mabus. To come up with an appropriate commissioning 
place and time.
    Ms. Granger. Thank you very much.
    Mr. Dicks. Mr. Hinchey.

                        PRESIDENTIAL HELICOPTER

    Mr. Hinchey. Thank you, Mr. Chairman. Gentlemen, nice to be 
with you again. Thank you very much. I wanted to just talk a 
little bit about the presidential helicopter. We know it is a 
sad situation now. VH-71 is something that we tried to work on 
here. And to restructure the VH-71 and the purpose of that was 
to bring about something that was more effective and save money 
that should have been saved. My understanding is that now as a 
result of a loss of that particular program, there is a loss of 
about $4 billion and a substantial amount of other issues that 
need to be dealt with.
    The existing presidential helicopter system was designed 
back in the 1950s and manufactured in the 1970s. So it is 
really starting to tire out. So I am just wondering what is 
likely to take place? What do you think we are going to be 
doing? And what would you be recommending to deal with this 
program over the course of this year into next?
    Mr. Mabus. There are two specific answers to your question. 
One is that we are very early into analysis of alternatives on 
how to go with the program. The Navy working with OSD and with 
the White House in terms of needs are looking--beginning to 
look at alternatives as to what happens to the program. In 
terms of the presidential helicopters that are now flying, 
obviously the main concern is to keep those effective, flying 
safe, everything that you would expect in that helicopter. We 
have funds in this budget request and over the next 5 years to 
make sure that the current fleet of what presidential 
helicopters continues to do the job they were meant to do.
    Mr. Hinchey. What does that mean, you are starting from 
scratch with a new program?
    Mr. Mabus. They are looking at all alternatives in the 
analysis.
    Mr. Hinchey. No decisions have been made so far?
    Mr. Mabus. No, sir.
    Mr. Hinchey. So this thing is still in the air, I would 
assume?
    Mr. Mabus. I am not sure you can put it that way. But okay.
    Mr. Hinchey. There is still a possibility that--or is there 
a possibility that the VH-71 might still be bought back? That 
would be the sensible cost saving and most effective thing to 
do. I think one of the issues at hand now, for example, is that 
there is in the redesign of the upcoming presidential 
helicopter, there would be a removal of one of the important 
parts of the program internally within the helicopter.
    Apparently like a rest station. Take that out of the 
helicopter. Not that people would be engaging in a lot of rest 
there. I don't mean that. So what is likely to happen? Do you 
think? Do you have any idea? Or is the whole thing just so 
tentative now that nobody knows?
    Mr. Mabus. Well, I think it is fair to say that the whole 
thing is so early in the look at what those alternatives are 
that no decisions have been made on what is on the table or 
what is off the table.
    Mr. Hinchey. Okay. I know it is an awkward situation.
    Mr. Dicks. Would the gentleman yield for just a second? 
What time frame are we talking about now since we have 
cancelled this program and Mr. Hinchey feels very strongly that 
was a mistake. What time frame are we talking about? You said 
the next 5 years, the existing helicopters, we have got funding 
to make sure they are as safe as possible which obviously we 
all support. But what--how long is this going to take if we 
go--once you do your analysis of alternatives, to get back into 
development?
    Mr. Mabus. Well, first I think the analysis of alternatives 
is going to take a better part of this year to look at. I think 
that is, in fact, maybe on the short side. It is going to take 
a while to look at what alternatives are available, how much 
they will cost, what they will require to produce. Before that 
analysis of alternatives, I cannot give you an answer on how 
long it will be. What I can tell you is that we have put in the 
budget the funds, as you just pointed out, to keep the current 
helicopter fleet viable, safe, effective until we know from 
that--what alternative is picked how long it will be before the 
new helicopter comes into service.
    Mr. Dicks. Mr. Hinchey.
    Mr. Hinchey. Thank you, Mr. Chairman. So I guess we will 
just--well, what I would like to do is continue to work with 
you and stay close to you and just so we have an understanding 
of what the situation is going to be like and what the outcome 
is going to be. It is something that I have taken a great deal 
of interest in and as a result of taking a great deal of 
interest in it, I understand the situation very clearly. And I 
know that something has got to be done here it has to be done 
effectively and it has to be done as soon as possible.
    So I would like to continue to stay close to you and see 
what we can do about getting this problem solved. As soon as we 
can and as effectively as we can.
    Mr. Mabus. Look forward to that.

                           ALTERNATIVE ENERGY

    Mr. Hinchey. I just have another question to ask about it 
is the energy situation. Our military is the largest energy 
consumer on this planet. And the situation is specifically 
something that really needs to be addressed. You know how much 
it needs to be addressed in terms of costs, in terms of 
availability, all of those things. So I know that there is some 
issue, some interest rather on the issue of generating 
alternative energy----
    Mr. Dicks. If I could just interrupt. They have addressed 
this issue in some detail. If you want to go ahead and ask it 
again, go right ahead.
    Mr. Hinchey. Well, you addressed it in some detail. That 
means that the record here shows that you have a plan to deal 
with the energy issue? You are going to be focusing on 
alternative energy, solar energy particularly. And you are 
anticipating how soon, how much will become available?
    Mr. Mabus. If I could, Mr. Chairman.
    Mr. Dicks. 50 percent, wasn't that your----
    Mr. Mabus. It is the goal of the Navy, Department of the 
Navy to, by 2020, have half its energy needs met by nonfossil 
fuels. That includes ashore and afloat. And ashore, the goal is 
to have at least half of our bases be energy neutral in terms 
of producing at least as much energy as we use.
    The final thing I will say is that today we have a very 
small solar capacity, 5 megawatts. We have now signed contracts 
for an additional 60 megawatts. When you put that together, 
that is enough to power about 41,000 homes. We are driving 
toward enough solar power, not counting other forms of 
alternative energy, in the 10-year period to power about 
250,000 homes.
    Mr. Hinchey. Well, thanks very much.
    Mr. Dicks. Mr. Rogers.

                            V-22 EMPLOYMENT

    Mr. Rogers. Thank you, Mr. Chairman. General Conway, you 
were asked about the Osprey earlier. You are asking for another 
30 aircraft to go with the last 2 years' similar numbers for 
about $2.5 billion annually. How is the Osprey being used 
overseas?
    General Conway. Sir, those 30 are part of a multiyear that 
will close out in another fiscal year or two. But the answer I 
would have to say is very well. We have deployed it to Iraq 
three times. We have put it aboard ship, the amphibs, to see 
what lessons we could pull down from that and now we have a 
squadron in Afghanistan.
    Interestingly, I just spoke to my commander in Afghanistan 
this morning on some other issues, but we discussed Osprey. He 
has fallen in love with the airplane. And the principal reason, 
in addition to its range and speed and carrying capacity, 
buildup capacity in some of the attacks that he has conducted 
there, is the ability to land at night in complete brownout 
conditions. That aircraft will simply lower itself to the deck. 
It has got lasers that identify four different points on the 
ground and pilots have complete confidence in a complete 
brownout condition at night to set it down with Marines and 
then take off under those same conditions. So that is something 
that no other helicopter can do today.
    Mr. Rogers. What are you using it for there?
    General Conway. Sir, the full gamut of use. It is 
primarily--it is a medium assault lift helicopter. And we have 
used it in that context now in two major operations, one at Now 
Zad and the other one now in Marja. But it also transports 
troops and supplies around the battlefield. It inserts and 
extracts reconnaissance teams.
    I mentioned earlier we are using it for casualty 
evacuation. Not a primary MedEvac role, but any time that the 
aircraft is overflying and takes a call for a casualty, it 
swoops down, picks them up and gets them to care very rapidly. 
We transfer patients within the theater. We use it to transfer 
VIP delegations. The commander told me he just went to Kabul 
and back this morning on an Osprey.
    It is a multi-use airplane that is doing everything we ask 
it to do.
    Mr. Rogers. Given the long distance generally of Marines 
from medical facilities, it is about the only kind of vehicle 
you have that would get evacuations long distance, is it not? 
From the battlefield to the medical----
    General Conway. Yes, sir. C-130s can serve that role, sir, 
but you have to take the casualties too, the C-130s, as opposed 
to perhaps landing in a zone very nearby and plucking them off 
the battlefield.
    Mr. Rogers. I understand about a dozen Ospreys went to 
Haiti. Tell us about that.
    General Conway. That is correct. Sir, once again they were 
performing the whole gamut of drill, primarily ship to shore 
kind of movement of supplies and delivery of Marines, equipment 
and supplies ashore. There was also evacuation of patients out 
to the amphib ships and their dispensaries. So the traditional 
things that you would expect when you see a Marine 
Expeditionary Unit with its air combat element on board.
    Mr. Rogers. That is the first time it has been used for 
humanitarian relief?
    General Conway. Yes, sir, I think it is. In fact I am sure 
it is.
    Mr. Rogers. Have you had any accidents anywhere with the 
aircraft?
    General Conway. No, sir. We have not. Since we declared 
operational capacity and put it into the fight in a relatively 
early phase of its full operational capacity, it has been shot 
at. It hasn't been hit and it has been doing again all we have 
asked it to do. We have put, by the way, guns on--I think 5 of 
the 12 in theater have guns now. So it can either do self-
escort or even some zone prep, certainly self-defense. So we 
are expanding on the capacity of the aircraft as we go. We need 
a good weather radar that we do not have to date because it 
flies a long distance and it encounters different types of 
weather.
    Mr. Rogers. So you are pleased obviously with the aircraft?
    General Conway. Sir, we are. I can't say anything 
otherwise.

                       P-3 WING REPAIR CONTRACTS

    Mr. Rogers. Let me ask you quickly also about the P-8 
Poseidon and the P-3 Orion. We provided over $300 million to 
the Navy for wing repairs, Admiral, to the P-3 to keep them 
flying until you get the P-8s, and we have been told from DOD 
that several contracts for new wing assemblies were awarded in 
the August 2008 time frame but not yet definitized. When can we 
expect that?
    Admiral Roughead. Sir, we have been inducting the P-3s into 
the rewinging process and that procedure is going very, very 
well. But I will look at the specifics, at the numbers that you 
are talking about. But we are moving out smartly on that 
because we need that capability. It is in great demand and we 
have a good flow going with those P-3s right now. But I will 
get the particulars.
    [The information follows:]

    Naval Air Systems Command (NAVAIR) expects the two undefinitized 
contract actions (UCAs) to enter formal negotiations in third quarter 
FY 2010 and be definitized not later than fourth quarter FY 2010. 
NAVAIR issued the two UCAs, one each to Lockheed Martin and L3 
Communications, in order to expedite the manufacturing of new outer 
wing assemblies (OWA) and return aircraft to the Fleet as quickly as 
possible. The current definitization status does not impact Fleet 
availability.
    Mr. Dicks. Will the gentleman yield? The Navy is in much 
better position on these undefinitized contracts than the Air 
Force. The Air Force is way behind. But there is a 180-day 
rule. You are suppose to definitize these things within 180 
days. That clearly is not happening here on the issue that was 
brought up. And obviously I think this P-8A aircraft is doing 
very well. In fact, I have been out there and seen it myself, 
and it is doing very well. And the P-3 rewinging is very 
important. But we are hoping that we can work with each of the 
services to try to not let this--there is a tendency to well, 
you get in and you use these undefinitized contracts and it 
kind of drifts along. And that is going to be part of our 
oversight responsibility, Mr. Secretary, to make sure we get 
these things definitized within the rules and within the 
statutory requirements.
    Mr. Rogers.

                             P-8A POSEIDON

    Mr. Rogers. So where are we with the P-8A?
    Admiral Roughead. We are moving along well with the P-8A, 
sir. We have been flying the airplane. We have another airframe 
that has been stress tested. So we are moving forward with the 
P-8A. It is a good program. And we have a good profile in this 
budget. I don't anticipate any issues with the P-8 and, similar 
to the chairman, I have been out to Boeing and have looked at 
the airplane and I am very encouraged by what I see.
    Mr. Rogers. What is the timetable for replacing the P-3?
    Admiral Roughead. The timetable will actually have some 
overlap and particularly since we have rewinged some of the P-
3s there will be some overlap. But we expect to see the P-8 in 
service in squadrons in 2012.
    Mr. Rogers. But the P-3s will still be flying until you get 
the full complement of P-8s.
    Admiral Roughead. Yes, sir. They will continue to fly. And, 
of course, our EP-3s will continue to fly until 2024.
    Mr. Rogers. Will you need more money for the rewinging?
    Admiral Roughead. At present time, sir, we have a good 
program in place for the rewinging.
    Mr. Rogers. Now you are going to acquire, as I understand, 
117 aircraft?
    Admiral Roughead. You are referring to the P-8, sir?
    Mr. Rogers. Yes.
    Admiral Roughead. 117, sir?
    Mr. Mabus. 117 in total, but 69 over the course of the 
FYDP.
    Mr. Rogers. I am sorry?
    Mr. Mabus. 117 total in the program, but 69 over the next 5 
years.
    Mr. Rogers. Gotcha. Well, you will consider that program as 
a multiyear procurement, will you not, upon completion of the 
testing?
    Admiral Roughead. Yes, sir. Our objective is whenever we 
can obtain a multiyear that delivers the types of savings that 
make a difference. That is what we are interested in.
    Mr. Rogers. Thank you, gentlemen, Mr. Chairman.

                           DEPOT MAINTENANCE

    Mr. Dicks. Admiral Roughead, you and I talked about depot 
maintenance the other day. And I am interested to know, I see 
here in the budget that in 2009 it was $7.8 billion and then 
dropped in 2010 to $6.4 billion. Now it is back up to $7.05 
billion. And as I understand, this is supposed to be 99 percent 
of the ship maintenance in 2011? Is that your understanding?
    Admiral Roughead. Yes, sir. What we have done is we have 
significantly increased our operation and maintenance funding 
request to address the usage on the Fleet and the required 
maintenance that we need to get the Fleet to its extended 
service life, or estimated service life. That is why you are 
seeing the increase that you have seen in there. If you look at 
where we are with the unfunded maintenance that was in my 
unfunded program, we have significantly closed down on our 
ability to invest in what I call the cost to own the Navy. So 
we have made those increases and that does get us to 99 percent 
of what we need.
    Mr. Dicks. Just like in my area, out in the Puget Sound 
area, we have some, like Todd's Shipyard, some private 
companies that do help do maintenance for the Navy. But it is 
very, very kind of up and down. And I just hope that the Navy 
will look at--we have our mainly public shipyards, do great 
work as far as I am concerned. But also there are these other 
companies that do provide help and service to the Navy and I am 
just worried that we try to protect that industrial base as 
best we can and by being sensitive to the fact that some of 
this work, especially on surface ships, can be done in private 
yards as well.
    Admiral Roughead. Absolutely, sir, and they do great work. 
And that is what we are trying to do here because this is our 
reset. We are not like the ground force that comes back and 
renews. We have to be able to make investments like this. We 
have to be able to maintain ships in such a way, whether it is 
public or private. We have to be able to get the ships in 
there, get them to the end of the life, and the other thing 
that happens when we don't properly invest in the operation and 
maintenance accounts, the Sailors will pick it up and when they 
are home off of deployment, when they should be with their 
families and enjoying the opportunity to be with them, to 
train, to refresh, oftentimes we put the work on their back.
    Mr. Dicks. You have to go back on the ship to do----
    Admiral Roughead. To do things that otherwise would be done 
by a contractor or by a public shipyard. This not only keeps 
the Fleet ready, but it also allows our Sailors to have a 
reasonable life when they are back home.
    Mr. Dicks. Mr. Lewis.

                   OPERATION AND MAINTENANCE FUNDING

    Mr. Lewis. On that point, you are taking us directly to the 
last question area I had dealing with O&M. When we start 
massaging your budgets, there is a tendency for the committee 
often to look at the pool that might be available, O&M is often 
that pool. So would you share with us a little more of the 
condition of your O&M accounts for 2010 and maybe take us to 
the unfunded accounts again for 2011?
    Admiral Roughead. Yes, sir. What we did was to bring our 
maintenance accounts up to where I believe they need to be. And 
when I was asked for my unfunded program list, there were only 
a couple of things in there. One was ship maintenance, aviation 
maintenance, and aircraft spares. In order to close that gap 
up. I mean, I could get an acceptable level of risk, but by 
taking the account to where it needed to be and then the 
underfunded just closed the gap. And the only thing that is in 
the unfunded list is about 9 ship availabilities and about 100 
airplane depot repairs. So we have really closed the gap down. 
And as you said, sir, oftentimes that fund is used for other 
things. But it is so important for our readiness, for our 
training, for the life of the Fleet and actually the welfare of 
our men and women that serve at sea.
    So we believe that we have got it right this time and my 
commitment is that I am going to do everything I can to 
properly fund that O&M account.
    General Conway. Sir, if I may. Our O&M is about 22 percent 
of budget. As you can imagine, it has got to do the training 
and preparation and the deployment of Marines to theater. But I 
would like to speak on behalf of the Navy's O&M because it 
affects us, too. And say for the last 2 years, we have seen a 
reduction in sailing time and, perhaps as importantly, in 
aircraft hours. That in many ways degrades our capacity to 
train for what we have to do. I do think the CNO has recognized 
that. He has got it right this year. And I certainly would like 
to be on record in support of his O&M cost.
    Mr. Lewis. Mr. Chairman, I think it is very important that 
you help us continue on this pathway. It is one of the better 
developments I have heard.

                           MARINE CORPS RESET

    Mr. Dicks. I completely agree. Let me ask. General, you 
mentioned in your statement that there is a necessity to buy 
additional supplies, equipment that I think, as you said, had 
been promised but has not yet been fully fulfilled. Would you 
describe that situation for us?
    General Conway. Sir, what we have seen over the years is 
initially I think Congress was very aware of the requirement 
and is as concerned about it as we are. And not that there is a 
lack of concern, but there has been a slippage. We were staying 
within about 75 percent of the requirement. And now as we 
examine it, we are at about 50 percent of the requirement that 
we are able to reset or reconstitute in stride. There has been 
a thought process that when we are done in Iraq and now 
Afghanistan, that there would be monies forthcoming for a 2- or 
3-year period and that would be when both the Marine Corps and 
the Army both got healthy. My concern is, as was evidenced 
earlier I think by Representative Lewis, is that the Nation has 
other requirements that we are going to have to face pretty 
dramatically and that those monies just might not be available. 
So I would like to try to get----
    Mr. Dicks. You are talking here about war reserves?
    General Conway. Sir, we are talking about day-to-day 
equipment.
    Mr. Dicks. Just regular things you need for----
    General Conway. Training sets, sir, the ability to respond 
to a second contingency. Our home stations are at 60 percent 
equipment availability today. That is the worst we have been 
now in about a 4- or 5-year period and it concerns me. Again, 
as I referenced in the opening statement, our MPS stocks are 
up, the ships are at about 94 percent of supply. We consider 
that in some ways a national reserve because the Army has not 
been able to keep pace with that. But we just see the need for 
us to be able to recock and be ready to go someplace else as 
soon as possible, and I am just uneasy with the thought process 
of doing it all after we are out of Afghanistan.
    Mr. Dicks. Mr. Secretary, what do you think about that?
    Mr. Mabus. Well, as the CNO said, the Navy has to reset in 
stride, unlike the Marine Corps, unlike the Army. We have got 
to keep our O&M accounts going, and I think that this budget at 
99 percent does the things that the Navy needs to do.
    I share the Commandant's concern about Marine reset for a 
couple of reasons. One is the fight in Iraq and Afghanistan has 
expanded the table of supply for a Marine unit. We are simply 
using more and different types of equipment than we were 
before, and so the definition of reset has not kept up with 
what equipment the Marines are actually using in theater. And 
so I think that first the definition of what reset is for the 
Marines should be expanded somewhat and, second, to the 
Commandant's point, that we not wait until the end of 
Afghanistan to begin to reset the Marine Corps.
    Mr. Dicks. But I take it that the budget doesn't satisfy 
this as requested, doesn't satisfy this need?
    Mr. Mabus. The budget makes a start on this. It certainly 
does not do the whole thing, but it makes a start.
    Mr. Dicks. We are in a very difficult fiscal mess here. We 
have to keep--but I want to make sure we know--does this have 
an adverse effect on training?
    General Conway. Sir, it is starting to and that is one of 
the caution flags that my staff and commanders raised with us 
this year, is that our training sets and the ability to prepare 
the next rotation is starting to be adversely impacted by some 
selected end items that simply aren't available to home base 
and station.
    Mr. Dicks. Because I would expect that as they deploy they 
have everything they need?
    General Conway. Absolutely.
    Mr. Dicks. That is one we have always protected. So that 
isn't a problem. But it is not having the equipment for the 
people who are back at home who should be training that you are 
worried about and having the equipment in case there is another 
contingency?
    General Conway. You have got our concerns exactly, sir.

                             MRAP VEHICLES

    Mr. Dicks. What about the MRAPs or the M-ATV. I understand 
that you are buying some of the original heavier MRAPs. Could 
you explain that?
    General Conway. Sir, we have purchased over 2,000 in the 
Marine Corps, Cat 1, 2 and 3 MRAPs, and mainly Cat 1s because 
we were the lighters of the variants, that is what we saw our 
usage being for the long term with that particular type of 
vehicle. Now, in Afghanistan we are finding even those vehicles 
are too large for some of the roads, some of the places where 
they have to go, bridge classifications and that type of thing. 
So the Department has developed a new vehicle called the M-ATV, 
read Afghanistan MRAP, that is in many ways a replacement for 
the up-armored HMMWV. It is still having its problems in 
Afghanistan like it had in Iraq, and it is a very dangerous 
vehicle to be riding around in.
    We have tried to minimize our buys because, as I said again 
in the opening statement, there will come a day when where we 
will want to shed some of this weight and get back to being 
expeditionary, and those things won't even fit aboard the CNO's 
ships in some cases.
    We have done some expeditionary types of things. The 
original MRAPs don't go off road very well. So we have taken 
our suspension off the 7-ton trucks and put them on our Cat 1s 
and the troops absolutely love them in Afghanistan where they 
can go. But we are incorporating some of them into what will be 
our long-term tables of equipment. But I think a lot of the 
others will go into supply storage, probably in Barstow, 
because of the humidity factors involved. And we will use them 
only in the future if we get into another static environment 
where the IED is the weapon of choice.

                         MARINE CORPS TRAINING

    Mr. Lewis. Mr. Chairman, could I follow through on that? 
General Conway, I am very concerned about--you probably know 
that 29 Palms is in my district.
    General Conway. Yes, sir, I do know that well.
    Mr. Lewis. I am very concerned and I raised this question 
with General McChrystal and got quite a response, I have not 
been able to follow up on it. So maybe you can help me follow 
up on it. The Marine Corps is about to make some decisions 
relative to the training territory available to them and the 
Congress is thinking about taking some action, and it concerns 
me that we may have decisions being made at a local level, at 
the base, that is looking short term, satisfying short-term 
training needs and ignoring the prospect of real needs for 
cross-training between the Army and the Marine Corps, whether 
in the air or on the ground or otherwise. There is only so much 
space out there and if we give it away, General, it will never 
come back.
    And so I would urge you to talk to the highest level of 
people in this training, communicate with the Army as well at 
the highest level and the Secretary to make certain that we 
don't give away the store while we are spending time trying to 
satisfy somebody this week.
    General Conway. Yes, sir. Okay. Thank you for that.
    Mr. Lewis. We should talk further. Thank you.

                            CVN-78 COST CAP

    Mr. Dicks. Mr. Secretary, the committee understands that 
you recently approved an increase of approximately $1.3 billion 
to the cost cap for the CVN 78. Why was this required?
    Mr. Mabus. As you know, Mr. Chairman, the CVN 78 is the 
lead ship in the class, first ship of the Ford class carriers. 
Most of this increase was simply inflation, inflation from the 
time the carrier was begun until today and as we are looking 
forward in terms of the materiel that we are going to have to 
buy. Some of it was a smaller amount for changes primarily for 
safety concerns on the carrier. But the program itself, the 
total program for this carrier we think is moving along very 
well. We are still looking to field the carrier on time with 
the schedule that we have previously set forth.

                                 EMALS

    Mr. Dicks. The committee understands that the 
Electromagnetic Aircraft Launching System, EMALS, has recently 
experienced a fairly significant incident during land-based 
testing causing a fair amount of equipment damage. What is the 
current status of the Electromagnetic Aircraft Launching 
System? Can you tell us about this incident?
    Mr. Mabus. Yes. The incident you described was about 3 
months ago. It was an engineering incident. It has been worked 
through. We are about to restart the testing both in New 
Jersey, in Lakehurst, and in Mississippi, in Tupelo, for the 
four EMALS and we are still on schedule to put EMALS on the 
carrier when it is supposed to be integrated into the carrier. 
We are close to testing EMALS with a test sled and then an 
aircraft launch a little while later. But even with this short 
delay, we are still within the schedule and it is one of those 
reasons that you test, to see what problems pop up. This one 
did, but it was one that could be worked through.

                           SURFACE COMBATANTS

    Mr. Dicks. How many DDG 51s are we going to buy? Or do we 
know?
    Mr. Mabus. Over the course of the FYDP, we requested an 
additional eight.
    Mr. Dicks. Okay. And how about the LCS?
    Mr. Mabus. Over the course of FYDP, 17.
    Mr. Dicks. Any other questions?
    Mr. Visclosky. Yes.
    Mr. Dicks. Mr. Visclosky.

                              CVN-78 COST

    Mr. Visclosky. Thank you, Mr. Chairman. Getting back to the 
chairman's question about the increase on the CVN 78, Admiral, 
we had discussed the shipbuilding program earlier. I assume 
that cost increase is built into that base looking forward and 
that would not be an additional cost?
    Admiral Roughead. Yes, sir. That is correct.
    Mr. Visclosky. Mr. Secretary, you indicated, as I 
understand it, that you don't anticipate there would be an 
additional increase in the cost at this point?
    Mr. Mabus. Not at this point. No, sir.

                     LEASING OF FOREIGN-BUILT SHIPS

    Mr. Visclosky. Not at this point. On the industrial base, 
and the chairman alluded to that too, if I could ask about the 
leasing of foreign ships, as I do every year, I would 
acknowledge that in 2009 the Navy had 14 leased vessels and in 
2002 they had 22. So I would certainly acknowledge that the 
number has declined.
    Mr. Dicks. I think Admiral Roughead described this for Ms. 
Kaptur. What are we down to, 10?
    Admiral Roughead. We are down to 12 this year and we will 
have--I am sorry, we are down to 12 this year and we will be 
down to 10, I expect, in 2014.
    Mr. Visclosky. I am sorry. I must have been distracted. My 
preference is that we not have any foreign leased vessels. I 
just don't think it makes any sense in this time and place 
talking about the industrial base, whether they are smaller 
shipyards, whether they are the six major yards that we have. 
We are not building ships here because we are leasing ships 
from somebody else. Not much left to protect. I mean, I am very 
serious. And on the 313, I hope you understand my intent, I 
want you to have 313. That is what you need.
    Admiral Roughead. I would like to have more than 313.
    Mr. Visclosky. I know. That is how I read your remarks in 
September. But year after year----
    Admiral Roughead. Yes, sir. But I think as you pointed out, 
we are on a down slope on the foreign leased ships. But there 
are on occasion when we are looking for particular 
capabilities, sometimes that is the only one that is on the 
market. So we end up----
    Ms. Kaptur. Would the gentleman yield on that one, please? 
What countries are you leasing them from, Admiral?
    Admiral Roughead. I will have to get back to you on the 
specific countries.
    Ms. Kaptur. What are we paying them?
    Admiral Roughead. I will have to get back to you on the 
exact costs.
    [The information follows:]

    The Navy's Military Sealift Command (MSC) does not lease ships from 
any foreign country. MSC charters ships from commercial entities to 
most efficiently respond to military requirements that are immediate, 
subject to change, or of uncertain duration. MSC currently has 
contracts to charter 21 vessels for a period of more than 6 months. 
Eleven of these ships were built outside the U.S., in Australia, 
Denmark, France, Germany, South Korea, or Turkey. The monthly cost of 
the leases for these foreign-built ships is approximately $9.5M. 
Foreign-built ships chartered by MSC for periods greater than 6 months 
must be converted to U.S.-flag in U.S. shipyards, be crewed by U.S. 
citizen mariners, and be in compliance with U.S. Coast Guard 
requirements.

                       DDG-51 MAIN REDUCTION GEAR

    Mr. Visclosky. Mr. Secretary, on the DDG 51, I understand 
that there is no provider for the main reduction gear?
    Mr. Dicks. We talked about this.
    Mr. Visclosky. You did, too. I have got to pay attention.
    Mr. Dicks. But I am glad you asked the question because it 
shows you are thinking.
    Mr. Visclosky. I wasn't paying attention. I was thinking.
    Have you found a vendor? Is there a problem finding the 
vendor?
    Admiral Roughead. We have requests for proposals out now, 
sir.
    Mr. Dicks. Could you build it in a shipyard? Could you 
build it in one of our naval shipyards?
    Admiral Roughead. I would say right now probably not.
    Mr. Dicks. Probably not.
    Admiral Roughead. Because of the tooling that is required, 
the skills that are required.
    Mr. Dicks. Mr. Hinchey----
    Mr. Visclosky. One more question, but I am sure it was 
asked already.
    Mr. Dicks. No, go ahead.
    Mr. Hinchey.

                     LEASING OF FOREIGN-BUILT SHIPS

    Mr. Hinchey. Well, I am just fascinated about this issue 
because I know there is an awful lot of ability to build ships 
here, and there are a lot of major companies that are 
interested in shipbuilding and this is one of the declines in 
the economy, in the industry in this country, in not building 
ships internally. So I am very encouraged by what you are 
saying as the number is dropping down, down to 13 now?
    Admiral Roughead. 12, sir.
    Mr. Hinchey. Down to 12 now and you are anticipating that 
by----
    Admiral Roughead. 2014 we will be down to 10.
    Mr. Hinchey. Is there any tension to lease any more?
    Admiral Roughead. As I mentioned, sir, when we have a 
requirement for a particular type of ship and we go out on the 
market to look for it, on occasion sometimes the only ship that 
fits that bill is the foreign ship.
    Mr. Hinchey. The only one that fits the bill is a foreign 
ship.
    Admiral Roughead. Sometimes, the only ones that fit.
    Mr. Hinchey. What would that be?
    Admiral Roughead. Simply the design that may be required, 
the capability that is required.
    Mr. Hinchey. Like what? What would that design be?
    Are we talking about military?
    Admiral Roughead. No, sir. We are not talking about 
military ships. These are ships that are used for commercial 
purposes, ships that I do not build or that the Navy does not 
build, but that these are ships that we go out and have some 
logistics need for or largely with our Military Sealift 
Command. But these are not Navy ships that we are talking 
about. All U.S. warships are U.S. made.
    And I would like to just for the record, no one builds a 
warship like the United States does. There are none that equal 
it.
    Mr. Hinchey. Good. I understand that and that is very true 
and very good.

                                 LPD-17

    Mr. Dicks. Can I ask one quick question right at this 
point? Admiral Roughead, the Navy has now accepted delivery of 
five LPD 17 ships. Each one of them had quality issues. How 
confident are you in the LPD 17 shipbuilders' ability to 
deliver a quality ship that can satisfy your requirements right 
out of the box?
    Admiral Roughead. First of all, sir, we have had issues 
with some design, some quality control and then, particularly 
in the case of the main engines, we have had some issues there. 
But the contractor and the Navy technical community are working 
very well in correcting the problems that we have, and I know 
that the ship builder is also addressing these quality issues 
as a matter of priority. So the LPD 17 is a great ship. It has 
great capability. I think the Commandant would echo that. But 
we are working to correct these issues and make the design 
changes where they are required to get the reliability that we 
need for the ship.
    Mr. Dicks. Ms. Kaptur.

                         MARINE CORPS SUICIDES

    Ms. Kaptur. Thank you, Mr. Chairman. I wanted to follow up 
very briefly in two areas. General Conway, you addressed in 
your testimony the number of suicides, and my question is did 
those occur on homeland soil here? Did they occur in theater? 
If so, which theater? What can you tell us about where those 
individuals had served, Iraq, Afghanistan?
    General Conway. Last year we had nine in theater, the year 
before that we had seven. Interestingly, there was a comment 
that they come as a result of deployment. We think that is 
true, but I would also say that the numbers of suicides that we 
have, the percentage that we have, of people who are deployed 
are almost the same. We have about a third of our suicides from 
people who have never deployed. And if you look at people who 
have deployed three and four times, the number is way low. So 
although we think there is a parallel here, a residual factor 
with increased deployments, there is not the pure statistics to 
support that. Yet I have to think that if failed relationships 
is one of the primary issues, deployments have effect on 
relationships. So we are trying to sort all that out to see 
exactly again what our counter means ought to be.
    Mr. Dicks. They have a very good program with their NCOs 
that are focused on trying to see if these people are having 
issues.
    Ms. Kaptur. I heard that, Mr. Chairman. Thank you. And in 
Ohio we have been working with our Guard and Reserve because 
they don't return to a home base and we have had some serious 
situations back home. And as a result of hundreds, actually 
thousands at this point, of soldiers being screened we have 
verified exactly what you are saying. We are even doing a 
genetic sampling now to look at predisposition.
    But the way in which the question is formed and their 
ability to have proper assessment has been a real problem. And 
I would refer you--not that you want to talk to anybody in the 
Guard or Reserve--but General Wayt, who will be retiring at the 
end of this year, who is head of our guard in Ohio, is really 
heavily into this and has some excellent data now working with 
several of our private hospital systems. We don't have military 
hospitals for the most part throughout Ohio. And I would just 
refer you to that which we believe should be pretty path 
breaking work and you might find it of value in what you are 
doing.
    General Conway. This is such a critical issue that the 
Assistant Commandant is my action officer on it. He is in close 
cohorts with General Chiarelli in the Army. And I think those 
factors are being brought in because the Army certainly has 
Guard and Reserve. But I will go back and confirm that with 
him.
    Admiral Roughead. Ms. Kaptur, one of the things that we 
have done, really focused on our reserve, we do not have a 
guard in the Navy. But on our reserve is we have put in place 
something that we call Returning Warrior Workshops that we hold 
around the country. It is not only targeted at the service 
member, but we bring the spouses in as well because oftentimes 
we get the indications that there may be an issue from the 
spouse. And we can also inform our spouses about things to be 
looking for. So we have been out doing that.
    We have also created 17 deployment health centers again to 
get greater awareness of the types of things that families 
should be mindful of and the early signs of a problem.
    Ms. Kaptur. Admiral, I have to compliment, there is a small 
naval reserve unit in my district I was invited out to an 
event. I thought there would be 20 people there. It was sea 
cadets. I am telling you, that naval reserve unit was so 
phenomenal what they were doing with hundreds of young people 
up in our area.
    So I just wanted to mention that particular effort in the 
Toledo area which I was unaware of and I was very, very 
impressed with what they were doing.

                       USMC NON-TRADITIONAL ROLES

    Mr. Chairman, I just did want to ask General Conway, with 
what is going on in Afghanistan and some Marines in offensive 
positions and taking ground, could you discuss a little more 
the other roles that Marines are assuming inside of Afghanistan 
that may be nontraditional and how comfortable you are with 
that?
    General Conway. Yes, ma'am. Well, ma'am, we have advocated 
for a number of years, really since probably 2004 in Iraq, that 
this type of counterinsurgency warfare needs all elements of 
American power engaged. And we have had some modicum of success 
with that, with interagency, with nongovernmental 
organizations, with the assistance from other NATO nations, but 
not nearly to the degree that the requirement states. So what 
we have found is that our commanders, our NCOs, our staff NCOs 
have to do those things, civil affairs types of things, nation 
building types of things, agriculture, fire department, city 
management, all those manner of things that they are not really 
trained or qualified to do but if they don't it no one else is 
there to do it.
    So it is all a part of the job as we see it. We welcome the 
help when it is there but where it does not exist we simply 
tighten up our pack straps and move on.
    Ms. Kaptur. Mr. Chairman, on this point, you are living 
this experience. I haven't heard in all the hearings over the 
last several years, a whole decade, I haven't heard one 
creative proposal. So what do we do about it for the future? 
How can we make it better in the future? You take care of it 
internally within the Corps?
    We need a structure, we need some way--maybe it is not the 
Corps. Maybe it is somebody else. But I see some of the young 
people from my area going into Afghanistan. I am thinking oh, 
my goodness, there is no language skill, there is no--they are 
Marines and they are being asked to take care of schools or go 
door to door or something like that. I have trouble with that, 
and I am wondering what is the mechanism, what is the school, 
what is the training, how do we provide that better in the 
future?
    General Conway. Ma'am, the CNO and I have had this 
conversation now with two consecutive administrations and it 
has been recognized at that level, and I will give some credit. 
I mean, people are adjusting their culture, they are asking for 
additional resources, they are looking for people who are 
willing to deploy overseas to some conditions that could be 
hazardous to their health. And it is moving slowly, but really 
too slowly, again for the requirement that we face right now 
and today.
    So I think people are aware and people recognize that it is 
something that must be accomplished. It is just the capacity is 
not where it needs to be.
    Ms. Kaptur. Mr. Chairman, for a long time we had that group 
down there in Georgia where we train, we use our officers and 
we bring people up from Latin America. I don't see why we don't 
have some sort of training place within the architecture of 
this country where we can help train our people in democracy 
building or at least transition to something other than what 
they had. It just seems to me it is kind of hit and miss and 
that is not the best way to do the job, and so I just wanted to 
put that on the record. And General, if you have thoughts----
    Mr. Dicks. Aren't we getting a lot more than we did in 
Iraq, a lot more State Department people there, for the PRTs, 
and so that it isn't falling as much on the military?
    General Conway. That is right, sir.
    Mr. Dicks. You also mentioned to me that some of your NCOs 
at the end of their career are now helping with training. I 
thought that was something that would be very legitimate and 
something that they are well prepared for.
    General Conway. That is something we should do, sir, and we 
are stepping up to that requirement as best we can as a bridge 
until such time as Army units who have that mission can arrive 
and take it over.
    And you are right, sir, with your earlier comment that 
there is a gradual improvement. I think we would say it is a 
little better in Afghanistan than it was in Iraq, and so there 
is gradual improvement. But again it is still short of 
satisfying the need that exists today.

                      INDIVIDUAL AUGMENTEE PROGRAM

    Mr. Dicks. I am a bit impressed with the individual, in 
lieu of, they changed that. What is the new phrase we use to 
describe what was the individual augmentation?
    Admiral Roughead. What we have done is we have 12,000 
Sailors on the ground in the Middle East in addition to the 
10,000 I have at sea. And we have what we call an individual 
augmentee program where we will take someone from a command and 
then put them in a position that would normally be occupied by 
someone from the ground force or perhaps another agency. But 
then we have also injected into the process something that we 
call a GWOT support assignment, and that is a permanent change 
of station so that we can get more predictability, more 
stability in the lives of our men and women.
    We tend to use them both. We are trying to move more toward 
the permanent change of station assignment because it does give 
us more stability. And I can't say enough about the great work 
that our young men and women in the Navy are doing. For 
example, of the 12 provincial reconstruction teams in 
Afghanistan, six are led by the Navy. I never thought I would 
stand on a cold mountain in Afghanistan talking to the PRT 
leader who is a former commanding officer of a nuclear 
submarine, and he was having the time of his life and he was 
making a difference, and he was getting great satisfaction from 
that.
    Mr. Dicks. Do you think they are trained to do that? Or do 
they have to have training?
    Admiral Roughead. What we do, sir, is we put them through 
some ground training, and then we give them some cultural 
awareness. We in the Navy and all the services, but for 
example, we are now providing incentives for individuals to 
learn languages that we believe are going to be important in 
the future. When we deploy our carrier strike groups, for 
example, we have a regional awareness program that is taught on 
the way over, as they go, and also for our amphibious groups.
    So we are getting at this. We have increased the numbers of 
our Foreign Area Officers so that they understand and are more 
expert in the regions of the world. So we are moving in this 
direction, and I can't say enough about the great work our 
people are doing.

                   NAVY AND MARINE CORPS END STRENGTH

    Mr. Dicks. We are going to have to wind this up, but I have 
to ask one last question. We are a little concerned about Navy 
and Marine Corps end strength. As of February, you are at 
330,000, your planned end strength is 324,000. The Marine Corps 
is at 205,000, and the baseline was 202,000.
    What we are worried about is if this doesn't change you are 
going to be $300 million over on personnel. So I assume you are 
well aware of this problem, people want to stay in, and I know 
that is a difficult problem when people who are really good and 
well trained and are needed are kind of forced out because of 
these limits.
    Admiral Roughead. Yes, sir, and we are watching it very, 
very carefully because last year when we saw the retention 
behavior change we knew that that was likely going to happen.
    And if I could just, our compensated end strength is really 
328-8.
    Mr. Dicks. Even better. You are closer?
    Admiral Roughead. I am closer, yes, sir. But we are 
watching it very carefully and I predict we will be on target 
at the end of the year.

                      MARINE CORPS SPECIAL FORCES

    Mr. Dicks. The Marine Corps was going to have a special 
forces unit.
    General Conway. Yes, sir.
    Mr. Dicks. Twenty-five hundred, as I understand it. How is 
that going?
    General Conway. Sir, it is going well. They are still in 
the developmental stages of coming to what we would call full 
IOC capability. But they have been very successful in 
Afghanistan. There was a standing 1-0 requirement. That has now 
gone to 2-0. So we have two companies to deploy to Afghanistan 
at all times. The Army has also asked us to take a turn at 
battalion headquarters. So we are fielding two battalion 
headquarters to go in and command not only our company but 
other Army companies of special operators.
    So I would say it is going pretty well. We are looking to 
get the right quality individual in there because what they do 
is fairly dangerous, as you can imagine. But it has added a 
dimension to our capabilities.
    Mr. Dicks. The committee is adjourned until 1:30 p.m. On 
Tuesday, the 16th of March, when we will hold a hearing on 
Central Command. Thank you, gentlemen, for an excellent job.
                                         Wednesday, March 17, 2010.

                        CONTINGENCY CONTRACTING

                               WITNESSES

SHAY ASSAD, DIRECTOR OF DEFENSE PROCUREMENT AND ACQUISITION POLICY, 
    OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR ACQUISITION, 
    TECHNOLOGY, AND LOGISTICS
JEFFREY PARSONS, EXECUTIVE DIRECTOR, U.S. ARMY CONTRACTING COMMAND
WILLIAM M. SOLIS, DIRECTOR, DEFENSE CAPABILITIES AND MANAGEMENT, 
    GOVERNMENT ACCOUNTABILITY OFFICE

                  Opening Statement of Chairman Dicks

    Mr. Dicks. The committee will come to order.
    Today, the Defense Appropriations Subcommittee will receive 
testimony concerning contingency contracting from three 
witnesses: Mr. Shay Assad, Director of Defense Procurement and 
Acquisition Policy, Office of the Under Secretary of Defense 
for Acquisition, Technology, and Logistics; Mr. Jeffrey 
Parsons, Executive Director of the U.S. Army Contracting 
Command; and Mr. William Solis, Director, Defense Capabilities 
and Management Team, Government Accountability Office.
    Mr. Assad, Mr. Parsons and their staffs have worked 
diligently to improve contingency contracting since July 2009.
    There is now clear guidance which provides consistent 
ground rules for both the operational and support communities. 
Standard procedures have been established and articulated to 
ensure contracts contain the appropriate conditions for work to 
be performed in Iraq and Afghanistan.
    Mr. Assad and Mr. Parsons have published a Joint 
Contingency Contracting Handbook, which includes task 
checklists, training templates, and links to relevant 
regulations and Web sites. Also, there is now a Contingency 
Contracting Course from Defense Acquisition University and 10 
Army training courses and leader education instructions for 
non-acquisition soldiers.
    Mr. Assad is also leading the DOD-wide effort to rebuild 
the acquisition and contracting force.
    We wish you well on that. That is something that needs to 
be done.
    The job of rebuilding the acquisition workforce is 
daunting. By 2014, the acquisition workforce is expected to 
grow by nearly 20,000 personnel; 10,000 due to in-sourcing, and 
9,887 new hires.
    Despite the improvements in contingency contracting, 
challenges remain. One challenge is simply the magnitude of 
contract service support needed to conduct Operation Iraqi 
Freedom and Operation Enduring Freedom. Of the $100 billion in 
operation and maintenance funding requested for 2001 overseas 
contingency operation, $43 billion is for contracted services.
    The largest single contract for services is the Logistic 
Civil Augmentation Program (LOGCAP) contract for logistical 
support, billeting, food and laundry services, power generation 
and water supply in Iraq and Afghanistan. In fiscal year 2010 
and 2011, $7 billion and $10 billion is budgeted for LOGCAP 
respectively.
    Currently, 169,000 military personnel, versus 207,000 
contracted personnel, are in Iraq and Afghanistan. In addition, 
there are 32,000 contracted personnel in other locations within 
CENTCOM's area of responsibility, for a total of 240,000 
contractors in CENTCOM.
    The sheer magnitude of the reliance on contractors presents 
difficulty in background screening, contract management and 
contracting oversight, and has resulted in a continuing 
shortage of contract officer representatives, the personnel who 
are responsible for developing and managing the technical 
aspects of the contracts.
    We look forward to your testimony and to an informative 
question and answer session.
    Now, before we hear your testimony, I would like to call on 
our ranking member today, Rodney Frelinghuysen, for any 
comments he would like to make.

                      Remarks of Mr. Frelinghuysen

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Gentlemen, welcome, this afternoon and for the chairman's 
focus on contingency contracting.
    We have always had wars, and now wars are described as sort 
of contingency. But all wars have been accompanied by 
contractors. They may be called by a different name.
    One thing that has sort of been clear to me is we need to 
focus on people who might be classified as bad contractors and 
root them out and do it systematically. And I assume you have 
many years collectively focused on that.
    But I am mindful that, in Iraq and Afghanistan--and you can 
correct me, perhaps, during your testimony or the Q`A--that 70 
percent of those who are contractors often are foreign 
nationals. How competent they are, I don't know. But there is 
sort of a view here that we can run two wars simultaneously 
without having contractors. And I am all for lesser numbers of 
contractors, but we probably could not have been as successful 
as we have been to date in both of these contingencies without 
the support of contractors. So I put my stake down here, but I 
am obviously willing to be educated by all of you as to what 
improvements we have made in the contracting process.
    So thank you very much, Mr. Chairman.
    Thank you, gentlemen, for being here.
    Mr. Dicks. Mr. Assad, we will hear from you first.
    Mr. Assad. Thank you, Mr. Chairman.
    If you would so allow, we would like to have our written 
comments that we submitted to the committee entered into the 
record.
    Mr. Dicks. Without objection, they will be placed into the 
record.
    Mr. Assad. Thank you.

                     Summary Statement of Mr. Assad

    Mr. Chairman and members of the subcommittee, it is a 
pleasure to be today to speak to you about contingency 
contracting. This is an extremely important element of what we 
do within the Department of Defense to support our warfighters 
whose boots are on the ground.
    I would personally like to thank this committee for its 
unwavering support to our soldiers, sailors, airmen and 
Marines. It is greatly appreciated. I am going to be very brief 
because I would like to allow significant time for questions.
    I will tell you that there has been a remarkable 
improvement in the way we do contracting for the goods and 
services that we buy. Over the past 6 years, we will be able to 
discuss with you a number of steps that we have taken to ensure 
that we are being good stewards and our warfighters whose boots 
are on the ground are being good stewards of taxpayer funds.
    Having said that, there is a significant amount of 
improvement still to be had, and there are a number of areas 
that we will discuss with you that we see as major challenges 
that we are continuing to work on as diligently as we possibly 
can.
    Once again, Mr. Chairman, I would like to thank you for 
your support. I would like to thank this committee for its 
support. And that is going to conclude my opening statement.
    Mr. Dicks. Mr. Parsons.
    Mr. Parsons. Yes, sir. I just echo what Mr. Assad said here 
already and thank you and the rest of the committee for the 
support that we have been provided. It keeps our eye on the 
ball when it comes to making improvements in contracting 
support and the execution. So we thank you for that.
    And I look forward to answering your questions in regards 
to specifically what we have done in the Army, and as Mr. Assad 
has said, I think we have come a long way over the last few 
years, work remains to be done and some challenges to be faced, 
but we are making significant progress. Thank you.
    [The joint statement of Mr. Assad and Mr. Parsons follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. Mr. Solis.
    Mr. Solis. I also, sir, have a statement for the record.
    Mr. Dicks. Which we will place in the record, without 
objection.

                     Summary Statement of Mr. Solis

    Mr. Solis. Chairman Dicks, Ranking Member Frelinghuysen, 
and members of the subcommittee, I appreciate the opportunity 
to be here to discuss a number of issues regarding the 
oversight and management of contractors, contractors supporting 
U.S. forces and contingency operations.
    As you know, DOD relies greatly on contractors to support 
its current operations, and DOD officials have stated the 
Department is likely to continue to rely on contractors to 
support future deployments.
    My statement today will focus on two things: One, the 
challenges DOD faces in providing management and oversight of 
contractors for ongoing contingency operations; and two, the 
extent to which DOD has made progress in institutionalizing a 
Department-wide approach to managing and overseeing contract 
support.
    Based on our preliminary observations from ongoing work in 
Iraq and Afghanistan, DOD faces five challenges related to the 
managing and overseeing of contractors. These challenges are: 
one, providing an adequate number of personnel to conduct 
contract oversight and the management of contractors; secondly, 
training of non-acquisition personnel, such as unit commanders 
and contracting officer representatives (COR), on how to work 
effectively with contractors in operations; thirdly, ensuring 
that local and host country nationals have been properly 
screened and badged; fourth, compiling reliable data on the 
number of contractor personnel supporting U.S. forces in 
deployed locations; and five, identifying requirements for 
contractor support in ongoing operations.
    GAO has made many recommendations, starting in the mid-
1990s, at addressing each of these challenges. While DOD has 
taken some actions in response to our recommendations, it has 
been slow to implement others. For example, we have reported on 
the shortage of CORs who provide much of the day-to-day 
oversight of contractors during contingency operations. We have 
also identified challenges DOD faces in ensuring CORs are 
properly trained to execute their duties.
    In our ongoing work in Iraq and Afghanistan, we found 
inefficiencies in DOD's oversight of contractors due to an 
inadequate number of personnel to carry out these duties.
    Some actions have been taken to help mitigate this problem, 
such as the Army recently directing commanders to determine 
prior to deployment the number of CORs that they will need. 
However, these efforts are in the early stages of 
implementation.
    Similarly, we found that individuals are often deployed 
without knowing that they would be assigned as CORs, thus 
precluding their ability to take the required training prior to 
deployment. In addition, we found that CORs and other oversight 
personnel often lack the technical knowledge and training 
needed to effectively oversee certain contracts. For example, 
in Afghanistan, officials expressed concern that there were not 
enough CORs trained in the trades, such as electrical wiring 
and plumbing, to provide oversight over construction contracts.
    While DOD has agreed with multiple recommendations we have 
made regarding the redeployment of military commanders and 
CORs, this training has not been institutionalized throughout 
DOD. In addition, Congress has mandated that the policies 
include a requirement that operational contract support be 
included in predeployment training, but these policies have not 
yet been finalized.
    Until DOD has fully implemented our recommendations in each 
of these five issue areas, we will not be in a position to 
ensure adequate management and oversight of contractors in Iraq 
and Afghanistan.
    Lastly, in addition to challenges from ongoing operations, 
much remains to be done to institutionalize a DOD-wide approach 
to overseeing operational contract support.
    DOD has taken some actions, such as to establish a focal 
point for DOD's efforts to improve contract management and 
oversight at deployed locations. In addition, the Department 
has issued a variety of contractor-related guidance.
    However, other guidance, such as the expeditionary contract 
policy and an update of the DOD instruction on contractors 
accompanying the force has yet to be finalized. Further, 
ongoing work has also shown that the Department continues to 
face challenges in identifying contractor requirements in its 
plans for future contingency operations.
    Until DOD institutionalizes operational contract support 
into its guidance, training and planning, the Department will 
likely continue to confront the challenges it faces today in a 
future contingency. That concludes my statement. I would be 
happy to answer any questions.
    [The statement of Mr. Solis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                     CONTRACT SUPPORT REQUIREMENTS

    Mr. Dicks. What do you have to say about that, Mr. Assad?
    It sounds like we just did this on the wing, that there was 
no institutional framework within the Department to figure out 
how you would hire contractors when you have to deploy in a 
wartime contingency. Am I wrong? Was there any basis, existing 
organization, any thought given to what happens if we have to 
have contractors and we are in a foreign contingency?

                  CONTRACTING OFFICER REPRESENTATIVES

    Mr. Assad. When we went back into Iraq in 2004, Mr. 
Chairman, there were a lot of challenges. There were a lot of 
unknowns. But as we talk today--for example, Mr. Solis just 
referenced contracting officer representatives. Our fill rate 
now in contracting officer representatives is at 96 percent in 
Iraq. We believe we need 719 of them, we have 693 CORs with 
their boots on the ground.
    One year ago, we had a fill rate in Afghanistan of around 
46 percent. Today, our fill rate is 88 percent. Again, we think 
we are making some significant progress, but Mr. Solis is 
right, when we first got our boots on the ground----
    Mr. Dicks. Remember, we have been in Afghanistan since 
October of 2001.
    Mr. Assad. Yes, sir.
    Mr. Dicks. And we have been in Iraq for a long period of 
time.
    I mean, I must tell you, when we have asked questions of 
people up here about contractors--Ms. Kaptur being one of the 
leaders on this--it was like it was some mystery; well, we 
don't know how many people we have. It was very worrisome to 
me. And for a long time we couldn't even get the numbers. It 
was like--I wouldn't say a cover-up. I mean, it wasn't even 
that good. I mean, there just didn't seem to be anything real 
there. And it looks like now, 9 years into Afghanistan, and 
2003 in Iraq, we are now getting something in place. A year ago 
we had about half of what was necessary.
    I just hope that we learn from this so that if we have 
another contingency down the road, that we have an organization 
within the Department that can deal with the contractors and 
let us know how many people are involved and what the plan is, 
why you are doing it. Who decides it? Who decides, what should 
we have contractors do and what should we have the military and 
the civilians do? Who decides that?

             JOINT CONTINGENCY ACQUISITION SUPPORT OFFICER

    Mr. Assad. What we didn't have in place several years ago, 
Mr. Chairman, was something called the Joint Contingency 
Acquisition Support Officer, the JCASO. They are now called 
logistics and capability planners; they are actually resident 
with the combatant commanders to enable them to understand what 
is the contracting capability, given a specific war plan, that 
will be necessary? How will we go about contracting for it? How 
will we in fact be able to address a contingency operation?
    We didn't have that in place several years ago. We now have 
it in place. It has been in place for about a year. We just saw 
in Haiti where that process worked very well, where the Army 
was able to put contracting officers on the ground almost 
immediately to address the contracting concerns that our 
operational forces needed because they were able to do the 
planning involved.
    So the answer is, who is deciding what the capability is, 
that is the combatant commander's decision to decide what his 
force, his logistics, his J-4, if you will, his chief logistics 
officer planning how much of a capability do we need, how much 
of that will be inherent to the service, and how much of that 
will be contracted for; we can do that now.
    Mr. Dicks. So you are telling me that, going forward--and 
Haiti is a good example, we were talking about this yesterday 
with General Petraeus, who thought that another contingency, 
what about Haiti? We were able to respond. We have the 
equipment. We didn't kill ourselves. But I think this is 
important. I think it is important that this be part of the 
planning the Department does. They have war plans over there 
for every possible contingency----
    Mr. Assad. Yes, sir.

                     CONTRACT SUPPORT REQUIREMENTS

    Mr. Dicks [continuing]. But you have to have how much of 
this are you going to do with military and civilians, and how 
much are you going to do with contractors? And you have got to 
be able to explain it to people, because if you don't, if you 
can't explain it, then it looks like we are trying to do things 
with contractors so we keep the numbers down so it doesn't look 
like we are spending that much money, or whatever it is.
    I just think that this is one where we really need to keep 
this in place. So, hopefully, some day when we are out of Iraq 
and Afghanistan, I just hope this doesn't wither away and be 
forgotten because it is something that is very important. The 
American people have a right to know how many people we are 
contracting to. And the most important thing is the Inspectors 
General gave us all kinds of reports early on about all the 
fraud, waste and abuse and everything else that accompanied 
these contracts, which also was upsetting to this committee and 
to the American people.
    Mr. Frelinghuysen.

              JOINT CONTINGENCY ACQUISITION SUPPORT OFFICE

    Mr. Frelinghuysen. Mr. Assad, you prefaced your comments in 
the beginning by saying that this is all about what we need to 
do to support our soldiers, Marines, airmen, SeaBees in the 
field. And so, to some extent, the reason we have these 
contractors has a lot to do with, in some cases, while they may 
be protecting themselves, in some instances these contractors 
are used to protect them. Is that accurate?
    Mr. Assad. Yes.
    Mr. Frelinghuysen. And our Army still moves on its stomach, 
so unless you want private first classes doing KP, we have for 
a long time relied on private contractors. What is the acronym, 
the Joint Acquisition Workforce, what is that acronym that 
someone referred to?
    Mr. Assad. JCASO, the Joint Contingency Acquisition Support 
Officer.
    Mr. Frelinghuysen. These are civilians?
    Mr. Assad. They are civilians. They could be military.
    Mr. Frelinghuysen. But are they associated with each one of 
your organizations?
    Mr. Assad. No. They are coming from the Defense Logistics 
Agency. They are under the Defense Logistics Agency, and they 
are resident with the combatant commanders.
    Mr. Frelinghuysen. All right. So those that are civilians 
there, do they volunteer, or are they told that they have to 
go?
    Mr. Assad. No, this is their job. Their job is to be 
logistics----
    Mr. Frelinghuysen. This is their job. So it is not like 
when we have problems with getting people from the State 
Department to volunteer?
    Mr. Assad. That is correct, yes.
    Mr. Frelinghuysen. They have to go. They are obligated to 
go.
    Mr. Assad. Yes, sir.
    Mr. Frelinghuysen. Who protects them?
    Mr. Assad. Our military.
    Mr. Frelinghuysen. Are any of them protected by 
contractors?
    Mr. Assad. I don't believe so, no.
    Mr. Frelinghuysen. So they are protected by the units in 
which they are imbedded.
    Mr. Assad. That is correct.

                  CONTRACTING OFFICER REPRESENTATIVES

    Mr. Frelinghuysen. So the acquisition workforce that we 
talk about is 719 in total, or is that the number that have 
been added to the existing group that is there?
    Mr. Assad. No. The contracting officer representatives, 
sir, are actually soldiers and Marines in the field. They are 
part of their fighting units.
    And an ancillary duty that they have, that the Army and the 
Marines are now training their folks before they get their feet 
on the ground, is--
    Mr. Frelinghuysen. So it is part of their MOS; it is part 
of their military assignment.
    Mr. Assad. That is correct.

         SYNCHRONIZED PRE-DEPLOYMENT OPERATIONAL TRACKER (SPOT)

    Mr. Frelinghuysen. The technology that is available to 
assist, whatever happened to the so-called ``synchronized pre-
deployment and operational tracker,'' the acronym being SPOT?
    Mr. Assad. The acronym being SPOT. We will have fully 
mechanized--in other words, everybody that is in theater will 
be fully mechanized under SPOT.
    Mr. Frelinghuysen. Is that a database?
    Mr. Assad. Yes. It is an automated way for us to track our 
contractors.
    Mr. Frelinghuysen. So what exists now, and what has existed 
in the past?
    Mr. Assad. SPOT does exist, it is just that there are some 
contractors who we do not yet have in an automated way into the 
system so we are putting them in right now.
    Mr. Frelinghuysen. So how are they tracked?
    Mr. Assad. They are tracked manually and fed into SPOT on a 
manual basis.

                     COUNTING CONTRACTOR PERSONNEL

    Mr. Frelinghuysen. As we move towards 50,000 soldiers and 
Marines, et cetera, in Iraq, how many ``contractors'' do we 
have in Iraq today?
    Mr. Assad. Well, we have over 100,000 in Iraq today, about 
101,000 in Iraq today.
    Mr. Frelinghuysen. And what portion of those contractors 
are foreign nationals?
    Mr. Assad. Approximately 80 percent are foreign nationals.
    Mr. Frelinghuysen. Is there a strong likelihood that we 
won't need to depend on those as our military forces are 
reduced?
    Mr. Assad. Yes. I should correct that. Of the 100,000 in 
Iraq, Mr. Congressman, 50,000 or about are third country 
nationals; about 20,000 are local. So about 70,000 contractors 
are not U.S. citizens of the 100,000 that are in Iraq.

                CONTRACTOR COMPONENT OF FORCE STRUCTURE

    Mr. Frelinghuysen. What type of work are they doing?
    Mr. Assad. For the most part, they are doing logistic 
support, dining facilities, laundry facilities, about 83 
percent.
    One of the other things that the Secretary of Defense and 
the Chairman of the Joint Chiefs of Staff directed was that the 
Joint Staff do an extensive study on the dependency of the 
fighting force on contractors. What kinds of contractors do we 
have? Is that the right mix?
    Mr. Frelinghuysen. What is the right mix?
    Mr. Assad. Well, the mix will change, but about 83 percent 
right now is logistics-related functions.
    Mr. Frelinghuysen. You have been an observer of this for 
some time.
    Mr. Assad. About 150,000 of the 200,000 contractors in Iraq 
and Afghanistan are doing logistics functions.
    Mr. Frelinghuysen. Do you think that is the right mix?
    Mr. Assad. Yes, I do.
    Mr. Frelinghuysen. There is a perception around the 
committee here--and you haven't had the benefit of our 
exchange--that as we reduce our footprint in Iraq, that we are 
going to somehow miraculously go from 100,000 contractors down 
to something which is perhaps parallel to what we have with 
boots on the ground.
    Mr. Assad. Well, that could very well happen. If you are 
going to have contractors, there is no doubt that the vast 
majority are going to be in the logistics environment, and in 
that particular case, no doubt most of them in light support 
services. That is what most of them are doing.
    The other significant element of contractors is building 
partnerships, translators, things of that nature. That is the 
next largest size of contractors.
    Mr. Frelinghuysen. Well, they are indispensable. You don't 
want to leave our force with no way to communicate.
    Mr. Assad. Yes, sir. So those are the two principal, of the 
200,000 contractors, about 165,000 are either doing logistics 
work, about 150,000, and about 14,000 or 15,000 translators 
doing what we call building partnerships.
    Mr. Frelinghuysen. That is interesting.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Moran.

                   INHERENTLY GOVERNMENTAL FUNCTIONS

    Mr. Moran. Thank you, Mr. Chairman, for having the hearing.
    Mr. Assad, nice to see you again. It is nice to see you 
other guys, too, but I don't know you like I do Mr. Assad, but 
I will make a point of doing that before I leave.
    Mowing the grass is not an inherently governmental 
function, cleaning the windows, or many of the logistical 
functions that you refer to.
    On the other hand, evaluating other contractors' bids is an 
inherently governmental function. Any number of auditing 
functions, budgeting functions, it seems to me that the role of 
lead integrator is a contractor function. Because for 
contractors to play those roles, there is an inherent conflict 
of interest, either direct or indirect. What we need from the 
Office of Management and Budget is a clear definition of, what 
is inherently governmental? We don't have that definition yet, 
do we?
    Mr. Assad. No, sir. But I do know, Mr. Moran----
    Mr. Moran. Still working on it?
    Mr. Assad. Well, I have actually seen a draft of it.
    Mr. Moran. Really?
    Mr. Assad. Yes. The Administrator of the Office of Federal 
Procurement Policy has that draft. It is in coordination. And I 
do believe that they are getting ready to publish that 
direction to all of us.

                               INSOURCING

    Mr. Moran. That would help a lot.
    As you know, one of the problems in this transitional 
period, from over-reliance upon contracting to bringing people 
in house, in-sourcing, as they say, is that it has been done in 
an inconsistent fashion.
    Some managers get it right away, and they bring in as many 
people as they can. Others resist it and don't. The problem is 
some of those who have been bringing people in have been going 
to contractors that performed well services that were needed by 
the government and have undermined those contractors who have 
spent a good deal of money on training and capital equipment by 
simply offering employees as much money as they were being paid 
in the private sector but letting them know, you really don't 
have an option because we are going to hire these folks out 
from under this contract; if you want a job, you had better 
come in-house. That doesn't seem fair either. As much as we 
have tried to balance between the appropriate roles for 
contractors versus those of government personnel, we want to do 
it in a fair and a rational and a sustainable way.
    Now, do you have some thoughts on how we can rectify some--
I don't want to call them abuses, but at least inconsistencies 
that have occurred in the last year?
    Mr. Assad. Yes, Mr. Moran. First of all, I think that what 
we need to ensure is that, as we make these insourcing 
decisions, that in fact we have made a careful assessment of 
the inherently governmental function that we are looking to 
build or the skill set that we are looking to bring into 
government and that there is a purpose and reason to it.
    I agree that just insourcing for the sake of insourcing is 
not what we are trying to do within the Department. And 
frankly, as we have discussed in previous sessions, it borders 
on being unethical to try to entice people to come to work with 
the idea that somehow they are going to lose their job if they 
don't decide to come into government employment. That is not 
the way we want to do business.
    Mr. Moran. Are you going to try to rectify that through 
some guidance that is sent out to management?
    Mr. Assad. Absolutely.

                         ACQUISITION WORKFORCE

    Mr. Moran. Very good.
    Now, Chairman Murtha suggested that, given the problems we 
have had with acquisition personnel, the lack of quality and 
quantity of acquisition personnel when we had half what we 
had--in the year 2000, for example, we wound up, after Duncan 
Hunter pursued his policy of having them cut by 50 percent, 
they were, but contracts had gone up by at least that, at least 
double, while we were cutting acquisition personnel in half.
    That didn't make any sense. So we wanted to quickly grow 
the number of qualified acquisition personnel, and yet when we 
suggested using GSA personnel, who seemed to have transferable 
talents, you were the one who resisted that, Mr. Assad, I am 
told by the contractors.
    Now, is that a fair accusation?
    Mr. Assad. That is inaccurate. I didn't resist it. What I 
simply said to my brothers and sisters in the other agencies 
that could assist us in doing contracting was they needed to 
come forward with the particular skill sets that we needed so 
that we could take advantage of them. And some organizations 
did. The Department of the Interior and their National Business 
Center has done quite a good job in supporting us.
    GSA has also done an outstanding job. It was just in that 
particular instance, GSA, frankly, came to us and said, hey, we 
just don't have the kinds of folks that we can simply transfer 
over to do it. There were some unique skills that we needed. 
They were already supporting us, and the folks at GSA do a fine 
job supporting us.
    Mr. Moran. You are using that past tense. We are going to 
fix this in terms of acquisition personnel, right?
    Mr. Assad. Yes, we are.
    Mr. Moran. We are going to bring in the quantity and 
quality we need, whatever it takes.
    Mr. Assad. Yes. And also, we are going to take advantage of 
our sister agencies who have capabilities that we can leverage 
off of. That just makes all the sense in the world, and we are 
doing that.

                      COMMON ACCESS (CAC) CONTROLS

    Mr. Moran. I have one more question.
    I don't know whether it was your fine organization, Mr. 
Solis, or the Inspector General, but this committee was given 
information that there were contractors who were issuing common 
access cards, and many of those common access cards went to 
people they shouldn't have, and a whole lot of them were never 
returned.
    The problem is that, as we have people invariably who want 
to get on to military bases, for example, the easiest way is to 
get themselves a common access card. So this committee had 
substantial concern over the integrity of those common access 
cards, and we didn't get any satisfying answers when we asked 
about this. There were tens of thousands of people, many of 
them nationals in the country where we were located, who had 
these cards, and they never got turned in. Do you see it as any 
kind of a security threat? And if so, how are you handling it?
    Mr. Solis. We haven't looked at this issue, it must have 
been the IG. But we are aware of the issue.
    To go to my statement, I think one of the challenges--not 
necessarily for CAC cards, but just in general background 
screening and badging, I think, particularly when you have a 
lot of local nationals, third-country nationals supporting the 
war fight.
    Mr. Moran. Well, I see this extraordinarily good staff has 
a question on it, and it was the DOD IG, but it could have been 
GAO as well, I know you share that concern.
    Any other thoughts on that before I finish questioning? 
Okay. Thank you.
    Thanks, Mr. Chairman.

                CONTRACTOR COMPONENT OF FORCE STRUCTURE

    Mr. Dicks. Let me ask one quick question, and then I will 
go to Mr. Kingston.
    And this is for Mr. Parsons.
    When DOD talks about contractors being part of the total 
force, what does this mean to the Army? And what steps has the 
Department taken to implement this concept?
    Mr. Parsons. Sir, as Mr. Assad said, in parallel with what 
the Joint Staff has been doing in looking at the extent of 
contractors being used to support operations, so has the Army. 
I think what is really important--and you spoke to this 
earlier--is, how do you do the planning for what you need in 
terms of contractor support? And then just as importantly is, 
what things do you put in place to do proper execution in the 
management of those contracts? That is really where the Army 
has spent a lot of time.
    We now have these Contracting Support Brigades which fall 
under my Expeditionary Contracting Command. Each one of those 
brigades supports an Army Service Component Commander, which 
would support a Geographic Combatant Commander. And their 
primary purpose is to work with that Army Service Component 
Commander in determining what their contract support 
requirements are going to be to support a given operation, 
whether it is a contingency operation or a full blown 
operation.
    Mr. Dicks. But are we really calling contractors part of 
the total force? Is that now part of our definition? Is that 
correct?
    Mr. Parsons. Sir, I don't know if that is the Army's 
official position, but I can tell you that the contractors are 
a large part of----
    Mr. Dicks. It used to be the active duty Army, the National 
Guard, and the Reserves, but we hadn't heard about the 
contractors being put into that definition. Now, maybe that is, 
you know, if you have 207,000 people over there, maybe it 
should be in that definition. I am not saying that that is not 
implausible, but I just was interested the first time I had 
seen that phrase used.
    Mr. Parsons. Sir, I think it is recognition by the Army 
that the contractors provide essential services which enable us 
to execute our mission. So we want to treat them as part of, 
what do we need to do to execute our mission?

                COST EFFECTIVENESS OF CONTRACTOR SUPPORT

    Mr. Dicks. Have we ever looked at, is it cost effective?
    Mr. Parsons. I think it is. I think that the use of 
contractors is cost effective, especially supporting----
    Mr. Dicks. Have we done any studies on that, any analysis 
on that?
    Mr. Parsons. Sir, I know that several years ago, OMB had 
taken a look, especially at the LOGCAP contract, whether that 
approach was cost effective. I am not aware of any internal 
studies that have been conducted.
    Mr. Dicks. And the outcome was?
    Mr. Parsons. As I recall, they felt that for contingency-
type operations, like we have over in Iraq and Afghanistan, 
that there was cost effectiveness to using the contractors. But 
getting to Mr. Solis's point----
    Mr. Dicks. And we have had a shortage of troops, there is 
no question about that. So it would put more stress on the 
force if you had to have active duty forces or Guard and 
Reserve forces doing these jobs.
    Mr. Kingston.

                          ROLE OF CONTRACTORS

    Mr. Kingston. Thank you, Mr. Chairman.
    I want to follow up with those questions, Mr. Parsons, 
because I think that we should recognize the important role of 
contractors. And I am willing to believe it is cost effective 
because I would think if Uncle Sam pays a military person to 
learn how to operate Strykers and rolling over Humvees and all 
kinds of high-tech stuff, that that person has hundreds of 
thousands of dollars worth of training in him compared to 
somebody who is serving in a food line. It would make sense 
that, if you could farm out the person serving the food and 
keep the specialist on the front line, it is a cost-effective 
way to do things.
    However, I am a little bit surprised that somebody who 
supports that position, that we don't have more kind of a, 
frankly, a hell yes, it is cost effective, look at this, show 
me the math. And so as somebody who is pro-contractor, I would 
like to see that math. And I would be very surprised if it did 
anything but showed a strong case for it.

                   SECURITY IMPACTS COMMODITY PRICES

    Now, having said that, I would also like to think that if I 
asked you what a gallon of gas cost in Kabul in January of 
2002, you would be able to tell me because it was probably 
brought in by a contractor, and how much is a gallon of gas 
today in Kabul, because we are so many more years into the war, 
it would appear to me that we would still be using contractors 
to get that gas to us, but that the price would reflect the 
threat. Is that the case, and is somebody watching something 
like that?
    Mr. Parsons. Well, sir, I can't answer you----
    Mr. Kingston. And I am just pulling gas out of the air, but 
I would say the same thing with the bread and the bologna and 
anything else that is being put in there for the troops.
    Mr. Parsons. I can't address your specific question on the 
fuel or even any given commodity, but certainly what we have 
seen is that the cost of items really is a reflection of what 
the environment is and also to the extent that we have 
competition going on.

                      AVAILABILITY OF COMPETITION

    Mr. Kingston. Well, because I think--originally the first 
premise was, we have a war to fight, get me a gallon of gas, 
and I am not going to bid this thing out. But 2 or 3 years down 
the road, you start saying, the war is still going on, I want 
to have more than one vendor. And it would be the same with any 
commodity. Again, I am just picking on gas. But isn't it a 
French company that feeds a lot of the troops over there? Isn't 
Gefco the company?
    Mr. Assad. No, sir, it is LOGCAP. It is under a particular 
contractor.
    Mr. Kingston. Is it Kellogg, Brown, and Root?
    Mr. Assad. Kellogg, Brown, and Root (KBR) does some of it 
in Iraq, other contractors do it in Afghanistan.
    Mr. Kingston. But you have a lot of vendors you can choose 
from on the----
    Mr. Assad. Yes. Let me address that, Mr. Kingston, if I 
might.
    The amount of competition that is going on in Iraq and 
Afghanistan right now by the Joint Contracting Command is about 
97 percent. So 97 to 98 percent of the dollars that the Joint 
Contracting Command is issuing in theater to local companies is 
fixed price, and it is done on a competitive basis. So our 
soldiers and Marines and sailors and airmen that are doing the 
contracting on the ground--and General Camille Nichols is their 
commander--is absolutely focused on trying to get good value 
for the taxpayers. So your point that we ought to be able to do 
that----
    Mr. Kingston. I am not interrupting you because I disagree 
with you; I just have a lot of questions in a short period. But 
I think that is something very important to say, if you say 97 
percent of the items or the contractors have gone through 
competitive bid.
    Mr. Assad. That is correct. That is being done by the Joint 
Contracting Command.
    Mr. Kingston. But I think we also have to understand our 
first demand of the contractors was to get it done, and then 
further, the secondary question was get it done cheaply or get 
it done competitively.
    Mr. Assad. That is correct.

                COST EFFECTIVENESS OF CONTRACTOR SUPPORT

    Mr. Kingston. The second question I wanted to ask is, when 
we send a civil servant over there, isn't the multiplier on 
their domestic salary about double?
    Mr. Assad. No, I don't think so, sir.
    Mr. Kingston. Well, I happen to have asked that question 
when we were in Afghanistan to one of the government agencies, 
and that is what they told me: For their employees to go over 
there, the package is about twice what they would pay here.
    Mr. Assad. Well, I guess if you were going to add in the 
per diem and the travel and all of that, that could be true.
    Mr. Kingston. The reason why, getting back to Mr. Parsons 
and this cost efficiency information, is that would be 
relevant, too, for us to know that if you have somebody who is 
doing a nonmilitary kind of function but supporting a civilian 
government transition, that if we get a Federal employee to do 
it, you are doubling their salary; whereas a contractor might 
be just as capable and less money. I happened to ask about a 
particular agency, I don't want to pick on them at the moment, 
but it was twice.
    Mr. Assad. But I don't think it would be cheaper to go to a 
contractor versus a government person. Having said that, most 
of the civilians that we have in theater, it is very limited. 
The reality is, to do contracting on the ground, we are 
training soldiers and Marines and airmen to do that. Those are 
the folks that are doing it. That is who we intend to do it in 
the future. We do have a limited, but very limited, number of 
civilians in theater assisting them, but the reality of life 
is, in a combat situation, we are going to have to depend upon 
uniformed men and women to do that work, and they do a 
marvelous job at it.
    Mr. Kingston. Well, one of the keys to victory right now in 
Afghanistan is bridging the gap between the military victory 
and the civilian transfer, and so there are going to be holes 
in there. That might not be your Department, so to speak, but 
that is something that is more and more important is, how much 
does it cost to send civilians over there?

                    CONTRACT WORKFORCE COMPENSATION

    Now, the other question I have is, if you are hurt and you 
work for a contractor, how is your workers' compensation paid? 
Who pays it?
    Mr. Assad. Well, the workers' compensation would be paid by 
the company that is involved.
    Mr. Kingston. No, it is actually not. As I understand it, 
they actually come under the U.S. Longshoreman law.
    Mr. Assad. No, Congressman, I would have to take that for 
the record, but I believe that----
    Mr. Kingston. I don't know if there is anybody who knows 
that, because I am just asking.
    Mr. Assad. I don't believe it is paid by the Longshoreman's 
Act.
    [The information follows.]

    The Department of Labor's (DoL) Office of Workers' 
Compensation Programs (OWCP) is responsible for overseeing the 
provisions of the Defense Base Act (DBA) and the War Hazards 
Compensation Act (WHCA). The DBA is an extension of the 
Longshore and Harbor Workers Compensation Act. The DBA covers 
all workers, regardless of nationality, who are injured or die 
while working overseas under contract to federal agencies. Like 
state workers' compensation systems, benefits under DBA are 
primarily paid by private insurance companies. DoL oversees 
benefit delivery by receiving and monitoring reports of injury 
and of benefit payments, and providing dispute resolution 
services. Cases where the parties are unable to resolve the 
issue in dispute are referred to a DoL administrative law judge 
for adjudication.

    Mr. Kingston. Well, I actually worked a case in my office 
of some employees who were injured, and they were Blackwater or 
some--they were really a high-stress thing, but they were paid 
under U.S. Longshoreman. And the contract with the company 
actually does not pay their workers' compensation; the 
government gets involved in it. But it is sort of an orphan 
thing.
    One of the things that is important to me, and I really 
would like you to get back to me, is who is making sure that 
these folks are paid for their injuries? And I will give you a 
full case on one that just shows some people who are really out 
there and giving it their all, and they were injured and never 
paid, or paid months to years afterwards.
    Mr. Assad. Yes, sir. I can tell you that we do not, in 
practice, follow what employers do with their individual 
employees as it relates to injury, but I believe the actual 
execution is that the company is reimbursed for that workers' 
compensation payment by the functions that you are talking 
about, but I believe the company is responsible.
    Mr. Kingston. In fact, Mr. Chairman, I will yield on this, 
but we actually put report language in the bill last time to 
get some people who had been injured or hurt, but it is a 
really illogical way that--a lot of boxes have to be checked 
before they get paid. And just from a human standpoint, I don't 
think we are doing these people much----

                CONTRACTOR COMPONENT OF FORCE STRUCTURE

    Mr. Dicks. Mr. Solis, do you have any idea about this?
    Mr. Solis. No, I don't. Actually I just wanted to go back 
to one issue you raised about contractors being recognized as 
part of the total force.
    It has been in the actual Joint Guidance, in that guidance 
since 2000. More recently, in 2006, I think it was reemphasized 
that contractors are part of the total force in the 2006 QDR. 
So there is recognition by the Department that they are going 
to be part of the total force, along with the active military, 
the Reserve, the Guard, as well as DOD civilians.
    Mr. Kingston. Thank you.
    Mr. Dicks. Thank you for that explanation.
    Mr. Bishop.

                           CONTRACT OVERSIGHT

    Mr. Bishop. Thank you very much, Mr. Chairman.
    And thank you, gentlemen, for being here today.
    I want to, in relation to contracting, talk a little bit 
about the resources that you have available and that you are 
actually utilizing to make sure that you have sufficient 
contract officers and sufficient auditing to deal with fraud, 
waste and abuse.
    A few months ago, I was contacted, through my constituent 
service office, by a contractor over in Kuwait who had lost his 
job, which he felt on a pretext. He was an engineer for 
maintenance for one of the contractors that was charged with 
responsibility for making sure that the living quarters for the 
troops were habitable. This was some time after the trooper was 
electrocuted in the shower. He indicated that his job was to 
make sure that those kinds of things did not happen, and that 
he had to sign off on the repairs.
    In his particular instance, he refused to sign off on some 
when his supervisory people said he should. Long story short, 
he wouldn't sign. It created some bad will. He was eventually 
let go because they alleged that he had claimed work time when 
he was actually off. He was called in from on his day off, had 
to go through the security check, which was documented, which 
could be documented by the contractors--same contractor who 
also had the gate security contract. He signed in, did 
everything, was registered. Once he got in, he did the work, 
came out, and signed out. When pay time came, he was charged 
with collecting the pay for not being present, and of course, 
they said that he could not document being present. And he 
said, well, you have the records when I came in to work.
    Long story short, he loses his job, calls us to see if we 
could help him. In the process of talking with him and his 
wife, they identify what they consider to be fraud, waste and 
abuse; that in the performance of that contract, they billed 
for two and three times the work that they are supposed to be 
doing, so that the government is actually being billed two or 
three times more than it should be.
    So my question to you is, in connection with these 
contractors, do you have a sufficient auditing force? Do you 
have sufficient ears to listen to whistle blowers? Or is the 
contractor--as in this particular case, the contractor was in 
the position to stop this individual from being able to prove 
that he was at work because he also controlled the access 
records to the base. So he was not in a position to prove that 
he was actually there because they would not give him access to 
those records.
    His wife, of course, was also employed by the same 
contractor. She was reluctant to speak up too much because, 
with a two-worker family, with one of the bread winners out of 
work, she doesn't want to raise too much, I understand, under 
those circumstances, because they have kids.
    My question is, what about oversight? What about access for 
whistle blowers? How are you auditing? Do you have sufficient 
auditing capacity to make sure that when the government is 
billed, it is for work actually done?
    Mr. Assad. First of all, Mr. Bishop, I believe we do have a 
number of avenues that people can access if they believe that 
there has been some type of inappropriate behavior--
overcharging, mischarging, whatever it might be--whether it be 
the Special Inspector General for Iraq Reconstruction (SIGIR), 
whether it be the IG, whether it be the GAO, Defense Contract 
Audit Agency, Defense Contract Management Agency, but we have 
several different organizations where people can get access to 
identify those things.
    We have spent a significant amount of time training our 
contracting officers to be sensitive to and in fact have put 
into play several different scenario-based environments where 
they can understand potential fraud environments that they 
should in fact report. So if your particular constituent, 
frankly, if he would notify me, we will make sure that it gets 
to the appropriate authorities in order to be properly 
investigated.
    It is a challenge to keep people on the ground. DCAA has 
about 30 folks resident in both Iraq and Afghanistan, 30 and 
30, about that, and they continue to rotate their people 
through. Make no mistake about it, it is challenging to keep 
people there, but we are doing it. And DCAA is comfortable that 
they have got sufficient resources to properly audit the 
invoices and the work that is being done.
    Jeff, do you want to say anything about it?
    Mr. Parsons. Yes, sir. I would just add that, in Kuwait, 
where we did have some issues with some procurement fraud, we 
went even to the extent of making posters that we put all over 
the installations so that not only government people, but 
contractors too, would be familiar with the procedures for 
notifying the proper authorities where they were concerned that 
there might be some fraudulent behavior going on, but the 
contractors, too. In fact, the CID, the Army Criminal 
Investigation Command, has folks over in Kuwait, Iraq, 
Afghanistan, and many of the leads that they get for a lot of 
the procurement fraud are from company employees. So we do 
encourage company employees to come forward.
    Mr. Bishop. The staff does have, I think, the documentation 
on this particular case, but the individual was severely 
handicapped because once he lost his job, he lost access to the 
base. Because they lived actually off of the compound, he had 
no longer had access to it. So there was no way he could do any 
documentation for himself, let alone for the whistle blower, 
other than based on his knowledge and that of his spouse.
    So if you would like that information, I think the staff 
can provide you with that.
    Mr. Murtha, on his last trip to the theater, I had 
discussed it with him, and he had intended to actually look 
into it personally--he likes to visit with troops and with the 
individuals--but during that trip, because of the busy 
schedule, he was not able to do that. But the staff does have 
that information, and we would like to share it with you. And 
for whatever it is worth, if you could look into it; you have a 
contractor employee that lost his employment, had no recourse 
really.

                    CONTRACT FRAUD, WASTE AND ABUSE

    And then the other issue, which is the bigger issue for our 
purposes, is how do you control that fraud, waste and abuse? 
Over the years, this subcommittee has actually tried to provide 
more resources because it was painfully obviously that there 
were not enough.
    Mr. Parsons. Sir, I want to tell you that the Army CID is 
increasing the number of agents that they have. And, again, 
when the employees will come to the agency with the merits of 
the issue, then the government has a right to go in and get 
some of the documentation that might be relevant. So we really 
do encourage them to come forward.
    Mr. Dicks. Thank you.
    Ms. Kilpatrick.

                       REPORT ON CONTRACTOR FRAUD

    Ms. Kilpatrick. Thank you, Mr. Chairman. Good afternoon, 
gentlemen.
    One of the responsibilities of our subcommittee is 
obviously to protect the People's purse and to provide the 
Defense Department, Pentagon, and others with all their needs 
so that the young men and women survive and live again after 
they finish their tours and that we are defended as the 
Constitution requires.
    Sitting on the committee for the last year or so, 
contracting has been one of the things that we have talked 
about a lot. In this 2010 Defense Bill, there is language in 
there that a report is due by March 15 on fraud and has 
specific things that it asks for, including the total 
assessment by Defense contractors and all that. Has that report 
been received by our committee?
    Mr. Assad. Ms. Kilpatrick, I believe that that report is to 
be submitted by the IG. We will take it for the record and 
certainly get you an answer.
    Ms. Kilpatrick. Please.
    Mr. Chairman, do you know if we have received that report?
    Mr. Dicks. No, we haven't received that report.
    [The information follows:]

    The Department submitted an interim report to the 
appropriate Committees on April 5, 2010. The interim report 
identifies some of the significant initiatives the Department 
has undertaken to address policies and safeguards against 
contractor fraud. We expect the final report addressing all the 
issues raised in the Joint Explanatory Statement to be 
furnished to the Committees around the July/August 2010 
timeframe.

                          CONTRACTOR PERSONNEL

    Ms. Kilpatrick. We appreciate it. Thank you, Mr. Assad, if 
you would check for us.
    Secondly, you mentioned logistics contractors, translation 
contractors. Another area would be deployed contractors, or are 
they included in these two? Is that a third category? I am 
trying to distinguish who is military, who is not, 
logistically; who is in the service, who is not. The numbers we 
have is 169,000 are military service men and women personnel.
    Mr. Assad. Well, for translating, building partnerships we 
call----
    Ms. Kilpatrick. Wait, wait, wait. There are more 
contractors than there are military personnel; 207,000 are 
contractors. The 169,000, I am assuming they are deployed in 
your three categories, is that right?
    Mr. Assad. Yes. In the logistics area, we have 150,000 
civilians working in the logistics area, and 31,000 military, 
that is in logistics.
    Ms. Kilpatrick. You said that about a half hour ago. I am 
talking about the deployed number.
    Mr. Assad. That is what I mean, deployed.
    Ms. Kilpatrick. So the deployed number is not necessarily 
who are boots on the ground?
    Mr. Assad. No, deployed is the military on the ground.
    Ms. Kilpatrick. And it is not 169,000; it is 150,000?
    Mr. Assad. Well, it is 150,000 civilians in logistics.
    Ms. Kilpatrick. I just left Iraq.
    Mr. Dicks. I think what he is saying is those are the 
employees of the contractor, the 150,000, right?
    Mr. Assad. That is correct.
    Mr. Dicks. So they work for the company. They are doing 
logistics. And we have 31,000 military working with them.
    Ms. Kilpatrick. 31,000 military means a part of the 
military service for the United States of America?
    Mr. Assad. Yes, ma'am.
    Ms. Kilpatrick. 31,000 of them, and 150,000 who work for 
contractors?
    Mr. Assad. In the logistics area. Like, for example----
    Ms. Kilpatrick. No, don't confuse me. I am just trying to 
understand. Thank you, though. That is why I want a report. I 
am a paper reader, kind of an airplane-rider kind of person, so 
I need something to hold on to. So I am looking for something 
to kind of distinguish so that we know. I have a little problem 
that there are only 30,000 enlisted and 150,000 contractors, 
because, again----

                CONTRACTOR COMPONENT OF FORCE STRUCTURE

    Mr. Dicks. Explain that. I think that is a good question.
    Mr. Assad. What I am trying to explain is that, is a 
particular area that we are very heavily dependent upon 
civilians. For example, in the area of command and control, we 
have six contractors and 3,882 military. So there are different 
types of environments that we need contractors, but dependent 
upon what it is, the ratio of military to contractors varies 
dramatically depending upon what the function is.
    Ms. Kilpatrick. I totally accept that. What I am asking is, 
how come we can't get that in writing? I am a school teacher by 
profession, kindergarten. Is that classified? There is no 
document that exists that tell us that, which is what I am 
looking for. What you just said--and that makes all the sense 
in the world, Mr. Assad, in terms of different jobs require 
different military and different contractors. It is hard for us 
to distinguish between them.
    One thing about the 435 in this body, 60-plus of us are on 
Appropriations, 16 on this committee; so the other 400 doesn't 
like this budget. They want to know, why is it so big? So they 
go after things they know nothing about. So it is our job to 
really explain it and keep the men and women safe and give them 
everything they need at the same time. So if we can't explain 
this--and what you just said is very good and understanding, 
but it is not enough for me to go back and teach it to the 
people we work with because they don't get it. And as the 
budgets are tight and getting tighter and you need more--and we 
may not be able to supply it--we better have a better grasp on 
it. We may need to change something. You may need to recommend 
some changes, but status quo is not going to be able to 
continue because America is suffering.
    Mr. Dicks. Will the gentlelady yield just for a second?
    Ms. Kilpatrick. Absolutely.
    Mr. Dicks. We have a quarterly report that is done that 
really lays this out pretty effectively. I think it is on your 
desk.
    Ms. Kilpatrick. I am real concerned--and thank you, I 
appreciate all the work that you do. I hope you understand our 
hard task as well. This committee, Chairman Murtha, as well as 
Chairman Dicks, is committed to giving you what you need. At 
the same time, it has got to be responsible, effective; and 
fraud, waste and abuse have to be eliminated, like we are 
trying to do. But I don't want us to tell you what that is. I 
want you to tell us what that is so we can act on it properly.
    Mr. Assad. Yes, ma'am.
    Ms. Kilpatrick. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Dicks. Ms. Kaptur.

                CONTRACTOR COMPONENT OF FORCE STRUCTURE

    Ms. Kaptur. Thank you, Mr. Chairman, for holding this 
hearing.
    Welcome, great to have you. I wanted to have you verify the 
numbers that Congresswoman Kilpatrick--just so I understand--
the number of contractors versus the military personnel in 
CENTCOM. The numbers I have are 240,000 contractors in CENTCOM, 
of which 207,000 of them are in Iraq and in Afghanistan. Now, 
what is the number of military personnel in CENTCOM?
    Mr. Assad. I can get that answer for you. I don't have that 
right off the top of my head.
    [The information follows:]

    As of March 30, 2010 the total number of military personnel 
is 227,945.

                            MILITARY SUPPORT

    Ms. Kaptur. That is all I have, sir. I just have 160,000 
military in Iraq and Afghanistan.
    Mr. Assad. We can get that for you for the record.
    Ms. Kaptur. Would you guess that the number of contractors 
are greater than the number of military personnel?
    Mr. Assad. Yes, that is true.
    Ms. Kaptur. How long, if one looks at a perspective from 
1946 till today, and one looks at regular personnel, military 
personnel versus contractor personnel, what would each decade 
tell us?
    Mr. Assad. Well, you know, it is very interesting that you 
mention that, because I was actually looking at a graphic that 
we had which went from war to war, and starting with the 
Revolutionary War. And it turns out that the least contractors 
we used were in World War II, and that was obviously because 
that was the most men and women that we had in service on the 
ground. That was about seven military to one contractor.
    Ms. Kaptur. World War II.
    Mr. Assad. But for the most part, they have run around one 
to one, and we can provide that information to you.
    Ms. Kaptur. Did it start in Vietnam?
    Mr. Assad. No, ma'am. We have been using contractors since 
the Revolutionary War.
    Ms. Kaptur. No, no. But the type of ratio we see today 
where they outnumber military personnel.
    Mr. Assad. No, ma'am. I think you will find that there have 
been several different wars where the ratio--for example, when 
we were in Bosnia, was about one to one. But when we were in 
the Gulf War, because it was such an intense effort and so 
quick, the 1990s-type Gulf War, it was almost 40 military to a 
single contractor, because we were in and out.
    Mr. Dicks. Because it was over so quickly.
    Mr. Assad. Yes, sir. Yes, sir.
    Mr. Dicks. The problem becomes when we stay there, then you 
have to feed people, you have to take care of them, you know. 
It is all the logistics to get them, bring their supplies in, 
the equipment in, and that requires a lot of people to do it.
    Ms. Kaptur. Well, you know, Mr. Chairman----

                COST EFFECTIVENESS OF CONTRACTOR SUPPORT

    Mr. Dicks. And what we have been kind of debating before 
you got here, is it more cost-effective to use contractors than 
if you had all those people working for the government? And 
there is some, I think, some of the opinion here is that it may 
well be less expensive to use contractors to do some of this 
work, because you don't have the tail of, you know, health care 
and pensions and everything else.
    And I am not saying that is right or wrong. I am just 
saying that the reality is this is the way they are doing it, 
and it is largely because we have been there a long, long time 
and you have to support the people.
    Ms. Kaptur. So I think we could say it is relatively unique 
in American history?
    Mr. Dicks. Could well be, yes.
    Ms. Kaptur. And therefore deserves particularly close 
inspection by all of us, because it is a----

                     COUNTING CONTRACTOR PERSONNEL

    Mr. Dicks. Well, if the gentlewoman would yield. The thing 
that bothered me--I remembered our trip when we were there in 
2007. We tried to ask people about--and it was just, everybody 
threw up their hands and said, we just don't know.
    I mean, the Corps of Engineers. We had a number of meetings 
trying to get some handle on this. Now, obviously, you have got 
a handle on it now. There is no question about that. You have 
got the numbers. You can tell us all that.
    But there was a lack, for a long time, at least I felt, 
there was a lack of clear evidence, information about this.
    Now, let's ask Mr. Solis. Do you want to comment on that?
    Mr. Solis. Yes. I think the numbers that we have reported, 
in looking at SPOT, are still not numbers that you could 
necessarily rely on. I think that the Census is another way of 
looking at it. But in terms of what goes in there, I wouldn't 
necessarily rely exclusively on those numbers.

              JOINT CONTINGENCY ACQUISITION SUPPORT OFFICE

    But I do want to come back to one thing about this planning 
for the future, because we need to look beyond Iraq and 
Afghanistan--and we talked a little bit about the JCASO, which, 
again, is a great concept.
    But in terms of where they are in staffing, I think they 
want to have about 30 people. I think they have five, and those 
five are contractors in terms of the planners themselves.
    Also as I alluded to in my testimony, in terms of where 
they are with planning for future conflicts and what is called 
the Annex W, our review showed that there is very little 
planning for those contractors in the operational plans at this 
point in time.
    And so the question then becomes after Iraq, after 
Afghanistan, what is the contractor footprint going to look 
like? I think the Department needs to consider this, because as 
I mentioned before, they are recognized as part of the total 
force.

                CONTRACTOR COMPONENT OF FORCE STRUCTURE

    Ms. Kaptur. Well, this is where I have a little bit of a 
problem. Others may not share this point of view. That is why I 
asked you about how unique this moment is in American history. 
I would not only say it is unique, I would say it is atypical 
and extraordinarily atypical to have this type of ratio, and 
what the force today means compared to past decades.
    One of the questions I would ask is: Of the 240,000 
contractors, how many of them are foreign nationals? We were 
told at one meeting that we have, oh, my gosh----
    Mr. Dicks. No, we have a briefing memo here. Make sure you 
see this. It has got the numbers on it.
    Ms. Kaptur. I don't know where that is.
    Mr. Dicks. Maybe your staff has it.
    Mr. Assad. Yes. It is about 75 to 80 percent foreign 
nationals.
    Ms. Kaptur. I mean, this has never happened before in our 
country, has it, this level of procurement of services from 
foreign nationals, as a part of whatever strategy we are 
implementing? And it has happened rather accidentally in a way. 
I don't think the American people for the most part know it, 
and it is an extraordinary development in my opinion. So I was 
just given this chart now.
    Mr. Dicks. I apologize. This was not available, I guess.
    Ms. Kaptur. Okay. Well, I thank the Chairman for this 
exceptional piece of information, because we can all reflect 
upon it.
    But I guess I just want to say that if the authorizing 
committees debated the nature of U.S. force looking like this, 
I guess I missed it during the floor debates.
    And whatever it is we are going to leave into the future in 
these places, it would seem to me it would behoove us to be 
much more--have much more foresight about what we are doing. I 
am very uncomfortable with this, with this turn of affairs in 
our country's history.
    Mr. Assad. May I make a comment? Congresswoman, I have had 
a good deal of experience in the commercial sector in building 
significant facilities overseas, and I can tell you it is not 
unusual to have life support being provided by third-country 
nationals in the country or local nationals in the country that 
you are raising it in, doing that kind of work.
    Ms. Kaptur. You were working for the private sector; right, 
sir?
    Mr. Assad. Sure. But I am saying----
    Ms. Kaptur. Okay. What type of company were you working 
for?
    Mr. Assad. It was a defense company, but it happened to be 
an engineering construction company.
    Ms. Kaptur. Were you building around the oil wells? What 
were you doing?
    Mr. Assad. No. We were actually building power plants. We 
were building oil facilities.
    Ms. Kaptur. In what country, countries?
    Mr. Assad. In India, in Saudi Arabia, in several other 
European countries, in China, in Taiwan. I mean, all over the 
world.
    Ms. Kaptur. But you were building it for private interests.
    Mr. Assad. Sure.
    Ms. Kaptur. But in this case, we are talking about the 
public interest.
    Mr. Assad. Yeah, but my point is that if you are going to 
contract for life support services in a foreign country, you 
are absolutely going to have to depend upon the local populace 
or third-country nationals to do that kind of work. It would be 
extraordinarily expensive to bring United States civilians 
overseas to do laundry services.
    Mr. Dicks. Will you yield just for a second?
    It is, I think, positive that we are hiring people from the 
country itself like Iraq or Afghanistan.
    Mr. Assad. Yes, sir.
    Mr. Dicks. To hire some of their people to do this work, 
which helps give them jobs, helps improve the economic 
circumstances for those people, I mean, that is one positive 
aspect of this.

                CONTRACTOR COMPONENT OF FORCE STRUCTURE

    Ms. Kaptur. How did we do the laundry during World War II? 
How did our guys do the laundry in World War II?
    Mr. Moran. Our guys did it.
    Mr. Assad. Our guys did it.
    Mr. Dicks. Or they got the locals to do it.
    Mr. Moran. Could I have a--I have got to leave. I just want 
to make a comment. I appreciate Ms. Kaptur's concern.
    Mr. Dicks. I will give you additional time, Marcy.
    Mr. Moran. But I do think that things have evolved, and we 
are trying to make the training that our soldiers get more 
efficient so that they are not doing what they would consider 
scut work, that they are doing more specialized skills.
    It is just that--I was on a codel in Iraq, and we were 
waiting in line to get into a place in the Green Zone. And 
there was another line where people would just flash a badge 
and walk right through, no inspection or anything.
    I said, Who's in that line while we are waiting in this 
line? And they said, Oh, they are KBI, they run the place.
    So the point is there needs to be some balance and they 
need to understand they don't run the place; that the 
government runs the place, and it is primarily a military 
operation, and they are there to fill in gaps that are not 
being met and shouldn't be met necessarily by our more skilled 
military personnel who are--they are volunteers now.
    In World War II they weren't volunteers. Now they are 
volunteers, and they seek out a career, a specialized skill, 
and we put a lot of training in them. So I can understand the 
evolution. But Ms. Kaptur makes a good point, and I am glad she 
harps back on it: that you have got to have balance, and that 
they need to understand what their limited role is. That is 
all.
    Thank you, Mr. Chairman, for having the hearing.
    Mr. Dicks. Again, I think the hard part on this thing was 
that we couldn't get an answer. Mr. Murtha tried to get 
answers. He couldn't get answers. We couldn't. Nobody seemed to 
know how many people were involved.
    Now we have a quarterly report, but this is way into this, 
into these operations.
    Mr. Moran. Iraq was over, and now we have got the numbers.
    Mr. Dicks. Congress had, really, Congress had really very 
little to say about this because we didn't know the magnitude 
of it.
    Mr. Moran. Yes.

                    CONTRACTOR SUPPORT REQUIREMENTS

    Mr. Dicks. And we couldn't get the information for years. I 
am not blaming it on this administration, but it happened, it 
was part of the previous administration. But I am glad at least 
now we have an understanding of this, and I think Mr. Solis' 
comments about this--is this true, only 30 or 40 people are 
involved in this planning for the future operation? That 
doesn't sound like a very robust organization to me.
    Ms. Kilpatrick. Not only that, Mr. Chairman, they are 
contractors.
    Mr. Dicks. Five of them were contractors.
    Ms. Kilpatrick. But that means no planning done by the 
military.
    Mr. Dicks. Somebody has to do the work.
    Ms. Kilpatrick. Okay.
    Mr. Parsons. Sir, if I could, and Mr. Solis is right, but I 
think if you really take a look at the contract support 
planning, while the geographic combatant commanders have got to 
set the tone for what their expectations are in a given 
operation, it is really at the service component level where a 
lot of this heavy lifting planning goes on regarding exactly 
what contractors are going to need.
    And that is where I think, at least from the Army side, we 
are putting in a more robust structure to work with the service 
component commanders to do that type of planning. Then that 
will feed up to the geographic combatant commanders who are 
setting the overall policy for what the expectations are for 
contractor support and contractor oversight in the theater.
    Mr. Dicks. Ms. Kaptur.

                CONTRACTOR COMPONENT OF FORCE STRUCTURE

    Ms. Kaptur. Yes. I would just ask, I would just ask, the 
Chairman has been very nice, this is more of a dialogue, and I 
appreciate it.
    I am just wondering, are all of you gentlemen career 
civilian employees of the U.S. Department of Defense? How many 
years have you been with DOD?
    Mr. Assad. I am a career civilian. I have been with DOD for 
6 years.
    Ms. Kaptur. Six years.
    Mr. Assad. Yes.
    Ms. Kaptur. What about you, Mr. Parsons?
    Mr. Parsons. Ma'am I spent 26 years in the Air Force on 
Active Duty and have been with the Army as a career civilian 
since 2003.
    Mr. Dicks. Mr. Solis is with the GAO.
    Ms. Kaptur. Oh, Mr. Solis is with the GAO. Okay. I just--
what America is doing today--and this is just my opinion--is so 
very different than what we have done in the past, and we are 
now into nation building in a way we don't even understand.
    And DOD is being dragged into this through contracted 
personnel, and you can't really say that the American people or 
even Members of Congress fully appreciate what has happened in 
this transmorphing of CENTCOM and of our Department of Defense.
    So I am always going to be like a burr under the saddle on 
this, because I am very interested in who those 100--how many 
was it--67,000, whatever it was that are subcontracted now 
under CENTCOM, 207,000--no, 240,000 under CENTCOM, and how you 
group them, is that a part of your submission and how much they 
are earning compared to how much it would cost if we were doing 
it under regular force structure.
    I am interested in that. Is there a way for you to 
disaggregate? I understand about 147,000 of them are being 
hired to drive trucks into Afghanistan, and there are police 
officers and all this other stuff.
    Can you divide up that group, these foreign nationals and 
what they are doing, into the different categories and tell us 
who they are working for so we can put names to companies to 
function?
    Mr. Assad. We can provide you a more in-depth 
understanding, if you will take it for the record. I am not 
sure we can get it as precisely as you want it, but we can 
certainly give you more insight as to how it is, what exactly 
these contractors are doing and who is employing them.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                        UNDEFINITIZED CONTRACTS

    Mr. Dicks. Okay, thank you.
    To meet urgent needs, the Defense Department can authorize 
contractors to begin work and incur costs before reaching a 
final agreement on the contract terms and conditions known as 
undefinitized contract actions or letter of contracts.
    As of October 2009 the Department of Defense has 429 
contracts that were undefinitized. Of these, several were 
specifically for contingency operations, many of them exceeding 
the time permitted to definitize.
    Mr. Assad, how often are undefinitized contracts used for 
contingency operations?
    Mr. Assad. Mr. Chairman, in theater, the Joint Contracting 
Command has not issued an unpriced contractual instrument for 
well over a year. So there they are almost exclusively used 
within the CONUS operation to support in-theater use. There are 
36 of the 409 that are associated with contingency operations 
almost exclusively with the Air Force.
    And, in fact, I am on my way to Wright-Patterson the week 
after next to do a detailed review and report to your committee 
on the results of that review for those particular contractors.
    Mr. Dicks. Yes. We are on a jihad up here on undefinitized 
contracts, okay? I mean, this is being abused. You know, they 
use it to--you know, the Air Force is the big culprit here. But 
we are not going to stand for this.
    I mean, you know, you have got major weapons systems, the 
C-17 on an undefinitized contract; global Hawk on an 
undefinitized contract. I mean, this has become a major 
problem.
    You know, we need you guys to take this seriously, and I am 
glad you are going out to Wright-Pat, and we have got to get 
this thing--and just letting the time frame--it is 180 days, 
and it goes on and on for years, and they never definitize the 
contract.
    Why is that? Is this a lack of personnel? Is this just a 
contempt for the law?
    Mr. Assad. Mr. Chairman, I share your frustration in the 
utilization of unpriced contractual instruments. They are an 
incredibly inefficient and expensive way for us to do business. 
It is not cost-effective to use unpriced contractual 
instruments and, frankly, most commands do a very good job of 
controlling their use. We do have some organizations that have, 
in my opinion, abused that. They have a purpose, and that is 
when we just can't wait for a contractor's proposal and the 
appropriate negotiation of it. Then I can understand the use of 
an unpriced instrument, but they should be rare.
    And we share your view and, frankly, we are on the same 
mission to stamp them out wherever we can. They are costly, 
they are ineffective, and they are not good uses of the 
taxpayers' money.
    Mr. Dicks. Mr. Parsons, what about the Army?
    Mr. Parsons. Sir, I share and echo Mr. Assad's comments as 
well. Although it is a tool that is in the toolbox, and it is 
frequently used in contingency operations, the real key--and I 
think this is what you brought up--is, you know, to get those 
definitized, though, within a reasonable time frame. You have 
got to be judicious in the use of them but they are a useful 
tool.
    Mr. Dicks. One hundred eighty days.
    Mr. Assad. Correct.
    Mr. Dicks. That is what, 6 months?
    Mr. Assad. Correct.
    Mr. Dicks. To me, you know, this is just being used as a 
way to not definitize, I guess, the contract. And I don't think 
that is in our best interest, and you are the people in charge, 
and I am--we want--this committee wants you to get this thing 
turned around. The Air Force has promised that they are going 
to clean up their act, but they are the ones that are abusing 
it the most.
    Mr. Solis, do you have any comments on this?
    Mr. Solis. No, other than to just confirm what you just 
said. I mean, we have had a couple of reports in the past that 
have talked about these kinds of issues. And part of the other 
issue, I think, that comes up is the contracting officers are 
overwhelmed in terms of trying to get this done as well, in 
terms of looking at all the different contractors or contracts 
that are coming forward.
    So I would just say----

                     ACQUISITION WORKFORCE PLANNING

    Mr. Dicks. Let me ask you about that. How are you--you are 
talking, you are in charge of getting the--hire the people that 
do this type of work, right?
    Mr. Assad. Yes, sir.
    Mr. Dicks. And it is like, what, 17,000, 18,000 people?
    Mr. Assad. I think about 20,000.
    Mr. Dicks. Twenty thousand. Now, how do you do that? We 
understand, we have the impression that there is a Web site 
that people come through and then you pick people to interview 
based on the Web site. This is a very major task.
    Mr. Assad. Yes, sir.
    Mr. Dicks. To hire this many people. How are you going to 
get it done and how are you going to do it?
    Mr. Assad. Well, the way we have set it into play is each 
of--primarily the three services, all of the Defense agencies 
are involved in this, have specific plans over the next 5 
years. This is a 5-year process of hiring our 20,000 
acquisition workforce members. For example, it is about 5,600 
contracting officers, 2,500 folks at DCMA, 800 auditors at 
DCAA, 250 lawyers. I mean, there are a number of different 
professions in the contract oversight arena that we are looking 
to bring in very specifically. The Army is 1,600. That is what 
they are trying to hire to increase their workforce.
    So we very specifically know by service, by the Defense 
agency, which particular skill sets we are trying to increase 
and what the plan is over the next 5 years, and we are managing 
that on a quarterly basis. So we bring the services in and we 
go through their plans.
    Congress has been, frankly, more than reasonable in 
providing us a number of tools to increase the ability for us 
to hire people. Make no mistake about it, Mr. Chairman, this is 
a challenge.
    Mr. Dicks. How many, just out of curiosity, how many people 
did you hire in 2009?
    Mr. Assad. About 2,000.
    Mr. Dicks. Two thousand?
    Mr. Assad. Above our maintenance. In other words, growth. 
We hire about 6,000 people a year just to keep the pipeline 
going.
    But we have a plan, for example, about 2,200, 2,300 people 
this year, roughly, and we expect to exceed that.
    Mr. Dicks. These people then have to be trained, right?
    Mr. Assad. Yes, they do, and it is an extraordinary time, 
Mr. Congressman. You know, there is a perception that we are 
only going to be able to hire very young folks with very little 
experience out of school. That is not what is happening. For 
example, it was just reported to me that the intern program at 
Wright-Patterson, they bring in 48 people every third of a 
year. Their last class, all 48 people had master's degrees. 
That is extraordinary, and so we are getting----

                         ACQUISITION WORKFORCE

    Mr. Dicks. Well, right now is a good time to be trying to 
get people, too.
    Mr. Assad. Yes, sir, we are getting a number of folks, 
manufacturing engineers and industrial engineers, coming into 
DCMA from the automobile industry. These people can transfer 
these skills, and so there is a good deal of training. Again, 
Congress--and we appreciate the committee's support of the 
Defense Acquisition Development Work Fund. These are tools that 
we need to get the job done. But rest assured that we are 
focused on this and that the services are focused on it.
    Mr. Dicks. Mr. Frelinghuysen.

                 FOREIGN NATIONAL CONTRACTOR WORKFORCE

    Mr. Frelinghuysen. Yes, thank you, Mr. Chairman. Very 
briefly, Mr. Solis, you are the author of this GAO report we 
have in front of me here, and you look rather stoic on the end 
here, so I figured I might give you an opportunity to react. I 
understand you have some interesting observations about some of 
the Afghanis we are working with, we are employing; is that 
correct?
    Mr. Solis. In terms of the quality of work?
    Mr. Frelinghuysen. Quality of them, things that relate to 
their backgrounds that might be of interest to the committee.
    Mr. Solis. Well, I think one for the challenges for the 
folks who are managing these contracts in terms of the quality 
of the Afghan contractors is that with the Afghani's limited 
experience in some areas it does require more oversight. That 
is not to say that you shouldn't award contracts to Afghan 
firms for the reasons that we talked about before in terms of 
trying to encourage and build their economy, but it does 
require more oversight for those particular reasons. That is 
part of the Afghan First program, which faces similar 
challenges as just like you the Iraq First program.
    In terms of the background screening, I think also it just 
adds more challenges when you have more of the local nationals, 
because one of the things that the Department still doesn't 
have is a Department-wide policy on background screening. And 
so many times the screening is left up to the contractors. You 
can't necessarily go back. Obviously, contractors can't do FBI 
checks or CIA checks with these folks because they are just not 
there in the system. So it becomes more of a challenge.
    Mr. Frelinghuysen. Many of the people with the same name?
    Mr. Solis. That is correct. So it does present some 
challenges. One of the problems that they are having right 
now----
    Mr. Frelinghuysen. I actually went through your--while 
everyone was talking--I didn't see too much comment on this 
aspect of which you speak. Is this some sort of an addendum or 
are you making some recommendations in this area?
    Mr. Solis. Well, we have made recommendations in the past.
    Mr. Frelinghuysen. Are they in here?
    Mr. Solis. I believe they are in here, but also I believe 
we have made some recommendations in the past to the Department 
to try to get a handle on this.
    Mr. Frelinghuysen. I mean, there are issues that relate to 
the Afghani military, which some people give high marks to--God 
only knows, I am not sure what the measurement is there. And 
then in terms of the Iraqi police, people give pretty low marks 
to them. But not only do we need to know--I am not sure it is 
our job to know, to have background checks on all of these 
people.
    But if they are going to be associated with us in any way, 
side by side, in combat or, for that matter, providing services 
in ways that local contractors have historically provided 
services, we better know something about them. I think we would 
be highly vulnerable if we didn't know something about them. So 
there is something in here that relates to some specific 
recommendations.
    Mr. Solis. Either there or in our past reports, yes.
    Mr. Frelinghuysen. Okay. Well, I think we need to sort of 
highlight them, and I if I am not familiar with them, I 
apologize.
    Mr. Solis. Yes.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Parsons. Sir, if I could just add to that. I mean, the 
local commanders do put into place policies for screening and 
monitoring the local nationals that they do bring and the 
foreign nationals in, so I don't want to leave the impression 
that there is nothing that is going on.
    But I think what Mr. Solis' point is, is there is not an 
overarching policy from their perspective at the Department 
level. But rest assured at the local level, the commanders are 
concerned about force protection, and they do put processes and 
procedures in place, including watching over the local 
nationals as they are working. And as those local nationals 
prove themselves, they could reduce some of that oversight on 
them.
    But make no mistake. There are some procedures and policies 
in place at that commander level.
    Mr. Frelinghuysen. Thank you for that clarification. Thank 
you Mr. Chairman.
    Mr. Dicks. Mr. Visclosky.

                 FOREIGN NATIONAL CONTRACTOR WORKFORCE

    Mr. Visclosky. If I could follow up on that, the Department 
then would not have plans to have a Department-wide procedure 
or process for screening foreign national contractors?
    Mr. Assad. Mr. Congressman, we are working right now on 
trying to determine how we bring in--right now, the way we are 
screening many of these third-country nationals is through 
biometrics, and we are trying to determine how we can 
incorporate those concepts into a Department-wide policy. 
Contractor Personnel authorized to accompany the U.S. Armed 
Forces, but we do not have a Department-wide policy besides Dod 
Instruction 3020.41 in terms of how to deal with contractors.
    Mr. Visclosky. Do you have any idea when that process will 
be completed?
    Mr. Assad. I do not, Mr. Congressman, but I will take it 
for the record and get you an answer.
    [The information follows:]

    The Department currently has standardized procedures in place to 
vet third-country nationals in Iraq and Afghanistan. As far as specific 
vetting policy is concerned, it is the responsibility of the Geographic 
Combatant Commander to set the standards for vetting within his 
specific area of responsibility (AOR), which includes admission 
procedures and requirements, including country and theater clearance, 
waiver authority, immunizations, required training or equipment, and 
any restrictions necessary to ensure proper deployment, visibility, 
security, accountability, and redeployment of contingency contractor 
personnel deploying to their AOR.

    Mr. Visclosky. Mr. Solis, when did GAO make that 
recommendation?
    Mr. Solis. I think we made it last year. In 2009 we were 
looking at background screening of private security contractors 
in Iraq, and we suggested that the Secretary designate a focal 
point because there is disagreement, I think, within the AT&L 
community and the Under Secretary of Defense Intelligence 
(USDI) community as to how far you should go on the background 
check.
    That being said, we felt that somebody ought to take a look 
at that, and I think the recommendation is still not completed 
as of yet, as Mr. Assad said.
    Mr. Visclosky. Do you think you are making reasonable 
progress?
    Mr. Solis. We haven't looked lately to where they are at, 
but obviously it is still a void.
    Mr. Visclosky. Mr. Solis, you also mentioned in the report 
the Department has not fully addressed congressional direction 
to include operational contract support in predeployment 
training.
    Could I ask a question about that of the panel, and if you 
could tell me exactly what that means and then where are we?
    Mr. Assad. I think Mr. Parsons can talk about the 
predeployment training being done with the Army.
    Mr. Parsons. Sir, one of the things we did recognize, and 
even with the Gansler Commission report, which really 
heightened the issue, is that we were not getting these 
soldiers in units that were going to end up performing some 
level of contractor management when they arrived in theater, 
some education and training on that, before they arrived.
    My Expeditionary Contracting Command has been charged with 
training, deploying units before they leave. So the units that 
are getting ready to go into theater to replace the units that 
are there today are now starting to get contracting officer 
representative training and also CERP training, which is the 
Commanders' Emergency Response Program training, before they 
deploy.
    Now, we have done 700--we have trained over 700 military 
since October that are now being deployed or will be deployed 
in the coming months over to theaters, so we should see an 
improvement in that area. Will we get 100 percent? Probably 
not. I mean, as things develop in theater and contracts come 
up, we may need to train some people on the ground. But we have 
made some drastic improvements.
    And as Mr. Solis' report also acknowledged, the Army has 
put out an execution order that the units will identify, 
soldiers and their units, for potentially being CORs so that we 
can get them trained. So we have contacted every unit. We have 
either done some training or added scheduled training. We are 
in the process of getting that training schedule, so we are 
making significant strides on the CORs and the CERP.
    Mr. Visclosky. What is your biggest problem that you need 
congressional help on?
    Mr. Parsons. Well, sir, I don't think we need any specific 
congressional language to do this. I think, as I mentioned 
earlier, when we started----

                            LESSONS LEARNED

    Mr. Visclosky. No, I am talking generally as far as your 
responsibilities. Is there something missing here? And I don't 
mean to be facetious, but we have been a nation for several 
hundred years, we have had a military for several hundred 
years, we have been managing contracts for several hundred 
years. And while times change and conflicts change, it seems as 
though we are always reinventing this system. It would seem 
like we would have it down by now. I am curious.
    Mr. Assad. Mr. Visclosky, one of the things that the 
Secretary of Defense charged Dr. Carter, the Under Secretary 
for AT&L and Mr. Hale, the Under Secretary of Defense 
(Comptroller) was to do exactly that: How are we ensuring that 
our lessons learned in Iraq are not either recreating the wheel 
or learning that lesson again in Afghanistan.
    So we meet on a monthly basis with Dr. Carter, Mr. Hale, 
and boots-on-the-ground folks, the commanding folks on the 
ground, to talk about that particular issue and, for example, 
not having adequate contracting officer representatives trained 
in CONUS before they put their boots on the ground in Iraq and 
Afghanistan; ensuring that we have the subject matter experts 
who can inspect properly the goods and services that we are 
buying; how we are making sure that that does not happen--the 
early lessons that we learned in Iraq, we are now ensuring 
aren't happening in Afghanistan. That is the reason why, for 
example, there has been such a remarkable increase in the 
number of contracting officer representatives is because of the 
emphasis that the Secretary himself has put on this issue of 
lessons learned.
    I will tell you that Congress has given us a significant 
number of tools. We have got the flexibilities that we need to 
get the job done, and we appreciate what Congress has done for 
us. We just need to execute.
    Mr. Visclosky. Yes, gentlemen, thank you.
    Mr. Dicks. Let me ask you a question, Mr. Solis. What do 
these CORs do?
    Mr. Solis. They are basically the eyes and ears on the 
ground for the contracting officer in terms of the performance 
of the contract. They also will help in terms of the billing 
and a number of different things. But, really, they are the 
contracting officer's representative right on the ground, the 
contracting officers.
    They are going to tell him how the contract is being 
performed. They are going to make sure that all other aspects 
of the contract in terms of quality assurance and those other 
things are being properly executed; they interact with DCMA. 
There are a number of things, because the contracting officer, 
or the contract, may not be in theater. They may be in Rock 
Island or they may be somewhere else.
    So the COR's are the people representing the Army in terms 
of the execution of that contract. They can't direct how the 
services are done. They can monitor it, but they cannot direct 
the services per se.
    Mr. Dicks. All right. Mr. Hinchey.

                   INHERENTLY GOVERNMENTAL FUNCTIONS

    Mr. Hinchey. Thank you very much, Mr. Chairman. I am sorry 
that I got here so late, but nevertheless I am happy to be 
here.
    Just one simple question: The fiscal year 2009 Omnibus 
Appropriations Act closes a loophole that allowed non-DOD 
agencies to contract out smaller functions without first 
conducting formal cost comparisons, and the same loopholes were 
closed for DOD in the fiscal year 2010, basically in the same 
way. These loopholes were closed because of concern that 
agencies are giving work last performed by Federal employees to 
contractors, without full consideration of cost and quality. It 
has now been more than a year since the provision was enacted 
for non-DOD agencies and almost 5 months since the provision 
was enacted for DOD.
    I understand that OMB has yet to issue guidance to the 
agencies to ensure compliance with the law. Is DOD in 
compliance with this law? Do you know if they are? What, if 
any, guidance has DOD issued to ensure compliance?
    Mr. Assad. Mr. Congressman, the Deputy Secretary put out 
some very specific guidance on all sources and the cost-benefit 
analysis that should, in fact, be performed. That guidance is 
significant with regard to what I think you are referring to.
    I think what you are referring to is the guidance from OFPP 
to inherently governmental functions. I reported earlier to the 
committee that I know for a fact that that guidance is in 
draft, the OFPP Administrator has shared it with me, and it is 
presently being reviewed within the administration.
    So I suspect that while I can't speak for the 
administration on this matter, I would imagine that this will 
be published pretty shortly because it was effectively done.
    Mr. Hinchey. Yes. So you think this problem is very 
solvable; it is going to be taken care of and cleaned up very 
quickly?
    Mr. Assad. It is a challenge. I don't think it will be done 
quickly, but certainly the guidance is there for us to execute 
it properly, Mr. Congressman.

                         ACQUISITION WORKFORCE

    Mr. Hinchey. Okay. Let me just try one other thing then, if 
I may.
    Under the Obama administration, OMB has commendably taken a 
more hands-off approach to establishing full-time employee 
limitation on agencies' in-house workforce. Nevertheless, there 
are still concerns that agencies lack the necessary personal 
authorization to hire Federal employees when in-house 
performance is preferable for programmatic or financial 
reasons.
    Particularly in the context of in-sourcing, I think we all 
agree that personal constraints should not prevent an agency 
from using Federal employees for a particular function when in-
house performance best promotes that agency's mission or the 
interests of the taxpayer.
    Does the DOD have the flexibility necessary to use Federal 
employees in such instances and on not laboring under any 
nonstatutory in-house personal constraints?
    Mr. Assad. Mr. Congressman, I can speak for the acquisition 
workforce.
    Mr. Hinchey. Could you press that again?
    Mr. Assad. Yes, sir. I can speak for the Acquisition 
Workforce. We are constrained in a sense that we have--we are 
going to try to hire 20,000 government folks, that is what we 
have set as our target, but there is no constraint in doing 
that. The Secretary has been very clear and very 
straightforward in terms of the guidance that he has given us.
    We have the tools, the Congress has given us the tools that 
we need to execute that. We have a plan to execute that. And I 
am comfortable that, in fact, we will be successful in doing 
so.
    I will take for the record, outside of the acquisition 
workforce, but I would expect that my judgment is within the 
Department of Defense. I can't speak for the whole 
administration. Within the Department of Defense, I will tell 
you that we are not constrained to meet the guidance that we 
have been provided by the Secretary.
    Mr. Hinchey. Okay. So the Federal employees are going to be 
focused on intentionally; there is going to be priority for 
them. Is that basically what you are engaged in?
    Mr. Assad. Well, what we are trying to do is increase the 
capability of the acquisition workforce, and that will be 
20,000 government employees, 10,000 outright new hires and 
10,000 in-sourced from previously contracted positions.
    Mr. Hinchey. Okay, the in-sourced. So you know that these 
people are doing good jobs; you are going to maintain them?
    Mr. Assad. No, no, maybe there is a misunderstanding, sir. 
What we are doing is we are assessing that work that we believe 
should be inherent to the Department. We are then putting those 
jobs out for public opportunity. There is no conversion of a 
particular contractor who might be working there and say, Okay, 
tomorrow you are going to be a government employee. You know, 
that job gets publicly listed and it is competed.
    So, yes, we intend to do that properly and it will be 
government employees, and I am very confident that the folks we 
are hiring are capable and able to do the work.
    Mr. Hinchey. Yes. But if you have capable people who are 
employed there, there is not going to be any operation to 
exclude them in the interest of bringing in some other 
operation?
    Mr. Assad. Oh, no, not that I am aware of. Not within the 
acquisition workforce.
    Mr. Hinchey. Okay. Thank you very much.
    Mr. Dicks. Let me ask you, do you have an age imbalance in 
the Army contracting workforce? An aging workforce?
    Mr. Parsons. Sir, I wouldn't characterize it as an age 
imbalance. I would more say it is more an experience imbalance 
is what we have today.
    As Mr. Assad said, and I will talk about my intern program, 
we have brought quite a few entry-level, brand-new people into 
Army Contracting Command that are not 20-something. They are in 
their thirties, they are in their forties; they are making, you 
know, a career change.
    So it is not really an age imbalance in my mind. It is more 
of an experience imbalance, and there is. I have over 40 to 45 
percent of my workforce has less than 5 years of experience. I 
have another 40 to 45 that have 20 years or more. And, in 
between, I don't have a lot of folks. And this is, you know, a 
symptom, quite frankly, of the downsizing that we went through 
in the 1990s where we just flat-out stopped hiring people.
    We let attrition take its place and now we are in the mode 
of, hey, we have got to bring people on because there are no 
experienced people out there to hire. We are all competing for 
that contracting officer that has 8 years of contracting time.
    So it is more of an experience imbalance, from my 
perspective, than of age. No doubt that quite a few of our most 
experienced contracting officers are starting to retire, and I 
do have quite a high rate of that taking place.
    So it is a challenge. We have to find ways to not--when we 
bring these new people in, how do we get them trained and get 
them the experience that they need, in a rapid fashion, so that 
they can handle and execute the large dollars that we are faced 
with today.

                         STANDARDIZED TRAINING

    Mr. Dicks. What is the role of Defense Acquisition 
University in preparing the Army's contracting workforce for 
the contracting mission of today and the future?
    Mr. Parsons. Well, DAU's mission is just not unique to the 
Army. They provide the training that is necessary for all of 
our acquisition career programs, contracting being one of them. 
And there are different certification levels within the 
Department of Defense. And all of our entry-level folks have 
about five or six courses that they have to take through DAU or 
DAU-approved accredited course. And so their primary role is to 
provide the training that they need to our contracting folks 
and our other acquisition folks.
    Mr. Assad. The other thing that we have done, Mr. Chairman, 
again, over the last 5 or 6 years, is that we have standardized 
the training so our marines and our soldiers and our airmen are 
all receiving the same training, so that when they get in a 
joint environment, they can execute in a joint environment.
    You know, what we learned in the early days in Iraq, we had 
some, very frankly, very sophisticated Air Force enlisted 
contracting folks, and not so sophisticated in terms of the 
Marine Corps that I was leading, and the Army folks. That has 
turned around.
    You know, we are getting a lot more experience now in our 
Marines and our Army folks, while the Air Force has been able 
to maintain that incredibly capable enlisted contracting 
capability.
    Mr. Parsons. Sir, I would emphasize that the training isn't 
as much of a challenge as it is trying to get our folks 
experience, especially in our line of business. This is you 
learn by doing. And so we are making very concerted efforts and 
plans on how we move our people around to get the right type of 
experience in addition to the training that they get from DAU.
    Mr. Dicks. I would think program officers are critical; the 
person who is the program manager, I should say.
    Mr. Assad. One of the things--they are. And not just in 
government, as you know, Mr. Chairman; in industry, if you 
don't have effective program managers, you don't have a 
successful company. And the reality is that we are spending a 
lot of our resources, our acquisition development funds, in 
training program managers and program executive officers.
    There is significant training at DAU. In fact, I was down 
at DAU last week for 2 hours to sit with a classroom full of 
program managers, sharing some experience on just acquisition 
and program management challenges in the environment that we 
are in.
    Mr. Dicks. Ms. Kaptur--go ahead Mr. Solis.
    Mr. Solis. Sir, I certainly agree that the acquisition 
workforce needs to be trained, but of the actual unit 
commanders who are dealing with contractors on a day-to-day 
basis also need to be trained on how to deal with contractors, 
because for example, if they direct the contractor to do 
something that is out of scope, you have got a problem.
    So I think it is not only incumbent about the acquisition 
workforce and corps, but it is also the unit commanders, 
brigade commanders, battalion commanders on down, that really 
need to know how to deal with contractors in a contingency 
environment.
    Mr. Parsons. Sir, if I could add to that, I think this gets 
to Mr. Solis' point about institutionalizing. The Army has, in 
my opinion, really moved out in trying to institutionalize this 
by putting blocks of instruction having to do with contracting 
and contractor management in many, many courses in the Army, 
including professional military education, where we are getting 
our intermediate level at the captain and major level, and also 
at the senior level, exposed to contracting and contractor 
management and how operational contract support is important to 
the unit commanders as they execute their mission.
    So we are not where we want to be yet, but we have put a 
lot of course work in place, and we are going to continue with 
that.
    Mr. Dicks. Ms. Kaptur.

                         SECURITY OF OUR FORCES

    Ms. Kaptur. Thank you, Mr. Chairman. I just wanted to put 
on the record that when we have the kinds of numbers, tens of 
thousands of people who are hired in some way to assist in 
these operations, though they may build links to people in the 
country, each one of them becomes a potential source of 
infiltration and breach. And I don't think that we are good 
enough in deciphering who those might be. And what do I offer 
as my proof?
    We had one meeting dealing with what happened to the CIA. I 
figure the CIA is a lot smarter than you are, they got all 
those agents out there, and yet we had them all blown up at 
that base in Afghanistan. And where was the point of breach? 
Very interesting. And how that individual got in there, they 
weren't cleared by a contracting agency that said you didn't 
have a gun. They came in with a suicide vest and they pulled it 
just at the right time. This is an unbelievable form of 
guerilla warfare.
    And so when I look at--just so it is understood where I am 
headed here, I am very concerned about security of our force.
    Mr. Dicks. About what? I didn't hear you.
    Ms. Kaptur. I said I am very concerned about the security 
of our force and the fact that though hiring nationals in these 
countries might build bridges in some ways, each one is also a 
potential point of infiltration and breach of our security.
    And I use that most recent example with the CIA base as an 
example of how a truck driver and a whole set of steps happened 
that ended up having major catastrophe for people in our 
country--people from our country. So one of my questions--you 
know, we look at these numbers in the aggregate, and I really 
thank you, Mr. Chairman, for providing these numbers about 
where we are hiring--just look at the base support, 61,000 
people.
    How many of them are foreign nationals? Transportation, 
2,000. All it takes is one. And not only that, but the ones 
doing it can be informers that you won't even know. So they 
study patterns, they get into these places. Unlike us, they 
have all the time in the world.
    We think in megabytes, they think in centuries, right? So 
they are not about to easily accommodate to our way of life. So 
I look at each one of these with great suspicion. And it could 
be some laundry person who is married to somebody who lives in 
this village, and the potentials for breach are enormous. So 
the more information you can provide us will be greatly 
appreciated.
    We can check their backgrounds and all the rest, but it is 
pretty obvious, we had a meeting this week--this is off the 
subject, but it is related--with representatives from the 
country of Lebanon, where it is pretty obvious what happened 
there in the last war with Israel. And what was their request 
of us? Their request of us was that fundamentalism is growing 
in the north, and they wanted help in agriculture to try to 
combat what was happening inside that country with a whole new 
generation of people who don't remember 30 years ago and some 
of the friendships that existed back then. The networks that 
are developing at the local level, political, social, helping 
networks----
    Mr. Dicks. I might remind the gentlewoman, we are in an 
open session here.
    Ms. Kaptur. All right. I am glad the gentleman reminded me 
of that.
    So we were being asked for assistance to help to enlarge 
upon the social helping networks in some of these other 
countries.
    It seems to me that because many of these individuals that 
we rely on live in desperate places, sure, they will take the 
money, but I don't really think that we can guarantee the 
integrity for our forces and the security of our forces.
    So my question really is, just take the area of 
transportation, all right? Of these several hundreds and 
hundreds of people, what do we really know, just what they tell 
us? I mean, you don't know the villages they come from. You 
don't know what their contacts are. You don't know why they 
might take a job there.
    So I just wanted to share that and express deep concern 
about what this could potentially mean down the road, because 
all it takes is a few to do great damage and they have all the 
time in the world to wait us out.
    Mr. Dicks. Any comment on that?
    Mr. Assad. It is a legitimate concern. It is a risk, and we 
are doing what we can do to try and screen local nationals, but 
it is a challenge.
    Mr. Dicks. But, let me ask you this. And have we had in the 
Green Zone any incidents, any people that were hired that wound 
up being a bomber?
    Mr. Assad. I am personally not aware of it but we will take 
that for the record, Mr. Chairman, and report back to you.
    [The information follows:]

    CENTCOM has been queried and can find no instance where 
hired individuals participated in an attack within the Green 
Zone.

                                  MRAP

    Mr. Dicks. Okay. Let me ask you this. We did MRAP and the 
Stryker very, very effectively. But then you go back and look 
at Crusader, Comanche, Armed Reconnaissance Helo, the Future 
Combat System. These are all major problems for Army 
acquisition. Why was Mine Resistant Ambush Protected (MRAP) and 
Stryker, why were they done so effectively and these others 
turned out to be major embarrassments for the United States 
Army? At least I think they are.
    Mr. Assad. It all goes down, I think, Mr. Chairman, there 
are several problems in every one of those programs that are 
unique to those programs. But, fundamentally, why was MRAP such 
a success?
    Mr. Dicks. Right. What did we do differently?
    Mr. Assad. Well, what we did was unequivocal support from 
Congress in terms of the funding that was required to execute 
it. We had a world-class acquisition team on that procurement. 
It is unprecedented that we could take such a major procurement 
from requirement definition to execution in the short period of 
time that we did under competition. And what it was was an 
extraordinary ability to bring several very talented people 
together.
    I often get asked by the Defense Science Board and a number 
of other organizations, you know, do you need more rapid 
acquisition authorities, is there something that Congress 
should be doing to make your job easier?
    The fact of the matter is that the MRAP acquisition did not 
waive one law, we didn't waive one procurement regulation. We, 
in fact, did three internal reviews of our peer review on MRAP, 
and yet we were incredibly successful. And it was because of 
the talent of the folks that were involved and the support of 
Congress in providing us the funds that we needed to execute.
    Mr. Dicks. And the contractors had to do a good job.
    Mr. Assad. And the contractors did an outstanding job. Yes, 
they did, sir.
    And so I would say to you that in--which is why I very much 
appreciate the support you and the rest of the committee have 
given our acquisition workforce growth activities, is that for 
a large degree, we have got the tools. We have the laws to 
execute it properly. We can be transparent. We just need to get 
an experienced, capable, competent workforce grown--not that we 
don't have one, because we do a lot of things right. We do do 
some things wrong. We can do a lot better.
    And so this is more about getting experienced people, 
experienced program managers, talented contracting officers, 
and more of them to execute these jobs properly.
    It is not--and I can't overstress the ability to have funds 
to execute--and Congress did. We can't thank Congress enough, 
nor can our sailors, soldiers and marines whose lives have been 
protected as a result of having MRAP on the ground.
    Mr. Parsons. Sir, I would just add, too, that I think, at 
least from my perspective, it also has to do with how proven is 
the technology that we are incorporating into those systems. 
And certainly on MRAP, a lot of that was already proven 
technology.
    I would just add that, you know, Dr. Carter has issued a 
memo to implement that Weapons Systems Acquisition Reform Act, 
outlining a number of things that all the departments need to 
consider in weapons system acquisition. And I think as each of 
the services implement those that we will see improvements in 
the acquisition of the systems.

                           ACQUISITION REFORM

    Mr. Dicks. You know, I have been here 34 years, and for 34 
years I have heard year after year, acquisition reform, 
acquisition reform, that retired generals report for the Air 
Force acquisition reform.
    You know, I have got to tell you, I am getting relatively 
cynical that somehow we just have a hard time procuring these 
large systems. And part of it is the contractors and part of it 
is the government. But those are four major--I mean, again, 
Crusader, Comanche, Armed Reconnaissance Helo and the Future 
Combat System. And the Future Combat System is very recent.
    So we are here to talk about contingency contracting, but I 
have got to tell you, I still think you have a ways to go 
before you convince us up here that we have turned the corner 
on acquisition reform.
    I wish the administration well, but it is--I think there 
has to be a lot more honesty in calculating what these things 
are going to cost, which I don't think exists and doesn't exist 
today. It is still--still everybody low-balls things to make it 
work in the budget. This thing is still not where it needs to 
be, so I urge you to not only take care of these undefinitized 
contracts, but also to--we have got to have some success 
stories.
    And the ones that are success stories, like the Crusader, I 
mean like Comanche is basically an off-the-shelf system, 
modified. And that is a good thing to do. If you can take 
things off the shelf, that makes a lot of sense and reduces the 
acquisition time, et cetera.
    Mr. Solis. Sir, I was going to offer, too, I think Stryker 
was similar in that vein in that it was an off-the-shelf 
technology. But what also made it successful--and I don't know 
if we will ever be able to do this again--we basically took a 
brigade off-line during the design phase of the stand-up of 
that brigade.
    We went out to the National Training Center and to the 
Joint Readiness Training Center and took the contractors who 
were going to support them before it was sent over to Iraq. So 
I think there was not only the technology piece, but also the 
fact that there was time and a brigade that was basically off 
line to test the design to see how it was going to work in the 
field.
    Mr. Dicks. Well, I hope we can learn from our successes. 
That is what I am hoping.
    Thank you. The committee stands adjourned until 10 a.m. 
tomorrow when the committee will reconvene for a hearing on 
Strategic Lift.
                                          Thursday, March 18, 2010.

                         AIR MOBILITY PROGRAMS

                               WITNESSES

GENERAL DUNCAN J. McNABB, USAF, COMMANDER, UNITED STATES TRANSPORTATION 
    COMMAND
GENERAL RAYMOND E. JOHNS, JR., USAF, COMMANDER, AIR MOBILITY COMMAND
MAJOR GENERAL RANDAL D. FULLHART, DIRECTOR OF GLOBAL REACH PROGRAMS, 
    OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR ACQUISITION

                  Opening Statement of Chairman Dicks

    Mr. Dicks. This morning the Committee will hold a closed 
hearing concerning the Department of Air Force's mobility 
programs. We are pleased to welcome three distinguished 
witnesses: General Duncan McNabb, Commander of the United 
States Transportation Command; General Raymond Johns, Commander 
of Air Mobility Command; and Major General Randal D. Fullhart, 
Director, Global Reach Programs, Office of the Assistant 
Secretary of the Air Force for Acquisition.
    These gentlemen are very well qualified to discuss all 
aspects of the Air Force's mobility programs and answer 
questions that the Committee has regarding global mobility. 
Generals, thank you for being here this morning. The Committee 
is very interested in hearing what you have to say about the 
Air Force mobility programs. As you are well aware, some of us 
on the Committee are eager to hear about the status of the KC-X 
program with the announcement that one of the expected 
contractors will not bid on the program. We look forward to 
hearing your thoughts on the way ahead for this vital program. 
The Department had planned on a summer award, so we are 
interested to hear how this development will affect the 
contract.
    Additionally, the Committee is looking forward to a 
discussion on the newly released Mobility Capability 
Requirement Study. The study specifically reviewed the plan for 
structure in 2016 to see if any capability gaps existed. We 
understand that the study validated the current force structure 
of 223 C-17s and 111 C-5 aircraft. However, the study also 
found that other fleet mixes would meet the requirement. We 
look forward to discussing the various scenarios that were 
reviewed and how each stressed our forces in different ways.
    Another topic of concern is the use of undefinitized 
contracts. I am glad Major General Fullhart is here because we 
are going to be talking to him about this. Within the mobility 
portfolio, it was the mobility portfolio, and specifically the 
C-17 program, that brought the issue to our attention last year 
and eventually led the Committee to restrict the obligation of 
funding for the C-17 program until contracts were definitized. 
A program that is this far into its being, it is impossible for 
me to understand how we have undefinitized contracts. That is 
just unacceptable.
    We understand that there is a time and place for those 
contracts, such as meeting urgent wartime requirements. They 
are not to be used for routine acquisition or as a result of 
poor planning. General Fullhart, we understand that you are 
personally involved and look forward to your comments on the 
way ahead for Air Force contracting.
    In addition to these areas, the Committee remains concerned 
with the size and mix of our mobility fleet. The C-5M has just 
completed operational testing and the results will be submitted 
to Congress this summer. Once this report and others are 
submitted to Congress, the Air Force plans to retire 22 C-5 
aircraft over the next 2 years, decreasing the inventory of C-5 
aircraft to 89. Along with this decision, the Department is 
requesting funds to begin the shutdown of the C-17 production 
line. This line is the only production line capable of 
producing strategic airlift aircraft. We remain concerned with 
this decision and its potential impact on the future of our 
Nation's industrial base for strategic airlift aircraft.
    All that said, TRANSCOM and Air Mobility Command aircraft 
continue to provide exceptional service in our ongoing efforts 
overseas, on providing airlift of troops to refueling aircraft. 
In fact, we were just in Ramstein and General Brady gave us a 
very good briefing. And it is extremely impressive to see all 
of that capability, logistically, both in Iraq and in 
Afghanistan. And I think it is one of our greatest strengths as 
a country, is being able to do these things with the private 
sector as well. And so it is indeed impressive.
    General McNabb, General Johns, and Major General Fullhart, 
thank you for all being here this morning. The Committee is 
very interested in hearing what you have to say about the 
Department's mobility programs. We look forward to your 
testimony and to an informative question-and-answer session. 
Now, before we hear your testimony, I would like to call on our 
ranking member, Mr. Kingston, today for any comments you would 
like to make.

                        Remarks of Mr. Kingston

    Mr. Kingston. Thank you, Mr. Chairman, And welcome to our 
distinguished guests. You cannot fight the enemy if you cannot 
get your troops and equipment to the war. We all know that, and 
of course you guys have led in that and devoted a major part of 
your career to it. And because of that, I think it is paying 
off in the war theaters. Airlift is absolutely vital to the 
Department and its ability to accomplish any mission. And it is 
true whether we are talking a C-5, C-17, C-130 or even a 
commercial airliner to make the effort happen. The correct mix 
of these is what we are going to be talking about today for 
complete but strategic and technical airlift quickly, 
efficiently, and safely.
    I am sure the recent mobility capability and requirements 
has much to say about this, and I look forward to further 
discussion on it. And, Mr. Chairman, I have a motion----
    Mr. Dicks. Yes.
    Mr. Kingston [continuing]. At the proper time.
    Mr. Dicks. This is the proper time.
    Mr. Kingston. I move that those portions of the hearing 
today which involve sensitive material may be held in executive 
session because of the sensitivity of the material to be 
discussed.
    Mr. Dicks. All those in favor of Mr. Kingston's motion say 
aye.
    Those opposed?
    The ayes have it. The motion is agreed to.
    All right. Who wants to start? Who is going to start? 
General McNabb. Thank you.

                  Summary Statement of General McNabb

    General McNabb. Chairman Dicks, Congressman Kingston, and 
distinguished members of the committee, it is a distinct 
privilege to be with you today. Our thoughts are with 
Congressman Young for a speedy recovery. And I understand he is 
on his way back and will be back in full business here soon.
    I want to first congratulate you, Mr. Chairman, on your 
appointment to lead this committee. I had the opportunity to 
see firsthand how you fought for our men and women in uniform 
when I was aide-de-camp to General Cassidy as he stood up 
United States Transportation Command and you helped him with 
the C-17, and then as Wing Commander at McChord Air Force Base 
in your great State of Washington, something that General Johns 
also had the chance of doing that and working with you as well.
    Over the years you have been a staunch proponent for our 
Nation's defense and we are fortunate to have you continue to 
serve our Nation in this new leadership position.
    I am also honored to appear before you with General Johns, 
Commander of the Air Mobility Command and my commander of the 
air component to U.S. Transportation Command, who I ask to 
perform miracles every day, and who delivers.
    And it is a distinct pleasure to appear with Major General 
Fullhart from our U.S. Air Force acquisition team who I depend 
on to deliver the air mobility systems we need to win.
    Throughout 2009, the United States Transportation Command 
faced tremendous operational, logistical and geopolitical 
challenges, and we asked for and received unparalleled 
performance from our global enterprise. We are charged with 
synchronizing and delivering an unmatched strategic global 
transportation and distribution capability and producing 
logistic superiority for our Nation where and when needed by 
the combatant commanders we support, and we have done that.
    Our total force partnership of Active Duty, Reserve 
component, civilian, contractor and commercial industry 
colleagues answered every call and improved with every 
challenge. It is our people who get it done. It is 145,000 
professionals working around the world day in and day out, 
producing one of this Nation's greatest asymmetric advantages 
and enabling the combatant commanders to succeed anywhere in 
the world by providing them unmatched strategic lift and end-
to-end global distribution. Through the superb work of our 
people and working with USCENTCOM, we are meeting the 
President's direction to surge forces into the Operation 
Enduring Freedom theater at the fastest possible pace on 
General Petraeus' plan, while meeting the needs of all of our 
other warfighters.
    Working with our Ambassadors, the State Department, and 
Office of the Secretary of Defense, it was our logistic 
professionals working hand in glove with General Petraeus and 
his staff that created the Northern Distribution Network to 
complement the southern supply lines coming in from Pakistan.
    In one year's time, through productive relationships with 
northern Europe, Russia, Central Asia, and the Caucasus, over 
8,700 containers of cargo have moved by commercial air, ship, 
truck and railroads, and the amount continues to climb. It is 
our joint assessment teams, requested by General Petraeus and 
General McChrystal, that are finding ways to increase the flow 
of supplies through existing air and surface hubs and 
establishing new intermodal and interair sites like Shaikh Isa 
Air Base in Bahrain and Maser-e-Sharif in Afghanistan. It is 
our total force air crews dramatically increasing the amount of 
airdrops to our warfighters in Afghanistan, finding innovative 
ways to deliver over 29 million pounds of supplies in 2009 to 
forces in remote areas, getting our forces what they need, 
while also getting convoys off dangerous roads and also 
decongesting crowded airfields.

                                 HAITI

    Our pace was just as swift in Haiti. The earthquake created 
a chasm of isolation for the Haitian people. Our people spanned 
the divide to lift spirits and save lives. Supporting General 
Fraser in USSOUTHCOM, it was our air and seaport assessment 
team and joint port opening units on the ground at Port-au-
Prince within 48 hours after the earthquake, surveying the 
damage and building the air and sea bridges of humanitarian 
supplies and personnel that helped save a country and its 
people. It was our air crews, maintainers and aerial porters 
who flew over 2,000 sorties, moved over 28,000 people, 
including 404 adoptees, and delivered almost 13,000 tons of 
critical supplies and materials.
    It was our medical crews, critical care teams, and our 
global basic movement center which transported and helped save 
341 critically injured Haitians by getting them to the care 
they needed to save life or limb.
    It was our merchant mariners and our commercial and 
military partners that provided nearly 400,000 tons of life-
saving cargo; over 2.7 million meals and over 5 million liters 
of water to Haitians in need, and we are not done yet.
    It is this logistics team working from home and abroad that 
gives our combatant commanders and our Nation the unrivaled 
ability to move. Their actions serve as an example of our 
Nation's strength and an outward demonstration of our 
compassion and hope. I am extremely proud of and amazed by the 
men and women of the United States Transportation Command.
    Chairman Dicks, we look forward to working with you for 
many years to come. The support of this committee has been 
instrumental in providing the resources our team needs to win, 
and I thank you.
    Finally, I offer my condolences and the condolences of the 
United States Transportation Command to the family of 
Congressman John Murtha and to this committee on the passing of 
a tremendous American. Chairman Murtha was one of our Nation's 
greatest leaders, a steadfast champion for the men and women in 
uniform and for this Nation. He will be sorely missed.
    Chairman Dicks, I am grateful to you and the committee for 
inviting me to appear before you today. I ask that my written 
statement be submitted for the record and I look forward to 
your questions.
    Mr. Dicks. Without objection, all the statements will be 
accepted for the record.
    The statement of General McNabb follows:

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. General Johns. Again, this is McChord graduation 
day here on the top. I think it is very impressive. Welcome.

                   Summary Statement of General Johns

    General Johns. Thank you, Mr. Chairman and distinguished 
committee members. I am honored to be flanked by these two 
wonderful officers beside me, and I would like to add my 
sentiments on the passing of Chairman Murtha. We also do hope 
that Congressman Young is feeling better. He has really been a 
great support and service to our Nation and to our service.
    The opportunity and the invitation to testify on global 
mobility issues is most appreciated. As the new commander, I am 
proud and honored to represent the nearly 135,000 Guardsmen, 
Reservists and Active Duty who comprise Air Mobility Command. 
Appearing before you today presents an incredible privilege to 
share and discuss important issues to our Nation.
    Forefront of that national security is our role in 
Operation Enduring Freedom. Through General McNabb, Air 
Mobility Command (AMC) is working diligently with United States 
Central Command (USCENTCOM) to deploy 30,000 additional troops 
throughout Afghanistan in accordance with the President's 
direction. But the bottom line is, while challenging, I am 
confident that the men and women of AMC will close this mission 
within the expected timeline.
    While ramping up for the Afghanistan surge, a devastating 
earthquake struck Haiti, and Air Mobility Command mobilized in 
support of United States Southern Command and TRANSCOM. 
Mobility United States Transportation Command Airmen arrived at 
the international airport, establishing a key hub for 
humanitarian relief, transporting 28,000 passengers, 26 million 
pounds of life-saving cargo. And when we couldn't get to the 
people, we deployed the aerial delivery capability of C-17s and 
C-130s which delivered 257,000 pounds of food and water to 
displaced Haitians.
    Moving to our modernization efforts, one simple sentence: 
The KC-X tanker aircraft is the Air Force's number one 
acquisition priority. It is imperative that we begin the 
recapitalization of the KC-135.
    And lastly, a special part of our mission is the Aero 
Medical Evacuation, something we hold so dear. It is really a 
total force success. We can now transport our most critically 
wounded from the combat zone to the U.S. hospitals in 24 hours. 
Since October 2001, 81,000 patients, 14,000 with battle 
injuries, we have been able to respond with world-class medical 
care. We have achieved the highest survival rates in history, 
and that is a total team effort.
    I am confident that Air Mobility Command will remain the 
cornerstone of the Department of Defense's ability to rapidly 
place cargo and personnel anywhere in the world any time. We 
greatly appreciate the Congress' support, this committee's 
specific support to help recapitalize and modernize the 
mobility fleet. Again, Mr. Chairman and distinguished 
committee, thank you for the opportunity to appear before you.
    [The statement of General Johns follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. Well, I do think it is--besides the logistics 
side, the handling of the wounded has been one of the most 
impressive things I have seen. And many lives have been saved 
because of Air Mobility's Command's capability to deal with 
that. And we were in Landstuhl and saw some of the wounded 
there. And the fact that we get them back to the United States 
after they get to Germany is really remarkable too. So, well 
done.
    General Fullhart. And we also have to say that General 
Fullhart was at Fairchild Air Force Base. So this is an all 
Washington panel here today.
    General Fullhart. Sir, if you had not brought it up, I was 
going to, just to make sure the record was straight on that.
    Well, Mr. Chairman, I would like to begin by adding my 
sentiments regarding the passing of Chairman Murtha, a champion 
of our Soldiers, Sailors, Airmen, his beloved Marines and, of 
course, our families. I note as the new Chairman, sir, you 
bring that same passion, and I add my congratulations to you as 
well.
    Mr. Dicks. Thank you.

                 Summary Statement of General Fullhart

    General Fullhart. Chairman Dicks, Representative Kingston, 
and distinguished members of the subcommittee, I am honored to 
be here this morning to update you on the status of Air Force 
mobility programs. I look forward to discussing how the Air 
Force is committed to replacing our aging aircraft, supporting 
our warfighters, while being respectful of the taxpayers' 
dollars. I will keep my remarks brief in order to provide 
additional time to focus on issues of interest to the 
committee. And with your permission, sir, I would like to 
submit my written testimony for the record.
    Mr. Dicks. All statements will be accepted for the record, 
without objection.
    General Fullhart. I am honored to be here with General 
McNabb, Commander of the United States Transportation Command 
and General Johns, Commander of the Air Mobility Command. They 
are Air Force acquisition's primary customers for mobility 
aircraft. They determine the requirements and capabilities that 
are needed by the warfighter. And it is my role, working with 
our program offices, the Department of Defense, industry, and 
Congress to meet those needs.
    As the Director of the Global Reach Program, I oversee the 
acquisition of nearly 30 airlift, refueling, training, 
personnel recovery, and Special Operations Forces programs. I 
am extremely proud of the acquisition professionals serving the 
Global Reach Directorate that work with those same partners--
industry, the Department of Defense, sister services, and 
Congress--to provide much needed capabilities to the 
warfighter.
    It is imperative that the Air Force effectively execute the 
acquisition process to equip our Airmen to support the 
combatant commanders. As you know, Mr. Chairman, with the 
release of the KC-X request for proposal, we are now officially 
in the formal source selection phase of this procurement and we 
look forward to a contract award later this year. The 
acquisition of additional C-130J aircraft is on cost and on 
schedule. Modernization programs for our C-5 and legacy C-130 
fleets are also performing well. We plan to acquire 15 
commercial off-the-shelf light mobility aircraft to support 
building partnership capacity programs. The C-27J is 
transitioning from a joint program to the Air Force and three 
aircraft have been delivered, currently located at Robins Air 
Force Base supporting initial air crew training.
    Now, while not part of the mobility portion of my 
portfolio, I also wanted to take this opportunity to thank the 
committee for its continued support of our efforts to both 
modernize and ultimately recapitalize our fleet of helicopters 
such as those supporting the warfighter in Iraq and Afghanistan 
and combat search and rescue and personnel recovery operations.
    And finally, Mr. Chairman, I acknowledge Congress' strong 
interest and match that with the Department's strong commitment 
to reduce the number of undefinitized contract actions, or 
undefinitized contract actions (UCAs), in acquisition programs. 
The Department is actively taking steps to work with industry, 
OSD, the Defense Contract Audit Agency and our program offices 
to definitize contracts as soon as possible and to reduce the 
use of UCAs.
    To sum up, the timely acquisition of critical mobility 
programs remains a top priority for the Air Force. We will 
continue to focus efforts on modernizing and recapitalizing our 
aging weapons systems and we very much appreciate Congress' 
support for Air Force mobility programs. We thank you again for 
the opportunity to be here and I look forward to answering your 
questions.
    [The statement of General Fullhart follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     UNDEFINITIZED CONTRACT ACTIONS

    Mr. Dicks. General Fullhart, just since we are on that 
point, do you think the Air Force has overused undefinitized 
contract actions?
    General Fullhart. Sir----
    Mr. Dicks. Can you explain why this is done instead of 
definitizing it; and why, after 180 days goes by, we still 
don't have the ability to definitize these contracts?
    General Fullhart. Yes, sir. And I appreciate the time. And 
without making this a dissertation, I would like to provide you 
and the other members some background, but, more importantly, 
what we are doing to resolve this.
    Mr. Dicks. This is an important issue. So you take the time 
you need to explain it.
    General Fullhart. For members, when the appropriations 
bills are passed and signed into law, the very next action that 
we take is to put a formal request for proposal on the street. 
And industry is then responsible for putting together with 
auditable pricing and contract data from their subprime 
contractors as well as themselves that must meet audit criteria 
by the Defense Contract Audit Agency. Their responsibility is 
to provide that in a timely manner so that audit can take 
place, and it provides a basis for final negotiation of that 
contract.
    As the Chairman has alluded to, the undefinitized contract 
action is a tool in a contracting officer's tool bag and is 
normally used for things like short-notice, rapid-response type 
things for a warfighter, sometimes for advanced procurement, 
sometimes to ensure that we don't have a break in production. 
But that is not to be used as a normal means of doing business.
    What we have found, Mr. Chairman, in the instances that you 
cited with Boeing and C-17--and I would also say that in my 
portfolio we also have the same issue with Lockheed Martin and 
the C-130--is that we were not receiving those auditable 
proposals in a timely manner.
    I tell you that I personally went to Marietta, Georgia as 
well as Long Beach, California to meet with company officials 
to try to understand from their perspective what was causing 
these problems. And so the things that I am going to talk to 
you about, I would not put in--nor characterize as excuses. 
They are the facts. But they need to be remedied, and 
leadership is what is needed.
    In many cases, over the last decade or so, if you look at 
most of the major contracts that we have, the prime contractor 
has increased the number of subprimes who contribute to the 
construction or the acquisition of a particular item. What that 
requires, because of the current policies in place, is that the 
same depth of information documentation is required from 
relatively small companies, in addition to those that you would 
expect from large companies like a Boeing or a Lockheed Martin. 
In many cases, they have been slow in providing that kind of 
depth of data. And in some instances they will provide a price, 
but they will say that price is only good for four months. So 
you can see that if we are having a prime who is taking as much 
as nine months or more to put together a proposal to turn in 
for audit, that in many cases when the Defense Contract Audit 
Agency opens the folder and starts to look at it, they say, I 
can't audit this, these have expired.
    Now, in that instance, we are faced with a couple of 
options. We can send the homework back and say you need to 
update the numbers, or, in some cases, because the subprimes 
are providing something that is a commercial item for them, 
they are not willing to give their cost and pricing data to the 
prime, but they are willing to give it to the government. And 
in those instances, then, it is the program office's 
responsibility to go and fill in the blanks because they are 
willing to give us that data. They are not necessarily willing 
to share.
    I would also add that over the last years or so, that the 
Defense Contract Audit Agency has been taking, on average, 
between six and nine months to conduct an audit. So you can 
begin to add up the months and you can quickly see how we begin 
to get past 180 days in relatively short order. And in many 
instances these are ongoing production lines that, for any 
number of good reasons, we prefer not to have a break. We don't 
want to slow a production line, we don't want to lay people 
off, we want to keep things going.
    Let me turn now to what I think are the solutions, because 
I think that is what you are more interested in than hearing 
how we got here.
    First and foremost, working with Mr. Shay Assad from OSD 
Acquisition Technology and Logistics, who I know you are 
familiar with, we are in fact reviewing, not just for the Air 
Force but for all services, the thresholds which the Truth in 
Negotiation Act (TINA) compliant data must be provided. In many 
cases now we are getting so much volume and so much detail that 
it slows down the process unnecessarily. So there are some 
commonsense things that I think will improve the process of 
actually developing the proposals and turning them in.
    Likewise for the Air Force, we are engaging with the 
Defense Contract Audit agency to ensure they understand the 
resources that are needed in terms of the physical number of 
auditors and also the dialogue that needs to take place both 
before proposals are begun, as well as during the proposal 
building process. There was a period of time where the Defense 
Contract Audit Agency would actually sort of--I won't say give 
intermediate feedback. In other words, they had gathered so 
much information and they were able to look at it and say, Does 
this meet standards or do you need to get additional 
information? Currently their policy is, we do not want to see 
it until it is all done and then you turn it over to us.
    So there were instances in the past where we may have 
caught things sooner by that intermediate process that are now 
being caught much later and therefore adds to the time. So we 
are in dialogue with the Defense Contract Audit Agency to, 
number one, make sure industry understands, clearly and 
unambiguously, what is required for an auditable proposal to be 
completed. Second, how we go about ensuring that the audit 
process is also efficient as well as effective, and that we as 
an Air Force are also postured with enough contracting 
officers, cost officials, for those instances where we are 
going to have to go out and get the cost data because for 
various reasons the prime is not able to.
    So what I would commit to you, Mr. Chairman, is that we are 
serious as a heart attack about this. We are working very 
closely with the staff. In fact, I think in two weeks we will 
be back with staff with the monthly update as to where we are 
and what we are doing in terms of improving the process.
    By way of statistic, I would just offer to you that since 
March of 2008, the Air Force has reduced its inventory of 
undefinitized contract actions by 55 percent. And we have 
reduced, since 1 October of 2009, by 16 percent. But we are not 
going to be satisfied until we have eliminated all unnecessary 
UCAs, and we are committed to doing that. We very much 
appreciate your leadership and your support in our efforts to 
do that. Thank you for the time.
    Mr. Dicks. Obviously, this is a very complicated process. 
If we have to talk to the Defense Contract Audit Agency, we 
could help in that respect to see if we can--I understand they 
are under the control of the acquisition people. Mr. Assad 
works in Mr. Carter's shop.
    General Fullhart. He does, sir. The actual Defense Contract 
Audit Agency falls under the Under Secretary of Defense 
Comptroller structure. But we are working with them and they 
have been very forthcoming and understanding of our issues.
    Mr. Dicks. These companies too ought to be--they are the 
ones that are benefiting from the contract. I mean the fact 
that they are unwilling to be more--do you think you have 
gotten their attention?
    General Fullhart. Sir, I will tell you that at least in my 
visits to both Boeing and Long Beach, that leadership from 
corporate came as a result of my going out there to hear 
firsthand what our concerns are. It is, in fact, in industry's 
best interest not to have UCAs. It is in all of our best 
interests not to have them. But they have to resource their 
offices in such a way that they can gather the information in a 
timely manner. Their subprime contractors have got to be 
postured. If you are going to play in the big game, then you 
have got to have the staff to do it.
    Mr. Dicks. Well, I think the subcontractor issue is one of 
the most important problems we have to face. The fact that 
there are a multitude of subcontractors and the inability of 
the companies to manage them and the inability of the 
Department of Defense to manage them is why we are having, I 
think, all of these problems on these programs. There are just 
too many subcontractors. And Boeing has had problems on the 787 
because of this.
    We had a classified program, very important classified 
program, that was a big problem because they couldn't manage 
the subcontractors. This has become a real major problem with 
the Department, I think. Mr. Kingston.

                                 AUDITS

    Mr. Kingston. Thank you, Mr. Chairman. And, General 
Fullhart, I wanted to ask about that because an audit is a 
luxury, it is a necessity, it is good business practice. But it 
is still a luxury in that the purpose of an audit is to sort of 
ferret out irregularities, cost overruns, excess inventory, any 
sort of inefficiencies. So if you don't do an audit but you are 
dealing with good people who do a good job, you should be okay 
theoretically, correct?
    General Fullhart. Sir, if I might just expand briefly. What 
the purpose of the audit is in large part is cost 
reasonableness. What the Defense Contract Audit Agency's 
efforts do is inform our negotiators as to whether the proposed 
price is in fact reasonable or where they think there may be 
inflation. And that then boosts the government's position in 
negotiation. So that is really the benefit I think in terms of 
the audit.
    Mr. Kingston. So it is not just a good business practice, 
it is more really setting the market price for some of these 
things which are kind of unique to aircraft purchasing and 
inventory. But it still would appear to me if you are dealing 
with good businesses all up and down the prime and subprime 
level, that when you find folks who are out of line, that maybe 
we shouldn't be doing business with them anymore. And the only 
reason why we are doing business with them is because there 
aren't any other choices.
    Broad-brushing it, and I am asking, and I am wondering if 
you find that often; and that being the case, is one of our 
problems that we need more suppliers, more subprimes, more 
competition in the marketplace? Because in the private sector 
when you have lots and lots of choices, the market sets what 
the fair price is. But here you do not have lots and lots of 
choices because you are buying unique products.
    General Fullhart. I think that is the key point, 
Congressman. You are correct. Obviously you would like to have 
lots of competition, but there may in fact not be a market that 
drives you to have more than one or two viable alternatives. So 
the real benefit I think of the audit and being in good 
government practice is don't sign up the taxpayer for something 
that is unreasonable. That is sort of what brings the business 
community back in line. Because if you don't get the contract, 
you go out of business. So you need to, number one, make sure 
you are efficient, cost-effective, your quality is good, and 
the marketplace then will balance things out in the end.
    Mr. Kingston. Well, I am wondering, one of the interests of 
Congress in general and this committee is to have more 
competition, more contractors. And there are a lot of programs 
to help, for example, minority contractors doing business with 
the Air Force or any other Department of Defense. Are those 
programs developing? And one of them you may be familiar with, 
and the only reason I am familiar with it, Sam Nunn was 
involved with it. But it was a minority development contractor 
type program and it may have been more for supplies rather than 
actual service. Do you remember that one?
    General Fullhart. I don't have a specific recollection of 
that one. What I can offer as an example, in our HH-60 
modernization programs, one run out of Robins Air Force Base, 
they put a special emphasis on working with small business, 
minority business, whenever possible to help develop additional 
sources and to offer that community an opportunity to 
participate in government programs.
    Mr. Kingston. And are those showing promise? Are we getting 
some folks really up and running?
    General Fullhart. Sir, I would say on balance the answer is 
yes. And as you can appreciate in the economic climate that we 
are in, some of those small businesses are not only doing 
business with us, but we are doing commercial business. In one 
case, we had one of our modification programs affected by the 
fact that one of our small businesses ended up going out of 
business. But by and large, we are benefiting from the 
expertise, especially in those niche areas, special 
capabilities. We are definitely benefiting from small business.
    Mr. Kingston. It would appear to me there would be an 
opportunity to merge maybe a social desire and a business 
desire, but developing these small businesses along the way to 
keep everybody honest and out there.

                  COMBAT SEARCH AND RESCUE HELICOPTER

    But you brought up the helicopter issue, so I wanted to ask 
you a question about that. As I understand it, you are planning 
to purchase 36 UH-60M helicopters across the FYDP to 
reconfigure the HH-60 Pave Hawk configuration for the CSAR 
role. And I was wondering how many rescue helicopters is the 
Air Force planning to buy? And will it be sufficient? Do we 
have the crews? Will we be able to take care of everything? You 
mentioned in your testimony that the CSAR rescued 4,000 people. 
Just talk to me a little bit about that if you can.
    General Fullhart. Yes, sir. I know that Congressman Hinchey 
has some interest in this as well. So maybe what I will do is 
give you a bigger answer than the question that you asked, to 
lay this out. First and foremost, we have a program of record 
that exists today for our combat search and rescue forces of 
112 HH-60 aircraft. Right now today, we stand at about 96 of 
those that are operationally available, flyable, et cetera. 
Some of those are lost due to operational losses, et cetera.
    And so with the support of this committee, we are in the 
process now of doing operational loss replacement of those 
helicopters. In point of fact, what we have in the fiscal year 
2011 budget, we are going to be doing four helicopters that we 
have already bought off an existing Army contract. We are going 
to have three to be purchased in fiscal year 2011, and three 
more that were in the fiscal year 2011, Overseas Contingency 
Operations (OCO) as well. And our intent in that effort then is 
to replace, if you will, the HH-60s-like aircraft.
    Now, the larger piece in terms of Combat Search and Rescue 
(CSAR) and the recapitalization of the CSAR fleet, we are 
awaiting and we expect within the next month or so the reports 
to come out from OSD that will inform our requirements process 
for the long-term total recapitalization of that fleet. It is 
our intent at this stage of the game--or our expectation is 
that that will be an open competition. However, what we will be 
focusing on there is probably along the lines of an existing 
military helicopter and them modifying it for the combat search 
and rescue mission.
    The third piece of this is commonly referred to as Common 
Vertical Lift Support program. That is right now 62 UH-1Ns that 
are in the Air Force inventory. They are spread amongst a lot 
of different programs. But the two that are probably most 
prominent are those that support our Intercontinental Ballistic 
Missile (ICBM) security, the overflight, the overwatch of 
convoy movements of those missiles in our missile fields. In 
addition to that, some aircraft that are here in the 
Washington, D.C. area that are a part of the continuity of 
operation of government activities.
    We are in the stages now of, again, a full and open 
competition in that regard. We are focusing first and foremost 
on the replacement of the aircraft that we have in the missile 
fields, because we have some performance gaps there as well as 
some numbers gaps as well as range gaps in the continuity of 
government program that we have near the local area.
    So those three, if I could sort of lay that out for all of 
you is sort of where we are at with our HH-60 operational loss 
replacement, awaiting report from OSD and the Joint Staff for 
the recapitalization of the entire fleet, and then shortly 
beginning our endeavor on Common Vertical Lift Support program. 
All of these and our continued modernization of our existing 
fleet, again I want to stress my thanks to this committee for 
your continued strong support.
    Mr. Kingston. Thank you.
    Mr. Dicks. All right. Mr. Visclosky.

                             CONTRACT AWARD

    Mr. Visclosky. Thank you, Mr. Chairman. Gentlemen, TRANSCOM 
announced an $80 million contract for passenger and air cargo 
transportation services. Are the services sought not inherently 
government functions?
    General McNabb. Congressman, I didn't understand the 
question.
    Mr. Visclosky. On March 9, TRANSCOM announced an $80 
million contract for rotary wing aircraft, personnel, 
equipment, tools, material, maintenance and supervision to 
perform passenger and cargo air transportation services. The 
announcement notes that work will be performed in Afghanistan 
starting March 5, 2010 through November 30, 2010. And the 
question would be: Why has the military sought contractors for 
something that appears to be an inherently government function?
    General McNabb. Yes, Congressman. The big part there is 
like the rest of our lift. We depend not only on our military 
capability, but also our U.S. flag fleet, whether that is air 
or sea. In this case, the specific contracts we have gone out 
to are the types of helicopters that are very effective in 
Afghanistan, that are on the civilian market, and they fit the 
niches that allow us to better use our CH-47s and tailor them 
appropriately, and it basically gets us more lift into 
Afghanistan. And, obviously, you know the issue with rotary 
wing anyway in Afghanistan. It is a very tough environment. So 
what we want to do is make sure we are taking full advantage of 
every way we can get some additional helicopter lift.
    At the same time, we are doing some other things like 
airdrop to try to free up blade time so that as we service the 
forces in there, we can take full advantage of all of our 
assets.
    Mr. Visclosky. You don't have the capacity, or, because of 
the surge, you simply need the additional capacity until 
November and then it goes away?
    General McNabb. We are doing this on behalf of the Army. 
And basically what we did is, they came to us and said, Could 
you do this? What we bring is the additional safety that we 
have with our Commercial Airlift Review Board, our oversight 
that we have on commercial contracts. Originally a lot of this 
was being done by the Army directly, and they asked us to go 
ahead and do that for them. I think in the end, what we are 
doing is figuring out every way we can do to help the 
warfighters on the ground.
    I have been over to see General McChrystal, General 
Rodriguez and General Scaparrotti. These are niche-type 
missions in which they say this is very valuable to them. 
Again, it frees up CH-47s to do some of the larger troop 
movements where that is more appropriate to the war fight they 
are in.
    So, again, this is a niche portion that I think is good 
money. It is actually in many cases cheaper per flying hour 
than the CH-47. And I think it works out very well. We have 
just got to make sure that the safety standards are met, and I 
think we are doing that.
    Mr. Visclosky. And in some instances, it might be more 
expensive. On average, would it be your assessment that we are 
saving money here?
    General McNabb. And my assessment is we are saving money on 
this. These are almost, across the board, cheaper than a CH-47 
flying hour.

                         U.S. FLAGGED COMPANIES

    Mr. Visclosky. You mentioned they are U.S.-flagged? Are the 
companies that are under contract U.S. companies?
    General McNabb. What we will do is first try to use U.S. 
flag if there are folks that are out there. And then in many 
cases they have a relationship with our U.S. flag fleet----
    Mr. Visclosky. And I don't mean to quibble here, but there 
are flag vessels on the ocean that they have nothing to do with 
the particular country for which the flag is flown. When you 
say U.S.-flagged company, is that a U.S. corporation or not?
    General McNabb. Let me take that for the record. I will get 
you a more specific answer on that. But in general, what we do 
is we will go out and we will do a request for proposal. We 
will say, here is the kind of services that we need, and we 
will have folks come in and we will evaluate their bids.
     [The information follows:]

    Yes. When we speak of a U.S. Flagged Company, we are referring to a 
``U.S. Corporation.'' The Federal Acquisition Regulation (FAR) defines 
a U.S.-flag air carrier as an air carrier holding a certificate under 
the Federal Aviation Act of 1958. 49 United States Code (U.S.C.) 
details the requirements for acquiring a certificate of public 
convenience that authorizes a carrier to provide air transportation. 49 
U.S.C. states that in order to get a certificate of convenience you 
must be a U.S. Citizen. 49 U.S.C. defines citizen as ``a corporation or 
association organized under the laws of the United States . . . of 
which the president and at least two-thirds of the board of directors 
and other managing officers are citizens of the United States . . . and 
in which at least 75 percent of the voting interest is owned and 
controlled by persons that are citizens of the United States.''
    The U.S. flag carriers were afforded a statutory preference 
pursuant to the Fly America Act.

    Mr. Visclosky. What kind of folks would come in? Like 
French airlines, Israeli airlines, U.S. airlines, Chinese 
airlines?
    General McNabb. It usually is some of the smaller--if you 
think about U.S. companies that fly helicopters in the United 
States, they may come in and say we would like to bid for that. 
We have specific companies that will do that; and that is what 
we expect, primarily it will be U.S. companies that come in and 
say, we meet your requirements and we also meet your safety 
standards.
    Mr. Visclosky. If you could, for the record, then, General, 
specify which companies received those contracts and which of 
those companies--if they could be identified as to which 
country they are incorporated in?
    General McNabb. Yes, sir.
    [The information follows:]

    The reference to an $80M contract was actually the issuance of 
three separate task orders under existing contracts to Presidential, 
Evergreen and Canadian Helicopters for the rotary wing airlift services 
required. All air carriers were approved by the DOD Commercial Airlift 
Review Board (CARB) prior to contract award to ensure safe 
transportation of U.S. troops and cargo. Preference was given in the 
source selection process to U.S. Flag carriers. A contract was awarded 
to Canadian Helicopters, a foreign flag, because there was insufficient 
capability offered by the U.S. Flag carriers to meet the requirements. 
Task orders were issued on March 5, 2010 for a total of nine rotary 
wing aircraft.
    Evergreen Helicopters Inc., a U.S. Flag carrier, received an award 
to provide airlift services with two Super Puma aircrafts. The aircraft 
was manufactured in France and the total award value was 
$20,094,000.00. Presidential Airways, Inc., a U.S. Flag carrier, 
received an award to provide airlift services with five aircraft (three 
Bell 214STs and two S-61s). The aircraft were manufactured in the 
United States and the total award value was $39,084,531.50. Canadian 
Commercial Corporation subcontracted with Canadian Helicopters Inc., a 
foreign flag, and received an award to provide airlift services with 
two S-61 aircraft. Aircraft were manufactured in the United States and 
the total award value was $20,472,000.00.
    Total award value for all three contractors for an eight month base 
period was $79,650,531.50.

                          U.S. BUILT AIRCRAFT

    Mr. Visclosky. The next question I would have is, for those 
companies, are they flying aircraft that were built in the 
United States of America?
    General McNabb. No. In some cases, these are--there are 
Hind helicopters that are part of that, that are doing very 
well in Afghanistan. And again, there are a number of folks 
that we will first--as I said, U.S. companies will come in. If 
we can't meet the needs of what, say, in this case the Army, we 
will say, okay, who else could meet this need? And then we can 
actually go back and talk to CENTCOM and say, is it in your 
interest that we go ahead and go outside of American companies 
to do this? But again, safety is the paramount issue here.

                            INDUSTRIAL BASE

    Mr. Visclosky. I am very concerned about the industrial 
base. And this is a huge chicken and egg that, after 26 years 
in Congress, has not been resolved to my satisfaction. While 
there are not enough U.S. companies doing this or there are not 
enough U.S. aircraft, therefore we have to go out--as opposed 
to being very methodical and determined that somehow we are 
going to make sure we have some persistent need so that there 
is enough U.S. aircraft to do this in the defense of the United 
States of America. I mean, do people ever sit down and say, we 
are tired of contracting out foreign vessels if we are the 
Navy, or we are looking for U.S. Flag aircraft that maybe we 
don't have enough in the inventory and maybe somebody ought to 
suggest we make those here?

                        CIVIL RESERVE AIR FLEET

    General McNabb. Congressman, I share your--the industrial 
base is a huge issue and we depend--I will tell you TRANSCOM 
absolutely depends on its U.S. Flag carriers and its U.S. Flag 
fleet. We could not get done what we get done without our civil 
reserve air fleet and our U.S. Flag fleet that does that as 
well. It will always go first to them if they can handle that. 
But I will say that overall, we will look to them. They are a 
big part of what we do and in many cases they are much cheaper 
than if we use our own military aircraft to do this. You can't 
use them----
    Mr. Dicks. Will the gentleman yield? How long--we have had 
CRAF in place, the Civil Reserve Air Fleet, for how many years, 
30 years?
    General McNabb. Fifty-nine years.
    Mr. Dicks. Fifty-nine years. So this has been the way we 
decided to do it. Most of the airlift comes from U.S. airlines, 
right?
    General McNabb. Absolutely. For the air side----
    Mr. Dicks. So we are buying U.S. aircraft in most 
instances. Now, in the sealift actually, which is--80 or 90 
percent of what we send goes by sealift. Now, in the case of 
Afghanistan, it is Maersk and the American President Line. They 
are the two major companies that are providing----
    General McNabb. And Hapag Lloyd is probably the third--it 
is a very large company as well. But Maersk and APL are the 
largest.
    Mr. Dicks. And this is in essence a necessity. I am with 
the gentleman on industrial base, and there is a provision in 
the law that on every major acquisition, they are supposed to 
do an analysis of industrial base. I had to point this out to 
Mr. Assad several times. And sometimes they forget this over at 
the Department of Defense. But we are with you on this. We 
think we ought to be looking at our industrial base more 
closely when we make these decisions, and I think sometimes 
that happens and sometimes it doesn't.
    Mr. Visclosky. I am very concerned because it may be a 
minority today, but in each of these instances, it is not just 
a particular point I raise today, people insinuate themselves 
into the system and suddenly we have four banks in the United 
States that have 38 percent of the deposits. Well, that didn't 
happen overnight. And there are a lot fewer community banks. 
The percentage of foreign vessels leased by the Navy, well, the 
number has gone down but their percentage has gone up. And I am 
fairly----
    Mr. Dicks. Aren't all our combatants, naval ships, all----
    Mr. Visclosky. Yeah, right, right. But I will move on.

                             FOREIGN SHIPS

    Mr. Dicks. I would like to know this because General McNabb 
has responsibility for the mobility, the sealift and everything 
else. Are we using a lot of foreign ships?
    General McNabb. Not a lot. The number has declined. They 
have declined quite dramatically. Again, we will always use 
U.S. ships first if we can. U.S.-built and/or U.S.-flagged, and 
only when we don't have that option will we go outside. And in 
some cases, there are some specific types of ships--we didn't 
have a lot of Roll-On/Roll-Off ships that were in the U.S. flag 
fleet. We have done much better lately. But some of the leased 
ships and our afloat prepositioned ships are foreign-built. So 
one of the things we have been really working hard--they are 
U.S.-flagged but they are foreign-built. And what we try very 
hard is, wherever we can, we try to make sure they are U.S.-
built.
    Mr. Visclosky. And I don't mean to belabor the point, Mr. 
Chairman, but we have a situation today between the nuclear 
industry and the steel industry. We haven't built a nuclear 
plant in this country--and I know I am transgressing. But I 
just want to drive home the point that when these contracts--
please think about--and the industrial base is--well, we don't 
have a nuclear industry today. Well, all the sudden now, the 
steel industry and the suppliers don't make those parts here. 
Well, okay, we are going to, for those first plants, buy them 
from someplace else. Well, okay. And now, well, when are the 
people who are making potentially those parts here going to get 
their first shot at the apple?
    General McNabb. You bet. And, Congressman----
    Mr. Visclosky. Which has nothing to do with you, but it is 
just day after day.
    General McNabb. You are exactly right. And what I would say 
is it is all based--their first shot will be a U.S. company 
always. So as we go down that, only when they don't have the 
capability--on the military side, we can't provide it--only 
then do we go outside of that. So I will get you a list of 
that.
    The helicopter issue is a tough one because of the nature 
of Afghanistan. And when you look at the kinds of--what could 
perform at that very high altitude, who has the very powerful 
engines. Because obviously, that is a very different kind of 
terrain. We do have companies that do that. Because as you 
know, way up in the mountains, logging, the kinds of things--so 
we do have companies that say, we really want to be part of 
that. Some of the companies in Alaska, for instance, have that. 
So I will get you a list of those companies.
    [The information follows:]

    Evergreen Helicopters, a Department of Defense approved carrier, is 
currently the only company providing heavy-lift capability under a 
TRANSCOM awarded contract. An award was made to Evergreen in March 2010 
to provide two Super Puma aircraft in Afghanistan.

    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Hinchey.

                    STEWART AIR NATIONAL GUARD BASE

    Mr. Hinchey. Thank you, Mr. Chairman. I just wanted to ask 
you, first of all, a very simple question about the Stewart 
International base and what do you think is going on there? 
What do you think----
    Mr. Dicks. Mr. Hinchey, would you pull the mic just a 
little----
    Mr. Hinchey. What do you think the future is going to be 
like for that particular operation there? One of the things 
that we have done recently is provide additional outside 
energy, solar energy operations there, and we are hoping to be 
able to double that sometime over the course of next year, 
which will meet all of the local energy requirements for that 
base.
    But maybe you can just give us some idea about what you 
think will be happening there over the course of the next few 
years.
    General McNabb. I will tell you, I will go first and then I 
will let General Johns. One, Stewart continues to be just a 
superb base. And I would just say that I have depended on it, 
both as I sat in General Johns' chair but also when I was the 
Tanker Airlift Control Center commander. We were depending on 
C-5s, and those folks provided tremendous capability. We 
actually had all of our hard-broke airplanes go in there and 
they fixed them. The spirit of that Guard unit is tremendous. 
And every time we have ever asked them to step up, they are 
always ready not only to take care of whatever we ask them to 
do, but they also volunteer for more. And I think that is the 
nature of that and the kinds of things that you were talking 
about of leaning forward has been their legacy. They are known 
to do that, and certainly from my standpoint I appreciate that. 
General Johns.
    General Johns. Sir, thank you for the question because it 
brings me back to when I was a kid. I was raised in North 
Jersey, though I love the State of Washington.
    Mr. Dicks. Mr. Frelinghuysen should be here.
    General Johns. I used to watch the airplanes. And then I 
was just up there recently as the commander of AMC, one, just 
to thank the members of Stewart Air National Guard Base, to go 
visit them and show our appreciation. And I was up there as the 
President was coming up to the New York City visit, and I saw 
the chaos that went with a Presidential movement and how well 
they handled that and how robust they were.
    I was also taken back--and I took away and back to our core 
command that the core of expertise in our C-5s really rests in 
some of those Guard and Reserve units, Stewart Air National 
Guard Base specifically. I mean, they had some flight engineers 
who developed self-test equipment that we could actually 
determine the health of the C-5 landing gear, very complicated, 
by this test equipment he developed instead of sitting there 
swinging the gear and going through all of those maintenance 
man-hours.
    Since they have so much seasoned experience, they can 
provide solutions that my Active Duty folks--who are so young 
and I am constantly training them--don't have the wherewithal 
to do, to the point that we are having a get-together of all 
the commanders from all over AMC, all the wing commanders. And 
the person that is going to be talking about the future of the 
C-5 is the Stewart Air National Guard Base captain who says, I 
have a way of doing this better. So to much of the chagrin of 
his wing commander, we said, I accept your offer and we are 
bringing him down.
    Stewart Air National Guard Base personnel are phenomenal. 
And we are very appreciative of what they do and how generous 
they are with getting us the lift to move forward.
    Mr. Hinchey. Well, thank you. I appreciate it very much. 
Thanks.
    More time?
    Mr. Dicks. Yeah, if you want to ask another question, 
certainly.
    Mr. Hinchey. If I understand it, on March 9th, TRANSCOM 
announced $80 million of contracts for a rotary wing aircraft 
and for a number of other things, like personnel and equipment, 
tools, material, maintenance, supervision--all of that 
necessary to perform passenger and cargo air transportation 
services.
    The announcements notes that the work will be performed in 
Afghanistan starting about 2 weeks ago or so and run through 
the end of November of 2010.
    I am just wondering why the military sought contractors for 
something that appears to be----
    Mr. Dicks. I think we just had this question----
    Mr. Hinchey. Yeah?
    Mr. Dicks [continuing]. From Mr. Visclosky.
    Mr. Hinchey. Oh, really?
    Mr. Dicks. We just did. If you missed it, we will give him 
a quick synopsis.

                               CONTRACTS

    Mr. Hinchey. Sure. Why the military is putting out these 
contracts when it is something that could be done internally.
    And I know that this is something that has been going on 
for some time now, particularly in that general area, 
particularly in Iraq.
    General McNabb. And, really, the difference is the Army was 
doing that before and they asked us to pick that up. So that 
would be the first thing I would say.
    But, in general, we depend on both our military aircraft 
like C-17s and 130s; at the same time, we depend on the civil 
reserve air flight, which is the commercial airlines, to be 
able to move. For instance, of our passengers, 90 percent move 
on our civil reserve air fleet. And so it is U.S.-flag 
carriers, and it is a great relationship and we depend on them.
    Same thing happens at sea. And here is, on the helicopter--
the helicopters that they are going after are typically much 
smaller than the CH-47, and they have high-altitude capability. 
Additionally, there are some short takeoff and landing aircraft 
that they are also looking for that, again, fills a niche. It 
is cheaper than our military aircraft. And, again, because of 
the threat and because of the situations that they are in, 
these airplanes will fit in that.
    One of the things that I always think about is that it is 
situation-dependent. There are places where we will only take 
military airplanes into. There are missions that we would only 
use military aircraft to do. But there are other types of 
missions that the civil side can do.
    And it does bring money to the economy. The U.S. carriers 
have first dibs on that; if they can cover it, then we are good 
to go. And only when a U.S. carrier can't handle that will we 
go outside of that. And we really talk a lot with the theater 
commander whether or not they want to proceed that way.
    But right now it looks like, you know--this is one of the 
things we depend on to get the best value and still meet the 
mission.
    Mr. Hinchey. Okay. Thank you.
    Mr. Dicks. All right. Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Good morning, Generals. And, to General Johns, November, a 
new assignment. Congratulations. Thank you. Appreciate you all.
    I served on the Air Force Academy Board for 5 or 6 years. 
It was one of the highlights of my career. Outstanding, 
intelligent, dedicated young men and women who have given their 
lives. And I appreciate the service that you all give.

                         AFGHANISTAN LOGISTICS

    Kind of continuing on with the discussion that we are 
having now, inasmuch as Afghanistan is landlocked, heavy 
terrain, mountainous--our military carry up to 100 pounds up 
those mountains, getting set and all of that--the logistical 
challenges that we all face, and that you all are TRANSCOM, are 
we meeting them? Kind of going on with the last discussion, are 
we meeting them? Do you need more? Is there a plan that we 
would outsource more?
    We have to have what we have to have when we need it, no 
doubt about it. Are we behind? Do we need more? I want to use 
the MRAP, for example--``MRAP Light,'' which is going into--
MRAP ATV, we call it ``light.'' I don't know if you--do we have 
what we need? Are we able to----
    General McNabb. No, in fact, I would say that--and I talked 
to the chairman a little bit earlier about this.
    One of the reasons that we are being able to do, not only 
taking additional forces into Afghanistan at the President's 
direction, sustaining a surge from last year about this time, 
which was about 30,000 as well--so we have gone from about, you 
know, 40,000 folks to 70,000, now we are going to go to 
100,000, in Afghanistan.
    And our ability to sustain the fight and make sure that the 
folks have what they need on the ground and the ability to then 
move these additional forces, along with bringing forces out of 
Iraq--which is, with the success of the election, we plan to go 
down to 50,000 troops in Iraq--take care of the other parts of 
the world like Haiti, like Chile, like----
    Ms. Kilpatrick. Congratulations on your response in Haiti. 
That was awesome. Thank you.

                                 C-130

    General McNabb. Thank you.
    But our ability really has been because this committee has 
been so supportive in all of our parts, whether it is sea, 
whether it is air, always saying, ``What else do you need?'' It 
was defensive systems, you think about--you all got to fly the 
C-130J model. The J model is so much more effective in 
Afghanistan than either the E or the H. And just to give you an 
example, the E model could only carry about 6,000 pounds 
because of that pressure altitude. Again, it gets to that very 
high altitude in Afghanistan.
    The Dash-15 model engines can carry about 24,000; the 130J 
can carry 40,000. So each time you all have helped us and put 
in defensive systems that allow our crews to go in there--you 
know, today we are working on avionics upgrades, for instance 
the C-130 Avionics Modernization Program that allows our folks 
to fly safely in there. And that has really----
    Ms. Kilpatrick. How are we coming on the avionics? How are 
we meeting those challenges? Are we ready? Are they there? I 
know we have money there, and I have been reading that you are 
working on it. Is it ready?
    General McNabb. Absolutely. And the C-17 and the 130J, for 
instance, have great avionics, a heads-up display. You can fly 
night-vision goggles with them. And it is all set up. And it 
has the kinds of safety and awareness that allows our folks to 
be able to work in that type of an environment.
    And I think the safety, you know, speaks for itself, how 
well we have done this. And all of you have flown in on our 
crews, whether it is Iraq or Afghanistan, doing those random 
approaches and coming in, and you just go, ``Wow, how do they 
make it look so easy?''
    Ms. Kilpatrick. ``Wow, how did you do that?'' Right, right.
    General McNabb. I get to actually fly the C-17 in my 
current position. And I have, you know, 5,600, 5,700 hours, 
mostly airdrop, a lot of special operations.
    Mr. Dicks. Wow.
    General McNabb. And I will just say that, when I go down to 
Altus and fly with these young captains, they come up to me and 
they put their arm around me and say, ``Come on over here, son. 
Let me tell you how we fight in this war,'' because they know 
how to fly these assets.
    Ms. Kilpatrick. That is important, yeah.
    General McNabb. And so the modernization portion is the 
same thing that you are doing, what do we have in our fleet 
that has the good engines, that, you know, has good service 
life, and can we upgrade it rather than buy new? So you all 
have helped us a lot on buying new where we must have it, 
modernizing what we can modernize, and then, at the same time, 
always looking to the future.
    My biggest hole right now that I worry the most about is 
the tankers.

                                  KC-X

    Ms. Kilpatrick. It is the what?
    General McNabb. The tankers.
    Ms. Kilpatrick. Uh-huh. I am going there next.
    General McNabb. That would be the one that I sit there and 
I worry about. We are already taking risk in that area. And I 
know you all have worked very hard on the tankers. It remains 
my number-one acquisition priority. I see that that new tanker 
will do for the whole mobility system what the C-17 did for the 
airlift system----
    Ms. Kilpatrick. Okay. So what about the KC-X? I mean, talk 
about it, in terms of--I know the chairman didn't want to bring 
it up; he didn't even ask me. But I have been to his district, 
and I know it is a main piece, and one of the bidders has 
dropped off.
    Is it still open? Is it closed? I mean, just because of 
what you just said, we need them and we need them quickly. 
Where are we in timing to close it, put it in production and 
all of that? I mean, you needed them yesterday, right?
    General McNabb. I will let them get to the specifics of 
where we are on the contract.
    Ms. Kilpatrick. Oh, okay.
    General McNabb. I would just say that the good news is that 
I think that everybody--what we are hearing is being offered on 
all accounts meets all of the things that I need.
    So the Request for Proposal captured that. And, in fact, it 
does all the things that I need it to do.
    Obviously, I, as the combatant commander, and working with 
the other combatant commanders, say, ``Here are the things that 
I need that new tanker to do.'' I turn that over to the Air 
Mobility Command, General Johns, and he takes that and says, 
``Okay, to do those things, here is specifically what has to 
happen.'' And then he turns that over to the Air Force 
acquisition world to make that all make sense. I am very 
excited about that.
    And, again, I have more on Afghanistan, if you would like 
to talk about how it all comes together, but if you want to 
talk----
    Ms. Kilpatrick. Okay. One thing before, General, just for a 
moment. I appreciate all of that. But you said you were good 
except the tankers.
    General McNabb. You bet.
    Ms. Kilpatrick. And we need the tankers. We, the young men 
and women who are in theater, the best that they need we want 
them to have. And this is the best committee in the Congress, I 
do believe. And you all do a good job in complimenting each 
other--and the system, I mean.
    I don't want to put anybody at risk. I want U.S.-bought, 
trained--all of that--aircraft when we have to have it.
    General McNabb. You bet.
    Ms. Kilpatrick. I don't want the men and women to be short 
if they need it, if we have to go somewhere else. But I would 
much rather speed up the process to build it here, to grow it 
here, to train them here with U.S. everything. Is that the 
commitment of the Air Force?
    General McNabb. I will let them--again, I would like to 
tell you a little bit more about Afghanistan, about how we are 
doing that. But we are on timeline for the surge. I will say, 
General Petraeus sets that timeline. You have to train those 
forces to have them get ready to go. You have to then move 
them, and then you have to be able to receive them at the other 
end. And all I try to do is make sure that transportation isn't 
the issue. I always try to make sure that we have everything 
that we----
    Ms. Kilpatrick. That is your job, yeah.
    General McNabb [continuing]. You know, that General 
Petraeus and General McCrystal never have to worry that I am 
going to get them the stuff that they need.
    The same thing within the theater; we use a lot of airdrop 
now. We went from 2 million pounds of airdrop in 2005 to 29 
million in 2009. And the job is that, in these dispersed areas, 
we can get that stuff out there to those forces.

                              PAKGLOC/NON

    Ms. Kilpatrick. And most of that up-spike was Afghanistan 
because of its terrain.
    General McNabb. Absolutely. That terrain is--you know, it 
is like nowhere else I have ever seen. As you said, landlocked; 
not just high mountains, but the highest mountains in the world 
around it; and very interesting neighbors, is how I would put 
that.
    We do bring a lot of stuff up from the Pakistan Lines of 
Communication on the ground. We bring about 50 percent of the 
supplies up the PAKGLOC that is from the surface by ship into 
Karachi, and then bring it up, about 30 percent, from the 
Northern Distribution Network that we have opened up coming in 
from the north, mostly through Kazakhstan and Uzbekistan. And 
then we do 20 percent by air, which is historically a little 
higher than normal, but it is because it is landlocked. And we 
take everything sensitive, everything high-value, we take that 
in by air.
    It is the ultimate ace in the hole. If anything slows down 
on the surface, I tell them, don't worry that you lose this, I 
can just replace it with another container. That needs to be on 
the surface. If it is something that you care a lot about, we 
will take it in by air, or if you need it fast. MATVs and MRAPs 
is a great example of we have taken all of that stuff in by 
air.
    Ms. Kilpatrick. Thank you.
    Mr. Chairman, can I do a little bit on acquisition of KC-X?
    Mr. Dicks. Yeah, well, we are going to talk about that 
since you brought it up.
    Ms. Kilpatrick. Oh, okay. I yield.
    Mr. Dicks. You know, the thing that I worry about a little 
bit here is that, you know, we have one bidder in this 
situation. The other company is now asking for additional time, 
and the Department is suggesting that they might grant it. But 
they don't have a partner. I mean, the people that are out 
there--Raytheon, Lockheed, and L-3--I think have all said that 
they are not going to do it.
    So, at some point, it seems to me that the Department has 
to say--and I think there is a process for doing it--is there 
intent for anybody to bid? And if they haven't got a partner--
or unless they want to bid on their own.
    You know, at some point, I just don't see giving them 
additional time to think about it. I mean, either they have to 
be serious about it or not. They have known for months that 
Northrop Grumman wasn't going to bid. And if they were going to 
get another partner, they should have been doing that.
    So I know the Department's position. We are going to go 
through the process here. Boeing hasn't submitted its bid yet. 
They have to do that; they will.
    So do you have anything to enlighten us, General Fullhart?
    General Fullhart. Well, Mr. Chairman, as you can 
appreciate, as I said in my opening statement, we are in the 
formal source selection process stage at this point. So, not 
being part of that formal process, I am limited in what I can 
say, but let me put a few facts on the table.
    The first is our Chief and our Secretary, as well as Deputy 
Secretary Lynn and Secretary Gates have all indicated, we have 
a process in place that we think is fair and open. And we are 
now in the midst of that, with a proposal due date of 10 May, 
which has been publicly announced and is available for folks 
out there.
    We have a source selection evaluation team, advisory 
council, an entire team that is poised and ready, trained to 
receive the proposals on that date and to begin the evaluation 
process.
    We have mechanisms in place that are prescribed within the 
Defense Federal Acquisition Regulations that will allow us to 
ensure that the American taxpayer, regardless of who might put 
forward a proposal, is going to get a fair price. And we look 
forward to that opportunity. As Congresswoman Kilpatrick 
indicated and as also General McNabb has indicated, this is an 
extremely important program for our Air Force.
    You alluded, sir, to my previous command assignment at 
Fairchild Air Force Base. I have flown those tankers. I may get 
this wrong, but I think it is the mother of the aircraft 
commander of the last KC-135 has not been born yet. So we are 
going to be working with these KC-135s for some time.
    We are eager to get on with this process, and we look 
forward to proposals on May 10th. And I think that would 
suffice for what I would say.

          MOBILITY CAPABILITIES AND REQUIREMENTS STUDY (MCRS)

    Mr. Dicks. Yeah. Well, again, I just hope we are not going 
to grant additional time if there isn't some credible 
possibility of having--they have said they want a U.S. partner 
to go forward with this. If there is no chance that they are 
going to submit a bid, I don't see why we should extend the 
time--and I think it was Vice President Cheney who said, ``so 
they can dither.'' That is what it looks like to me, anyway.
    So, anyway, let's talk about the metrics on the Mobility 
Capabilities and Requirements Study. How did you do this study? 
Tell us about this study. It is a very important one. You 
evaluate the per-ton miles. Tell us about this study.
    General McNabb. You bet, Chairman.
    First and foremost, it was a very collaborative effort, 
working with the services, working with the combatant commands, 
looking at the strategy, anything that has a new emphasis under 
Quadrennial Defense Review irregular warfare; you know, long-
duration campaigns like OIF or OEF--and really taking advantage 
of lessons learned. It included the fact that we have new 
equipment like MRAPs and MATVs that have become a priority.
    And I think that, from my standpoint, that part--in this 
case, TRANSCOM was co-lead with Office of the Secretary of 
Defense cost assessment and Program Evaluation, and I think it 
paid big dividends for us because we were able to make sure 
that that warfighting perspective was in there. And I really 
think they did a good job on that.
    I know they came and they briefed last week; we sent a team 
up to brief the staffs on that. And I would say that, with a 
few exceptions, it validated the Department's planned mobility 
capabilities sufficiently. From my standpoint, that was great 
news. It validated a lot of the things we are doing--for 
instance, the new tanker. And I think that, in that case, it 
not only showed that we had a bit of a shortfall but we could 
even do better in that department.
    Airlift fleet, both strategic and theater, was sufficient. 
In fact, we have a little room, given all the upgrades and all 
the changes of how we have done the aircraft, the addition of 
the C-17s, the addition of the C-130Js, bringing them to the 
fight, the fact that they bring so much more capability.
    We, actually, on the inter-theater side, we need about 304 
aircraft for the most stressing scenario. We are headed to have 
a program of record of about 334. So we will have some room to 
tailor the strategic fleet. That is not a surprise; 300 was 
about what we needed before. And what I will be asking is 
that----
    Mr. Dicks. Now, 300, that is the C-130 class aircraft, 
right?
    General McNabb. No, I am sorry. 300 total C-17, C-5-type 
aircraft.
    Mr. Dicks. Okay. Total. Okay.
    General McNabb. And we are headed to have about 334. And 
that is because of the restriction on retiring C-5s----
    Mr. Dicks. How many C-130s are in that?
    General McNabb. No C-130s in that.
    Mr. Dicks. Oh, this is just----
    General McNabb. This is C-17 and C-5s. This is the 
strategic lift portion.
    Mr. Dicks. Okay.
    General McNabb. And right now, you know, we are on track--
--
    Mr. Dicks. Oh, I see. You are right. You are right. Thank 
you.
    General McNabb [continuing]. With your add of 223. And then 
111 C-5s, that is the 334.
    Of course, we haven't received all those C-17s yet, but at 
some point, as we get additional C-17s, we now have the 
opportunity to retire the oldest, poorest-performing airplanes. 
So the big thing that----
    Mr. Dicks. Are there still legal restrictions against you 
retiring the C-5s?
    General McNabb. The restriction on that right now is 316 
aircraft. Nunn-McCurdy came out with that. Now MCRS 2016 allows 
you to say, ``Okay, now we have looked at everything, and here 
is where we stand.''
    There are some things that the Air Force has to provide. I 
will let General Johns talk about that. But it is the bed-down 
plan. It is Operational Test and Evaluation complete on the C-5 
Reliability Enhancement and Re-engining Program, to make sure 
that that all goes well. And so, that is kind of where we are.
    But as we deliver more C-17s, as you know, the most 
important part of our weapons system is our people. It is our 
crews and maintainers; it is the facilities that are out there. 
And so, you know, we want to make sure that we free up 
maintainers and crews to man those new C-17s that are coming 
online.
    I think, on the intra-theater side, the 130 side, Mr. 
Congressman, we have in the neighborhood of 400 aircraft. And I 
would say that MCRS said we need about 335 C-130s to meet the 
highest stressed case.
    Mr. Dicks. A lot of them are very old, though, right? Very, 
very old.
    General McNabb. Right. Right.
    And so our current plan of having the 130J buy and the 130 
avionics modernization program--that is upgrading our C-130H2s 
and above, which is our best C-130s--between those two, we can 
meet that.
    I also worry a little bit about all the direct support that 
we are now doing--and this is as a TRANSCOM commander--that we 
are doing in support of the Army and the Special Forces and the 
Marines on the ground, is that they also have a time-sensitive, 
time-critical requirement. You heard C-27, you know that we 
talked about 78 aircraft to be able to meet that need. That 
program was reduced to 38, and part of that was that we have 
additional 130s. So, to me, there might be 40-some-odd 130s 
that we will need to be able to supplement the C-27s to do that 
mission.
    So I am in the neighborhood of about 375 aircraft until--
you know, at some point, General Johns and the whole gang will 
take another look at that. But, in my mind, we do have some 
room to retire some airplanes on that front, especially the old 
E models, as you have mentioned.

                              MCRS SEALIFT

    Mr. Dicks. Right.
    General McNabb. The roll-on/roll-off: What we found on the 
sealift side was our roll-on/roll-off vessels, we have 92 of 
them, and they were max utilized on two of the scenarios, which 
makes me think that we--I would like to have a little more 
reserve in that. So we will be working on the sealift side to 
see wherever we can get our hands on some additional roll-on/
roll-off. We have been doing that already, and it is already 
paying big dividends. But it is both on our organic fleet, but 
it is also on our U.S.-flag fleet to try to incentivize them to 
pick those up if they can do that.
    Joint High-Speed Vessel played very well. So, again, 
something that is in the program. We have 18 of those coming. 
But that Joint High-Speed Vessel, I think, will allow us some 
options where you can use one of these intermodal ports that 
you could take a large, medium-speed RO/RO ship into, one of 
our large ships, and then you could take it by air, if that is 
required, or you can take it by one of these Joint High-Speed 
Vessels. If you think about Haiti, that is where these kinds of 
things could really pay some big dividends.
    The last part was, they talked about the infrastructure, 
that it isn't our structure at home, it isn't the en route 
structure; it is the infrastructure we are going into. One of 
the scenarios was a long, sustained--you know, in a place, not 
unlike Afghanistan and not unlike Haiti, where you don't have a 
lot of structure, we want to make sure that we have options to 
be able to use a number of different ways to get the stuff in.
    I think that validated that. That is what we found in 
Afghanistan. And that is things like using that Joint High-
Speed Vessel. To me, some of the work we are doing on airships, 
Unmanned Aerial Vehicles carrying cargo, and airdrop joint. 
Whether it is precision airdrop or low-altitude, low-cost, it 
is how do we make sure that our folks on the ground never have 
to worry that we will get them the stuff that they need and 
that we can get them in there.
    And I think that that kind of validated where we are going. 
Again, you all have been absolutely superb in supporting this. 
And, today, I think our ability to go into Afghanistan, come 
out of Iraq, still take care of events like Haiti, speaks 
volumes to what you have done and the great support you have 
been.

                                AIRDROP

    Mr. Dicks. What about--you mentioned airdrop, C-17. We 
don't do that off of the C-5, do we? Just the C-17?
    General McNabb. No. C-17s and C-130s primarily in 
Afghanistan. And I would just say that that has paid big 
dividends.
    And we go all the way from--we have some 130s doing some 
low-altitude, low-cost, which means they are coming in at about 
150 feet at 150 knots, and it is very precise. They use 
disposable chutes. And the folks on the ground, you could do 
about 500 pounds. And it has worked really slick.
    They were using some of those smaller CASA airplanes, 
Congressman, for that kind of thing, because it is tailored to 
that size of a load. But we now have some 130s, something 
General Johns jumped all over, of having some 130s test that, 
and it is working out great.
    Our promise, again, is to the folks on the ground. If we 
can do it by airdrop so you don't have to put a convoy--you 
know, it is money. And so, a lot of success in there.
    The joint precision airdrop is where you put a GPS receiver 
on there. But, again, more expensive. If we don't need it 
because of the threat, it is better to do the low-altitude, 
low-cost or our normal Contain Delivery System.
    So, with that, I will see if General Johns wants to add 
anything on that.
    General Johns. Sir, our mission is to get it to those who 
need it, when and how they need it.
    Regarding the airdrop, we put these Soldiers and Marines 
out into these, forward operating bases the perimeter of the 
country. Sometimes for them to traverse, to get to a main 
operating base is hazardous--the weather, the threat. So if we 
can put these bundles right where they need them, when they 
need them, we have met their needs. And, to me, that is time-
critical, sensitive movement.
    For example, one night we had troops in contact, and their 
issue was the water had been contaminated. So the commander 
said, you have to get rid of your water. But, without water, 
they can't sustain the fight. So they called down and said, 
``We need an emergency airdrop.'' Within four hours, we had a 
C-17 crew, who was ready to go, takeoff with water to drop it 
within meters of the folks. And they said, ``Well, let's hold 
off now because, to go out there at night--let's wait until 
sunrise.'' And we are able to do that.
    And, if you think about it, another thing is that we are 
out in these villages and we have to be precise with this air 
delivery. If I miss and put a bundle through somebody's house, 
they are probably going to hate America and we are going to 
undermine what the Marines and the Army have done while they 
are there. So, not only do I want to protect our Soldiers and 
have it close so they don't have to be out and be exposed, I 
want to also make sure we support their mission, because they 
are trying to build trust and transparency to help those 
villages be successful and combat the enemy.
    So it is a whole part of building partnerships; it is us 
delivering so that they never want; and us delivering in a way 
that we don't put them in threat. So that is kind of the 
focus--and so, the different means of doing it: with joint 
precision airdrop, with low-cost, low-altitude airdrop. We will 
do whatever it takes to make sure we deliver those capabilities 
to those Soldiers and Marines who count on us.
    Mr. Dicks. Okay. That is good.
    Mr. Kingston.

           C-5 RELIABILITY ENHANCEMENT RE-ENGINEERING PROGRAM

    Mr. Kingston. Thank you, Mr. Chairman.
    I wanted to ask about this Reliability Enhancement Re-
engineering Program on the C-5s. And the question is, has that 
been ruled out for the C-5? Because I understand that there has 
been an increase in cost and scaling back the number of 
airplanes that are going to have it. And so, I was wondering 
how we are going to apply that. And does part of this review 
compare the cost of a C-5 versus a C-17? And where is that?
    General McNabb. And I will let General Johns jump in here, 
and General Fullhart.
    In general, when we did the Nunn-McCurdy and took a very 
hard look at the re-engining program of the C-5, what we came 
back to Congress with, the Department's position was we would 
re-engine the B models. Those are the airplanes that were 
pretty much built in the 1980s. But the A models would not pay 
for themselves, so the decision was made to forego re-engining 
the C-5As.
    In the end, we are on track to have 52 C-5Ms, which is the 
re-engine. We have three that have been out there doing their 
initial test. And I would say that, from my standpoint, those 
airplanes are going to--you know, I just met with the company 
president, and I said I am still expecting to have the same 
kind of reliability we have on the C-17. So I can use it 
without ever worrying that I am going to close down a ramp.
    Everything--cost, schedule, and meeting performance 
parameters--seem to be on track, at least that is what I 
understand. Again, I will defer that to General Johns and 
General Fullhart. But, again, right now the plan is to only do 
the B's, do not do the A's. But we would do the avionics 
modernization program on the A's.
    But when we talk about being able to retire some airplanes, 
it will be the oldest ones of those that are the poorest 
performers. And we do have an ability now to--given the MCRS, I 
think we have an opportunity to smartly tailor that fleet.
    Mr. Kingston. General Johns.
    General Johns. Sir, the C-5M is the work. What we have done 
is taken the C-5B and we have redone the cockpit, the avionics, 
to make it compatible and get rid of the old analog system and 
put a digital system in.
    In doing that, it also allows us access to the new 
airspace, because the new airspace is much more precise. And I 
can't wallow through it; I have to be precisely knowing where I 
am, because that gives me access to the higher altitudes and 
more fuel efficiency and I can traverse the globe in a more 
responsive way for the combatant commander.
    We then take that Avionics Modernization Program (AMP) that 
avionics, and then we actually go and do about 70 other system 
upgrades. The major ones that we see are the engines, thrust 
reversers, and the environmental system. And we put those new 
engines on.
    And what it does is it gets me the performance to get up to 
altitude. Because with the C-5 now, with the old engines, if I 
max gross weight, I am leveling off in the low 20s and I am 
driving that airplane very inefficiently. And if you think 
about all of our airliners, we are going up to the 30s and the 
40s. So now, with these new engines, I can get up to the 30s 
and the 40s. I can climb at 58 percent faster than I can with 
the C-5B or A. I also have a fuel savings of about 8 to--I will 
say 12 but sometimes it is 20 percent. But, more importantly, I 
can go basically from Dover Air Force Base to Incirlik Air 
Base, Turkey with about a 120,000-pound load, where, before, I 
had to put down and basically refuel somewhere along the way.
    So the range, the payload, the capability that the C-5M 
brings really gives me a lot of ability to deliver to the 
warfighter.
    Now, I came back from Ramstein Air Base on the airplane, 
and yesterday I flew the C-5M for the first time, myself, and 
went up and did a pretty good profile. And I will tell you 
what, I was very impressed with the performance. Equally 
important, I am impressed with the aircrew, because they have 
taken these airplanes--some built in the 1960s, some some built 
in the 1980s--and with this C-5M, they have this new pride and 
passion that, ``Sir, we are going to have better reliability, 
we are going to have better performance. Put us in the fight.'' 
So all that I heard yesterday was, ``Sir, we want to be part of 
the surge.'' I only have three airplanes right now----
    Mr. Dicks. How many of these are we going to do?
    General Johns. Sir, we are going to do 52 of them. We are 
going to do the B models. And we have one A and then the two 
C's. And that is all I need to meet the warfighters' 
requirements.
    And then with the other remaining C-5As, we have come to 
you and asked for support to retire 17 in fiscal year 2011, to 
start that process in a mature way so that I can always meet 
General McNabb's requirements and I make sure I am not having 
too much risk to do that. So I am very comfortable that we can 
start retiring the older A's at this point.
    Mr. Kingston. Okay. I also wanted to ask, on the C-17, the 
Globemaster Sustainment Partnership expires this year, and you 
are looking at a new partnership program or a new maintenance-
type program, which would include putting in an office at 
Warner Robins, as I understand it. It may already be open, I am 
not sure.
    But how much money will that save? And will that do the 
trick over the life of the contract and the life of the plane?
    General Johns. I am going to let General Fullhart go into 
some of the numbers. But, from my perspective right now, we 
have Boeing, who has total responsibility for the airplane. And 
through a business case analysis, we said, well, how do we go 
forward, induce competition? And we found out that our depot is 
capable of performing the work for the C-17. It brings it into 
the depot, so we have the organic capability as a nation. And 
what the business case showed is we can save $9 billion to $12 
billion--and General Fullhart will correct me on the numbers--
we can begin saving that money by bringing it into the depot.
    Now, that is good. My position is, I can't affect the 
performance of the airplane. I need to deliver on the aircraft 
to meet the warfighters' needs. So what have you done to ensure 
a safe transition? Well, Boeing is on contract to kind of 
shepherd this process for five years as we transition over to 
the depot, and then there are five one-year renewable contracts 
to continue if we need to do this as a teaming.
    But at the end of the day--in fact, we just met yesterday 
with General Hoffman in the Air Force Materiel Command. And I 
said, what are the leading indicators that we need to be 
watching month by month so, the minute I see something not 
going right, we can put corrective action in? Because I can't 
come and disable that fleet during the transition.
    I am comfortable and confident we have a good plan, but I 
want to make sure we are managing it very tightly so, if we go 
off course a little bit, we can correct rapidly.

                             ASSET SHARING

    Mr. Kingston. Okay. And wanted to ask--it comes up every 
year--about managing your own inventory. You know, one of the 
things we all find out is that the National Guard is 
politically more active and more vocal than active duty. And we 
are glad that they are, and they should be. But, as you know, 
when you want to retire aircraft, because of that, they can 
work Congress very effectively.
    How big of a problem is that? Is it the problem that it was 
5 years ago? And do you feel like you can retire the aircraft 
you need to retire in order to have the money saved that we 
want you to save?
    General McNabb. And, again, I will let General Johns jump 
in.
    My take is, on the mobility side, our ability to use the 
total force and share airplanes is really tremendous. In many 
cases, we find that we have to put a whole plan together so 
everybody knows all the moving parts. But those Guard and 
Reserve crews and maintainers is what is so important in all 
that.
    The sharing of the iron is the one that we tend to spend a 
lot of time on to make sure that we get that right. And, quite 
rightly, they worry that, ``Well, we have some great folks 
here, and we are a little worried that if this mission went 
away, we wouldn't get one back.'' Our job is to make sure that 
we show how we are taking full advantage of all of them. And I 
think we have done that.
    And we have reduced--I was always thinking about the 267 C-
141s and 180 C-130s that were replaced with the first 180 C-
17s. And we did that in full coordination with the Guard and 
Reserve to say, ``Here is how we are going to do this.''
    And this asset can do so much; we are going to share more 
of these assets. And something that General Johns and the Air 
Force has done is to look at better ways to share assets so 
that you get your crew ratio and maintainers, but you are 
sharing these very high-priced assets. And it has really paid 
some big dividends.
    So we still have some homework to do, but I think that is 
how we have done it in the past.
    So, General Johns.
    General Johns. Sir, our Nation was founded on the militia. 
Our Nation was founded on the National Guard. That is what it 
is today. And we wouldn't be where we are without them. So it 
is a key part of who we are.
    I couldn't do my mission without the Guard and Reserve with 
the active duty. I would like to say that the active duty 
should be sized so I can meet any steady state and that I use 
the Guard and Reserve for that surge capability. But, you know, 
right now, I am living in surge, and so I am constantly going 
to my Guard and Reserve brethren.
    We try and maintain the active duty about a 1:2 dwell. And 
if they are gone 120 days, they are home for 240; then they are 
gone for 120 again. That crew that General McNabb talked about, 
that C-130 crew, I hugged a guy on his eleventh deployment, 
going back over to Afghanistan to do that low-altitude drop.
    So, by the same token, for my Reserve and Guardsmen, we try 
to get a dwell of 1:5 for them, because they have jobs, they 
have families. And the first thing they give up when they come 
work for me is their family vacation, where they go to their 
employer and say, ``Sir, I need to go support my Air Force and 
my Nation again.'' So I couldn't be more appreciative.
    So one of the things I am worried about is, how do we 
balance? I want to make sure those active-duty airmen stay in 
and they don't have to vote with their families and say, I 
can't take anymore. So a 1:2 dwell is there. I have to worry 
about those Guardsmen and Reservists, a 1:5 dwell, because 
their employers are going, ``Hey, Iraq is coming down; why are 
you guys still busy?'' ``Well, sir, we are doing Afghanistan.'' 
``But it is just 30,000 people.'' ``No, sir, we are moving a 
lot of equipment in there, and they need me through August for 
sure for the surge.'' And then what is the new steady state?
    So I am constantly doing this. So, as you look at the 
airplanes and where we retire from, our Guardsmen live with 
those airplanes. My active-duty folks every four years rotate. 
But at Stewart Air National Guard Base, for example, they know 
them well. And so, if we look at adjusting things, it is very 
personal to them, as it should be. So we are very open and 
transparent. When we ask to mobilize, I sat before General 
McNabb with my Guard and Reserve brethren with me, saying, 
``This is how we are doing it, ``Total Force.'' We are very 
transparent.
    I have to respect their concerns. But, at the end of the 
day, I have to come forward with the best plan to meet 7 the 
warfighters' needs and make sure the Guardsmen, the Reservists 
are sustainable in their support and their commitment and that 
my active-duty folks are able to stay in our Air Force.
    Mr. Kingston. So you don't have the frustration that maybe 
the Air Force had 3 to 4 years ago, in terms of controlling 
your own inventory?
    General Johns. Sir, I wouldn't call it frustration; I call 
it the need to communicate and to share and be open.
    And, at the end of the day, there are different 
perspectives.
    And, yes, our Guardsmen have more access to the Congress.
    And I respect that process, and I will continue to be open.
    And, you know, I only want the best possible solution, and 
that is the most informed input.
    Mr. Kingston. Thank you.

                          MISSION CAPABLE RATE

    Mr. Dicks. All right. Give me the mission-capable rate for 
the C-17 and the C-5.
    General Johns. Yes, sir. My Mission Capable (MC) for the C-
17 is 84 percent.
    Mr. Dicks. And what about the C-5?
    General Johns. The C-5, I am running between 45 and 50 for 
the C-5A. I am running about 60 percent for the C-5B.
    Mr. Dicks. And we don't know enough about the M yet. What 
do you suspect?
    General Johns. Yes, sir. They expect--well, the two 
statement says that two years after the initial operating 
capability, which is fiscal year 2015, they will have a 75 
percent MC rate.
    Operational Test Evaluation testing is complete. There are 
good indications. Having just flown it, I am very confident and 
comfortable that I will deliver on that capability. And we are 
going to run the aircraft really hard during the surge, the 
older ones, and just continue to work it.

                         C-17 SUSTAINMENT COSTS

    Mr. Dicks. How much per year is obligated for C-17 
sustainment in operation and maintenance and in the 
Transportation Working Capital Fund? Do you know, or can you 
get it for the record?
    General Johns. Sir, let us provide that for the record, if 
we may, precisely.
    [The information follows:]

    The Air Force Operations and Maintenance appropriation obligated 
the following amounts for C-17 contractor logistics support (CLS):
          Fiscal Year 2007: $235.6 million
          Fiscal Year 2008: $283.2 million
          Fiscal Year 2009: $330.3 million
    The Transportation Working Capital Fund obligated the following 
amounts for C-17 CLS:
          Fiscal Year 2007: $757.4 million
          Fiscal Year 2008: $803.0 million
          Fiscal Year 2009: $831.2 million

    Mr. Dicks. Okay.
    Mr. Visclosky.

                      MATERIAL HANDLING EQUIPMENT

    Mr. Visclosky. Thank you, Mr. Chairman.
    General McNabb, on the issue of material-handling 
equipment, the Air Force apparently a year ago had funding 
concerns about the acquisition of material-handling equipment. 
There were two different loaders that were involved. What is 
the status of that program? And is there still a funding issue?
    General McNabb. Let me give you, kind of, the overview.
    We use the Tunner and the Halvorsen loaders. And, again, 
Congress has been very good about--the Tunner is our 60K, the 
Halvorsen is the 25K loader. They are able to do the high reach 
that allows them to offload a 747, for instance. And then we 
have the all-terrain loaders, the 10Ks.
    And, at this time, I think we have all the Tunners and 
Halvorsens that we need, and now we are getting into the depot 
maintenance kinds of things to make sure their service life can 
be extended.
    We had a number of other types of loaders--these were the 
40,000-pound loaders--that now are, kind of, excess. Now that 
we have our full complement of Tunner and Halvorsen, we are 
going to be able to excess some of those older loaders that 
weren't able to reach up and offload every type of airplane.
    So I think that, right now, Congressman, we are in pretty 
good shape. Again, I will see if General Johns would like to 
provide a comment on that.
    General Johns. I feel I can meet General McNabb's mission 
across the globe with them--318 Tunners, 443 Halvorsens, the 
smaller one. And right now, sir, we are in the process of a 
refurbishment. We have begun it on the Tunner. So how do we 
sustain them? So I will say we put them in the depot, go 
through them, refurbish them, and they come back out the other 
end, ready to go again.
    So I have enough, and we have a sustainment process that 
allows me to continue them in good service.
    Mr. Visclosky. Is there anything else we can do as far as 
improving ground handling facilities and other infrastructure 
at your forward bases to make it more efficient?
    General Johns. We have the mechanized material-handling 
systems. As you have been out to some of the Air Force bases--
McChord, for example, Dover, McGuire, and Travis--where we have 
a lot of throughput, we have that big machine that will pull 
the pallets actually off the wall and get them ready to go out 
to the airplane. That is doing very well. It has really given 
us a lot of efficiency. And now we are actually putting some of 
those in our en-route.
    Sir, with all the support you have given us, I think we are 
on track to do that and to continue to be very expeditious in 
getting those aircraft loaded. So I am very comfortable right 
now.
    General McNabb. Congressman, if I could mention, you have 
hit on exactly the thing that, as a TRANSCOM commander, I am 
always looking for, is: What are the kind of connectors, 
whether it is inter-air between a commercial to a military 
aircraft? We are doing that right now, taking 747-400s directly 
into airfields like Bagram and downloading those MATVs onto C-
17s to take them into Bastion, you know, making sure we are 
taking full advantage of the small throughput at Bastion and 
using C-17s to do that.
    In some cases, it is the 747-400s--we would have to pull 
the turret off it to load on a 747-400. It is much cheaper to 
use those to fly it all the way to Afghanistan. But it is those 
kinds of things that allow us to turn airplanes faster and do 
these inter-air or intermodal solutions faster. We win the race 
in the pits, we know that, and that is all about velocity. So 
you have it exactly right.
    The Halvorsen and the Tunner loader--I will say that, when 
we first got our Tunner loader, I got those about the same 
times as the C-17s when I was the Tanker Airlift Control Center 
commander. I tail-number-managed both of them. Because, 
wherever they were, they were such a multiplier because they 
were so much faster. You can offload a C-17 using a Tunner 
loader in about 10 minutes, 18 pallets, because it is perfectly 
suited to do that.
    So we now have enough of those, and we continue to look for 
ways that we can--it is like NASCAR; you win the race in the 
pits. And you just sit back and say, if we can speed that up, 
we win. And it is velocity.
    So there are going to be some of these other ones that I 
think we are going to be able to come and--the problem is, they 
are kind of niche markets right now. And I kind of go, boy, if 
I had something that made that really easy to drive an MATV off 
a 747. Right now I use those K loaders to do it, and you can 
see what a difference it makes.
    Mr. Visclosky. One other generic question: The Department 
of Defense has proposed a joint future theater lift that would 
be used by the Army and Air Force to meet both service's 
missions, which I would compliment both services on. It was 
proposed this past year, the projected milestone A decision is 
in this year, milestone B is in 2014, and the first fielding 
would be 2024, which, by my math, is about 15 years.
    Why is it--we fought and won World War II in 4 years. 
Seriously. Why does it take 15 years from the time you get an 
idea until you field? I mean, that is a half a generation.
    General McNabb. Right. Let me go first on that.
    Mr. Visclosky. I am thinking of just mission change, I 
think of cost, and I think of the----
    General McNabb. Here is how I think about this. And then, 
again, I will let General Johns and General Fullhart jump in, 
as well. I look at this as--right now it costs about 10 times 
as much to move a pound of cargo by air than it does by 
surface, about 10 times. And no surprise that about 10 percent 
of our stuff goes by air and about 90 percent goes by surface.
    If we could get to something that allowed that to be 3:1 or 
2:1, that difference, and some of the air shipped kinds of 
things that you think about, that would enable sea-basing. And 
right now we use vertical lift because we have to use that in 
Afghanistan, but vertical lift is pretty expensive still. So 
what is that next key enabler that will allow us to change that 
cost dynamic so that we make this whole thing more efficient?
    There are a number of ideas that are out there: you know, 
tilt rotor, quad rotor, air ship, those kinds of things. And I 
think our big part is to get all of those in and then figure 
out which one is really kind of a game-changer and changes that 
equation. So that is how I see it.
    A lot of the other things we will be doing kind of on a 
constant improvement basis, like we were talking about the 
loaders, but this is one that I think could have us jump a 
whole generation.
    Mr. Visclosky. How long would it take, with all of the 
trained people you have and the experience of fighting wars for 
200 years and all of your experience in logistics and movement, 
to make the decision? And then it will still take 15 years--and 
not just this aircraft, but----
    General Johns. Sir, on this particular one, we are looking, 
as the Army migrates to the new equipment, how quickly do they 
migrate to the new equipment? We are talking 20 to 30 tons. And 
then the question is, okay, we want to get it right into a 
small location. Do we have to do that vertically? Extremely 
expensive. Is there a 1,500-foot runway, is there a 3,000-foot 
runway very close by?
    So I think what we are doing right now with this analysis 
of alternatives, which is going through the process--and 
General Port is overseeing that--I am looking at meeting their 
needs on their timeline. I don't believe, at this point, that 
the Army is going to be fielding this new equipment so quickly 
that I am behind the time to meet their needs. I want them 
never to have to worry about getting their equipment where they 
want it, when they want it. So I want to make sure that our 
timeline to deliver is there for them. I think we are matched 
right now, by virtue of their development of this new equipment 
and their fielding of it.
    And then this analysis of alternatives has to look at, what 
is the cost of putting it in vertically versus going to the 
nearest 1,500-foot runway and maybe putting it with something 
that has a wing? Or do we use the airship?
    So, again, we are looking at all that right now, I think, 
to deliver the best solution. And I hope, at this point, I am 
on the Army's timeline to deliver it so I can meet their needs.
    And then General Fullhart is working some of the details 
here in Washington, D.C. on that.
    General Fullhart. Sir, the only thing I would add to that 
is in the relay race that is acquisitions right now, the baton 
is in the hands of the requirements generators. Because you 
have to understand what the concept operations are that will be 
used, again, as has already been mentioned; what equipment are 
we talking about; what environment threat, et cetera, should 
this be able to operate in.
    Once those parameters are set, then the acquisition 
community can pick up the baton and say, what is the state of 
the art of the technology? Is this something that has to be 
newly developed, or is this something that exists that, with 
modification, can meet the need?
    And so we are in the very early stages of this, but, as the 
analysis of alternatives takes more definition, I think we will 
be in a better position to know how long we are really talking 
about.
    Mr. Visclosky. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dicks. Let me ask one here. Tell us about the 
presidential aircraft replacement, where that is.
    General McNabb. We will let General Fullhart answer that.
    General Fullhart. Sir, we have no formal requirement at 
this stage from the Administration. But what we are doing as a 
Department is, I think, good stewardship of looking at the 
existing fleet, how long we have had it, what are the 
modifications that are going to be necessary to sustain it, and 
then at what point is it appropriate to begin the kinds of 
activities for a recapitalization of that fleet.
    In the near term, what we are doing are some, what I will 
call, risk-reduction studies. This is a generic way of saying, 
you know, where is the technology of large commercial air 
fleets today? What are the kinds of evolutionary changes that 
we would anticipate in the onboard equipment that are necessary 
to support the President in all his roles?
    But we are nowhere near kicking off a formal acquisition 
program, at this stage.
    Mr. Dicks. So this is just a study, at this point?
    General Fullhart. At this point, we are gathering 
information to inform future judgments.
    Mr. Dicks. Mr. Hinchey.
    Mr. Hinchey. Well, thank you, Mr. Chairman.
    And thank you very much. This has been, of course, very 
interesting.
    I just want to return briefly to the C-5As. My 
understanding is that the study that has been conducted 
recently shows that there is no real need for additional C-5s 
and that there is not going to be many, if any, re-engining of 
the C-5s.
    General Johns. C-5A.
    Mr. Hinchey. C-5As, yes, right. So I am just wondering how 
many of these C-5s are going to be retired. What do you think 
is going to be happening with them in that regard?
    General Johns. Sir, right now we have come and asked to 
retire 17 in fiscal year 2011 and 5 more in fiscal year 2012, 
so a total of 22. And that will allow me to meet General 
McNabb's warfighting needs.
    And then what we are also doing is we are looking at the 
bed-down of the C-17s. We recently announced that the C-17 is 
going to Ohio, to Wright-Patterson Air Force Base, to the 
Reserve. And we are in the process of looking to bed down a C-
17 unit in the Air National Guard, and we are going through the 
strategic basing process to do that. So that is how I am able 
to say, okay, we can retire some of those C-5s, because I am 
able to put C-17s in place.
    And with the Air National Guard, the manpower is never--
because the manpower remains organic to the unit, so it allows 
the free-up. So we are in that process. And I think you have 
been in dialogue with the Chief and the Secretary on that.

                              AIRLIFT MIX

    Mr. Hinchey. Yes. So it is basically a ratio of one retired 
and then a C-17 coming in, basically one for one, something 
like that?
    General Johns. Sir, I don't want to tie it to that. At the 
end of the day, it is what is the right mix that I can go 
forward to General McNabb and say that I have enough strategic 
airlift. Because, again, the range on the Mobility Capabilities 
and Requirements Study-16 (MCRS) was 299 to 304 tails to 
achieve 32.7 million ton miles per day. And I want to look at 
that in a way that we allow sufficient capability, that I am 
never wondering about where my next aircraft is coming from to 
meet the mission. And I think we have that about right now.
    General McNabb. And I think it is really to take advantage 
of those great crews and maintainers and facilities. And, 
again, that has been built for about 300 large airplanes. When 
you think about Guard and Reserve active duty, all the work 
that has done been, you know, that is about what we can handle 
without having additional airplanes that are sitting around the 
ramp.
    Mr. Hinchey. So, as that occurs, do we know what the impact 
is going to be on the personnel that is going to be involved in 
this, the resource allocations, how they are going to be 
organized?
    General McNabb. That is strategic basing you know, they are 
going through all of those things to make sure that they have 
that all right. And that is why they take a long time on it, to 
make sure that they work with the Guard and Reserve and the 
bases affected and say, okay, are we mixing and matching right, 
and, at the end of this, are we fully utilizing the newer 
resources that we are giving you in the right way?
    There is a much higher crew ratio on the C-17, for 
instance, than on a C-5. So even though the manpower for a C-5 
per aircraft is higher, I will just say the C-17, when you put 
the whole crew ratio on, the number of crews you actually need 
is more on a C-17 than a C-5 because you use them more.
    Mr. Hinchey. Yeah. Well, thanks very much.
    Mr. Dicks. Let's go to the--you mentioned this in your 
statement--the C-27J. Tell us about where we are in this. Why 
was this cut back to 38? Do you agree with Mr. Gates's position 
that we can take care of the rest with C-130s? Tell us about 
this.
    General McNabb. Again, Mr. Chairman, I will start and then 
see if General Johns wants to jump in.
    I got to be in part of that discussion. And it was, as we 
were looking at a number of different options as part of the 
last budget, here are some things that we think we could tailor 
a little better given what we have learned in Iraq and 
Afghanistan, but also given that we do have some excess 
capacity in the 130 fleet.
    It is that direct support mission which I think has just 
proved how important that is, is that is that marriage with the 
folks on the ground. You have seen that, you know, between 
McChord and Fort Lewis in the way that, if we start doing 
airdrop together, it just ends up being the trust grows. And we 
are finding that is really successful in Afghanistan and Iraq. 
Lots of work being done on that.
    From my standpoint, I think that the C-27 fills a very good 
niche. In other words, there are places where you have small 
types of packages to immediately resupply units, and it allows 
us to, if we have the C-27, be more efficient with the 130s. If 
we are more efficient with the 130s, we can be more efficient 
with the C-17s. It allows us to have a mix of options that come 
together. My part is----
    Mr. Dicks. What kind of capacity--I mean, how much can this 
handle, cargo-wise?
    General McNabb. It basically is about half the capacity of 
a C-130. And so, that is where it comes into. It is a two-
engine. The front end looks very similar, in other words, the 
flight deck, if you went up on there, you would say, ``Boy, 
this looks a lot like a 130.'' But it is two engines. So it is 
a smaller platform, so it is a little--you know, as you talk 
about operations & maintenance over a lifecycle, you actually 
save a little money.
    But, again, I think it allows us to have a mix of options. 
In many cases, it is those CASAs that we were talking about, 
Congressman, that carry those small 500-pound loads; that you 
don't need to have a whole 130 go out there. We could do it 
with a smaller airplane.
    Tails sometimes are important, but sometimes your overall 
capability is--the 130 and the C-27s are very complementary. So 
that would be my take on it.
    And, General Johns, if there is anything you might add?
    General Johns. Sir, we are getting it for the direct 
support mission. We didn't have it available when we did the 
experiment, the test. October through December, we had two C-
130s go from Mansfield, and they went over to Speicher 
Contingency Operating Base in Iraq. And we basically put those 
aircraft under the command of the Combat Aviation Brigade 
(CAB), the aviation commander.
    I went up and visited them, both at Mansfield and at 
Speicher Contingency Operating Base, and the test was 
magnificent. The commander was able to deliver, very rapidly, 
parts across his 250-mile swath of where he was worried about 
helicopters. And here is how it went.
    General Johns. He had these two C-130s there he could fly 
on demand. And it worked very well for command and control. And 
that was excellent. And then in turn, he was flying his 
helicopters to make sure my C-130 stayed repaired. The C-130s 
would then take the helicopter parts all across in getting his 
helicopters flying again. And it worked very, very well. We 
have three C-27s right now. We are going to be growing to the 
38. I think we can do the mission.
    I flew the C-27 about a month ago and I think it is really 
going to deliver the capabilities that we need. And 38 is a 
good number at this point.
    Mr. Dicks. Thirty-eight is enough. You know these need--
what was it, 76 or----
    General Johns. Seventy-eight. We will augment the rest with 
the----

                                 LAIRCM

    Mr. Dicks. Tell us about the large aircraft infrared 
countermeasures, LAIRCM, tell us a little bit about that.
    General McNabb. It is part of the defensive system suites. 
Again, not only have we programmed a number of assets to do 
that, but actually you have helped us in the Overseas 
Contingency Operations. This is what has allowed us to operate 
our 130s and C-17s and now some of our VIP Special Air Mission 
airplanes by putting that on there. If you couple it with the 
tactics, techniques and procedures that you have seen our crews 
do, what you have is we can get people in, in what I think is a 
much more safe way.
    So right now, for instance, we will take our passengers 
into Manas, load them on C-17s and 130s and then bring them 
down. And you have been part of that with the random 
approaches, night-vision goggles, whatever it is.
    But it is those defensive systems that allow us in to 
operate and make sure that we can always, always get in. That 
constant work on that has really paid some dividends for us. 
And the number of assets that we have with LAIRCM, again 
coupled with the tactics, techniques and procedures, has really 
allowed us to operate in Afghanistan and Iraq the way we have 
and really allowed us to make sure we are not putting our great 
troops in harm's way unnecessarily. General Johns.
    General Johns. Sir, new guy. It is my body armor for the 
aircraft that carry our Airmen. And with that I can sleep a 
little bit better at night because I know I am giving 
everything we can to protect them.
    Mr. Dicks. Okay.
    General Fullhart. If I might just add to that briefly, we 
have had tremendous support from this committee for this 
program. The Fiscal Year 2011 funds that we are requesting 
support the C-17, C-5, C-130s, C-40s, C-37 and C-20s. So this 
continues to be a very important program and we appreciate your 
support.

                        CIVIL RESERVE AIR FLEET

    Mr. Dicks. Back to CRAF again. What is the current and 
expected capacity of the Civil Reserve Air Fleet?
    General McNabb. Sir, right now we have--we require 120 
aircraft total in our Stage III when we do our full call-up on 
the cargo side and 136 on the passenger side. We have done very 
well on both cargo and passengers. In the international long-
range CRAF segment, we have 235 cargo airplanes committed by 
our U.S. carriers and 312 on the PAX side. That 
oversubscription, we kind of look at it as that is kind of our 
ace in the hole, if you will, that allows us to deal with the 
kinds of things like the surge, and they can handle it very 
easily because they kind of share it all. The good part about 
the Civil Reserve Air Fleet is that we do the procedures, we 
make sure the standards are the same and they can flow into our 
system.
    So when you hear 900 sorties a day coming out of Air 
Mobility Command, about 200 to 300 of those are commercial. And 
it is these folks that are flying these missions. What they do 
is they do it on a normal contracting, and this becomes our 
activated CRAF, which makes up a huge part of my wartime 
capability.
    Ninety percent of the folks during war will move by 
passenger airplanes, commercial passenger airplanes, and about 
30% of our cargo. And that is what we have in the war plans.
    Mr. Dicks. All right. Well, I think this has been a very 
good hearing and thank you.
    The committee will adjourn until 4:30 p.m., March 23rd, at 
which time the committee will hold a hearing on the posture of 
the U.S. Army. Thank you very much.
                                           Tuesday, March 23, 2010.

                              ARMY POSTURE

                               WITNESSES 

HON. JOHN M. McHUGH, SECRETARY OF THE ARMY
GENERAL GEORGE W. CASEY, CHIEF OF STAFF, UNITED STATES ARMY

                   Opening Remarks of Chairman Dicks

    Mr. Dicks [presiding]. The Committee will be in order. This 
afternoon the Committee will hold a hearing on the posture of 
the United States Army. We will discuss personnel matters, 
current operations and readiness, research and development, and 
procurement. We are pleased to welcome our distinguished 
witnesses, the Honorable John M. McHugh, Secretary of the Army, 
and General George W. Casey, Jr., Chief of Staff of the Army.
    Mr. Secretary, I believe this is your first appearance 
before the Defense Subcommittee as Secretary of the Army. 
However, you are no stranger to the House of Representatives 
having represented the people of New York's 23rd and 24th 
districts from 1993 until assuming your present position. You 
served also on the Oversight and Government Reform Committees 
and the House Permanent Select Committee on Intelligence. You 
are highly respected in the area of military affairs and we are 
pleased you were able to be with us today to discuss the Army 
budget request for fiscal year 2011.
    General Casey, welcome back. You are a veteran of these 
budget hearings. We appreciate the expertise and perspective 
you bring to these proceedings, based on your many years of 
military service, including top level command and staff 
assignments in the Pentagon and Iraq. Mr. Secretary and General 
Casey, we salute you and the men and women, the soldiers who 
are the United States Army. The Army has carried a heavy burden 
and has done so with great skill, courage and dedication to 
duty. Combat tours have been extended, time at home has been 
short. Many said the Army would be broken, but the Army, I 
think, stands strong. The Army has answered every call to duty 
in Iraq, in Afghanistan, in Haiti and in many other places. But 
the frequent deployments there have been tough on soldiers and 
their families.

                                SUICIDE

    General Casey, as you noted during your recent visit to 
Schofield Barracks in January of this year, more soldiers, 27 
appeared to have committed suicide, than were killed in combat 
in Iraq and Afghanistan combined. The number of suicides is 
high. Despite the best efforts of the chain of command to use 
every available tool to prevent suicide, the pace of events and 
the level of commitment to the Army is high and it is expected 
to remain high in the near term.

                         BUDGET REQUEST SUMMARY

    The Army continues operations in Iraq and Afghanistan and 
concurrently resets soldiers, families and equipment to be 
ready for the next challenge. The President's budget request 
includes $3.2 billion for brigade combat team modernization, 
beginning with the Early Brigade Combat Team modernization 
effort. We will want to discuss these upgrades, including FCS 
spinouts, such as the Small Unmanned Aerial Vehicle and the Non 
Line of Sight Launch System. Based on recent combat experience, 
the Army has funded in the budget request an additional combat 
aviation brigade. The new brigade makes 12 Army combat aviation 
brigades and it will enter the force structure in fiscal year 
2011.
    The Committee understands that the Army plans to add the 
13th combat aviation brigade in 2015. The Committee will want 
to discuss the requirements and the personnel and equipment 
resources requested in the budget. To better balance its 
capabilities, the Army proposes to convert a heavy brigade 
combat team to a Stryker Brigade combat team by fiscal year 
2013. The Committee will want to understand the personnel and 
equipment needed for this initiative, as well as the proposed 
funding.
    Additionally, the Committee will want an update on the 
Army's plan for use of $150 million added by Congress in the 
fiscal year 2010 Defense Appropriations Act for procurement of 
additional Strykers. Unmanned aerial vehicles are employed far 
more frequently in the intelligence surveillance and 
reconnaissance mission, as well as the attack mission. The 
Committee will want to discuss current requirements for UAVs 
and expanding the UAV mission set, as well as the resources 
requested for UAV acquisition and operation.

                            PACIFIC THEATER

    The readiness of U.S. Army forces in South Korea to assist 
in the defense of the country will be discussed. Training, 
equipment readiness and equipment modernization are topics of 
interest. The Committee is aware that U.S. forces on the Korean 
Peninsula are relocating to the south. This is a complex 
operation. Adding to the complexity is the tour normalization 
policy which implements in Korea 3-year accompanied tour policy 
to replace the 1-year unaccompanied tour.
    The Army has had a patriot air defense battalion based on 
the island of Okinawa since 2006. The Committee is interested 
in the equipping, training and readiness of that battalion to 
assist in the reenforcement and defense of South Korea while 
maintaining awareness of events in and around Taiwan. Contracts 
for procurement and support are more frequently negotiated on a 
fixed price basis through full and open competition with the 
acquisition effort accompanied by an expanding cadre of 
qualified Federal acquisition corps professionals. The Army's 
progress in hiring, training and certifying an expanded 
acquisition corps is also an area of interest. Other topics 
that are likely to be raised in the question-and-answer session 
include armed reconnaissance, helicopter, import car buying, 
paladin, integrated management, self-propelled Howitzer and 
tactical wheeled vehicles.
    Mr. Secretary and General Casey, we have a full plate. But 
before we proceed with your statement, I would like to ask the 
distinguished ranking member, Mr. Young, for any comments. Mr. 
Young, formally chairman and who has been under the weather a 
little bit and we are glad to see him back and looking healthy.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. And believe 
me, it is good to be back. And I do want to extend a very warm 
welcome to Secretary McHugh and General Casey, two outstanding 
leaders leading a tremendous Army. We have asked a lot of our 
Army and they deserve our consideration for whatever their 
needs might be. It is up to us to make sure that the 
necessary--what is necessary for adequate training is made 
available, for the weapons to do the job and the transportation 
to get there and whatever it takes to protect our forces while 
they are there during the fight.
    And I know the leadership of both of these fine gentlemen, 
agree with that and we have talked many times about what it is 
we have to do to make sure that happens. So, Mr. Secretary, 
General, thank you very much for being here today and thank you 
for the good job you do leading our Army. We look forward to 
your testimony.
    Mr. Dicks [presiding]. You may proceed as you wish and we 
will put your entire statement in the record without objection.

                 Summary Statement of Secretary McHugh

    Mr. McHugh. Thank you, Mr. Chairman. First of all, I 
appreciate, Mr. Chairman, yours and the distinguished ranking 
member's kind comments. Given the considerations on time, I 
want to make a few brief opening comments. But with your 
forbearance, I would especially like to add my words of 
condolences and sadness over the loss of former chairman Jack 
Murtha. For all of us in this room, I had the honor and the 
opportunity of serving with him for all of my 17 years. He was 
a great friend of men and women in uniform, certainly the Army, 
but a great friend on a personal level. And I had an 
opportunity go with many of you and, of course, the chief to 
his services both in Pennsylvania and here. And he will be 
sorely missed.
    Having said that, Mr. Chairman, again, if I may be so bold, 
I think the decision to nominate you to his Chair was 
absolutely a magnificent one. In your case too, you and I 
worked together on any number of issues. And I know that you 
will pick up this mantle ably and fill some pretty considerable 
footsteps. So my congratulations.
    Mr. Dicks. We appreciate your comments about Chairman 
Murtha and we feel exactly the way you do. And we appreciate 
your leadership and the ability to work with you on these 
issues.
    Mr. McHugh. Thank you, Mr. Chairman. Let me just briefly 
say with respect to the reason we are here today. This will not 
be a shock to any, but I think it is important to know. After 
nearly 9 years of warfare, your Army is tired. It is stressed, 
it is feeling the effects of multiple deployments. Too many 
times in the theater and too little time back at home to recoup 
and to recover. We are making progress and trying to do the 
best in the way ahead to address some of those challenges. But 
they do continue. Having said that, I think you should be aware 
that in spite of those challenges, this Army remains resilient, 
it remains determined, and it is extraordinarily effective.
    As I know, Mr. Chairman, you and others have recently 
returned from theater. And largely to the resources that this 
subcommittee and ultimately Committee in the House has helped 
provide, this Army has more experience, more education, more 
training and more lethal capabilities than ever before. But it 
is an unbalanced force. And in order to take steps to correct 
that, we have to continue the progress that has been made and 
we think this budget takes us and keeps us in the right 
direction to restore balance, to take care of soldiers and 
their families. Of course our equally important citizen cadre 
to make sure we are providing for our wounded warriors to 
affect the policies of reset and modernization that are so 
critical in helping us to face successfully the enemies today 
and the enemies yet unknown of tomorrow.
    If you look at all of the vital programs associated with 
those initiative soldier health and family programs are fully 
funded: $42 million for the comprehensive soldier fitness, a 
program that my predecessor and General Casey were instrumental 
in putting into place; $9.6 billion in MILCON to create across 
114 individual projects; better access and better quality to 
health care; $28 million for the SHARP program; and $55 million 
for suicide prevention, for more clinics to more behavior 
health specialists, and more of those things that this Army and 
its family needs, I think this budget takes us, as I said, in 
the right direction.
    Similarly in wounded warrior programs, here too, $900 
million to continue to operate the 29 WTUs and--based in our 
facilities, camps, posts and stations and nine community-based 
facilities; $1.2 billion in MILCON to create nine community-
based complexes providing a triad of care, making sure that 
every wounded warrior has someone that he or she can talk to 
about the way ahead in their medical care. And including, of 
course, as I mentioned, modernization, that I know we will get 
a chance to talk about more.
    This budget is a good budget in increasingly challenging 
times. And while no budget I would argue is ever perfect, we 
think from the Army perspective it reaches the appropriate 
balance and we look forward to working with this Committee, the 
subcommittee and its challenges ahead to ensure that as all of 
us wish so very much to see happen our great Army, soldiers, 
civilians and their families are provided for in these very 
challenging times.
    So with that, Mr. Chairman, I yield back and look forward 
to your questions.
    Mr. Dicks. Well, thank you very much. We just--a number of 
us on the Committee just got back from a trip to Afghanistan 
and Pakistan. And I guess I would ask General Casey if you 
would give us kind of an update on how you think things are 
going in Afghanistan, the so-called surge in Afghanistan.
    General Casey. Sure. I will do that. I would like to just--
--
    Mr. Dicks. If you want to make a statement too.
    General Casey. I do.
    Mr. Dicks. Go head. I am sorry.
    General Casey. That is okay. I will just add that to the 
end of it.
    Mr. Dicks. Add that to the end. Thank you.
    [The statement of Secretary McHugh follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   Summary Statement of General Casey

    General Casey. Like the Secretary, I will give you my full 
statement for the record. I would just like to highlight a few 
things. I would like to give you an update on where we are in 
getting back in balance. And then I would like to talk to you 
about three priorities for us in this budget that I hope are 
also priorities for the Committee and those three are 
sustaining our soldiers and our families, reset and 
modernization. And one of the most significant things about 
this budget is, as you will see in there now, the transition of 
our brigade combat team modernization away from future combat 
systems program into a new program and I will talk about that 
briefly.
    First of all, the update. I have been saying since 2007, to 
the Committee, that the Army was out of balance, that we were 
so weighed down by our current commitments that we couldn't do 
the things that we knew we needed to do to sustain our soldiers 
and families for the long haul and to prepare to do other 
things. And we, with the help of the Committee, put ourselves 
on a plan back in 2007 to get back in balance by 2011. It is 
hard to believe that was 3 years ago. And I want to report to 
you on the progress that we made there.

                            GROWING THE ARMY

    And I want to tell you that this 2011 budget provides the 
resources that with the Iraq drawdown that provides us the time 
to put us back in balance here as we suggested we could do in 
2011. And let me just talk to you about six key areas and give 
you an update about what that means. First of all, growth, you 
recall in 2010, President Bush directed us to increase the size 
of the Army by 74,000. Originally, that growth was to be 
completed by 2012. With the help of the Committee and the 
Secretary of Defense, we moved that to 2010. And we actually 
finished that growth last summer. That was a huge assistance 
here that enabled us to meet the increased demand in 
Afghanistan without having to increase time on the ground to 15 
months and without having to reinstitute stop loss.
    So the growth has been a very big help to us. Now, you will 
know that even as we finished that growth, it was clear to us 
that we were still having difficulty manning units because we 
had about 10,000 soldiers already deployed on transition teams 
or manning headquarters. We had another 10,000 soldiers in 
warrior transition units or manning warrior transition units 
and we had another 10,000 that were temporarily non-deployable.
    So Secretary Gates authorized us to increase the size of 
the Army by another 22,000. And we are in the process of it 
growing to 15,000 of that 22,000 this year. And we will make a 
decision in the coming months whether or not we actually need 
the full 22,000. So our growth has been a big success story and 
a big help.

                              TIME AT HOME

    Second, dwell, the time that the soldiers spend at home. I 
am increasingly convinced that the most important thing we can 
do to get ourselves back in balance is to increase the time the 
soldiers spend at home. And it is not just so they can spend 
more time with their families. That is important. But it is so 
they can recover themselves. We just completed a study that 
told us what we intuitively have known, that it takes 2 to 3 
years to recover from a 1-year combat deployment. That is the 
reality of it. And we have been for 5 years, we have been about 
1 year out, 1 year back. So what that says is the soldiers 
aren't fully recovering and the effects are cumulative.
    With the growth that I talked about, we are able to meet--
almost meet our dwell goals that we set in 2007: 1 year out, 2 
years back for the active force; 1 year out, 4 years back for 
the Guard and Reserve. Even with the Afghan plus-up, our 
portion of that plus-up is about 22,000. We get 70 percent of 
the active force there and we get 80 percent of the Guard and 
Reserve there in 2011.

                               MODULARITY

    Third, modularity. Some of you will remember in 2004, we 
began the conversion of our division based Army to modular 
brigades that were much more tailorable to meet differing 
circumstances. That involved the conversion of all 300 
brigades, 300-plus brigades in the Army. We are 90 percent done 
with that. And that--and the brigades are making--are 
demonstrating their effectiveness in Iraq and Afghanistan every 
day. The other element of our organizational transformation is 
rebalancing. We have moved about 150,000 soldiers away from 
Cold War skills into skills more relevant for today.

                             TRANSFORMATION

    For example we stood down about 200 tank companies, 
artillery batteries, air defense batteries and we stood up a 
corresponding number of civil affairs, psychological 
operations, special forces, military police. Taken together, 
modularity and rebalancing, it is the largest organizational 
transformation of the Army since World War II, and we have done 
it while we have been sending 150,000 soldiers over and back. 
We couldn't have done that without the help and support of the 
Committee. The fifth element of this is we are putting the 
whole Army on a rotational model, much like the Navy and the 
Marine Corps have been on for years. We have to do that so we 
can continue to meet these demands and do it at a tempo that is 
sustainable for the All-Volunteer Force. We will be well on our 
way to doing that by 2011.
    And lastly, restationing. 2011--and this budget contains 
about $1 billion to finish up the 2005 BRAC. And that affects 
and has affected about 380,000 soldiers, families and civilians 
all across the Army. And that was a lot of additional activity, 
but the plus side for us was that the facilities on our 
installations have--and the quality of those facilities have 
gone up substantially.
    So bottom-line, after 3 years working with you to get back 
in balance, we made great progress. We are not out of the woods 
yet, but I can see us where we need to get in 2011 and this 
budget provides the resources to do it. I would like to 
conclude then just with the few words on those three priorities 
that I mentioned. First of all, sustaining our people. Our 
soldiers and families are the heart and soul of the 
organization. And we set out 3 years ago to double the amount 
of resources we are putting towards soldiers and family 
programs. We have sustained that in this budget. This budget 
contains money for housing, barracks, child care, youth 
facilities, war transition units and survivor outreach 
services. We are very, very keen to continue the efforts that 
we made early on.

                                 RESET

    Second, reset. There is almost $11 billion in this budget 
to reset equipment coming out of Iraq and Afghanistan. People 
may miss the fact that we are maintaining high operational 
ready rates in Iraq and Afghanistan and have over the last 8\1/
2\ years is in large part due to the investment in the reset. 
And reset is critical, not only to sustaining ourselves in Iraq 
and Afghanistan but to the long-term health of the force. And 
finally, modernization. As I mentioned, this budget marks the 
transition from the future combat systems program to a brigade 
combat team modernization strategy for the entire Army. We 
believe that we have crafted an achievable and affordable 
modernization strategy to modernize our brigade combat teams it 
has got 4 key elements and I can talk about it in more depth as 
we go along.

                             MODERNIZATION

    First, we intend to incrementally modernize the network so 
that we can take advantage of advancements in information 
technology and upgrade the systems as we go forward. Second, we 
intend to incrementally modernize the brigades by fielding 
capability packages. And some of you will remember what we 
called spinouts, the intelligence and surveillance devices that 
we were developing to go with the vehicles of the future combat 
system. We intend to field those in different packages again so 
we can take advantages of technology. Third, we are 
incorporating MRAPs into the force, both for our infantry 
brigade combat teams and to the explosive ordnance disposal 
units that require these vehicles on a regular basis.
    And lastly, we are building a new ground combat vehicle. 
And this will be an infantry fighting vehicle it will be the 
first vehicle designed from the ground up to operate in an IED 
environment. And this budget contains the money to begin that 
process. So those are the three priorities that I wanted to 
share with you. And I will close, Mr. Chairman, with my 
expression of the pride that the Secretary and I feel in the 
Army and I know that you share. And I will tell you that we do 
stand strong. Thank you very much.
    [The joint statement of Secretary McHugh and General Casey 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             ROTATION CYCLE

    Mr. Dicks. Well, thank you very much. And both of those 
were excellent statements and I am glad that you feel that we 
are moving in the right direction in terms of the numbers of 
people. Give us a little explanation of this rotational system 
in terms of how this would--how this would impact the Army. I 
know you mentioned that the Navy and the Marine Corps do it. 
But explain how that whole thing works.
    General Casey. I will. And then I forgot to give you the 
update on Afghanistan and I will tack that on to the end. 
Remind me if I forget.
    Mr. Dicks. Okay. Good.
    General Casey. If you think about--I said 1 year out, 2 
years back. That means you need three-fourths pool, one to be 
deployed, one to be training to deploy and one to be 
recovering. If you take the Army and you divide it up into 
three-fourths pools and then you add the Guard and Reserve who 
will flow through those force pools at differing years because 
they are at 1 year out, 4 years back, we can organize ourselves 
so that every--and each one of those 3 pools, you have a core 
headquarter, a 3-star headquarters, 5 division headquarters, 20 
brigade combat teams, 3 or 4 of those are Guard, and about 
90,000 enabling forces, helicopters, engineers, military 
police, intelligence, half of those are Guard and Reserve.
    And so that would be the output. And we would prepare 
ourselves to deliver that output annually. And they could be 
used for Iraq and Afghanistan. They could be used by combat 
commanders for security assistance or whatever they need. That 
doesn't quite meet the current demand in theater. We are over--
that total force package is about 160,000. And we have got 
about 24 brigade combat teams deployed right today. But the 
idea of this, it is a rotational readiness model. So as you 
come out of the reset, you gradually build readiness as you 
move towards the available pool where you deploy.
    But the purpose of that is so that we can deliver that 
capability, trained and ready to go to war at a tempo that is 
sustainable for the all volunteer force. And what we have been 
doing in the past is you come back, you take your leave and you 
get your training and you go back again. And we have been doing 
it in 12 to 15 months. And that is just not sustainable. So 
that is the purpose. We are going to be at this for a while. We 
believe that organizational model will allow us to do that. Did 
you want to add anything to that?
    Mr. McHugh. I did, but you have to talk about Afghanistan.

                           AFGHANISTAN UPDATE

    General Casey. Afghanistan. The flow of the forces in is 
proceeding apace. I just had an update today from the Army 
commander who is responsible for bringing those forces in. The 
equipment for the first force package is there and the troops 
are flowing in, and I expect that they will get there at or at 
least maybe even in advance of their date. What we are seeing, 
what I am seeing is a gradual--the gradual impact that these 
forces are having over time and a gradual shift in the momentum 
of the operations there, which is exactly what General 
McChrystal hoped to see.
    You mentioned earlier the battle of Marja. I think that is 
important from two perspectives: One, because it was an area 
that was important to the enemy and they couldn't hold it. And 
that is significant. And I asked General McChrystal on a video 
teleconference what that told him about the enemy and he said 
it told me that they weren't quite as strong as I thought they 
were. And I think that--so that is significant.
    We still have a long way to go there. We still have some 
shortages and trainers that I know General Caldwell and General 
McChrystal are working on. And we have to grow the security 
forces as much as we did in Iraq so they can ultimately take 
over. But I think they are going in the right direction.

                             ROTATION CYCLE

    Mr. McHugh. Mr. Chairman, if I may, with respect to the 
cyclical training, the ARFOR GEN as we call it, and the Chief 
very, very accurately described the advantages of how it 
generates force structure. The other thing does, is that at the 
same time, a challenge and ultimate benefit, it provides us the 
opportunity bring all the other things that the Army does into 
that rotation. Right now you have troops coming home at various 
times, they need to go to their schooling. They have got joint 
service requirements that may or may not be available.
    We can tune this new enterprise model that the Chief and 
others have been working on so that it too works on that same 
cyclical program so that when folks come back their dwell time 
is really dwell time and they can attend the schools that are 
necessary for them to advance in their career line.
    So we see it as a larger business model. And also as a way 
to make the career in the Army more attractive to soldiers who 
are interested in furthering their education of course, and 
gaining rank and staying in for the long haul.
    Mr. Dicks. Mr. Young.

                      AFGHANISTAN--TRANSPORTATION

    Mr. Young. Mr. Chairman, thank you very much. With the 
terrain in Afghanistan being really rough, very few roads and 
highways that we would consider movable and with some of the 
units actually using mules to carry supplies and equipment, et 
cetera, where are we on the issue of ground transportation for 
our troops? MRAPs, Strykers, Humvees?
    Mr. McHugh. I will take MRAPs. Obviously the Chief has a 
great vignette. He can tell you about his son, but I will leave 
that to him if he cares to. But this is an incredibly important 
addition to the force structure as you said, Congressman Young, 
particularly in Afghanistan where the training challenges are 
far different in most ways, far more difficult than they were 
in Iraq.

          MINE RESISTANT AMBUSH PROTECTED--ALL TERRAIN VEHICLE

    Right now we have just over 1,500 of the new MRAPs in 
Afghanistan. We have got about 160 that are on route to 
Afghanistan. Most of them by ship, about 30 or so are being 
conveyed by air. We have some who have actually arrived at the 
port of Karachi that are be outfitted tested and will be 
fielded soon. We have approximately another 130 or so that are 
at the port in Charleston ready to be shipped. So we are at 
about the saturation rate, about to the extent as to what they 
can take into theater, what they can set up and deploy 
reasonably.
    But this is going to be key both to--in terms of carrying 
the fight to the Taliban and to the anti-Afghan forces. But 
also as you noted, it does provide us an opportunity for 
greater options on ground transportation which in a country of 
very few roads has been an enormous problem. Both logistically 
and also in terms of IEDs and predictability on ground routes.

                                 MRAPS

    Mr. Young. Let me follow up on the MRAP issue. Are all of 
the MRAPs in country now, are they all the same model or are we 
into some of the smaller MRAPs that we developed later?
    Mr. McHugh. We have several variants, but all M-ATVs that 
are coming off the line are going to Afghanistan for the 
moment. But it is absolutely true. And not all the requirements 
are the same. A lot of missions and some don't require the 
flexibility, don't require the all terrain capabilities of the 
M-ATV. So I think that mix will continue for a while, but 
clearly the M-ATV is the platform for the moment.

                                STRYKER

    Mr. Young. What about Stryker? How important is Stryker in 
the overall ground transportation area?
    General Casey. It is important for us as an Army to have a 
versatile mix of capabilities, transportation capabilities. So 
it is beyond just Afghanistan. And as we were organizing 
ourselves, we want to have heavy brigades that are ready. So 
you have tanks and Bradleys, light brigades augmented with 
MRAPs and then Stryker brigades so you can mix those forces 
together to give you what you need.
    I think it is probably common knowledge to the Committee 
here that the Strykers that we put into Afghanistan had some 
challenges. They got put into a tough area and they saw some 
IEDs that had a huge explosive weight and frankly some of those 
would have blown over a tank. And so we have studied that and 
one of the proposals that has come out is a V shaped hull for 
the Strykers.
    And frankly that appears promising. We have lots of testing 
that we need to do on that. But right now the Stryker from a 
survivability perspective is closer to the Humvee than it is to 
the MRAP. So if this hull kit works out, or this hull works out 
and it moves it closer to the MRAP, that is going to 
significantly enhance what the Stryker can do for us. Folks 
love the mobility of the Stryker and they like the organization 
of the brigade. So it is an important asset to us not just in 
Afghanistan but Army-wide.
    Mr. Young. General, I have seen that model of that new V 
shaped hull and it does appear that it would be a major 
improvement as far as the protecting of the vehicle and the 
personnel inside. Keep us advised on how you are proceeding 
with that. One more question on ground transportation, on 
HMMWVs. Does HMMWV play as important a role in Afghanistan as 
it did in Iraq?

                                 HMMWV

    General Casey. No. And especially as the MRAPs had become 
available. And so up-armored HMMWVs, Strykers, MRAPs and M-ATVs 
are probably--that is how the preference would be in a 
descending order. No, it is not. And I was talking earlier to 
the chairman. We are working through an overall vehicle 
strategy. What we need in terms of HMMWV, what we need in terms 
of MRAPs, all terrain vehicles, Strykers and trucks frankly. 
And we have been working on that for about 10 months and I 
expect to see that here in the coming months.
    Mr. Young. Aren't we scheduled to have--go ahead.
    Mr. McHugh. I was just going to say, in fact, the Army just 
did a prohibitive review, an assessment of where we were on 
HMMWV acquisition. We had met our requirement. In fact we have 
exceeded it. We just executed termination to that contract, not 
an immediate termination, but a drawn down that will exercise 
the option of the contract. We will procure several thousand 
more, 2,662, in fact, in the coming months and then some other-
than-Army sales of about 8,895.
    And after that, we expect the Humvee to still be a part of 
our vehicle fleet. But it will be much adjusted in its activity 
based on what we have experienced in Afghanistan.
    Mr. Young. Mr. Secretary, I understood that to be the case. 
But I also understand that there are quite a number of foreign 
sales scheduled for the Humvee. But the charts that I have 
looked at seem to show me that the line will shut down, because 
of the Army's decision, and will be shut down before the 
construction of the new vehicles for foreign sales could be 
produced. Where do we stand there?
    Mr. McHugh. The Army has--we have taken an approach to try 
to stretch out the activity on the line as far as practicable. 
As I said, we have not only met our requirement, we have 
exceeded it. We have about 8,000 HMMWVs that are currently on 
the lot waiting for the Army to accept. We exercise the option, 
as I mentioned earlier, in the existing contract procuring 
another 2,262. Afterwards as you noted correctly, Mr. Young, we 
have other-than-Army sales, FMS, Marine Corps, other branches 
of the services that will purchase nearly 9,000. Depending on 
what the production rate is, whether it is 50 or 30, wherever 
they are able to make that out, we expect the line can stay 
open until the end of at least 2013.
    Thereafter, we have a major recap program that we are 
submitting I hope soon or reprogramming request from the 
available monies that the current manufacturer, AM General in 
the State of Indiana, would certainly be welcome to compete in 
which would keep that line running even further. We try to be 
as sensitive as we can to the manufacturing base which we are 
concerned about, but there are only so far we can go and limits 
we have to respect.
    Mr. Young. I certainly understand that and that was my 
question for General Casey, was the HMMWV still going to be an 
important part of our inventory. Okay. Mr. Chairman, thank you 
very much. I appreciate your remarks.
    Mr. Dicks. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. Secretary, 
congratulations. I appreciate the responsibilities you have and 
wish you well. General, thank you very much for being here. If 
I could follow on with Mr. Young's line of questioning, 
Congress did provide $1.3 billion for the HMMWV program for the 
2010 budget. Do you or could you tell us today what the Army's 
obligation plan for those funds are?
    Mr. McHugh. As I briefly mentioned to Congressman Young, we 
are developing a reprogramming requests for the unexpended 
monies available in the HMMWV procurement program. That is 
working its way towards the DOD comptroller, Bob Hale. I don't 
want to prejudge how he will dispose of that one way or 
another. But it is certainly the Army's view that we can use 
those funds particularly in the recap program. But again as I 
mentioned, Mr. Young, is a critical opportunity for AM General, 
the current manufacturer or certain of the depots which I know 
some members on this subcommittee have some interest to 
participate in those. So we have purposes for the money, much 
of it, most of it is redirected back in a HMMWV recap.
    Mr. Visclosky. Do you have a time frame as to when we will 
get the reprogramming request?
    Mr. McHugh. I don't, Congressman. As I said, it is really 
predicated upon Mr. Hale's shop processing.
    Mr. Visclosky. And when you talk about the recapitalization 
program, what do you mean specifically? What am I looking at 
program-wise?
    Mr. McHugh. You have HMMWV sets come back from theater, 
HMMWV sets that are being utilized in CONUS that reach their 
operational life. And it costs about $184,000 to purchase a new 
HMMWV. In recap, it essentially creates a new vehicle by taking 
the old platform in most cases, stripping it right down to the 
frame and rebuilding. And that costs between 90 and $100,000. 
So it is a cost saving measure, but it also maintains the 
operational fleet at the requirement numbers so we are not 
buying platforms that, as I said, under current requirements we 
don't need.
    Mr. Visclosky. General, it is my understanding the Army, 
and I think you had alluded to it, is looking to a mix of light 
tactical vehicles. And you had mentioned that--I think said 10 
months the Army had been working on that and you are some 
months away. Would that include HUMMWVs, armored HUMMWVs, joint 
light tactical vehicles, MRAPs? Is that--you are looking at the 
whole universe?
    General Casey. I am sure you are asking yourselves the same 
thing I asked myself 10 months ago, what are we doing with all 
these vehicles. And as I think about it, the HUMMWV is 
basically a utility vehicle that can do a range of different 
things. So that is kind of the first tier of systems. And the 
basic HUMMWVs can be used for training at home. And they can be 
used for a range of missions outside of Iraq and Afghanistan. 
Up-armored HUMMWVs is the next tier. They can be used in an IED 
environment. And then beyond that, you have the MRAPs. And I 
mentioned that we have worked to incorporate the MRAPs into our 
organizations.
    This is something we didn't have before. But the MRAP 
wouldn't be a replacement for the HMMWV. It just wouldn't. It 
is a specialty type of vehicle for a special environment. So we 
have got to figure that out. The next year beyond that is a 
Stryker. That serves a slightly different function than the 
MRAP.
    So we are working our way through how we are going to use, 
frankly, the investment we have made in the MRAPs and how that 
is going to fit in with the other vehicles we already have.
    Mr. Visclosky. When do you think a final decision will be 
made?
    General Casey. I have been quite impatient about this 
myself and I do expect to see it in the next couple of months.

                           GUARD AND RESERVE

    Mr. Visclosky. If I could, one more question, Mr. Chairman. 
You had mentioned before as far as the operation tempo kind of 
2 to 1 for active, 4 to 1 for Reserve and Guard. A more 
philosophical question, my sense with the guard 20 years ago is 
if I signed up for a guard unit, I was in a reserve, I would 
not anticipate barring any emergency, that I would, if you 
would, go active. 20 years later, my sense in some of the 
people I have talked to in the Guard or Reserve is they know, 
if you would, what they are signing up for now and feel as 
though they are part of the regular or uniform services. Is 
that a distinction that is closing that gap or is it still 
recognized with the 1 to 4 and the 1 to 2?
    General Casey. The Guardsmen and Reservists I talk to and 
the leadership of the Guard and Reserve would take the latter 
position, that they know what they are signing up for. I mean, 
half of the Guard and Reserve are combat veterans today. That 
is fundamentally different than it was when I came in the Army. 
And what I hear from them is give us some predictability, get 
us to 1 to 4 or 1 to 5 even. And we can sustain this. Now, I 
think it is a conversation that we all need to have as we go 
down the road and as demands come down in Iraq. Because we have 
70 to 80,000 Guardsmen and Reservists mobilized on a given day 
and have had for sometime. And I am not sure how long folks are 
willing to--can accept that. But that is a few years from now, 
but I think it is a conversation that we probably need to have.
    Mr. Visclosky. General, thank you. Thank you, Mr. Chairman.

                         FUTURE COMBAT SYSTEMS

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Mr. Secretary, 
congratulations. A great choice. General Casey, over the years, 
whenever I saw--your subordinates saw me, they were always 
pushing for the Future Combat Systems and you have done such a 
good job, I really can't get it out of my mind. I know it has 
been cancelled and now, it is morphed into--and I want you to 
talk a little bit more about what it is morphing into here. We 
did spend billions of dollars, and I think those dollars were 
well spent. I would like to know from you what we are 
retrieving from what we have already invested. And I am sure 
you can do that and then when you talk about the versatile mix 
that is on the battlefield today, of course most of that is 
legacy. I am concerned about the future. One of the things that 
you drilled into me was that what we have now in some ways is 
30 or 40 years old and we need to prepare for the future. Now, 
I understand we are spending $2.6 billion on a ground combat 
vehicle. We are slated to spend in this budget $3.2 billion on 
brigade combat team modernization program. What are we going to 
get with that money? And are we going to run into some of the 
same problems on the Future Combat Systems even with this new 
focus here? I am all for you. I was the last guy as far as I am 
concerned, the last guy standing that would have gone from the 
Future Combat Systems.
    General Casey. I appreciated the company. Thank you.
    Mr. Frelinghuysen. It worries me sick here what has 
happened here.

                                NETWORK

    General Casey. Thank you very much. And that is a great 
question. And I probably wasn't clear enough in my opening 
statement. If you think about what we are doing with the Future 
Combat Systems, the major components were the network, the 
vehicles, because it was a family of vehicles that we are 
building, and the spinouts, the intelligence surveillance and 
reconnaissance systems that were linked by the network. What 
has gone forward is everything but the family of vehicles. The 
network, which to me is the most important element because as 
we look to try to build----
    Mr. Frelinghuysen. This is a connectivity of all of these 
elements.
    General Casey. Absolutely. As I was going to say, as--the 
network is what gives us the ability to operate in any 
environment. And not to be overly simplistic, in any 
environment a soldier goes into, they need to know where they 
are, they need to know where their buddies are, they need to 
know where the enemy is and when they shoot at them they need 
to hit them. That is what the network enables. So that 
survived. And it frankly has pulled the rest of the Army 
network operations forward.

                                SPINOUTS

    So we are in a much better position from a network 
perspective because of the Future Combat Systems. The second 
thing that is out there are the spinout, those intelligence 
surveillance, reconnaissance systems that are there. And we are 
getting them to a position to take them forward. Now, we just 
did a limited user test and found some warts on them and we are 
working to fix those warts. And I can tell the Committee we 
won't take anything forward that isn't ready. But those also 
survived. The vehicles, family of vehicles did not and the 
Secretary of Defense, as you will recall, told us to go back to 
the drawing board, take a blank sheet of paper and start over. 
So we did. And we have better incorporated the lessons of the 
current fight in that.

                         GROUND COMBAT VEHICLES

    But we also are aware that the state of the art is on 
vehicle technology because we pushed it there with the future 
combat systems. So the $15 billion is so that we invested in 
that program over time was basically a great test bid to give 
us the insights that we need to move this program forward and 
to give us a modernization capability for the Army we need for 
the second decade and the 21st century.
    Mr. Frelinghuysen. So what we are doing on the new 
generation of ground combat vehicles is being accelerated here? 
How is that moving along?
    General Casey. I wouldn't say accelerated.
    Mr. Frelinghuysen. I know the answer. And that is why I--
this struggle here, it is unbelievable here.
    General Casey. I tell you, both the Secretary of Defense 
and I pushed very hard to get this vehicle done in 5 years.
    Mr. Frelinghuysen. All I can hear is the voice of the late 
chairman saying by the time we lower our troop strength in 
Iraq, which we are doing, and let us say the public will 
somewhat is not as strong as it used to be, we are going to 
find our Army underfunded because we are going to come up with 
our other national priorities and it worries me that what we 
are morphing into here is absolutely essential for the future 
safety of our soldiers and their ability to be effective on the 
battlefield.
    General Casey. I couldn't agree more with you, Congressman.
    Mr. Dicks. Would you yield?
    Mr. Frelinghuysen. Yes, Mr. Chairman.
    Mr. Dicks. Tell me what this new ground combat vehicle is 
going to--the Army's record in procurement isn't exactly 
stellar, General.
    General Casey. It is not.
    Mr. Dicks. And if I were you, why wouldn't you just go out 
and tell industry you have got 6 months, like you did with the 
MRAP and the M-ATV and come back and give us something? Why not 
do it that way or take these existing programs that we already 
have and use them? What are you going to get in going through a 
big development program for a new ground combat vehicle?
    General Casey. Chairman, we ask ourselves the same 
question. That was the first place we looked. And we said is 
there something out there that we could take and would meet our 
needs. And the answer was no. We are talking about an infantry 
fighting vehicle to replace the Bradley fighting vehicle, a 
vehicle that was designed in the early 1970s.
    Mr. Frelinghuysen. If I can reclaim my time, inherent in 
the vehicle is the design that we have been using on MRAP. Is 
that one of the reasons that this thing is progressing like a 
snail?
    General Casey. No. The reason the thing is progressing like 
a snail is the acquisition process. And that is something, the 
weapons system acquisition reform act is out there. We are 
trying to do this--we are very conscience of our track record 
here, chairman. And we are trying to make this a model of 
development. But the process is slow. As I started to say, the 
SECDEF and I----
    Mr. Dicks. It wasn't when we did the MRAP and the M-ATV.
    General Casey. It was an off-the-shelf vehicle. An MRAP is 
not an infantry fighting vehicle. It is a troop carrier. You 
wouldn't go into battle against tanks and infantry fighting 
vehicles in an MRAP. You would lose your rear end.
    Mr. McHugh. If I could just add, we are trying to take 
lessons learned and evolve that into the acquisition process 
and the development of the next generation troop vehicle, as 
the General said. What we are ideally striving for is something 
that gives you the survivability of the MRAP, gives you the 
lethality and the fighting power of the Bradley and gives you 
the maneuverability that we all enjoy in the Stryker.
    That sounds easy to say. But you also integrate the new 
network capabilities that the Chief has been talking about. And 
a 5-year program is a reasonable one, but I think we are all 
very mindful. I got the call from then-Secretary--he still is--
Secretary of Defense with respect to the termination of FCS 
when I was still on the Armed Services Committee and it was not 
the happiest phone call I ever had.
    So there is history there. But I think in support of the 
Weapons System Reform Act and with the backing of the full 
power and research capabilities of OSD that we have a 
reasonable way forward. But there is risk. And we are mindful 
of that and we are trying to go forward this a deliberative way 
that produces a good product but understand as well we don't 
want to continue to develop until we outpace ourselves and 
requirements are no longer relevant to the fight of the moment.
    General Casey. The last thing is the vehicles designed to 
replace the Bradley, it has limits on size, weight and power. 
Just won't carry more. Can't carry the network. That is kind of 
where we are. So we need to take it to the next level.
    Mr. Dicks. I was on the Committee when we did the M-1, the 
Bradley and the Apache. General ``Shy'' Myers was sitting in 
your place. That was the historic moment for the Army 
acquisition. Everything has been downhill since. Mr. Moran.
    Mr. Moran. Well, we are certainly on pace to be able to win 
the last war, that being Iraq and Afghanistan. First let me 
preface by saying I am glad that you are both in the positions 
that you are in and we have great confidence in you. But even 
the Stryker double V-hulled vehicles that Mr. Young was talking 
about, I mean, we are going to be out of that--at least we are 
going to start the withdrawal from Afghanistan next year. We 
have already started a substantial withdrawal from Iraq.

                           HELICOPTER LOSSES

    And so maybe they will be on line by the time the war is 
over. And that is the frustration--I am sure you share it. But 
there are a number of questions I wanted to ask. But I was 
struck by one particular question. Actually, I am continually 
struck by the excellence of the staff. I have got to tell you 
that. But one question. They asked about--in the last--in a 7-
year period, 327 helicopters were lost, 469 fatalities, but 
only 20 percent of them were attributable to hostile action. 
Have we addressed that? I mean, that is pretty stunning. But we 
are now getting reports from Iraq and Afghanistan. We have, I 
won't go over the numbers, but they add up to--go ahead. I 
don't want to interrupt you because there are other questions I 
want to ask.
    General Casey. If I could, back to your first comment about 
winning the last war. The vehicle we are designing is designed 
for the next war, not for this war. It has to be able to 
operate in all environments and that is the versatility. So it 
is not----
    Mr. Moran. The problem is we don't know where that next war 
is going to be.
    General Casey. Pardon me?
    Mr. Moran. The problem is we don't know where it is going 
to be or what shape it is going to take. So invariably, we 
prepare ourselves to win the last war because that is the best 
criteria that we have to go on. But I don't want to get into an 
argumentive situation.
    General Casey. I would never argue with you, Congressman. 
Back to the--we have had a concerted effort on aviation safety 
over the last decade and since really 2000, the trends have 
been in a positive direction, but we have been at war. And in 
the last year, we have had 26 class A accidents, which are 
major accidents. The vast majority of those, better than 70 
percent are human error. The other normal causes of failure are 
materiel failure and environmental failure and then those are 
10 to 15 percent each.
    Mr. Moran. It is troubling. 80 percent are nonhostile 
action. In the first Iraq war, a majority of American soldiers' 
deaths were by friendly fire, which I was surprised at. In 
Iraq, I am told that it is now in the high 30. So it has gotten 
better. In Afghanistan it is much less. But has a study been 
done? Are we dealing with that? Because I really was struck by 
the numbers in the first Iraq war. I guess it is understandable 
that the Iraqi troops were retreating. So we killed an awful 
lot of our own people. It still seems to be a problem, is it 
not?

                             FRIENDLY FIRE

    General Casey. You are talking about friendly fire.
    Mr. Moran. Friendly fire, yes.
    General Casey. Friendly fire deaths in Iraq and Afghanistan 
have been relatively infrequent. Most of them have come from 
indirect fire, from helicopters or close air support, but 
relatively infrequent.
    The ground indirect fire that we saw in Desert Storm, we 
don't see too many of those incidents. I mean, I can't give you 
the exact numbers, but I can tell you, looking at this now, 
from 2004 when I was in Iraq to today, given the scope of the 
operations going on, relatively few, I would say.
    Mr. Moran. I just finished reading this book called Where 
Men Win Glory, and it was disturbing, and that is one of the 
reasons why it was so disturbing, but it was well written.

                  IMPROVISED EXPLOSIVE DEVICES (IEDS)

    Let me ask a little bit about the IEDs and the evolution of 
IEDs. I understand that, increasingly, they are carried by 
humans, even women, suicide bombers. There is a product that 
was developed called the CounterBomber, and I am told the 
Marine Corps and the Air Force use it effectively. It 
identifies suicide bombers from a standoff distance with low-
power radar and video. But the Army apparently bought 12 
systems this year, and 11 of them are still in the warehouse. 
Is there any reason for that case? Only one has been deployed, 
whereas the Marine Corps and the Air Force are using them 
extensively.
    General Casey. I don't know that that is correct. I know 
JIEDDO purchased 12 for us. The last time I looked at this, we 
were in the process of figuring out the fielding plan for the 
theater. So I know we will get them into the fight as quickly 
as we can.
    We have had systems to screen people since I was in Iraq. 
This is a new version of a system that we have had for a while.
    Mr. Moran. Well, okay. We might check up on that. It is 
curious that only one has been deployed----
    Mr. McHugh. I do know we had discussed that before, and you 
correctly cite the utilization in our two sister services. We 
have not field tested those. The 12 sets that you speak about 
is intended to allow us to field test with--assuming it goes 
well--with more acquisitions in the future. I was not aware 
only there were 11 in the warehouse. We will certainly check on 
that and try to get a status report on that for you.

                        UNMANNED AERIAL VEHICLES

    Mr. Moran. I will yield back my time after I asked this, 
but we are using UAVs, of course, more and more frequently, but 
the Air Force has chosen to use different personnel than the 
Army. The Air Force, for example, uses rated officer aviators. 
The Army trains enlisted personnel to find UAVs. Have you found 
any difference in their performance, the effectiveness of the 
UAVs?
    General Casey. No. We are, frankly, satisfied with our 
enlisted soldiers in the way that they manipulate and fly the 
UAVs. One of the benefits they have is that is what they do. 
They stay in that career field their whole career. They don't 
come in and out of the flight jobs like what happens with the 
Air Force. So we have been very satisfied with that. And they 
are FAA certified, so we are very pleased with it.

                       LIMITED USER TESTS (LUTS)

    Mr. Moran. Well, in that area the Army intends to use these 
Class I UAVs, which I am sure you are familiar with, John, but 
the Committee is aware that in the user test last fall of the 
Class I UAV, it was rated as not reliable with the mean time 
between systems aborts at 1\1/2\ hours, when they were hoping 
for 23 hours. That is quite a disparity. And they can be seen 
and heard from about 2 kilometers. The data links are not 
secure.
    So it really raises the question how much procurement 
funding is in the budget for those if they have failed tests so 
badly. I mean, should we go back to the drawing board on those?
    Mr. McHugh. If I could start, Congressman, and then I will 
turn it over to the Chief. Those were limited user tests, as 
you said; and the objective of those tests are to determine 
exactly what your comments focused upon, that is, the 
shortcomings and the need where we have to go further into 
research and development to outfit it to the stated 
requirements. After those tests, the Army got together with Dr. 
Ash Carter, who is the acquisition executive for OSD, and 
determined a reasonable way forward to continue testing.
    The Chief mentioned--I believe it was in his opening 
statement--we understand the challenges in these LUTs, these 
limited user tests, and we intend to use those findings to take 
us into the next step. But if that fails to come along, then we 
will not field any of the systems. But it is really the way in 
which you work on a program, develop it, and hopefully 
successfully field, but we, as the test results showed, have a 
ways to go.
    Mr. Moran. Thank you Secretary, General. Thank you.
    Mr. Dicks. Mr. Kingston.
    Mr. Kingston. Thank you Mr. Chairman.
    Mr. Secretary and General Casey, I reiterate what Mr. Moran 
said and some of the other members of the Committee. We are 
glad that both of you are in your positions, and we are very 
proud of the great jobs you are doing.

                              FORT STEWART

    Mr. Secretary, as you know, I have to be a broken record 
with you a little bit on behalf of Mr. Barrow and Mr. Isakson 
and Mr. Chambliss in terms of Fort Stewart. One of the things 
that this Committee actually did last year was require the 
Secretary of Defense to come up with a report about what to do 
to mitigate the impact of the combat brigades not coming to 
Fort Stewart, and I was wondering who in the Army is handling 
your section of that report and when it might be ready. That is 
question one.
    And then the other question, in the ongoing discussion you 
and I have been having, is the BCTs in Europe, bringing them 
home, when is that going to happen? Would that be cost-
efficient to do that, and what is going on there?
    Mr. McHugh. Well, I would not say you are a broken record. 
I would say you are appropriately consistent and insistent in 
the interest of your constituents and that great base. So no 
apologies are necessary.
    Starting at the end of your questions first, as you and I 
have talked as well, we had expected the rebasing decision to 
be made, but through the Quadrennial Defense Review (QDR) there 
was a decision to supplant that, to replace it with--waiting 
until the completion of the European strategic study that is 
going on and also our own analysis. We would expect both of 
those looks to be completed sometime in the summer, and we are 
still programmed, subject to whatever the findings of those 
studies are, to bring those two BCTs home, but we will 
certainly know the way forward by the end of the summer of the 
fall program.
    The other question with respect to the DOD study, I can't 
tell you when we expect that. I can tell you the Army staffed 
that at the levels you might assume both from the personnel 
side as well as the community assistance side. But because of 
the nature of the request, it really is an OSD and a DOD 
challenge and they are staffing that in the main.
    Mr. Dicks. Can you yield to me for a second?
    Mr. Kingston. Yes.
    Mr. Dicks. I saw the local people--I don't know if it was 
on 60 Minutes or what it was on--but it sounded as if the Army 
went down there and said, we really need you people to lean 
forward, to get out there and do things and build houses and do 
stuff. And then this happens, and a lot of these people are 
going to be completely ruined financially because of this. They 
took the Army at their word.
    This is very unusual. I have been around here a long time. 
I don't remember the Army going out there and asking people to 
do things like this before, but I will tell you it made an 
impression on me that this wasn't fair.
    Mr. Kingston. Thank you, Mr. Chairman, and----
    Mr. Dicks. I will give you a chance. I am sorry, Mr. 
Secretary.
    Mr. McHugh. Well, I am not going to sit here and disagree, 
Mr. Chairman. And the Army did do that when I represented Fort 
Drum----
    Mr. Dicks. Who was the General that went down there and 
told these people----
    Mr. McHugh. I am sorry. I don't know. But it is not really 
a matter of one individual----
    Mr. Moran. General Casey.
    Mr. Kingston. It was General Cody.
    Mr. McHugh. It is really not a matter of one individual. It 
is a matter of reality versus need, and that, for example--and 
Congressman Kingston and I and Senators Chambliss and Isakson 
have talked about this--when Fort Drum, in Watertown, New York, 
where I had honor of representing, was scheduled to receive 
troops, the Army did the same thing, came forward and----
    Mr. Dicks. General Cucolo. That is who we think it is.
    Mr. McHugh. Tony Cucolo. He is in Iraq fighting for his 
country, God love him.
    But, again, it is not a matter of a single person. You have 
troops coming, and there are certain infrastructure needs.
    The challenge, as you noted and as Congressman Kingston 
knows so well, when a decision comes from another source not to 
do those troop movements, you have a lot of people who are 
placed in jeopardy. I had a chance to meet with many of those 
community leaders through a meeting that Congressman Kingston 
and Senators Isakson and Chambliss set up, and I understand 
their jeopardy.
    I can't make a promise as to what we will do, because there 
are too many things in flux, but I can promise you I am fully 
cognizant of the challenges there. The Office of Economic 
Adjustment has put about $40 million into the community, but, 
as I know Congressman Kingston will be quick to note correctly 
as well, that supports only the public side of the equation. A 
lot of private investors came forward for housing and such, and 
we are mindful of that, and certainly every decision we make 
with respect to future basing we will keep that in mind.
    Mr. Kingston. Thank you, Mr. Chairman, for your personal 
attention on that.
    The first announcement was December 19, 2007, by General 
Cody and then General Cucolo and Colonel Book.
    And, of course, all of us in elected office reflect on what 
the BRAC committee has said, but just to show you in 2008, when 
real estate was dead flat all around the world and including in 
Georgia, this one city issued 634 building permits for new 
houses in anticipation of the troops. So it has been very 
tough. And the Secretary has been very sympathetic and very 
open, and we really appreciate it. And I just want to urge you, 
as these troops might be coming back from Europe or wherever 
new missions are, and so let me thank you for that.

                        POPPY CROP--AFGHANISTAN

    Mr. Kingston. And, General Casey, I wanted to ask you a 
question.
    When we were in Afghanistan, it was a very productive trip. 
We were very impressed with what General McChrystal and 
Caldwell and Minister Atmar and all these folks are doing. But 
the one gap in the shape, clear, hold, build, and transfer is 
poppies. There did not seem to be a really good answer about 
what to do with the poppy crop. If you destroy it, you lose the 
goodwill of the people. If you buy them out, you are going to 
have the problem next year. And I am bothered that after 8 
years we still don't know what to do with the poppies.
    General Casey. If I could just say one word on the 
Generals, I mean, the names General Cody and General Cucolo 
have been kicked around here, but we had every intention of 
putting in those brigades in there. So no one should leave here 
thinking that those guys were down there doing something 
untoward.
    Mr. Kingston. Yes, sir. I am glad you brought that up. 
These guys have been absolutely great with the community, and 
they were reflecting--they were only giving a message from 
BRAC.
    General Casey. Thank you for that.
    Anyway, poppies, I agree. It is a huge policy issue. It is 
something that has been wrestled with at the highest levels of 
this government and NATO governments for a while. The chairman 
and I were talking about this before the session.
    I personally believe the drug issue is something that has 
to be addressed; and I use an example of visiting Colombia in 
2008, talking to my counterpart. He took me out to where the 
FARC used to control, and he said it wasn't until we decided to 
eliminate the drug problem that we ultimately became 
successful. And I said, oh, is that because of the money that 
it puts into the insurgency and the terrorists? And he said, 
part of it, but it is the corrupting influence that it has on 
the whole society. And then that is what we ultimately are 
going to have to get after.
    Mr. Kingston. But there is no three-point plan at this 
point, from what I am gathering.
    General Casey. I don't know what the specifics of the plan 
is.

                             COUNTERBOMBERS

    Mr. Kingston. I know I am way over time, but I wanted to, 
before Mr. Moran leaves, mention on those CounterBombers that 
you have a program that is the entry control point in a box, 
and those are not included in that yet. So if it is a good 
device, it seems like it would be consistent to have those in 
there. And I just wanted to mention that while Mr. Moran was 
here.
    Thank you, Mr. Chairman.
    Mr. Dicks. Ms. Kaptur.

                          DEFENSE CONTRACTORS

    Ms. Kaptur. Thank you, Mr. Chairman.
    Secretary McHugh, welcome, and General Casey, thank you so 
much for your service to our country and all those under your 
command.
    In your testimony, General Casey, you state that the 
campaigns in Iraq and Afghanistan continue to create demands 
that have our Army operating beyond sustainable capacity. I am 
wondering, I ask myself the question many times, how these 
conflicts are different than those we faced in the past; and 
the number of contractors in theater both in Iraq and 
Afghanistan simply astound me. Do you have the ability, as the 
Army General, to provide me with a roadmap of how we can 
insource many of the services now being provided by contractors 
and how much it would save us in terms of dollars and better 
support to our troops in theater?
    General Casey. Probably not holistically. I can look at it 
from an Army perspective.
    But if you think about how we got here and you go back to 
the mid '90s when we were talking about reducing the size of 
the Army from 780,000 down to 480,000 and at that time the 
decision was made to rely on contractors for what was perceived 
to be short-term deployments, I don't think anybody involved 
ever thought that we would be doing this for 8\1/2\ years. And 
so there is a force structure dimension to this and especially 
for the contractors in theater. As you know, there are over 
200,000 contractors right now in Iraq and Afghanistan.
    Ms. Kaptur. It is unbelievable.
    And, of course, some of those who support that type of 
effort say, well, it is a jobs program for the people over 
there, so they support us. It is a way of building support. 
Well, I don't know. That is certainly unusual in American 
history, the way I look at it; and I am very interested in, you 
know, putting those dollars to use for our own soldiers.
    It is very hard. The chairman has done a great job of 
trying to help us negotiate through this slush, but you try to 
get information and figure out what is going on. Maybe if there 
is a way you could give us a sense of the broad architecture of 
that and what aspects might be able to be insourced back into 
the Army and then look at certain categories and tell us how 
much more it is costing us to do this than if the Army did it. 
So you wouldn't have to do it all, but you could hone in on 
some certain areas where we could begin to bring it back under 
the umbrella of the U.S. Army.
    I have to tell you I am very concerned, based on some 
things we have learned from other witnesses, about the 
integrity and security of our own military because of 
background checks on some of these individuals being hired by 
the very unusual form of warfare in which we are involved and 
some of the great damage that has been exacted toward our 
troops and other U.S. Personnel in theater. So I am very 
concerned about this contractor issue and how we can insource. 
Any enlightenment you could provide us would be greatly 
appreciated.
    General Casey. When you say ``insource'', Congresswoman, do 
you mean how we could have the military take over these tasks?
    Ms. Kaptur. Yes. And the amount of money----
    Mr. Dicks. I think she also means it could be some 
civilians as well, civilian employees of the Department of 
Defense.
    General Casey. And I think you know that some of that is 
going on back here.
    Ms. Kaptur. Yes.
    Mr. Dicks. Will the gentlewoman yield for a second?
    Ms. Kaptur. I would be happy to yield.
    Mr. Dicks. We tried early on and even when Mr. Murtha was 
the chairman--we had a hard time initially in Iraq about 
getting information. Almost every witness would come in here 
and say we just don't know. So it looked like it was a cover-
up, that they didn't want us to know.
    Now, I am not saying--and then that has changed because now 
we get a quarterly report that lays out the number of 
contractors and what is happening. So we have a better 
understanding how many of them are host nation, how many are 
other foreigners but not host nation, and how many of them are 
U.S. citizens. So we have a better picture.
    But I think what we all would like--at least I would like 
to know is just a little bit more of a description of why--and 
I understand going from 780,000 to 450,000; and, as I remember, 
that was done in the late '80s, early '90s. I think Colin 
Powell, Chairman of the Joint Chiefs, and Dick Cheney, 
Secretary of Defense, were the ones that recommended this 
build-down; and it was pretty much agreed to in Congress. After 
the end of the Cold War, we thought we would go to a smaller 
level.
    But I guess what I would like to hear you talk about a 
little bit is why did we decide to use contractors rather than 
government workers, et cetera? Why did we pick contractors to 
do this?
    Maybe it is because they could do the things that you 
needed to have done. I think food places and the tents and 
everything and the equipment early on in Desert Storm--
actually, at the start of the Iraq War, both of them, you had a 
lot of contractors. But can you give us a little better feeling 
about why contractors?
    Mr. McHugh. I think the Chief has said the overall 
imperative was end strength. And I was one of those who wasn't 
particularly happy with the end strength draw-down, but that is 
water under the bridge.
    What the Army had was the decision, do you send Army 
personnel into the war or do you send them into the kitchen, 
into the mess hall? There are a lot of what I think most people 
would agree are less than warfighter-level activities, from 
laundry services to food services, et cetera, that contractors 
could well provide.
    I don't want to suggest for a moment that there isn't 
reform needed. As the Chief said, we have currently in Iraq 
right now some 205,000 contractors of all stripes.
    Ms. Kaptur. Iraq or Afghanistan, Mr. Secretary?
    Mr. McHugh. Iraq.
    Ms. Kaptur. We still have over 200,000 in Iraq?
    General Casey. Iraq and Afghanistan.
    Mr. Dicks. I think it is both, isn't it?
    Mr. McHugh. I don't think so.
    I am now corrected and told it is 205 in both. But in Iraq 
we are coming down about 5 percent a month, but that has to be 
flexible because of the uncertainty surrounding the election.
    So I do think there are things we can do; and, as the Chief 
mentioned, we are in fact here in the States acting pretty 
aggressively to reduce our reliance on contractors to insource 
core activities. Just this past year, we have insourced about 
900 core activities. We think that saved the Army about $41 
million, and by the end of 2015 we have an objective of 
insourcing over 3,000 new positions.
    But your main concern is in the theaters of war; and, as I 
said, the overriding imperative was then and I would suggest 
respectfully remains now that of end strength and how many 
troops we have available to do the warfighting versus other 
activities.
    Ms. Kaptur. Well, I just think, General Casey, if you could 
provide us with any insights on that; and I am particularly 
interested on costs, if you pick out different functions, if 
you look across at who those contractors are and how much they 
are being paid.
    I had an experience when the chairman took us over into--we 
were flying over into Iraq, and we had a young fellow who was 
flying us over there, and he happened to be from Ohio. I said, 
how are you doing?
    And he said, I will be real happy when I don't have to haul 
those fat old guys back there in and out of theater. And he 
said, do you know how much they are being paid versus how much 
we are being paid?
    I said, that is a very important comment to me, sir.
    You know, it is down into the ranks. So I am interested in 
what we are paying people and the impact that that has across 
Army.
    So, anyway, point made; and we will ask some additional 
questions for the record.

                          IRAN-NUCLEAR THREAT

    I wanted to ask you, General, in your career as a military 
man--you may not be able to answer this question for me--but 
when you think about the Middle East and Iran and containing 
the nuclear threat of Iran, what kinds of perspectives instruct 
your thinking as to how that quest of trying to contain her is 
different than what we faced with the Soviet Union when we and 
NATO for years worked together to contain any kind of nuclear 
adventurism on the part of the Soviets? Have you given any 
thought to that?
    General Casey. Not necessarily to Iran and the Soviets, but 
as I look at Iran, I look at the world's largest state sponsor 
of terror, and the thought of them having a nuclear weapon 
makes me very uncomfortable. But this, as you all know, is a 
huge policy issue that the administration is wrestling with 
very hard.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman.
    Mr. Dicks. Thank you for that answer.
    Mr. Rogers.

                            PAIN PILL ABUSE

    Mr. Rogers. Thank you Mr. Chairman.
    Welcome to both of you. Mr. Secretary, we are especially 
proud of you. Local boy makes good. And, General, it is always 
good to see you and your staff.
    Last week, USA Today ran an article entitled Abuse of Pain 
Pills by Troops Concerns Pentagon. And it went on to say that 
you are trying to curb the volume of narcotics given to troops 
as the number of prescriptions for painkillers and instances of 
drug abuse continue to soar. The Pentagon data indicates that 
military doctors wrote almost 3.8 million prescriptions for 
pain relief for service members last year, which is four times 
the amount in 2001. The Pentagon survey in the last year, in 
'08, showed that one in four soldiers admitted abusing 
prescribed drugs, mostly pain relievers, in the 12 months prior 
to the survey; 15 percent had abused drugs in the 30 days 
before the survey.
    I bring this up because my district has had a similar 
problem with prescription pain abuse. The State of Kentucky led 
the way and formed a prescription drug monitoring agency that 
pharmacists and doctors and hospitals feed information into 
that one computer so that other doctors can check to see if 
there has been a double filling of that prescription somewhere.
    One, tell us about the problem as you see it, if there is a 
problem. And, two, what do you think we do about it? And, 
three, would there be a way for the Army to establish a 
prescription drug monitoring program so that you could track 
spikes in abuse of drugs by an individual or by a group?
    Mr. McHugh. It is a problem, and I think the article pretty 
fairly describes the challenges that the Army faces. But at 
least on the first level it really is not much different than 
what you can find in many instances in the civilian community, 
that is, a particular patient going to multiple doctors 
receiving multiple prescriptions, sometimes deliberately, other 
times because the tracking models are not there and they just 
find themselves over time taking five or six different pills, 
many of which are directed toward pain, and all of a sudden you 
have an abuser and then an addict.
    The Army has tried to do a better job, and we are really 
facing two particular sets of challenges. First is in theater, 
where, on the one hand, that forum shopping for a physician, if 
you will, is a little bit less likely to occur, given the 
concentration of troops and the medical professionals that are 
available. But, on the other hand, obviously, the tracking 
systems are not as reliable as they are here in CONUS.
    The major concern we have focused upon is within the 
Warrior Transition Units. That is, as you know, Mr. Rogers, 
where the most profoundly wounded arrive and where the need for 
pain management is most keenly felt; and we have established a 
program whereby all prescriptions within the WTUs go to a 
single point source so that we have that opportunity to make 
sure that multiple prescriptions designed to do the same thing 
are not finding themselves into a particular patient.
    I am not prepared to say it is up and working 100 percent, 
but I think we definitely are in the right direction. And, of 
course, we need to couple that with behavioral health and with 
our substance abuse programs to make follow-up care and 
assistance available when those cases do arise beyond our 
control.
    I mentioned in the budget we have funds to increase those 
folks out under the substance abuse program to make sure we are 
taking care of those who have found themselves in trouble but 
doing a better job of keeping them from getting in trouble in 
the first place.
    Mr. Rogers. That article said Assistant Army Secretary 
Thomas Lamont said a multi-service task force is examining how 
the Army gives pain relief pills to its soldiers. Eventually, 
it will outline how to limit prescription medication use and 
ensure that Army hospitals all use the same procedure for 
dispensing medicine.
    He said, and I quote, ``We found every Army medical center 
was dealing with pain in altogether different ways, all 
individual, but not an Army-wide program at all. There was no 
consistency.''
    Is that a valid observation?
    Mr. McHugh. I would never disagree with the Army's 
Assistant Secretary for M&RA. Tom Lamont is a very capable guy. 
So just intuitively I would say yes, but based on knowledge, 
yes.
    General Casey. I believe that is the finding of the Pain 
Management Task Force that the Surgeon General set up last 
year. It has been going on about 10 months, and we are about to 
get a report. But I am sure that is exactly the kind of thing 
that the Pain Management Task Force found.
    Mr. Rogers. Well, it is a sad subject to bring up, but I 
think it is important that we talk about it.
    General Casey. I think you are exactly right, and it is 
part of the cumulative effects of 8\1/2\ years of war. It is 
not a pretty thing, but it is something we just have to get on 
the table and deal with.
    Mr. Rogers. I was going to ask you that. Is this a product 
of the lack of dwell time and the long service that military--
--
    General Casey. We have had over 25,000 wounded just in the 
Army, and those wounds require some pain medication so that the 
soldiers can deal with them and then surgeries. You talk to 
some of these soldiers, they have had two and three surgeries 
to fix their wounds, and there are pain pills. So that is part 
of it.
    Mr. Rogers. I mean, has the 8 years of continuous service 
brought pressure on members of the military to the point that 
they are seeking some relief through prescription drug abuse?
    General Casey. I think that all our indications are that 
the request for treatment for drug and alcohol abuse are going 
up. So the short answer is yes.
    Mr. McHugh. We have a substance abuse problem. That is why 
we have such a robust program that we are attempting to grow to 
put those treatment specialists out, the closest possible 
locations to the troops. Because pain management and 
mismanagement is a huge component of this.
    But, Mr. Rogers, I think you are absolutely correct. We 
have to assume that substance abuse by multiple causes but 
certainly the pressures of rapid and frequent deployments has 
to be amongst them.
    Mr. Rogers. Well, you are not exempt from the general 
population. The general population has the same problem, and 
you are reflecting everyone else, I guess.
    Thank you, Mr. Chairman.
    Mr. Dicks. Thank you.
    Mr. Hinchey.

                            ENERGY SECURITY

    Mr. Hinchey. Thank you, Mr. Chairman.
    Secretary McHugh, thank you; and, General Casey, thank you 
very much. It is great to see the things you have written and 
the statements you have made and the questions that you have 
answered.
    I just want wanted to ask an opening question about energy, 
because in the context of your statement you make some 
significant----
    Mr. Dicks. Will the gentleman pull your mike just a little 
closer?
    Mr. Hinchey [continuing]. Significant statements about the 
energy situation. You say that energy security is a key 
component of Army installations, weapons systems, and 
operations. The Army has developed a comprehensive energy 
security strategy.
    Can you tell us more about that? What is being done? How 
much money are you seeking to budget in the upcoming fiscal 
year to meet the goals? What additional funds have been 
allocated for by the Army for the installations to meet energy 
savings and energy security requirements? And, also, the work 
that has been done at headquarters with the creation of a 
Senior Energy Executive and Senior Energy Council and who the 
Army has designated at the installation level to have overall 
responsibility for the energy and meeting the requirements in 
the Energy Independence and Security Act of 2007 and then the 
executive order of 13514?
    Mr. McHugh. I will do my best; and I am sure you will help 
me along the way, Mr. Hinchey. It is good to see you, sir.
    We view this challenge as important on a number of 
different levels. First of all, obviously, it is something that 
is environmentally responsible to do. The Army feels a great 
obligation, given our dispersed nature and reliance on a good 
neighbor policy, to try to be responsible stewards of the 
environment; and given the fact that we are spending tens upon 
tens of billions of dollars here in the United States and 
elsewhere on products that could potentially have severe 
consequences on the environment, we are trying to do a much 
better job.
    But the other aspect of it is, frankly, we view it as a 
question of national security. Independence and energy 
independence particularly within our bases is important. If 
there is an energy disruption in the general community based on 
some natural or other caused disaster, we want to make sure to 
the extent we can that military facilities are able to continue 
to operate and provide national security services.
    You asked about the program and its various components, and 
you listed some things; and my quick answer would be, all of 
the above.
    The Army is going to be the largest fielder of alternative 
fuel vehicles in the Federal Government. We have a very 
aggressive acquisition program for hybrid vehicles. I think the 
Postal Service would probably say they are number one, but we 
might dispute that. We are going forward very aggressively.
    I just returned a few weeks ago from a tour to Fort Bliss, 
Fort Irwin, the National Training Center. Fort Drum has 
aggressive programs. Virtually every base has both an 
environmental conservation program, trying to preserve the 
energy they use from the grid, but also pretty aggressive 
alternative environmental programs.
    A solar project at Fort Drum. Some might say that they 
would think it would be a snow program, but it is solar 
development at Fort Drum.
    We have very aggressive alternative energy programs at Fort 
Irwin out in the California desert.
    So we are relying upon the leadership of each base to 
identify where the options and opportunities are for them; and 
we are supporting those where they can bring it in, put it 
before the Senior Executive Council that you spoke about that 
is staffed through ASAALT, through acquisition logistics 
technology, virtually all the components of the Army, to make 
sure we are directing resources where the greatest benefit 
lies. So we are excited about it. I have no doubt we can do 
better, but we are leaning forward pretty aggressively.
    General Casey. I couldn't top that.

                                SUICIDES

    Mr. Hinchey. So it is an issue that has to be serious and 
something that has to really be done to improve the 
circumstances. I am sure that you are engaging it in a way that 
will hopefully bring that about; and it sounds so, based upon 
what you said in the context of your statements and your 
response now.
    There are a number of issues that we are dealing with here 
with regard to the circumstances of suicides. The number has 
gone up dramatically over the course of the last several years. 
In fact, if you look back on the history of it, each year it 
goes up higher and higher.
    Pardon me.
    General Casey. It has gone up about 18 to 20 a year since 
2004.
    Mr. Hinchey. Yes. And over the course of the last several 
years it has continued to go up significantly higher. And I am 
just wondering if there is anything that is being done to 
attempt to deal with this situation, if there is any 
understanding of what the motivations are, what is causing it, 
and if there is anything we can do to be helpful that could 
deal with this situation more effectively.
    General Casey. Thank you very much for that offer.
    I will tell you we have been working on this for a while. 
Last year, we really launched a full court press on it. In 
fact, it was 2008 that we started this. And it is, frankly, 
frustrating that with the level of effort that we put out there 
that we haven't stemmed the tide. As I mentioned, it is about 
18 to 20 a year increasing; and that is just not acceptable. We 
have a broad wholistic campaign effort to work this, and we put 
about $55 million toward the effort.
    You ask about insights. The insights you get from this are 
the same things that you hear all the time. It is 
relationships, usually failed relationships with a little drug 
and alcohol abuse mixed in, and there are sometimes job 
problems or financial problems attached to them. And those are 
the things that seem to lead people to take their lives.

                     COMPREHENSIVE SOLDIER FITNESS

    One of the things we are finding, though, is that the young 
men and women we are getting from our society don't have the 
coping skills to deal with the challenges that we are asking 
them to deal with. One of the ways that we have tried to get at 
this--and it is a long-term fix, not a short-term fix--it is a 
program called Comprehensive Soldier Fitness, and it is a 
program that is designed to build resilience and enhance 
performance. We want to bring mental fitness up to the same 
level that we give to physical fitness.
    We started this program in October. We already have over 
380,000 soldiers and family members who have taken an online 
survey to tell them where their strengths and weaknesses are on 
the five key areas of fitness. We have trained over 800 master 
resilience trainers. These are sergeants and a couple family 
members who are trained to go back to their units and teach 
soldiers some of the skills they need to build the resilience.
    So this has a lot of promise, and it is something--as I 
said, 380,000 soldiers have already benefited from it, but it 
is a culture change for us, and I believe it is essential to 
sustain us over the long haul, because we are going to be at 
this for a while.
    Mr. McHugh. I was just going to add, we had 160 suicides 
last year in the Army; and, as you noted, that is the highest 
ever. I share the Chief's frustration. I give him credit for 
assigning the Vice Chief of Staff of the Army to focus very 
carefully on this issue, and he has done a great job.
    One of the most exciting things we have done is enter into 
a 5-year longitudinal study with the Institute of Mental 
Health, bringing some of the most preeminent experts in mental 
health, behavioral health specialists, and suicide prevention 
specialists into this team that is beginning to analyze and 
trying to find themes and causes.
    We just had our first quarterly report. I got the brief on 
that a few weeks ago; and it is beginning to form the data in 
ways that they feel over time can help not just the military, 
the Army, but in fact can help unlock many of the mysteries of 
suicide that exist in the general population as well.
    I think the good news about that is--5 years is a long 
time, and none of us want to wait that long to have results and 
to take programs on. They will report every quarter, and each 
time they find a major or significant development that they 
feel there is a prescribed response to, either a different 
program or some other kinds of intervention, they will 
recommend those; and, of course, we will act on those as 
quickly as we possibly can.

                                SUICIDES

    The other thing we are trying to do is take care as close 
as possible to the individual soldier particularly in theater. 
We have got a need for about 4,300 behavioral health providers 
in theater; and we are at about 86 percent of that, about 
3,700. This is a hard cadre to grow, because it is also a 
shortage classification of providers in the civilian sector as 
well. But we are growing that to make sure that in the units in 
Afghanistan particularly, but, also, of course, in Iraq, we can 
keep an eye on the soldiers and hopefully encouraging the buddy 
system, your battle buddy, to watch out for each other. We can 
intervene and try to short circuit a few of these tragic acts. 
We are deeply troubled and concerned by it.
    Mr. Visclosky. Will the gentleman yield for a moment?
    Mr. Dicks. Yes. Go ahead.
    Mr. Visclosky. Is there any distinction as a ratio between 
men and women in uniform services taking their lives?
    Mr. McHugh. The percentage?
    Mr. Visclosky. No. I am just wondering in the universe. 
Because you have about 200 in '08. As a ratio, is there a 
disproportionate number of men in uniform taking their lives 
versus women or vice versa? Is there something going on there?
    Mr. McHugh. The rates among men are higher. Some of those 
reasons are obvious. We obviously have more men deployed. That 
would not affect the rate but the likelihood. Because you would 
expect that males that are somewhat more exposed to the 
stressors. But I can't speak to the relationship, that ratio in 
the military versus the civilian community. I am sure they have 
looked at that data, but I don't have it before me. I am not 
even sure----
    Mr. Dicks. If you would yield to me, I would like to ask a 
question. How many of these suicides occurred while in theater, 
the 26 this year, and how many occurred in home installations? 
Is there any----
    Mr. McHugh. We have 160 total confirmed. I believe you just 
gave the figure in theater, 26.
    Mr. Hinchey. One of the numbers here says that 78 reported 
suicides among Reserve component soldiers not on active duty, 
and that was on top of the 160 last year.
    Mr. McHugh. That is correct.
    One of the reasons this is so mystifying, about a third of 
the confirmed suicides--and I think it is important we 
distinguish between the two--but a third of the confirmed 
suicides are committed by troops that had never deployed. So we 
don't want to be so single-minded that we ignore other 
possibilities.
    Obviously, intuitively it would seem to me the stressors of 
combat, of multiple rotations, et cetera, et cetera, is 
someplace we want to focus; and we will. But when you have got 
a third of the force that by definition have been not been 
exposed to those stressors, we want to make sure we are looking 
at the picture holistically. And that again I think is one of 
the real exciting parts of what we call the 5-year longitudinal 
study.
    Mr. Dicks. So we don't know of the 26 how many were 
deployed and how many were at home station?
    Mr. McHugh. I am sure we know.
    Mr. Dicks. I have been very impressed with General 
Chiarelli's and everybody's concern about this.
    I guess the question we would ask again and reiterate, is 
there something else we could do--does the Army have all of the 
resources that it needs to deal with this issue or is there 
some area where, if we added some money, it might make a 
difference?
    Mr. McHugh. Well, I am very hesitant to say we don't want 
any more money for anything, but I think we have for the moment 
plotted an appropriate way to address this and to assess it. 
That may change in the near future, and I think I still have 
the phone numbers----

        POSTTRAUMATIC STRESS DISORDER AND TRAUMATIC BRAIN INJURY

    Mr. Dicks. I know Mr. Murtha and Mr. Young added money 
before for posttraumatic stress disorder and traumatic brain 
injury.
    One thing I noticed that Chairman Mullen did was to ask 
that if somebody had been involved in an IED explosion that 
they be taken out of their combat assignment for a period of 
time in order to make sure that they have fully recovered. 
General Casey, what do you--I am sure you knew all about that, 
but----
    General Casey. Right. And we are actively working protocols 
that say, if you are exposed to an IED and it blasts within a 
certain distance, then you break for 24, 48, 72 hours, 
depending on the severity of the blast.
    We are testing that protocol now with some units. I was 
just down at the Joint Readiness Training Center, and they were 
actually exercising those protocols in training so that when 
they got to theater they would do them.
    As you know, when the brain is injured, it just needs some 
rest. So sitting a soldier out for a period time after exposure 
starts that rest process, and it pays dividends for us in the 
long haul. So it is something you will see implemented across 
the theater here over the next 6 to 12 months.
    Mr. McHugh. The interesting thing we are dealing with is 
that more than 70 percent of all TBI incidences are rated as 
mild. Probably in your football days and my hockey days it 
would be getting your bell rung. But, as the Chief indicated, 
we understand now, regardless of severity, the earlier you can 
get to that individual, pull him or her from the stress of the 
battlefield, provide rest and recuperation, be the injury 
severe or mild, the better the chances for full recovery from 
that incident itself.

                                SUICIDES

    Mr. Dicks. Do you have any information about is there a 
greater number of suicides on any particular bases? Have you 
looked at that?
    Mr. McHugh. We have had clusters that we have looked at 
very carefully. Not just suicides but acts of violence, spousal 
abuse, et cetera. So far, the studies we have seen have 
indicated a confluence of unrelated events, so it is hard to 
draw conclusions from that. But, clearly, there have been 
clusters of both suicides and acts of violence that continue to 
capture our attention.
    Mr. Dicks. Well, obviously, that would be something that 
you would want to focus on if you have certain bases, and it 
could be based on how many times people from those bases have 
deployed, which is also--but, as I said earlier, I think that 
the Army is taking this very seriously and trying to do 
everything it can.
    There is still one idea out there--I think they are trying 
this in Hawaii--where people could go online--this is a very 
online generation--and be able to get--and I think this could 
be done either in country or when one of these units come back, 
especially the Guard and Reserve units when they dismantle and 
go back to their homes, about going online to see if they can 
get some help. I think that is a concept still worth 
evaluating.
    Mr. Frelinghuysen. Will the gentleman yield?
    Mr. Dicks. I yield.
    Mr. Frelinghuysen. The VA has in a number of parts of the 
country a very successful online communication where a veteran 
who has come back can literally get online with a live body on 
the other end of the phone. It is a pretty damn good model.
    I know we talked about seamlessness here and all that, but, 
in reality, it might be something worth looking into.
    General Casey. We have actually done it with a battalion, 
and we are doing it with a brigade now, and the results have 
been, as you suggest, very positive.
    Mr. Dicks. Was that in Hawaii?
    General Casey. It was in Hawaii. It was out on the west 
coast. It was Hawaii. I think it was Lewis and Alaska.
    Mr. Frelinghuysen. The family readiness groups that I work 
with, I am shocked by some of the situations that some of our 
National Guard people leave back home. Little wonder. There is 
so much problem and despair and foreclosures and all sorts of 
stuff. It is a good group to be in communication with. I am 
sure you are.
    Thank you, Mr. Chairman.

                              Adjournment

    Mr. Dicks. All right. We are going to end this. Thank you 
very much for an excellent hearing.
    The next hearing is 9:30 tomorrow morning with Secretary 
Gates, and it is in 2359.
    [Clerk's note.--Questions submitted by Mr. Tiahrt and the 
answers thereto follow:]

                          MEADS' Cost Overruns

    Question. As I'm sure you are aware, the Army's Medium Extended Air 
Defense System (MEADS) is years behind schedule and substantially over-
budget. In fact, according to recent reports, an internal Army memo has 
estimated that over ``$2.5 billion additional funding is required in 
FY2012-2017 to comply with the expected MEADS cost growth'' of the 
program and to ensure that it meets U.S. operational requirements. What 
are your thoughts on looking at alternatives that would combine the 
best parts of MEADS with the existing and enhanced Patriot missile 
system?
    Answer. The Army is continuing to program and plan for Medium 
Extended Air Defense System (MEADS) as a replacement for Patriot. The 
Department has opened discussions on how best to achieve a truly 
integrated coalition air and missile defense capability, using the Army 
Integrated Air and Missile Defense Battle Command System as the 
centerpiece. Components from Patriot, as well as the more capable and 
more mobile radars and launchers being developed in MEADS, when ready, 
could be integrated in the Air and Missile Defense System-of-Systems.
    Question. How do you plan to deal with the MEADS cost increases 
without jeopardizing other key existing and developing Army programs, 
including efforts to sustain and modernize the existing Patriot system?
    Answer. The Army is reviewing Patriot and Medium Extended Air 
Defense System cost requirements and priorities as part of the 
resourcing process for FY12-17.

              MEADS Program and Transatlantic Cooperation

    Question. As you know, the United States has partnered with Germany 
and Italy to develop MEADS. The program's cost overruns and schedule 
slip have resulted in concern from both our allies; however, 
``transatlantic cooperation'' is frequently cited as a justification 
for continuing with MEADS. Meanwhile, 12 other nations use the Patriot 
missile system (including six NATO countries which either currently has 
or plan to acquire Patriot). Given the significant investment in 
Patriot by the United States and our allies around the world, should we 
consider a Patriot-based alternative to MEADS?
    Answer. The Army's Medium Extended Air Defense System (MEADS) 
provides some capabilities not available within even an upgraded 
Patriot system, including 360-degree surveillance and fire control 
radar capability. MEADS will be interoperable with Patriot systems 
already fielded to the U.S. and allies.

                      Upcoming CDR Test for MEADS

    Question. Despite the fact that MEADS is years behind schedule and 
more than a billion dollars over budget, the program entered the 
system-level CDR phase in August 2009, and a critical milestone is 
forthcoming in August 2010. Given the MEADS program's troubled history, 
does it make sense to await the results of this upcoming milestone 
before committing another $440 million in FY2011?
    Answer. The U.S. is committed to its obligations under the Medium 
Extended Air Defense System Design and Development Memorandum of 
Understanding. The commitment of these funds is an OSD decision.
    Question. Please describe the criteria that will be used to 
determine whether MEADS satisfies the requirements of the upcoming 
milestone.
    Answer. The MEADS Critical Design Review will assess the maturity 
of the contractor's design, software development, integration and 
testing status. Objective criteria include the percentage of drawings 
completed, interface definition status, subsystem testing results and 
the level of integration accomplished.
    Question. Do these criteria include affordability, risk, and 
performance?
    Answer: Yes, affordability, risk and performance of the MEADS will 
be principal elements of the Department's System Program Review of the 
MEADS program.

    [Clerk's note.--End of questions submitted by Mr. Tiahrt. 
Questions submitted by Mr. Moran and the answers thereto 
follow:]

                         Counter Bomber Systems

    Question. Both the Marine Corps and Air Force are using the 
``Counter Bomber'' system in Afghanistan. With 12 Counter-Bomber 
systems already produced for the Army through JIEDDO, how does the Army 
plan to deploy these systems in Afghanistan?
    Answer. United States Central Command identified eleven locations 
for installation, with one Counter Bomber system already delivered. A 
Brigade Combat Team has been identified to train on the twelfth Counter 
Bomber system prior to deployment, and this system will remain a pre-
deployment ``operational spare'' training device. The Counter Bomber is 
intended to be part of the Entry Control Point system-of-systems that 
relies on methods from human observation and assessment to highly 
technical sensing devices. It combines video tracking and radar 
interrogation to screen individuals for person-borne improvised 
explosive devices. The Army continues to coordinate with JIEDDO to 
speed the delivery and installation of the remaining Counter Bomber 
systems, and is planning to ship one system every three weeks.
    Question. In view of the testing the Army has already conducted on 
Counter-Bomber at White Sands, will the Army fund and field additional 
Counter-Bomber units to Afghanistan, and, if so, when will it be 
completed?
    Answer. Army Test and Evaluation Command (ATEC) tested the upgraded 
Counter Bomber at White Sands, NM, in November 2009 (ATEC Capabilities 
and Limitations Report, dated Jan 2010). The results of the test 
provided the Army with significant operational data to justify a 
Forward Operational Assessment (FOA) for the 3rd Generation Counter 
Bomber system, in the United States Central Command (USCENTCOM) area of 
operation (i.e. Afghanistan). The FOA will determine the capabilities 
of the new 3rd Generation Counter Bomber, as a subset of Entry Control 
Point security, against Person-Borne Improvised Explosive Devices 
(PBIED). An operational assessment in Afghanistan will enable the Army 
to: 1) prove the capability is applicable in Afghanistan; 2) measure 
the effectiveness of the system; and 3) enable a quantitative 
comparison with current Counter-Improvised Explosive Device systems 
also being employed for PBIED detection. The FOA is scheduled for 
completion by July 2010; and it will enable the. Army to determine if 
there is a justification for funding and fielding additional systems to 
Afghanistan.
    Question. With regards to the ``Entry Control Point in a Box'' 
program, does the Army have any plans to include Counter-Bomber 
detection equipment in the program?
    Answer. The Joint Improvised Explosive Device Defeat Organization 
(JIEDDO) has funded 12 Counter Bomber Detection systems for the Army to 
use in Operation Enduring Freedom. Currently, the Air Force is the lead 
agency for testing and evaluating this capability. If the Counter 
Bomber detection capability is successfully validated to meet a 
capability gap for deployed forces, it could transition to the Army for 
consideration as a program of record or as part of the ``Entry Control 
Point in a Box'' program. JIEDDO will continue to fund until a transfer 
is coordinated.
    Question. What actions will the Army now take to ensure that all 
inspection checkpoints in Afghanistan provide our forces with effective 
standoff protection from human carried IEDs?
    Answer. The Army and the Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) continue to field capabilities and explore 
emerging technologies that enable detection of human-borne improvised 
explosive devices (IEDs). Personnel scanners and non-intrusive 
inspection systems provide forces in Afghanistan the capability to 
detect explosives, IED precursors, and other hazardous materials at 
checkpoints. In addition, recent advances in intelligence, surveillance 
and reconnaissance capabilities give deployed forces unprecedented 
situational awareness and the ability to detect, screen or defeat 
potential threats with more speed and less risk to the force. Moreover, 
the Army continues to integrate lessons learned from over eight years 
of combat in pre-deployment training and other counter-IED training 
events. The Army is also assessing standoff protection initiatives such 
as the Counter Bomber (personnel security against Person-Borne 
Improvised Explosive Devices). Once evolving Counter-IED technologies 
are proven, and the theater commander requests them, the Army will 
procure and field them as quickly as possible. Additionally, JIEDDO has 
partnered with the Department of Homeland Security to continue to 
develop solutions for the personnel-borne improvised explosive devices 
threat while also cooperating in technology demonstrations and 
evaluations.

    [Clerk's note.--End of questions submitted by Mr. Moran. 
Questions submitted by Mr. Dicks and the answers thereto 
follow:]

                       Tactical Wheeled Vehicles

    Question. The Army depends on its fleet of light, medium, and heavy 
trucks to move soldiers, supplies, and equipment. Prior to the 
conflicts in Iraq and Afghanistan, trucks were rarely armored. The few 
wheeled vehicles that were armored were engineer route clearance 
vehicles and a small number of military police vehicles. As various 
insurgent forces began using improvised explosive devices to attack 
unarmored trucks, the Army began to add armor packages on light, 
medium, and heavy trucks. The Army's inventory of light tactical 
wheeled vehicles has numbered approximately 150,000, including 
uparmored HMMWVs in the combat theaters, unarmored HMMWVs at home 
stations, and a small number of uparmored HMMWVs positioned for pre-
deployment training. The Committee is informed that the Army may evolve 
to a mix of unarmored HMMWVs, armored HMMWVs, Joint Light Tactical 
Vehicles, small Mine Resistant Ambush Protected (MRAP) vehicles, and 
MRAP--All Terrain Vehicles. General Casey, please describe the Army's 
plan and time line for migrating to a mix of light tactical wheeled 
vehicles in units across the components of the Army.
    Answer. The Army currently has a mix of light tactical vehicles 
(LTV) within each component. Today, the Active Component's LTV fleet 
consists of 21 percent armored, the National Guard's LTV fleet consists 
of 34 percent armored and the Reserve's LTV fleet consists of 14 
percent armored. With current programmed funding through FY15 and 
redistribution of retrograde assets, these statistics will be 46 
percent, 40 percent and 18 percent respectively. Within the next twenty 
four months, the Army intends to rebalance its fleet among the 
components to better reflect the appropriate balance of armor capable 
vehicles based on missions. Additionally, the Joint Light Tactical 
Vehicle (JLTV) currently in development phase, is the planned 
replacement for the High Mobility Multipurpose Wheeled Vehicle (HMMWV). 
The Army will begin fielding the JLTV in 2015 with approximately 2,000 
vehicles produced per year. Therefore, the Army must maintain the HMMWV 
fleet through approximately FY30. Finally, the Army has established 
plans to place over 15,000 Mine Resistant Ambush Protected Vehicles 
(MRAPs) and MRAP-All Terrain Vehicles in the force.
    Question. Please explain the Army's decision to include no funding 
for the purchase of HMMWVs in the fiscal year 2011 request.
    Answer. As a result of analysis conducted over the course of the 
last few months, the Army has decided to accelerate its already 
established plans to stop High Mobility Multipurpose Wheeled Vehicle 
(HMMWV) procurement. This decision is based on the fact that the Army 
has reached its acquisition objective for HMMWVs. The Army's current 
FY10 HMMWV requirement is 152,727 with 156,375 on hand. Although the 
average fleet age is approximately 15 years, our cost benefit analysis 
tells us we should recapitalize older models rather than buy new ones.
    Question. General Casey, please describe the Army's plan for a 
competitive, ``Open Market'' effort to recap HMMWVs.
    (a) What is the estimated cost of a recapped HMMWV versus the cost 
of a new vehicle?
    Answer. At this time, the Army has not made any decisions on a 
competitive Up- armored High Mobility Multi-purpose Wheeled Vehicle 
(HMMWV) recapitalization (RECAP) program. A Request for Proposal (RFP) 
and a supporting Business/Technical case analysis are being developed 
based on responses to a Request for Information/Market Survey. The 
Army's goal is to use competition to provide the best value for the 
government. Competition provides the Army access to a full range of 
industry (depot, private, or public private teaming) capabilities, 
processes and potential technical advances.
    (a) Planning is still ongoing for a competitive RECAP program and 
validated cost estimates are not available to compare the exact cost 
between competitive recapitalization and that of a new HMMWV. However, 
the unarmored and estimated Up Armored HMMWV recapitalization costs are 
approximately 31% and 66% of the cost of new production, respectively.
    Question. What would be the logic of recapitalizing a 15 to 20 year 
old HMMWV if the cost is about 90% of the cost of a new HMMWV?
    Answer. The Army would not recapitalize a High Mobility 
Multipurpose Wheeled Vehicle (HMWWV) at a cost of 90 percent of the 
replacement vehicle. The recapitalization cost for an unarmored HMWWV 
is $55,000 and the estimated cost for an up armored HMMWV (UAH) is 
$105,000 to $130,000, which is variant dependent. The unarmored and 
estimated UAH recapitalization costs are approximately 31% and 66% of 
the cost of new production, respectively.
    Question. Congress provided a total of $1.3 billion for Army 
procurement of HMMWVs in the fiscal year 2010 Defense Appropriations 
Act. What is the Army's obligation plan for those funds?
    Answer. The Army has obligated $431 million of the $1.3 billion 
FY10 funding to procure 2,122 High Mobility Multi-purpose Wheeled 
Vehicles (HMMWV). Of the remaining funds, the Army is planning to 
reprogram approximately $560 million for the existing HMMWV Recap and 
the remaining funds to support other Army priorities.
    Question. Does the Army intend to reprogram fiscal year 2010 funds 
that were appropriated for the purchase of HMMWVs?
    Answer. The Army is planning to put approximately 2,100 HMMWVs on 
contract using FY10 Base and OCO funding. The FY10 base budget will buy 
1,400 HMMWVs to support systems that use the HMMWV as their prime 
mover. The FY10 OCO funding buys 700 HMMWVs for U.S. Army Special 
Operations Command. The Army plans to seek approval from the Office of 
the Secretary of Defense and the Congress to reprogram the remaining 
FY10 OCO procurement funding to recapitalize HMMWVs returning from 
theater and for other Army priorities.
    Question. The Committee understands that the only units fully 
equipped with light, medium, and heavy armored trucks are in Iraq and 
Afghanistan. Should units in other potential hot spots, such as Korea, 
be equipped with armored trucks?
    Answer. Yes. We do intend to put armored and armor-capable vehicles 
in other theaters through the investment and modernization process. In 
fact, there are armor capable vehicles in Korea in the Army 
Prepositioned Stocks. In the Army's approved Tactical Wheeled Vehicle 
Investment Strategy, the modernization path is to acquire all armor 
capable (or armor installed) vehicles, and as the fleet is modernized, 
all theaters will have increasing numbers of armor capable vehicles.

                    Two New Combat Aviation Brigades

    Question. Budget briefing materials for the fiscal year 2011 budget 
request include the formation of two additional Army combat aviation 
brigades, the 12th and 13th such brigades. The 12th Combat Aviation 
Brigade (CAB) will form in fiscal year 2011. The 13th CAB will form in 
2014. What are the operational requirements that call for additional 
Combat Aviation Brigades?
    Answer. Army Aviation is in great demand for overseas contingency 
operations and is among the most frequently deployed Army asset. The 
addition of active component CABs to the force structure allows the 
Army to meet demands for combat while relieving stress on Army Aviation 
Soldiers and Families. Army Aviation units have dwell times of 1.1 to 
1.3 years for each year deployed, while the Army goal for active units 
is 2 years of dwell time for each year deployed. Aviation Study II is 
an on-going study directed by the CSA, which analyzes the Army's 
current aviation force structure and ARFORGEN sourcing requirements. 
One of the initial study determinations was a need for an additional 
CAB to get closer to the Army's BOG/Dwell goals.
    Question. What criteria will you use to determine where the Army 
will station the new brigades?
    Answer. The Army will determine where to station our two new Combat 
Aviation Brigades (CABs) based on the requirement to train the CAB for 
combat operations, opportunities for the CAB to conduct air-ground 
integration training with brigade combat teams (BCTs), and the 
suitability of potential locations for aviation unit stationing, to 
include all Soldier and Family requirements. The Army developed a 
stationing analysis model called the Military Value Analysis, to assist 
with analyzing potential locations for unit stationing. The Army used 
this model to determine the best location to station the twelfth active 
component CAB. This recommendation will be considered by Army senior 
leadership before a final stationing decision is announced. The Army 
will use the same model and criteria for determining the best location 
for stationing the thirteenth active component CAB. Any decision will 
be analyzed for compliance with the National Environmental Protection 
Act through an Environmental Impact Statement.
    Question. How do the two additional Combat Aviation Brigades fit 
into the Army's plan to rebalance the force?
    Answer. Because the Army is consolidating one CAB from existing 
aviation force structure (twelfth active component CAB), the Army will 
only add one CAB headquarters and one additional full CAB. The 
activation of these CABs will have negligible adverse effects on 
operational readiness, modernization and reset efforts for the Army. 
The rebalancing effort for the twelfth CAB will consolidate existing 
assets under a CAB headquarters, which will better enable the Army to 
source this unit and greatly improve ARFORGEN requirements. The Army 
will also be able to leverage existing personnel force structure from 
the active component, as well as already programmed increases to the 
training base to sufficiently field the thirteenth CAB. This 
rebalancing of the force by the activation of an entire CAB will add 
approximately 4 months of dwell time to Army Aviation and will allow 
some units to reach the required BOG/Dwell goal of 1:2. All units will 
reach, at a minimum, a BOG/Dwell of 1:1.5.
    Question. What additional aircraft must be procured in order to 
field each of the new Combat Aviation Brigades?
    Answer. One of the two combat aviation brigades (CAB) is being 
reorganized from within the Army's existing aviation force structure 
and will not require additional procurements. The second CAB is being 
built incrementally as manning and equipment become available. The FY11 
procurement includes 4 CH-47F helicopters, 16 UH-60M and 2 HH-60M 
Medical Evacuation helicopters. Beyond FY11, the Army will need to 
procure 48 AH-64D helicopters, an additional 8 CH-47F helicopters, 27 
UH-60M and 13 HH-60M Medical Evacuation helicopters.
    Question. What is the dwell time between combat tours for the 
current 11 Combat Aviation Brigades?
    Answer. Active component Army Aviation units have dwell times of 
1.1 to 1.3 years for each year deployed (with eleven CABs), while the 
Army goal for active units is 2 years of dwell time for each year 
deployed (a BOG/Dwell of 1:2). As an example, the 10th CAB from Fort 
Drum, New York will deploy with 365 days dwell since their last 
deployment.
    Question. What is the target dwell time?
    Answer. Army Aviation active component units have dwell times of 
1.1 to 1.3 years for each year deployed (with eleven CABs), while the 
Army goal for active units is 2 years of dwell time for each year 
deployed (a BOG/Dwell of 1:2).

     Future Combat Systems (FCS) and Brigade Modernization Program

    Question. In June 2009, the Defense Acquisition Executive cancelled 
the manned Ground Vehicle parts of Future Combat Systems (FCS). In the 
wake of that cancellation, the Army initiated a new Brigade 
Modernization Program which will field the components of FCS that are 
ready for duty in units. These items are the Non-Line of Sight Launch 
System, tactical and urban unattended sensors, a small unmanned air 
vehicle, a small unmanned ground vehicle, an unmanned utility vehicle, 
and a communications network integration kit. How will the new Ground 
Combat Vehicle improve on the Bradley Fighting Vehicle?
    Answer. While the Bradley Fighting Vehicle (BFV) has limited 
capacity for enhancing its mobility, survivability and power 
generation, we expect the Ground Combat Vehicle to have a range of 
capabilities that the BFV does not provide. These include: protected 
mobility (maneuvering off-road to avoid improvised explosive devices 
(IEDs) and greater on-road protection against IEDs); tailored for full 
spectrum operations with modular, scalable armor kits; ability to carry 
a full infantry squad; under-belly protection that equals or surpasses 
the MRAP; off-road mobility of the BFV; better side protection than the 
BFV; precision lethality overmatch against adversary systems while 
limiting collateral damage; integration into the network to maintain 
situational awareness; and adequate growth potential to ensure the 
ability to integrate upgrades and new technologies.
    Question. When will the Ground Combat Vehicle program begin to 
field new vehicles to units?
    Answer. The Army anticipates that the Ground Combat Vehicle (GCV) 
will begin fielding its Infantry Fighting Vehicle variant in FY17, with 
the first brigade equipped in FY19.
    Question. Is a Bradley upgrade program a viable option?
    Answer. The upgraded Bradley Fighting Vehicle is one of the 
alternatives being analyzed in the Ground Combat Vehicle Analysis of 
Alternatives (AoA), which is assessing the effectiveness of potential 
alternatives against current and future threats. The Army will complete 
its Ground Combat Vehicle AoA in July 2010.

                               M4 Carbine

    Question. The M4 Carbine is a shortened version of the Vietnam era 
M-16 Rifle. The compact M4 is preferred by soldiers for fighting in 
urban areas. The Army has fielded nearly 400,000 M4s, and has made 62 
product improvements since the initial M4 fielding. The fiscal year 
2011 request proposes $20.2 million for 11,494 M4 Carbines. General 
Casey, the Army is currently conducting a competition for a new 
individual soldier's weapon. What are the shortcomings that the Army is 
seeking to address in the new weapon?
    Answer. The Individual Carbine Capabilities Development Document is 
pending approval by the Army Requirements Oversight Council and will 
then be forwarded to the Joint Requirements Oversight Council. If the 
requirement is ultimately approved, industry will be allowed to compete 
and increase performance in the following areas: accuracy, reliability, 
operational availability, probability of incapacitation, probability of 
hit and hit quality, barrel life, signature management, rate of fire, 
trigger pull, ambidextrous operation, ammunition, magazines, and 
adjustability.
    Question. From time to time anecdotes pop up that suggest the M4 
Carbine was not as reliable as it should have been during combat. After 
the July 13, 2008 battle of Wanat in Afghanistan, reports in the media 
cited internal military documents in which soldiers reported their M4s 
jamming. General Casey do you believe there is merit to these reports?
    Answer. We take all of these reports seriously. All incidents that 
reflect potential systemic problems are investigated. The Army 
determined that the M4s involved in the Battle of Wanat operated within 
Army specifications. The M4 has consistently been rated very high by 
the Soldiers, non-commissioned officers and officers who have used the 
weapon in combat. The Army has made over 62 material changes to the M4 
since it was introduced into the force in the early 1990's. The latest 
change resulted in an improved magazine that reduces the number of jams 
created by the failure of the round to properly feed from the magazine 
into the chamber. Last Fall we began issuing these magazines to units 
in Afghanistan and will eventually replace all of the magazines across 
the force.
    Question. A frequent response to criticism of the M4 Carbine is 
that if the weapon is properly cleaned and lubricated, it will meet all 
reliability and durability standards. However, during an extended fight 
in the dust and dirt of Afghanistan, the weapon will not be clean and 
any lubricants will likely become fouled with dirt. Would a better 
standard be a weapon that continues to function when not clean and 
lubricated?
    Answer. Such a standard would be ideal, but is not available in the 
current industrial base. Moreover, we do not foresee it as a future 
possibility based on market research.
    The Army has tested many versions of lubrication, both wet and dry, 
against the Department of Defense's Cleaning, Lubricant and 
Preservative (CLP) standard. The products that met all the CLP 
specifications are available to our units today. All conventional 
weapons have metal on metal contact when the weapon goes through its 
functioning cycle. The ignition of the powder to send the round down 
range is essentially an explosion that creates heat and residue. The 
Army has verified through testing and review by our combat Soldiers 
that a heavy coating of lubrication is the best means to ensure that 
weapons continue to operate in the harshest of conditions. The 
reliability and durability standards continue to be raised as 
technology produces better lubricants. The Army is also improving 
reliability by issuing an improved magazine for the M16 and M4 that 
significantly reduces feeding jams, and by ensuring the Individual 
Carbine Requirement contains reliability objectives that are higher in 
all conditions.
    Question. Do Army Special Forces and Rangers carry the M4 or some 
other rifle or carbine?
    Answer. Yes. Both the U.S. Army Special Forces and Rangers are 
issued the M4A1, which is a variant of the M4 Carbine.

                            Stryker Vehicles

    Question. The Quadrennial Defense Review notes that the Army will 
convert one Heavy Brigade Combat Team to a Stryker Brigade Combat Team 
by 2013. Several more may be converted as resources are available. 
Funding for Stryker vehicles in fiscal year 2010 is $513 million, 
including a congressional increase of $150 million to procure 93 
vehicles plus survivability enhancements. The fiscal year 2011 request 
proposes $300 million to procure 83 vehicles. The budget request adds a 
new line for Stryker modification with proposed funding of $146 million 
for survivability enhancements. The Overseas Contingency Operations 
request includes $445 million for Stryker survivability kits. General 
Casey, please discuss the number of Strykers and the variant mix that 
will be purchased with the fiscal year 2010 and 2011 procurement 
funding. What are the key survivability enhancements?
    Answer. The Army plans to procure 17 Stryker Reconnaissance 
Vehicles (RV) and 76 Stryker Infantry Carrier Vehicles (ICV) in FY10. 
We also plan to purchase 29 RVs and 54 ICVs in FY11. However, pending a 
successful test of the Double-V Hull concept, the Army may decide to 
reprioritize FY10 and FY11 funding to procure Double-V Hull Strykers 
for use in Afghanistan. Key survivability enhancements include: slat 
armor, Stryker Reactive Armor Tiles, Common Ballistic Shield, Drivers 
Enhancement Kit, Tire Fire Suppression Kit, Hull Protection Kit, Mine 
Roller Adapter Kit and Blast Mitigation Kit.
    Question. What is the plan to add a ``V'' or ``Double V'' hull to 
the Stryker?
    (a) What is the projected increase in survivability based on the 
improved hull design?
    (b) Will Stryker blast protection be as good as an MRAP?
    Answer. The Army has requested and received approval from OSD to 
build and test a limited number of prototype Stryker vehicles with an 
integrated Double-V Hull design. As these test vehicles become 
available, which is expected in early 1st Quarter FY11, the Director, 
Operational Test and Evaluation will conduct robust, independent 
testing concentrating on Soldier survivability. At the conclusion of 
this testing, which is expected to take approximately 60 to 90 days, 
the Army Acquisition Executive will chair a Configuration Steering 
Board (CSB). The CSB will review the test data and determine whether to 
recommend additional procurement of Strykers with Double V Hulls. The 
Defense Acquisition Executive has informed the Army that if further 
procurement is requested, he would consider authorizing, with 
Congressional approval, production and limited fielding of up to 450 
modified Stryker vehicles to support urgent operational needs in 
Afghanistan.
    (a) The projected increase in protection against Improvised 
Explosive Devices (TED) is expected to double the protection level 
available on Stryker vehicles currently operating in Afghanistan. This 
increased protection is expected to greatly increase survivability.
    (b) Although initial testing of the Double-V Hull design has been 
promising, only independent testing of the design integrated onto the 
Stryker vehicle hull will determine how well its blast protection 
compares to the MRAP.
    Question. General Casey, what is your concept of the proper number 
of Brigade Combat Teams, and what is the proper mix of Infantry, medium 
weight or Stryker, and Heavy Brigade combat teams?
    Answer. Our goal is to build a versatile mix of tailorable and 
networked organizations, operating on a rotational cycle, to provide a 
sustained flow of trained and ready forces for full spectrum 
operations. Additionally our goal is to hedge against unexpected 
contingencies at a sustainable tempo for our All-Volunteer Force.
    Army analysis balances the array of ongoing force requirements in 
support of OEF and OIF, extant war plans, contingency plans and future 
contingency requirements as reflected in Office of the Secretary of 
Defense's planning scenarios. The 45 Active Component (AC) and 28 
Reserve Component (RC) Brigade Combat Teams (BCTs) meet the needs for 
sustained operations and potential surges. The 7 STRYKER BCTs (6 AC/1 
RC), 26 Heavy BCTs (19 AC/7 RC) and 40 Infantry BCTs (20 AC/20 RC) all 
possess great versatility which enables full spectrum operations. The 
ongoing force mix analysis has indicated the need to increase the 
number of Stryker BCTs available to Combatant Commanders. Accordingly, 
we are converting one AC Heavy BCT to an AC STRYKER BCT beginning in 
FY11.
    Question. Have units in the field gradually changed the role of the 
Stryker vehicle from a troop carrier to a mounted fighter vehicle, a 
role for which the Stryker was not designed?
    Answer. No. By design, variants within the Stryker Family of 
Vehicles are considered carriers (except MGS and ATGM), which enable 
rapid transport of the Stryker Brigade Combat Team (SBCT) formation on 
the battlefield. Several of the variants have direct fire weapons, 
however their primary purpose remains to provide direct support to the 
108 infantry squads and the 12 reconnaissance platoons in the execution 
of combat tasks. While the Anti-Tank Guided Missile (ATGM) and the 
Mobile Gun System (MGS) have long range direct fire weapons capable of 
destroying enemy armored vehicles, both variants are designed to 
support infantry combat operations, and are not used as fighting 
vehicles for standalone long range engagements. In fact, the Soldiers 
and Leaders within the SBCT refer to the Stryker as ``trucks'', 
acknowledging that they are not considered fighting vehicles like the 
Bradley or Abrams.
    The intent of providing more accurate and capable weapon systems on 
the various Strykers is to increase the overall force protection level 
of the formation by enabling SBCT Soldiers to be more lethal, capable, 
and effective on the battlefield through more rapid identification and 
reduction of threats. The use of Strykers in combat reflects Tactics, 
Techniques, and Procedures developed during home station training and 
live fire qualification exercises. The capstone qualification event in 
an SBCT is a combined exercise that incorporates vehicles, weapons 
systems, and dismounted squads, as opposed to vehicle-focused gunnery 
in heavy formations.

                       u.s. army forces in korea

    Question. U.S. Army forces in Korea include Headquarters Eighth 
U.S. Army, Headquarters 2nd Infantry Division, 2nd Heavy Brigade Combat 
Team, 210th Fires Brigade, 2nd Combat Aviation Brigade, 501st Military 
Intelligence Brigade, 1st Signal Brigade; and other medical, and 
support organizations. U.S. Forces are in the process or relocating to 
the southern part of the Korean Peninsula. The 2nd Infantry Division 
has one heavy brigade combat team in Korea. That brigade has M1A1 
Tanks, and M2A2 Operation Desert Storm series Bradley Fighting 
Vehicles. However, the Army has newer and more capable versions of the 
Abrams Tank and the Bradley Fighting Vehicle. Why not provide the most 
capable equipment to the U.S. Army forces in Korea?
    Answer. The Army provides all combat formations with the best 
available equipment in accordance with the unit's assigned mission 
priorities. We are scheduled to upgrade the M1A1 tanks and Bradley 
Fighting Vehicles in Korea in the second quarter, FY11. The Army will 
continue modernizing these vehicles, in concert with the fleet 
investment plan. The Heavy Brigade Combat Team (HBCT) on the Korean 
peninsula is scheduled to receive the Ml Abrams Integrated Management 
Situational Awareness variant and M2 Bradley Operation Desert Storm 
variant in the second quarter, FY11.
    Based on potential force mix changes pursuant to the Quadrennial 
Defense Review and equipment availability as other HBCTs undertake 
missions in Iraq and Afghanistan, the Army is assessing the feasibility 
of providing the newest M1 Abrams System Enhancement Program and M2A3 
Bradley to the HBCT forward-stationed in Korea.
    Question. Does providing newer, more capable equipment to key areas 
other than Iraq and Afghanistan come under your effort to rebalance 
resources?
    Answer. Yes. The Army has units that do not rotate through an Army 
Force Generation (ARFORGEN) cycle, but are forward stationed, or 
otherwise considered high priority. These include theater committed 
forces, Army Service Component Command Headquarters, Army Special 
Operations Forces and other units. The Army provides all combat 
formations with the best available equipment within its resources. We 
have provided modernized enablers to U.S. forces in Europe and are 
scheduled to upgrade tanks and Bradleys in Korea in the second quarter 
FY11. The Army will continue to modernize units in accordance with 
mission priorities.
    Question. Tactical wheeled vehicles operating in Iraq and 
Afghanistan were initially unarmored, but force protection efforts in 
response to enemy tactics have resulted in wheeled vehicle fleets that 
have fully armored passenger cabs and many have remotely operated 
weapons stations. Should U.S. Army units in Korea be equipped in a 
similar fashion?
    Answer. Yes. Through the investment and modernization process, we 
plan to put armor capable vehicles in Korea. We have already placed 
some armored vehicles in Army Pre-positioned Set 4, located in that 
theater. The Army's Tactical Wheel Vehicle Investment Strategy includes 
acquiring all armor capable (or armor installed) vehicles. As the total 
fleet is modernized, the vehicles in Korea will become increasingly 
armor capable.
    Question. When will the brigade combat team in Korea receive 
Brigade Modernization spin outs from the FCS program?
    Answer. The Army has not yet determined when the brigade combat 
team (BCT) in Korea will receive Brigade Modernization spin outs from 
the FCS program. While the Army will field these technologies in 
Capability Packages to all BCTs by FY25, the unit fielding schedule is 
determined by multiple factors including deployment and procurement 
schedules. The first unit identified to receive the Increment 1 
Capability Package is the 3rd BCT, 1st Armored Division, based at Ft. 
Bliss, Texas in FY11.

                     Non-Combat/Non-Hostile Losses

    Question. The Summary Briefing on the ``Study on Rotorcraft 
Safety'', dated December 9, 2009, reported that between October 2001 
and December 2008, the Department of Defense experienced 327 rotorcraft 
losses, with 469 fatalities. Combat hostile action accounted for 20 
percent of the losses. Combat non-hostile mishaps accounted for 40 
percent, and non-combat mishaps accounted for the remainder. Fully 80 
percent of losses were not attributable to hostile action. Significant 
among the various categories of losses were: Controlled Flight into 
Terrain, Brownout, and Object Strike. Army monthly updates to the 
Committee on helicopter losses in Iraq and Afghanistan since February 
2003 indicate 176 helicopters lost as of February 2010. How many of the 
losses occurred in circumstances other than combat or hostile action, 
such as brownout, flying into obstacles, or flying into the ground?
    Answer. Since FY02, the Army has lost 151 Rotary Wing Aircraft to 
non- combat, non-hostile accidents. The losses included 52 AH-64, 34 
UH-60, 20 CH-47 and 45 OH-58D aircraft. Over the same period of time, 
the US Army lost 45 aircraft to hostile action.
    The biggest contributing factor to non-combat, non-hostile 
accidents is human error (typically over 70%). Major human error causes 
are aircrew coordination failures (56%), overconfidence/complacency 
(28%) and inadequate mission planning, such as power management and 
failure to update weather. Most accidents involve flights assessed as 
low risk with 52% of accidents occurring during the day and 43% 
happening during training.
    The Army Aviation Center of Excellence and the Program Executive 
Office--Aviation are working diligently on training and materiel 
initiatives to reduce non-combat aircraft losses. Some of the more 
comprehensive initiatives include: leaders forming aviation task forces 
early and training as a team throughout the reset/train cycle of 
ARFORGEN; increasing opportunities for high altitude/environmental 
training at High-Altitude Army Aviation Training Site and other high 
altitude training areas; refining Aircrew Coordination Training--
Enhanced and continuing to stress initial and refresher training for 
all aircrews; fielding modernized aircraft such as the UH-60M, CH-47F, 
UH-72; and installing modernized training devices and simulators. The 
Army continues to enhance home station training and institutional 
training by incorporating lessons learned, leveraging outside training 
assets during reset/train cycle and improving programs of instruction 
in our institutional training courses and Officer/NCO educational 
courses.
    Question. Currently what tools or instruments are available to Army 
helicopter crews to counter the effects of brownout, the blinding dust 
kicked up by the rotor wash as a helicopter operates near the ground?
    Answer. Army Aviation is addressing brownout conditions by several 
methods to include: adjusting operational Tactics, Techniques and 
Procedures to reduce entering into Degraded Visual Environment (DVE) 
conditions; conducting limited visibility training at home station and 
in theater prior to accepting mission responsibility; and improving 
aircraft system display symbology, flight handling qualities, and 
sensor systems. For example, through the Common Avionics Architecture 
System and Manned-unmanned Common Architecture Program cockpit systems, 
the UH-60M, AH-64D, and CH-47F are being fielded with advanced display 
symbology to provide an easily understood representation of the 
aircraft's orientation relative to the ground in DVE conditions, such 
as brownout. Additionally, the UH-60M and CH-47F have advanced flight 
control systems, which improve handling qualities of the aircraft, 
helping to effectively deal with this situation. The AH-64D flight 
control system has automatic hover hold, which when coupled with the 
radar altimeter provides the aircrew the capability to deal with 
brownout situations.
    Army Aviation Program Managers continue to investigate pilotage 
sensor systems being developed by industry and the government that 
further improve the aircrew's situational awareness of terrain, 
obstacles and weather conditions in a DVE/brownout situation.
    In particular, the Army Science and Technology program has 
technology efforts under development to support helicopter pilots 
conducting landing and take-off operations during DVE conditions. These 
efforts are investigating several sensor-based solutions, from a single 
nose mounted system to one that would employ a number of multispectral 
sensors distributed around a UH-60/CH-47, providing imagery to both 
pilots and crew members on the aircraft cockpit display panel or via an 
optical head tracked display. Head tracked display sensors will allow 
multiple pilots and crew members to collaborate to view imagery all 
around the aircraft. This will provide the ability to track aircraft 
position relative to the ground and other objects, provide the ability 
to see through dust and will enhance crew coordination in degraded 
visual environments. In addition, Army Aviation S&T has further 
developed advanced display symbology under the Brown-Out Symbology 
System.
    Question. Are other vision aides which use a series of icons or a 
cartoon to provide the pilot with surrogate ground references reliable 
enough for testing and possibly fielding?
    Answer. Army Aviation has upgraded aircraft situational displays as 
part of the Common Avionics Architecture System and Manned-unmanned 
Common Architecture Program cockpit systems, currently fielded on much 
of the rotorcraft fleet. These display systems incorporate improved 
symbology to provide intuitive awareness of the aircraft orientation 
during all phases of flight. In addition, Army Aviation S&T has further 
developed advanced display symbology under the Brown-Out Symbology 
System, which can enhance situational understanding by providing an 
indication of the landing location, aircraft attitudes and sink rates, 
as well as improved icons indicating height above the ground. These 
symbols are of primary importance to an aircrew in a brownout situation 
and have been shown to allow safe and repeatable landings during flight 
test under brownout conditions. The focus of the S&T symbology 
development is to address the human/machine interface and balance the 
need to provide significantly more relevant data to the aircrew during 
time critical and high workload conditions without saturating their 
ability to properly interpret these display cues. 3-D audio and tactile 
stimulation have also been investigated to augment visual display cues.
    Question. What additional warning devices are needed to assist air 
crews to avoid obstacles, including flying into the ground?
    Answer. The Army flies in a hazardous operational environment every 
day. Since 2003 we have flown nearly three million helicopter hours and 
most of those in a low level environment. Continuous investment in 
aircraft modernization, improved aircrew training and increased aviator 
combat experience has decreased our overall accident and combat losses. 
Since 2002 Army Aviation has achieved a downward trend in accidents 
that result in fatalities and loss of aircraft. This downward trend is 
not necessarily a result of improved aircraft capability but reflects a 
transition from an austere to a more mature operational environment, as 
well as the considerable experience gained by aircrews in both combat 
theaters.
    The introduction of moving map displays in our helicopter fleet has 
significantly increased the situational awareness of our aircrews. We 
need to give our pilots a warning for terrain and obstacles in their 
flight path. We have conducted an analysis of our ability to operate at 
low altitudes worldwide and have determined that we do in fact have a 
capability gap when conducting helicopter operations. To address this 
gap, the Army is pursuing a fully integrated material solution that 
will allow pilots to safely accomplish their mission in a degraded 
visual environment.
    Question. What is the status and funding of the Advanced 
Distributed Aperture System?
    Answer. The Advanced Distributed Aperture System (ADAS) Program is 
on schedule to complete flight tests from November 2010 to January 
2011. The program is also on cost with $360K remaining from the $48.3M 
funded. Flights taking place in 1st Quarter, FY11 will be paid for via 
carryover FY10 funds.

                          OH-58D Kiowa Warrior

    Question. The Army has been flying the 01-1-58 series scout 
helicopter since the end of the Vietnam War. The current OH-58D Kiowa 
Warrior carries light weapons and a mast mounted sensor pod. The Kiowa 
Warriors have performed well in Iraq and Afghanistan wars, with much of 
the credit due to the skill and dedication of the aircrews and the 
ground maintenance teams. The Army has lost 50 OH-58Ds in the current 
actions. The Committee is aware that the Army has lost 50 Kiowa Warrior 
aircraft in the Iraq and Afghanistan wars. Please provide a general 
overview of how the aircraft were lost.
    Answer. Since FY02, the Army has experienced a total of 51 OH-58D 
Kiowa Warrior operational losses. Of these aircraft, 14, or 27%, were 
lost as a result of hostile fire. The remaining losses resulted from a 
variety of reasons to include human and environmental factors and 
materiel failure. The largest contributing factor to Kiowa Warrior 
losses during non-combat, non-hostile accidents is human error, 
approximately 65%. The next largest contributing factor is materiel 
failure, less than 15%.
    Question. The OH-58D is not in production. The Committee 
understands that a few of the remaining unarmed OH-58A and C model 
aircraft are being converted to D models. How many will be converted, 
at what unit cost, and what is the time line to field the aircraft?
    Answer. Currently the Army is short 34 OH-58D Kiowa Warrior 
helicopters with an additional two aircraft awaiting attrition, for a 
total of 36 aircraft below the required quantity of 368. The Army plans 
to convert 36 aircraft from OH-58A to the D model configuration at a 
cost of approximately $9.5M each. Overseas Contingency Operations 
funding was requested in FY10 (6 aircraft) and FY11 (15 aircraft) and 
we plan to request funding in FY12 (15 aircraft). The first rebuilt OH-
58D aircraft will be fielded by the third quarter, FY12.
    Question. How does the Army manage the aerial reconnaissance 
mission, given the shortage of Kiowa Warriors?
    Answer. The Army is meeting its entire aerial reconnaissance 
mission in Operation Enduring Freedom and Operation Iraqi Freedom 
despite aircraft shortages. The priority of support remains with 
deployed units to resource which are being resourced to 100% authorized 
quantity (30 aircraft each). Using the Army's Force Generation 
(ARFORGEN) model, garrison units in dwell are managed according to 
priority of deployment. The Army's desired goal is to fill units in 
dwell at 80% of their authorized quantity by their redeployment plus 
180 days (R+180). Currently this is not possible. However, units 
continue to perform superbly in combat despite these training 
shortages. Units in pre-deployment training are averaging 18 aircraft 
or 60% of the authorized requirement.
    Question. Where in the Army's active and reserve units are the 
shortages located?
    Answer. In the active component, all Continental United States 
units including Alaska and Hawaii are short aircraft when not deployed. 
Current shortages are at Fort Campbell, Kentucky; Fort Bragg, North 
Carolina; Fort Lewis, Washington; Fort Drum, New York and Fort 
Wainwright, Alaska. The only reserve unit equipped with OH-58D 
helicopters is the Tennessee Army National Guard (1-230th Cavalry 
Squadron) with 24 of 30 authorized aircraft on hand. These shortages 
are in line with the Army Force Generation Model.
    Question. Can the AH-64 serve adequately as an Armed Reconnaissance 
Helicopter?
    Answer. Although it has been used in that role, the AH-64 would not 
adequately satisfy the Army's armed reconnaissance mission. This is due 
to its size, noise signature, radar and infra-red cross sections and 
its maneuverability at low altitudes. The current OH-58D aircraft is 
better suited for reconnaissance missions when compared to the Apache 
helicopter, and is an excellent platform for the counter-insurgency 
mission.
    To meet all of the Army's armed reconnaissance requirements the 
Apache would require additional procurement at approximately 3 to 4 
times the cost of a light, manned, armed reconnaissance capability. In 
addition, the total fleet operating and sustainment cost would 
correspondingly increase.

                    Armed Reconnaissance Helicopter

    Question. The Army cancelled the RAH-66 Comanche in 2004. The 
Comanche was to have been a replacement with significant capability 
upgrades to the OH-58D Kiowa Warrior. However, the Comanche program was 
20 years in development and had spent $7 billion without fielding an 
aircraft. A follow-on Armed Reconnaissance Helicopter (ARH) program was 
terminated in October 2008. That effort was to be based on a 
commercially produced Bell 407 but cost growth and schedule problems 
doomed the program. The ARH is currently undergoing an Analysis of 
Alternatives. What is the status of the Analysis of Alternatives, and 
what is the way ahead?
    Answer. The Army is exploring all options to leverage existing and 
potential developmental solutions in manned, unmanned and manned-
unmanned teaming solutions. In July 2009, the Defense Acquisition 
Executive directed the Army to conduct an Analysis of Alternatives 
(AoA) to meet Armed Aerial Scout capabilities and determine a 
replacement for the OH-58D Kiowa Warrior. The AoA will take a holistic 
look to determine the appropriate materiel solution(s) to address the 
still valid requirements and any capability gaps identified in the 
Initial Capabilities Document. The AoA will be conducted in two non-
sequential phases with the first phase to be completed in April 2010 
and the final analysis (phase II) to be completed in December 2010 
(followed by the final report published in April 2011).
    Question. Does the Army need a new ARH?
    Answer. The Army has an enduring requirement for a light, manned, 
armed reconnaissance rotary wing aircraft. The armed reconnaissance 
capability remains a key element in the Army's airborne attack, 
reconnaissance, surveillance, targeting and acquisition force structure 
modernization effort. This force structure includes heavy attack 
helicopters, unmanned aerial systems and light reconnaissance 
helicopters complementing one another and working synergistically on 
the battlefield. The Armed Aerial Scout will conduct armed aerial 
reconnaissance providing combat information to enable joint/combined 
air-ground maneuver execution of mobile strike, close combat and 
vertical maneuver operations across the full-spectrum of military 
operations.
    The Armed Aerial Scout capability will meet the still valid 
requirements and capability gaps identified in the Initial Capabilities 
Document, specifically the need to operate in a high/hot environment 
like Afghanistan. Additionally, the Armed Aerial Scout will have the 
Joint Interoperability Level 2 capability to control unmanned aircraft 
systems.
    Question. Could the Lakota light helicopter serve as the base 
aircraft for the ARH?
    Answer. The Lakota Light helicopter (UH-72A) could possibly serve 
as the next Armed Aerial Scout; however, as the aircraft is currently 
produced it operates under a Federal Aviation Administration (FAA) 
certified qualification as a non-combat aircraft and does not possess a 
full military qualification. The aircraft would need significant 
modifications and qualification testing in order to meet minimum 
qualification for combat operations, including live fire testing, 
installation of ballistic tolerant fuel tanks, aircraft survivability 
equipment and other crew protective measures.
    Question. Could an AH-64 Apache serve in the ARH role? What are the 
cost and tactical implications of using Apaches as armed reconnaissance 
helicopters?
    Answer. The Apache has been used in the armed reconnaissance 
mission however, it does not adequately satisfy the Army's armed 
reconnaissance needs. This is due to its size, noise signature, radar 
and infra-red cross sections and its maneuverability at low altitudes. 
To permanently include the Apache in a reconnaissance role would 
require additional procurement of Apaches at approximately 3 to 4 times 
the cost of a light, manned, armed reconnaissance capability.

                              AH-64 Apache

    Question. The AH-64 Apache has been a reliable and lethal attack 
helicopter in Iraq and Afghanistan. The air cover provided by Apache 
attack helicopters serves to deter enemy attacks, and the Apache is a 
fast and powerful direct fire tactical responder for units in contact. 
However, the Army has suffered 52 operational losses of Apaches in pre-
deployment training and in combat operations in Iraq and Afghanistan. 
Nine have been shot down in combat. All losses have been funded for 
replacement. The Army has been in the process of converting early model 
AH-64A aircraft to the AH-64D configuration. The Committee understands 
that the ``A'' models are found in Army National Guard units, and that 
units equipped with ``A'' models are not considered deployable for the 
current fights. What is the status of getting all the older ``A'' model 
Apaches converted to ``D'' model?
    Answer. The Army is committed to converting the remaining Army 
Reserve AH-64A Battalion and the remaining four Army National Guard AH-
64A Battalions to AH-64D Longbows. The Apache A to D conversion is on 
schedule and funded. The program has converted 592 aircraft and is 
scheduled to complete the remaining 125 aircraft by the end of FY14.
    Question. How many Army National Guard Apache Battalions are not 
deployable due to having AH-64A?
    Answer. There are currently four non-deployable AH-64A model Armed 
Reconnaissance Battalions in the Army National Guard.
    Question. What is the time line to finish the ``A'' to ``D'' 
conversion?
    Answer. The AH-64A model to ``D'' model conversion is projected to 
be completed by second quarter FY14.
    Question. Is the ``A'' to ``D'' conversion fully funded?
    Answer. Yes.
    Question. A total of 52 Apaches have been lost in combat operations 
in Iraq and Afghanistan; nine of which were shot down. How were the 
other 43 lost?
    Answer. The 43 losses resulted from a variety of reasons to include 
human error, environmental factors and materiel failure. The largest 
contributing factor to these accidents is human error (typically over 
70%). These reasons include aircrew coordination, overconfidence/
complacency and inadequate mission planning.
    Question. What materiel or training solutions are available to 
assist aircrews to avoid both hostile and non-hostile losses?
    Answer. AH-64 Apache material solutions include: ballistic crew 
protection from some small arms; Aircraft Survivability Equipment such 
as the Common Missile Warning System; the Modernized Target Acquisition 
and Designation Sight, which improves situational awareness for both 
hostile and non-hostile situations; and crashworthy fuel cells. Program 
Manager Apache is also fielding High Performance Shock Struts designed 
to absorb higher loads and collapse at a slower rate during a crash 
sequence.
    The Apache Aircrew Training Plan has been expanded to include more 
robust Combat Maneuvering Flight events resulting in better crew 
reaction to hostile fire. In addition, the Army sends its instructors 
to the High Altitude Training Center in Gypsum, Colorado, and 
encourages all units to send their aircrews to this school prior to 
deployment. The High Altitude Training Center helps air crews better 
understand the effects of flying in extreme environmental conditions, 
similar to what they may experience in Afghanistan and Iraq.

                     Standard Issue Counter Sniper

    Question. Explanatory language accompanying the fiscal year 2010 
Department of Defense Appropriations Act directed the Secretary of the 
Army to provide a report, within 60 days of enactment of the Act, on 
the acquisition objective and basis of issue plan for both vehicular 
and soldier wearable sniper detection equipment, as previously directed 
in the Joint Explanatory Statement accompanying the Supplemental 
Appropriations Act, 2009. In Afghanistan, snipers remain a serious and 
very capable threat to U.S. forces. As U.S. forces have advanced into 
areas that have been Taliban strongholds, exposure to snipers has 
increased and U.S. Soldiers continue to be shot and killed by snipers. 
The Army has provided counter sniper equipment to units in response to 
operational needs statements from units that are deployed or preparing 
to deploy. Should counter sniper equipment be standard issue for units 
deploying to Iraq and Afghanistan?
    Answer. No. The Army continues to procure and field counter sniper 
capabilities to forces in both Iraq and Afghanistan in accordance with 
validated operational needs. Capabilities fielded to warfighters become 
Theater Provided Equipment to maintain equipment that is commensurate 
with force strength in theater. Currently, counter sniper capabilities 
are not standard issue to all deploying units. However, units arriving 
in theater will fall in on assets of the unit they are replacing. This 
enables the theater commander to maneuver assets based on changing 
threat conditions and maximize the effects on the ground. The Army has 
also established gunshot detection as an enduring capability through 
the Capabilities Development for Rapid Transition process.
    Question. Does the Army have a plan to make soldier worn and 
vehicle mounted counter sniper devices standard in the equipment tables 
for Army units?
    Answer. The Army is pursuing several efforts to provide an enduring 
counter sniper capability through its deliberate planning processes. 
Whether these are Soldier mounted, ground vehicle mounted or other 
types of configurations is part of the materiel solution set. Counter 
sniper capabilities will be distributed throughout the Army based on 
analysis conducted by U.S. Army Training and Doctrine Command. A 
vehicle mounted gunshot detection Capability Production Document (CPD) 
was validated in February 2009. This CPD calls for 13,658 vehicle 
mounted systems to be installed on tactical wheeled vehicles. The Army 
continues to analyze the efficacy of a Soldier worn gunshot detection 
system. CPD staffing for an individual gunshot detection system is 
expected to be completed and validated this calendar year.
    Question. The fiscal year (FY) 2009 Supplemental Appropriations Act 
provided $50 million for counter sniper acoustic sensors. What is the 
status of obligating those funds and issuing the devices for use in the 
field?
    Answer. Of the total $50M provided, the U.S. Army Rapid Equipping 
Force (REF) obligated $15M on two different contracts to purchase the 
Soldier Wearable Acoustic Targeting System (SWATS). First, in September 
2009, the REF procured and deployed 235 systems to theater. Next, in 
March 2010, the REF procured 2,054 systems; the deployment of these 
systems is currently underway and should be completed in May 2010. 
Project Manager Soldier Sensors and Lasers (PM SSL) will competitively 
award the remaining $35M. On January 20, 2010, PM SSL issued an 
Individual Gunfire Detection (IGD) solicitation. This solicitation 
requested vendors, with mature technology capable of satisfying the IGD 
threshold technical criteria and production capacity, to respond. The 
Army Test and Evaluation Center is conducting the competitive 
Operational Test of three IGD systems that meet the threshold criteria 
listed in the solicitation. The testing is expected to conclude in May 
2010 with subsequent contract award in fourth quarter FY 2010. The 
initial fielding will be three to four months after contract award.
    Question. What is your assessment of the mission performance of the 
Soldier worn and vehicle mounted counter sniper devices?
    Answer. Counter Sniper devices are used in theater in three 
different ways: worn by the Soldier, mounted to vehicles and mounted to 
guard towers at Forward Operating Bases and Combat Outposts. Classified 
feedback on vehicle mounted counter sniper devices from commanders 
downrange indicates they are effective in saving Soldier lives. The 
Soldier Wearable Acoustic Targeting Sensor (SWATS) is successful in 
detecting and localizing the direction and distance of small arms fire. 
Soldiers believe SWATS systems are beneficial and have recommended 
several system improvements that are being actively worked. High demand 
for these systems exists in theater due to the success of this emerging 
capability.
    Question. What has been the feedback from soldiers in the field who 
have used counter-sniper devices?
    Answer. The Soldier Wearable Acoustic Targeting Sensor (SWATS) is 
successful in detecting and localizing the direction and distance of 
small arms fire. Soldiers believe SWATS is beneficial, but recommended 
system improvements regarding calibration, elevation solution, 
ergonomics and power. These improvements are being actively worked by 
Program Executive Office (PEO) Soldier. High demand for these devices 
attests to its popularity with Soldiers. Classified feedback from 
Soldiers downrange on vehicle mounted devices has been positive. This 
is an established program within PEO Intelligence, Electronic Warfare 
and Sensors.

                          Prepositioned Stocks

    Question. Five modular Brigade Combat Team (BCT) equipment sets are 
the centerpieces of the Army Prepositioned Stocks (APS) program. These 
sets enable the rapid deployment of CONUS-based soldiers in support of 
future contingency operations. The Army's APS strategy is to have three 
Heavy BCTs stored on land, and two additional Infantry BCTs to be 
aboard ships. However, Army operational requirements (first the Iraq 
Surge and now the Afghanistan surge) have resulted in only one full APS 
on hand (APS-4 in Northeast Asia). It has been reported that during OIF 
and OEF, Army issued War Reserve Secondary Items (WRSI) stocks that it 
had prepositioned both afloat and ashore, and that it is now in the 
process of a holistic review of the WRSI program. What is the current 
level and condition of WRSI stocks? What are the plans to reconstitute 
such stocks and what is the estimated cost to reconstitute?
    Answer. The Army made great progress in reconstituting WRSI stocks 
to meet our APS Strategy 2015. With $1.5B in Overseas Contingency 
Operations funding in Fiscal Years 2008 and 2009, and $102M in base 
program funding, the Army has procured <SUP> cents</SUP>80% of the 
initial supplies and critical sustainment (up to 60 days of supply) 
needed to reconstitute these stocks. The remaining 20%, or about $400M 
in shortfall, involves initial supplies for two APS-5 Southwest Asia 
sustainment brigades and for new equipment such as the Mine Resistant 
Ambush Protected (MRAP) vehicles entering the APS inventory in the 
coming years.
    To reconstitute WRSI, the Army plans to harvest materiel from the 
Iraq drawdown to offset the need for additional funding. Depending on 
how much is able to be obtained thru this means, the Army will submit 
an FY12 OCO Army Working Capital Fund funding request for any required 
supplies and sustainment.
    Question. What is the readiness status of APS-5 and APS-3?
    Answer. Detailed readiness levels are classified but projected 
levels of fill for APS-3 and APS-5 unit equipment sets are as follows:
    (1) APS-3 Afloat Army Strategic Flotilla (ASF) IV Theater Opening/
Port Opening Package (TO/PO) uploaded on the USNS Watson is currently 
enroute to the Pacific area of operations after completing a cargo 
maintenance cycle at Charleston, SC. The TO/PO Package has a 97% 
Equipment On Hand (EOH) level of fill.
    (2) APS-3 Afloat Infantry Brigade Combat Team (IBCT) with motorized 
augmentation set will be uploaded on two Large Medium Speed Roll-on 
Roll-off (LMSR) ships in September and November 2010. It has a 
projected 80% EOH level of fill. The Army plans to increase this level 
of fill prior to upload through available equipment from reset/repaired 
OIF retrograded equipment, depot and new production.
    (3) APS-5 Southwest Asia (SWA) Heavy Brigade Combat Team (HBCT) 
with motorized augmentation set located in Kuwait, which was originally 
planned to be fully operational on 31 Mar 2010, is delayed to Mar 2011 
due to the recent issue of medium and heavy tactical wheeled vehicles, 
Material Handling Equipment, and SINCGARS radios in support of the 
Operation Enduring Freedom (OEF) Expansion. The HBCT currently has an 
87% EOH level of fill which includes all combat vehicles. The motorized 
augmentation set has 83% EOH. The Army plans to fill equipment 
shortages over the next year from reset/repaired Operation Iraqi 
Freedom (OIF) retrograded equipment, depot and new production.
    (4) Temporary SWA Infantry Brigade Combat Team (IBCT) with 
motorized augmentation set located in Kuwait has a 94% EOH level of 
fill. The motorized augmentation set has 99% EOH. Some Medium ` Heavy 
Tactical Wheeled Vehicles, Tractors, Vans and Container Handlers have 
been issued to fill OEF Expansion requirements. The set will become the 
APS-3 Army Strategic Flotilla II IBCT when no longer required ashore in 
the CENTCOM AOR.
    Question. What underlying requirements does the Army use to build 
and rebuild its APS?
    (a) Do these requirements vary by APS?
    (b) Do these requirements reflect recent changes in the Army's 
overall manning/deployment strategy?
    Answer. APS position and composition are primarily driven by the 
Combatant Commander's requirements. As Combatant Commander plans 
evolve, APS composition and disposition is reviewed and adjusted if 
necessary.
    (a) The Army is continuously and holistically reassessing the APS 
strategy to ensure it meets Combatant Commander requirements based on 
the Guidance for the Employment of the Forces and Joint Services 
Capabilities Plan. The APS afloat assets are used to support multiple 
Combatant Commanders requirements and not tied to a single scenario. 
The mixture of mission and enabler capabilities provide Combatant 
Commanders with operational flexibility. APS ground based sets support 
rapid deployment and early entry forces in high threat environments.
    (b) APS has been heavily used in Operations Iraqi Freedom and 
Enduring Freedom and requires Overseas Contingency Operations funding 
for reconstitution. The Army has utilized the equipment and rebuilt the 
APS sets several times. Most recently, equipment from APS supported the 
surge in Iraq and the plus-up in Afghanistan.
    Question. What impact has the Army Prepositioned Stock Strategy 
2015 (established in 2007) had on stock levels? What are the funding 
requirements within the fiscal year 2011 budget to implement this 
strategy?
    Answer. Execution of Army Prepositioned Stocks (APS) Strategy 2015 
has had minimal impact on existing APS stock levels. The strategy 
increased previous force structure by adding an Infantry Battalion set 
in Southwest Asia and motorized augmentation set to selected APS-3 and 
5 sets. Other than that, the changes were not significant enough to 
have a major impact on stockage levels. More significant has been the 
lessons learned from OEF/OIF in stockage determination for secondary 
items, and stock positioning, (taking advantage of the establishment of 
forward DLA depots around the world). Finally, the drawdown in Iraq 
affords us an opportunity to take advantage of stocks purchased to 
support the war, which we can now use to help fill out secondary item 
stockage levels.
    The FY11 budget request (Base OCO) to implement APS Strategy 2015 
totals approximately $2B. This includes Other Procurement Army funding 
of <SUP> cents</SUP>$1.5B and Operations and Maintenance Army funding 
of <SUP> cents</SUP>$545M. This funding will allow us to reconstitute 
that portion of the APS sets established by the 2015 APS Strategy and 
provide for Care of Supplies in Storage for APS-3 and APS-5; funds five 
uploaded APS-3 Large Medium Speed Roll-On Roll-Off (LMSR) and container 
ships; and returns three LMSR ships from reduced operating to full 
operating status.
    Question. A significant number of Mine Resistant Ambush Protected 
(MRAP) vehicles, currently being used in OIF and OEF, will be repaired 
(reset) and made part of prepositioned equipment upon the conclusion of 
hostilities in Iraq and/or Afghanistan. What is the current plan for 
the disposition of MRAP vehicles upon conclusion of the war(s)?
    Answer. The Army has developed a pre-decisional allocation plan for 
MRAPs as they return from theater. This plan was briefed to Army senior 
leaders and is undergoing revision based on guidance to conduct a 
detailed cost benefit analysis. The results will be presented to Army 
senior leaders the end of March 2010.
    The exact numbers are yet to be determined, but some MRAPs and M-
ATVs will be placed in the force structure allocated to Task Organized 
sets and into units to fill existing capability gaps. Additionally, 
other MRAPs will become part of a robust training fleet allowing 
Soldiers to maintain proficiency on the system.
    Question. If MRAP vehicles are to be placed into war reserve/
prepositioned stocks and equipment, in what numbers and where?
    Answer. The Army developed an allocation plan for MRAPs. MRAPs 
currently used in Operation Iraqi Freedom and Operation Enduring 
Freedom will be repaired (reset) and made part of the prepositioned 
stocks program when no longer required in Iraq or Afghanistan.
    The allocation plan projects tasked organized MRAP sets (Infantry 
Brigade Combat Teams, Heavy Brigade Combat Teams, Stryker Brigade 
Combat Teams and enablers) will be placed into the prepositioned stocks 
program. The Army is analyzing positioning options to support Combatant 
Commanders. The remaining MRAP sets will be located in the Continental 
United States (CONUS) at the Army Strategic Logistics Activity and 
Sierra Army Depot.
    Questions. What will be the disposition of non-standard items of 
equipment upon conclusion of the wars?
    (a) What, if any, is expected to be declared excess to the needs of 
the Service?
    (b) What, if any, will be retained by the Service(s) and how will 
it be utilized?
    Answer. Non-Standard Equipment (NS-E) has been divided into two 
categories: Retained and Not-to-be-Retained.
    Retained NS-E: HQDA has identified selected NS-E items that are to 
be retained and stored as part of Pre-positioned Stocks in Southwest 
Asia or returned to Sierra Army Depot for potential future contingency 
use, once the NS-E is no longer required in Iraq or Afghanistan. 
Retained NS-E accounts for approximately 95% of the dollar value of all 
NS-E in Iraq.
    Not-to-be-Retained NS-E: A listing of NS-E items, excess to theater 
requirements and not being retained for future use, is provided to the 
National Association of State Agencies for Surplus Property (NASASP) 
for vetting with the state and local governments. If no U.S requirement 
exists, then Not-to-be-Retained NS-E items are available for potential 
transfer to coalition partners (Iraq, Afghanistan or Pakistan). 
Examples include: office and exercise equipment; non-tactical vehicles; 
air conditioners; commercial generators; televisions and commercial 
tentage.
    (a) The listing of NS-E items has been provided to the NASASP for 
vetting with State and local governments, includes 133K individual 
items valued at $400M. Examples of potential equipment include: 
exercise equipment; computers and monitors; office furniture; air 
conditioners; select non-tactical vehicles (utility trucks, water 
trucks, fuel trucks, cargo vans); commercial tentage; television 
monitors and screens; public address systems; and experimental items 
deemed unsuited for future use. It is important to note that some NS-E 
does not meet U.S. specifications and therefore would require 
modification (in some cases costing more than the item is worth). Most 
of the equipment has been in theater for a number of years and is now 
beyond its expected useful life.
    (b) HQDA has identified selected NS-E items that will be retained 
and stored either OCONUS or CONUS in Army Pre-positioned Stocks or at a 
supply depot such as Sierra Army Depot. This equipment will be used in 
future contingencies, or in the case of commercial equipment, will be 
issued to installations to fulfill current requirements. The current 
retained NS-E list consists of over 183K individual items valued at 
$8.1B. Equipment examples include: Mine Resistant Ambush Protected 
(MRAP) vehicles; convoy protection devices (Rhino); entry control point 
X-Ray and surveillance equipment; optical surveillance and targeting 
systems (Ghost); container handling equipment and cranes; specialized 
night vision devices; optical sights and rangefinders; and commercial 
construction equipment/forklifts that comply with U.S. specifications.

                        Balanced Training Focus

    Question. The Secretary of Defense has stated publically that the 
United States should not seek to eliminate national security risks 
through larger defense budgets that attempt to do everything and buy 
everything. He has said that the Department of Defense must set 
priorities and consider tradeoffs and opportunity costs. Such a 
rebalancing is necessary so that the Army can successfully conduct 
counter insurgency operations in addition to preparing for other 
potential future contingencies. However, the fiscal year 2011 defense 
budget request for operation and maintenance does not seem to reflect 
priorities or tradeoffs. Mr. Secretary, please describe the balance 
that the Army has, or has not been able to achieve between training for 
counter-insurgency operations and future potential full spectrum 
training.
    Answer. The Army is in the third year of a four-year effort to 
restore balance. We are making steady progress toward achieving our 
goals for deployment frequency. Our interim goal for Active Component 
(AC) forces in FY12 is a 1:2 ratio of time deployed to time at home 
station. Our interim goal for Reserve Component (RC) forces in FY12 is 
a 1:4 ratio of time mobilized to time not mobilized. Our force planning 
assessments indicate about 70% of AC forces and about 80% of RC forces 
will be able to achieve these goals by the end of FY11. Units achieving 
goals for deployment frequency will conduct Full Spectrum Operations 
training on multiple assigned mission environments.
    Another measure of Army balance between training for counter-
insurgency operations and training for future Full Spectrum Operations 
is the scenario used for training during the Combat Training Center 
rotations. At some point, not all units produced by the Army's force 
generation process will be required to deploy. Non-deploying units will 
not be required to execute a mission rehearsal exercise at the Army's 
maneuver Combat Training Centers (CTCs), rather they will execute a 
training rotation designed for Full Spectrum Operations in a generic 
contemporary operational environment. In FY11 the Army plans to conduct 
2-3 such maneuver rotations.
    Question. Please discuss dwell time and the operation and 
maintenance-budget as factors that limit full spectrum training and 
equipment readiness.
    Answer. The Army is in the third year of a four-year effort to 
restore balance. We are making solid progress toward achieving in our 
interim goals for deployment frequency. Our interim goal in FY12 for 
Active Component forces is a 1:2 ratio of time deployed to time at home 
station. Our interim goal for Reserve Component forces is a 1:4 ratio 
of time mobilized to time not mobilized. Our force planning assessments 
indicate about 70% of AC forces and about 80% of RC forces will be able 
to achieve these goals before FY12. Units achieving goals for 
deployment frequency will be able to conduct Full Spectrum Operations 
training.
    Regardless of available training time before the next deployment, 
units prepare to conduct Full Spectrum Operations (some mix of offense, 
defense, and stability operations) for a contemporary operational 
environment (in complex conditions and against regular and irregular 
forces, including criminal elements). With limited training time, 
however, deploying forces focus primarily on their next assigned 
mission environment. Units achieving goals for deployment frequency 
will conduct Full Spectrum Operations training on multiple mission 
environments.
    Between Army base and Overseas Contingency Operations (OCO) 
funding, the Army has sufficiently resourced units deploying to 
theater. However, the Army has relied on OCO funding to fully prepare 
deploying forces for operations in Iraq and Afghanistan. As the demand 
for forces diminishes, Army base funding must support the preparation 
of forces for other operational environments. In the future, Army units 
will simultaneously conduct some mix of offense, defense, and stability 
operations against a variety of threats (conventional, irregular, 
criminal, etc.) under complex conditions.

                     Undefinitized Contract Actions

    Question. To meet urgent needs, the Department of Defense can 
authorize contractors to begin work and incur costs before reaching a 
final agreement on the contract terms and conditions--known as 
undefinitized contract actions (UCAs), or letter contracts. As of 
October 2009, the Department of Defense had 429 contracts that were 
undefinitized. This type of contracting is not in the best interests of 
the taxpayer since the contractors lack incentives to control costs 
while the contract is being definitized. How are undefinitized 
contracts different from normal contracts?
    Answer. With a normal contract, the terms, specifications and price 
are agreed upon or negotiated by both parties (definitized) prior to 
performance. With an undefinitized contract, the terms, specifications, 
or price have not been agreed upon. Rather the contract action provides 
for agreement within 180 days after the UCA is issued. This may be 
extended to 180 days after the contractor submits a qualifying 
proposal, or the date on which the amount of funds obligated under the 
contractual action is equal to more than 50 percent of the negotiated 
ceiling price for the contract action.
    Question. Mr. Secretary, do you think the Army overuses 
undefinitized contract actions (UCAs)?
    Answer. No, we only use UCAs when the negotiation of a definitive 
contract action is not possible in sufficient time to meet the 
Government's requirements or the Government's interest demands that the 
contractor be given a binding commitment so that contract performance 
can begin immediately.
    Question. In your experience, does the benefit of starting work 
sooner outweigh the loss of control experienced in a UCA?
    Answer. Yes, starting the work sooner allows the Government to 
obtain crucial supplies or services quicker. The UCA requires more 
oversight and includes measures to minimize the loss of control.
    Question. As of September 2009, the Army had 30 overdue 
definitizations, which is about 34 percent of all the Army's UCAs. What 
is the Army doing to rein in overdue undefinitized contract actions?
    Answer. In order to rein in overdue undefinitized contract actions, 
the Office of the Secretary of Defense has set in place two reporting 
requirements, a Consolidated UCA Management Plan and a Consolidated UCA 
Management Report, identifying UCAs with a value exceeding $5 million. 
These reports are due on October 31 and April 30 of each year. We use 
these to monitor progress toward definitization.
    Question. Does a shortage of contracting officers within the Army 
impact the Army's ability to definitize contracts?
    Answer. Yes, the shortage of contracting personnel impacts almost 
every facet of contracting. We are working to rebuild the workforce so 
that we can better meet mission requirements and return to past levels 
of efficiency and effectiveness. Hiring new contracting personnel is 
half the battle; bringing them to a level of capability to credibly 
perform in a complex spectrum of contracting situations takes 
approximately five years.
    Question. What actions are you taking to reduce the Army's reliance 
on undefinitized contract actions?
    Answer. The Army has taken the following actions in reducing 
reliance on undefinitized contract actions (UCA):
    <bullet> Increased emphasis in using advance acquisition planning 
to minimize the need for UCAs.
    <bullet> Mandatory UCA Management Report submission for each UCA 
exceeding $5 million.
    <bullet> Semi-annual UCA Management Reports addressing each UCA 
with an estimated value exceeding $5 million.
    <bullet> Record copies of weighted guidelines for each definitized 
UCA with a value of $100 million or more.
    <bullet> Contracting Activity Department Chief required approval of 
all UCAs under $5 million.
    However, it's important to keep in mind that in truly urgent 
situations, UCAs provide a necessary tool to address critical 
warfighter needs.

                  Explosive Ordnance Disposal Training

    Question. The movie ``Hurt Locker'' won an Oscar for Best Motion 
Picture. This movie depicts the life of an Army Explosive Ordnance 
Disposal (EOD) team serving in Iraq. All individuals trained to be EOD 
technicians are trained at the Navy's Explosive Ordnance Disposal 
School at Eglin Air Force Base in Florida. The Navy manages the school, 
and all the Services provide instructors. Since 1999, the school has 
grown from an annual student requirement of 634 to over 1,700 students 
in 2009. While the school is a great asset to our nation, there are 
some areas of concern. Last year, some services did not fully utilize 
their authorizations. The Army only provided 692 students even though 
they were authorized 1,004. Additionally, the failure or dropout rate 
was 40 percent for the Army.
    What is the Army's plan to fill all authorized seats?
    Answer. In FY09, the Army filled 708 of 1075 Phase II (Naval EOD) 
school allocated seats for a 66% fill rate. Our analysis showed that 
the lower fill rate for FY09 was caused by a combination of shortfalls 
in recruitment (September 2008 through December 2009) and 30% attrition 
rates (789 grads of 1128 student seat fills) from the Phase I (Army 
EOD) prep course. The recruitment shortfall was caused by adding a 
significant number of training seats (573 above the original program of 
502) to the Army Program for Individual Training at mid-year 2008 to 
meet urgent force structure demands. High attrition rates at the Phase 
I (Army EOD) prep course were due primarily to academics. By the end of 
FY09, seat fill rates improved to 89%. Reductions in attrition are 
being addressed by a U.S. Army Training and Doctrine Command special 
focus team.
    In FY10, there is no particular issue at this time limiting the 
Army's ability to fill seats at the Phase II (Navy EOD) Basic Course. 
The fill rate is at 97% and projected to remain close to that for the 
rest of the year. Although the fill rates have improved, the next step 
is to reduce course attrition.
    Question. What is the Army doing to increase the graduation rate?
    Answer. Headquarters, Department of the Army G-3/5/7 in 
coordination with the U.S. Army Training and Doctrine Command has 
assembled a special focus team to develop a strategy to address: (1) 
learning improvements (2) physical training improvements (3) 
integration of Army Center for Enhanced Performance instruction, and 
(4) modifying the Army's EOD nine-week preparatory course to better 
prepare students for the EOD Basic Course at the Navy School Explosive 
Ordnance Disposal.
    Question. The Marine Corps sends senior enlisted or officers to the 
course. Should the Army consider this plan?
    Answer. In-service recruits (who tend to be mostly Non-Commissioned 
Officers) have a better academic and administrative record for 
graduation. The Army is institutionalizing a ``proof of concept'' in-
service recruitment program for the EOD School. An Army team will 
conduct an on-site visit to Eglin Air Force Base 5-9 April 2010 to 
discuss the implementation of these changes. The team will be led by 
Lieutenant General Mark Hertling, Deputy Commanding General for Initial 
Military Training, U.S. Army Training and Doctrine Command and included 
representatives from the Army's Recruiting Command; Headquarters, 
Department of the Army, Deputy Chief of Staff G-3/5/7; and the Ordnance 
Munitions and Electronic Maintenance School. The Army is also vetting a 
mitigation strategy with the dual goals of keeping school throughput 
high by filling available seats and lowering overall attrition of 
qualified candidates.

                             Army Suicides

    Question. The number of soldier suicides has increased annually 
since 2004. In 2009 alone, there were 160 reported active duty Army 
suicides. In addition, there were 78 reported suicides among reserve 
component soldiers not on active duty. While the official statistics 
for 2009 are still awaiting confirmation, it is clearly evident that 
this reflects a disturbing upward trend. For comparison, in 2008 there 
were 140 active duty suicides and 57 reserve component suicides. In 
2007, there were 115 active duty suicides, and in 2006 there were 102 
active duty suicides.
    The new figure of 160 reported active duty Army suicides is the 
highest since record keeping began in 1980. In response to the rise in 
suicides, in December 2009, the Army mandated that all personnel 
receive suicide prevention and awareness training/counseling before 
departure and upon return from in-theater leave.
    However, so far this year the Army has reported 26 suicides among 
active duty soldiers and 20 suicides among reserve component soldiers 
not on active duty. The official numbers are yet to be verified. 
General Casey, are there certain bases that experience a greater number 
of suicides than others? If so, which bases?
    (a) Are these bases seeing a higher average deployment rate 
compared to the Army overall?
    (b) Do you think that repeated lengthy combat tours combined with 
limited dwell time at home station are major factors contributing to 
the increase in the rate of suicides?
    Answer. As of 1 March 2010 the three installations with the highest 
number of suicides (pending and/or confirmed) are: Fort Hood (6 home 
station), Fort Lewis (3 home station, 1 deployed), and Fort Carson (3 
home station, 1 deployed). For 2009 the three highest were: Fort 
Campbell (20 home station, 1 deployed), Fort Stewart (10 home station, 
1 deployed), and Fort Hood (8 home station, 3 deployed).
    All of these bases host large concentrations of rotational forces 
including combat and support units, as well as and large total 
populations overall. These bases in particular have high concentrations 
of brigade combat teams and associated enablers that have in fact been 
affected by a high operational tempo. They also host large 
concentrations of junior enlisted combat arms Soldiers, which presently 
are our most vulnerable population.
    In comparison however, we also have other bases with similar 
population demographics that did not experience the extremes in suicide 
rates for 2009 such as Fort Bragg (5 home station, 1 deployed). These 
bases also host large numbers of rotational units and experienced 
similar OPTEMPO, yet have lower total incidences of suicide.
    It is difficult to directly and unequivocally prove the effect of 
OPTEMPO on suicide in the ranks. Even without scientific investigation, 
however, OPTEMPO clearly influences some of the leading correlated 
factors such as relationship difficulties, substance abuse, medical and 
behavioral health challenges and total stress on the force. We have 
partnered with the National Institute for Mental Health to conduct a 5-
year Army STARRS research initiative. This study will attempt to 
provide a more concrete basis to show what if any causal relationship 
exists between the different variables leading to suicide, including 
deployment history and OPTEMPO.
    Question. What resources are included in the fiscal year 2011 
budget request to deal with this dilemma and how will they be used? 
Does the Army need any additional funding to help prevent suicides?
    Answer. The Army has reprioritized within our current programs to 
ensure resources are available to support suicide prevention. In FY11, 
the Army is providing $42.9M for suicide prevention programs. These 
programs include training and education for Soldiers, leaders and 
healthcare providers. The Army will expand its Strong Bonds program to 
support family communication, invest in data management programs to 
better identify risk trends and increase the transparency of 
information. We will also add program managers and psychological 
directors to assist garrison commanders and regional commanders in 
developing and executing a comprehensive health promotion, risk 
reduction and suicide prevention programs.
    In addition, the Army has requested $42.5M in FY11 to build 
resilience in Soldiers. The Army's Comprehensive Soldier Fitness 
program is designed to equip and train our Soldiers, Family members and 
Army Civilians to maximize their potential and face the physical and 
psychological challenges of sustained operations. Lastly, the Army is 
planning on spending $1.7B in FY11 to support other family programs.
    Question. Of the 26 reported active duty suicides so far this year, 
how many of these suicides occurred while in theater and how many 
occurred at home installations? How many of those soldiers served in 
Iraq and Afghanistan and how many served multiple tours?
    Answer. As of 28 February 2010 there were 26 reported suicides. Of 
the 26, 6 occurred in theater: 3 in Operation Enduring Freedom (OEF), 
and 3 in Operation Iraqi Freedom (OIF). The remaining 20 suicides 
occurred at home installations. Of the 26 total, 19 Soldiers (73%) had 
deployed at least once to either OEF or OIF. Of the 19 who had 
deployed, only 1 Soldier had multiple deployments. For reference, 
approximately 70% of the total Active Component Army has deployed at 
least one time.
    Question. Please explain what Mental Health (MH); and Army Suicide 
Prevention Program (ASPP) services are available to Soldiers before 
deploying, while in Theater, and upon return from Theater?
    Answer. The Army requires all Soldiers to fill out the Pre-
Deployment Health Assessment 30 days before deploying. This process 
includes questions regarding the Soldier's behavioral health status. 
Soldiers can be referred to behavioral health for additional screening 
or treatment when warranted. Additionally, unit suicide prevention and 
awareness training is conducted prior to and upon return from rest & 
recuperation leave (R&R).
    During deployment, many units have organic or attached behavioral 
health teams available for outreach, training and treatment. These 
teams typically consist of a behavioral health provider (psychologist 
or social worker) and an enlisted behavioral health technician. 
Recently, the Army began pilot projects to expand tele-behavioral 
health capability within theater. These projects extend professional 
behavioral health assessment and counseling services into smaller 
operating bases so Soldiers do not have to be evacuated for routine 
behavioral health counseling and treatment.
    Prior to leaving Theater, all personnel submit a Post Deployment 
Health Assessment and are screened for referral (as necessary) upon 
their return to home station or de-mobilization. Soldiers are further 
required to submit a Post Deployment Health-Reassessment within 180 
days of their return from Theater for follow-up and identification of 
issues. The Army has also begun a pilot tele-behavioral health 
screening test to ensure all returning Soldiers receive ``person to 
person'' screening upon returning home.
    Question. The Army and National Institute of Mental Health signed 
an agreement in October 2008 to conduct long-term research to identify 
factors impacting the mental and behavioral health of Soldiers and to 
share intervention and mitigation strategies that will help decrease 
suicides. During this study, which is expected to last five years, what 
aspects of soldier life will be examined? What recommendations from the 
study have you received at this point, and what is the Army doing to 
implement?
    Answer. The Army Study to Assess Risk and Resilience in Service 
Members (Army STARRS or the Study) is a five-year study that is being 
conducted via a cooperative agreement grant award from the National 
Institute of Mental Health. The grant was awarded in July, 2009, to a 
consortium consisting of the Uniformed Services University of the 
Health Sciences, Columbia University, the University of Michigan and 
Harvard University. As a cooperative agreement, the research is being 
carried out by the grantees as well as NIMH scientists; Army scientists 
are also participating in scientific coordination and review.
    The purpose of Army STARRS is to identify, as rapidly as 
scientifically possible, modifiable risk and protective factors 
associated with suicidal behavior and psychological health. This will 
help inform the Army's ongoing efforts to prevent suicide and improve 
Soldiers' overall psychological health and functioning. To do this, 
investigators will conduct an epidemiologic study of mental health, 
psychological resilience, suicide risk, suicide-related behaviors and 
suicide deaths in the Army. The Study will evaluate representative 
samples of Soldiers across all phases of Army service, both 
retrospectively and prospectively.
    Army STARRS is designed to focus comprehensively on all aspects of 
Soldier life that may be associated with suicide risk and psychological 
health. To do this, the Study will use three types of information: 
administrative data from Army and Department of Defense (DoD) sources, 
including personnel and health records; interview data collected from 
Soldiers directly; and biological data from Soldiers, (e.g., via saliva 
and/or blood specimens, for genetic and neurobiological analyses). The 
Study will examine a number of areas, such as exposure to adverse 
events, attitudes, social support, leadership and unit climate, 
training and knowledge, employment and economic status, family history 
and health/health care use.
    It should be noted that while suicidal behavior occurs at a 
specific point in time, the Study views risk and resilience as 
developing over time. Therefore, it will examine Soldiers' 
characteristics and experiences over time. This will provide 
significant longitudinal information relating Soldiers' characteristics 
and experiences to subsequent psychological health, suicidal behavior 
and other relevant outcomes. Over the 5-year course of the Study, data 
from approximately 400,000 Soldiers will be collected, making Army 
STARRS the largest study of mental health and suicide ever undertaken, 
whether in military or civilian populations.
    From a scientific perspective, it is too early for there to be 
substantive findings Army STARRS began receiving historical information 
from Army sources in January 2010, following a detailed process of 
identifying relevant data sources, entering into a Data Use Agreement 
with the Army and demonstrating compliance with the Army's Information 
Assurance protocol. Parallel Data Use Agreements with applicable DoD 
data sources are in process. The Study is scheduled to begin new data 
collection from current Soldiers and new recruits over the next six 
months.
    Army STARRS will report progress and findings to the Army on a 
quarterly basis, as well as on an ad hoc basis as new findings arise. 
In the coming year, the Study is scheduled to deliver initial findings 
on risk and protective factors for suicide and related outcomes, based 
on analyses of historical data; as well as detailed new information on 
the characteristics, exposures and experiences of current Soldiers and 
new recruits, with particular focus on known risk factors for suicide. 
In subsequent years, the Study will follow Soldiers over time, identify 
those who have particular negative (or positive) outcomes, and deliver 
practical, actionable information on risk and protective factors for 
suicide.
    In the interim and at the request of the Army, NIMH has provided a 
report on civilian ``best practices'' regarding suicide prevention and 
behavioral health care. NIMH and the Army are also working together to 
identify where relevant interventions could be implemented.

                    Temporary End-Strength Increase

    Question. The Army is requesting funding to support a temporary 
increase of 22,000 active Army soldiers for fiscal year 2010 and fiscal 
year 2011, increasing the active duty Army end-strength from a base of 
547,400 to 569,400. The fiscal year 2011 budget request assumes this 
growth will be 15,000 in fiscal year 2010 and 7,000 in fiscal year 
2011. The Army is on track to meets its accession goal of 15,000 this 
year, and a decision will soon be made as to whether the additional 
7,000 troops are necessary. End strength is due to start ramping down 
in March 2012 and be completed in September 2013. Of the 22,000, about 
1,000 will be reenacted retired officers and 21,000 will be new 
recruits.
    The Army has limited means to make quick changes to end-strength. 
Its four ``levers'' to affect end-strength are changing the number of 
recruits, reenlistments, promotions, or moves. When will the Army reach 
its goal of 15,000 additional new soldiers in 2010?
    Answer. The Army expects to reach its additional 15,000 goal not 
later than September 2010 and potentially as early as June 2010.
    Question. At what point will a decision be made as to whether the 
additional 7,000 troops are necessary?
    Answer. Within the next several months, a determination will be 
made regarding the additional 7,000 Soldiers.
    Question. What is the affect of the temporary end-strength increase 
on soldier dwell time?
    Answer. Despite the short term impact of the recent surge of troops 
to Afghanistan, we continue to make progress toward our goal of keeping 
the ratio of Boots on Ground (BOG) time to Dwell time at 1:2 for the 
active force and 1:4 for the reserve component.
    Eventually increased dwell time will be achieved by lowering the 
demand on our forces. This will ease the constant pressures on our 
forces as we move into the rotational cycle of the Army Forces 
Generation (ARFORGEN) model.
    The Army Senior Leadership remains committed to meet these 
deployment goals while eliminating Stop Loss, and without any increase 
in tour length for our Soldiers.
    Question. What is the proposed plan to reduce the total end-
strength back to 547,400 in the next few years?
    Answer. Regardless of whether the temporary end-strength increase 
is 15,000 or 22,000 Soldiers, the plan is a draw-down over an 18 month 
period with the goal of being at the ``pre-increase'' end-strength 
level of 547,400 Soldiers by the end of FY13.
    Question. Given normal retirement and reenlistment rates, how many 
active Army personnel can it expect to retire or separate in fiscal 
year 2013 under normal circumstances?
    (a) Will this be enough to handle the temporary end-strength ramp 
down or will additional measures be needed?
    (b) Is the Army changing its assumptions regarding estimated 
retirement and reenlistment rates due to poor economic conditions?
    Answer. The Army expects approximately 73,000 personnel to retire 
or separate in FY13.
    (a) In the absence of yet to be approved modifications to personnel 
management policies and/or modifications to the FY13 accession mission, 
our forecasted losses will not be sufficient to meet the temporary end-
strength ramp down. However, analysis and recommendations regarding 
force shaping strategies to draw-down from either 15K or 22K Soldiers 
have been developed. After a CSA decision on whether to continue the 
final 7K growth during FY11, the Army will develop an implementation 
plan to execute the appropriate force shaping strategies.
    (b) We forecast retirement and other loss rates by applying time 
series techniques to historical data to derive loss rates by type, 
grade, months of service, gender, term and projection month. These 
rates are subsequently applied at this level of detail within the 
Active Army Strength Forecaster (A2SF) suite of models to forecast 
losses. This technique has been accurate to within 0.5%. By using time 
series analysis, we are assuming that emerging trends can be derived 
from historical behavior. We do not currently use econometric modeling.
    Question. How does the Army decide which of the staff reduction 
``levers'' to pull if it needs to reduce staff?
    (a) When will it start making those decisions?
    Answer. The Army reduces its force based on requirements. The size 
of the requirement, along with the timeline, determines which reduction 
levers or methods will be implemented. These methods can include 
natural attrition in conjunction with a reduction in recruiting and 
retention missions, voluntary incentives, involuntary actions or a 
combination. A determination will be made regarding which reduction 
levers should be implemented at the same time the Army decides whether 
the additional 7,000 Soldiers are required.
    Question. How might the steep ramp down due to the temporary end-
strength affect morale?
    Answer. We are expecting that the ramp down will have little or no 
effect on the total force. However, there is expected to be a morale 
impact at the individual level; this type of individual impact happens 
when the Army determines that an individual's continued service in the 
Army is not in the Army's best interest. The Army has support programs 
to assist these individuals as they transition from military life to 
civilian life.

                    Enlistment and Retention Bonuses

    Question. The military services offer a variety of enlistment and 
reenlistment bonuses to attract new recruits into military specialties 
that are considered ``hard to fill,'' as well as to encourage 
experienced military members in ``shortage jobs'' to stay in past their 
first enlistment period. The Army has more enlistment incentives than 
any of the other military services. Programs include Enlistment, 
Overseas Extension, and Reenlistment bonuses. Bonus levels are in 
constant flux. What was the total funding for Army recruiting and 
retention bonuses for fiscal year 2010 and what is the total budget for 
fiscal year 2011?
    Answer. The total funding for Army recruiting and retention bonuses 
was just under $1.7B for FY10 and just over $1.7B for FY11. The table 
below displays the FY10 enacted and the FY11 request for the Active and 
Reserve Components by Enlistment Bonus, which includes new and 
anniversary payments, and Reenlistment Bonus, which includes Selective 
Reenlistment Bonus (SRB) and Critical Skills Retention Bonus (CSRB).

------------------------------------------------------------------------
                        SM                           FY 2010    FY 2011
------------------------------------------------------------------------
Enlistment Bonus--AC..............................       $445       $465
Reenlistment Bonus--AC............................       $434       $457
                                                   ---------------------
    Total--AC.....................................       $879       $922
Enlistment Bonus--USAR............................       $250       $177
Reenlistment Bonus--USAR..........................        $65       $116
                                                   ---------------------
    Total--AR.....................................       $315       $293
Enlistment Bonus--NGB.............................       $244       $251
Reenlistment Bonus--NGB...........................       $239       $239
                                                   ---------------------
    Total--NG.....................................       $483       $490
        Total.....................................     $1,677     $1,705
------------------------------------------------------------------------

    Question. What is the range of individual bonuses for recruiting?
    (a) For retention? Please indicate why there are differences.
    Answer. Recruiting bonuses for critical skills range from as low as 
$1,000 to as high as $20,000. Currently, only 34 of the Army's 160 
skills have a cash bonus incentive. Recruiting new Soldiers in a 
particular skill will determine the type of bonus they receive. Skills 
such as Explosive Ordnance Disposal and Signal Intelligence are 
difficult to recruit given the danger element or the difficulty in 
qualifying for the skill.
    Retention bonuses for critical skills range from $40,000 to as high 
as $150,000. Currently, only 15 of the Army's nearly 200 skills have a 
critical skills retention bonus (CSRB) incentive. CSRB is extremely 
effective and is the primary resource tool used to retain skills 
identified as critical to combat readiness. The 15 critical skills are 
defined as such because they may require long training periods, are low 
density, high demand and a challenge to recruit.
    Question. Have you found any imbalances or inequities in your 
recruiting and retention bonus structure that have been improved for 
fiscal year 2011?
    Answer. The Army continually monitors bonuses to recruit the proper 
mix of critical skills and to maintain an even flow of recruits to the 
training base. Since the Army recruits new Soldiers in the entry skill 
level, but retains them in higher skill levels, applicable bonuses may 
differ. The Army has maintained balance and equitability consistent 
with mission requirements. Quarterly, the Army reviews skill level 
retention strength by grade to determine appropriate bonus amounts and 
makes adjustments as needed.
    Question. At a time when the Army is having unprecedented success 
at retaining its soldiers, has the Army reviewed its recruiting and 
retention bonus program?
    Answer. Yes, the Active Army conducts quarterly incentives review 
boards to determine if bonuses are needed and if existing incentives 
programs should be reduced, eliminated or adjusted. The Army has 
reduced all bonuses since 2008 and will continue to do so as long as 
recruiting and retention objectives are attained in the proper mix of 
critical skills. Bonuses for many skills have been fully eliminated, 
allowing the Army to target only the most critical skills.
    Question. Is there any concern that enlistment and re-enlistment 
bonuses are now viewed by soldiers as an entitlement instead of a 
bonus?
    Answer. Such concerns existed during the peak bonus periods from 
2007 through 2008. Since then, the Army has reduced bonuses 
dramatically and the perception of bonuses as an entitlement has 
greatly diminished. As bonus levels stabilize and are targeted to only 
the most critical skills, the expectation that a bonus as an 
entitlement is fading away.

                          Surge in Afghanistan

    Question. Last December, the Administration announced that it will 
send an additional 30,000 personnel to Afghanistan. Of the 30,000 
service members being sent to Afghanistan, how many are Army soldiers?
    Answer. The Army will support the additional force requirements 
with approximately 21,000 soldiers.
    Question. Of the soldiers being sent, how many will be on their 1st 
deployment and how many will be on their 2nd or more tour?
    Answer. About 50% of the soldiers we send down range are on their 
first deployment. The remaining 50% have deployed at least once. This 
is consistent with other units that the Army is deploying today in Iraq 
and Afghanistan.
    Question. Are soldiers deploying to Afghanistan training with the 
same equipment they will use when deployed?
    (a) If not, what compromises are necessary in your training 
programs?
    (b) Please provide some specific examples.
    Answer. Soldiers deploying to Afghanistan have an opportunity to 
train on almost all equipment they will use when deployed. However, 
there are some training equipment shortfalls which includes: Blue Force 
Tracker, Tactical Satellite and Mine Resistant Ambush Protected (MRAP) 
vehicles.
    Blue Force Tracker: Units normally train on how to use the Blue 
Force Tracker prior to deploying to Afghanistan. However, a limited 
number of Blue Force Trackers causes us to conduct this training in a 
classroom environment, without practical exercises. This problem is 
mitigated by the vast combat experience of the force.
    Tactical Satellite: This capability exists in Pre-Deployment 
Training Equipment sets at the battalion level but not at the company 
level as deployed in theater. We are working through Army G8 to get 
these terminals in Pre-Deployment Training Equipment sets at the 
company level in order to meet the requirement of units deployed in 
theater.
    Mine Resistant Ambush Protected (MRAP): The Army has 477 of 755 
Mine Resistant Ambush Protected (MRAP) vehicles required for pre-
deployment training and by 1 June will have 120 of 306 MRAP All Terrain 
Vehicles (MATV) required for pre- deployment training. The Army has 
positioned these assets at key locations such as Combat Training 
Centers and Mobilization Stations to ensure all deploying Soldiers get 
the necessary training. We augment this hands-on training with well 
developed Training simulators.

    [Clerk's note.--End of questions submitted by Mr. Dicks.]


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Assad, Shay......................................................   113
Casey, General G. W..............................................   293
Conway, General J. T.............................................     1
Fullhart, Major General R. D.....................................   215
Johns, General R. E., Jr.........................................   215
Mabus, Secretary Ray.............................................     1
McHugh, J. M.....................................................   293
McNabb, General D. J.............................................   215
Parsons, Jeffrey.................................................   113
Roughead, Admiral Gary...........................................     1
Solis, W. M......................................................   113

                                  <all>

</pre></body></html>
